<html>
<title> - NOMINATIONS TO THE U.S. DEPARTMENT OF COMMERCE AND THE FEDERAL TRADE COMMISSION</title>
<body><pre>[Senate Hearing 112-469]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-469
 
                           NOMINATIONS TO THE
                      U.S. DEPARTMENT OF COMMERCE
                    AND THE FEDERAL TRADE COMMISSION

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION




                  U.S. GOVERNMENT PRINTING OFFICE
74-999                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 15, 2011................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Lautenberg..................................     2
Statement of Senator Hutchison...................................     4
Statement of Senator Boxer.......................................     5
Statement of Senator Pryor.......................................    62
Statement of Senator McCaskill...................................    64
Statement of Senator Klobuchar...................................    66
Statement of Senator Ayotte......................................    68
Statement of Senator Boozman.....................................    71

                               Witnesses

Hon. Herb Kohl, U.S. Senator from Wisconsin......................     3
Hon. Jon D. Leibowitz, Nomination to be Commissioner and 
  Chairman, Federal Trade Commission.............................     6
    Prepared statement...........................................     8
    Biographical information.....................................     9
Dr. Rebecca M. Blank, Nomination to be Deputy Secretary, U.S. 
  Department of Commerce.........................................    25
    Prepared statement...........................................    26
    Biographical information.....................................    28
Maureen K. Ohlhausen, Nomination to be Commissioner, Federal 
  Trade Commission...............................................    47
    Prepared statement...........................................    49
    Biographical information.....................................    50

                                Appendix

Response to written questions submitted to Hon. Jon D. Leibowitz 
  by:
    Hon. John D. Rockefeller IV..................................    79
    Hon. Barbara Boxer...........................................    81
    Hon. Maria Cantwell..........................................    82
    Hon. Frank R. Lautenberg.....................................    87
    Hon. Mark Pryor..............................................    87
    Hon. Claire McCaskill........................................    88
    Hon. Tom Udall...............................................    90
    Hon. Mark Warner.............................................    91
    Hon. Mark Begich.............................................    94
    Hon. John Thune..............................................    94
    Hon. Roger F. Wicker.........................................    95
    Hon. John Boozman............................................    97
    Hon. Patrick J. Toomey.......................................    98
    Hon. Kelly Ayotte............................................   107
Response to written questions submitted to Dr. Rebecca M. Blank 
  by:
    Hon. John D. Rockefeller IV..................................   109
    Hon. Maria Cantwell..........................................   110
    Hon. Mark Pryor..............................................   111
    Hon. Mark Warner.............................................   112
    Hon. Mark Begich.............................................   115
    Hon. Olympia J. Snowe........................................   117
Response to written questions submitted to Maureen K. Ohlhausen 
  by:
    Hon. John D Rockefeller IV...................................   119
    Hon. Bill Nelson.............................................   120
    Hon. Maria Cantwell..........................................   121
    Hon. Mark Warner.............................................   123
    Hon. Mark Begich.............................................   124
    Hon. Roger F. Wicker.........................................   125
    Hon. John Boozman............................................   127


                           NOMINATIONS TO THE



                      U.S. DEPARTMENT OF COMMERCE



                    AND THE FEDERAL TRADE COMMISSION

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:29 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. The hearing will come to order, please.
    I want to welcome and to congratulate the three nominees 
who are appearing before the Commerce Committee today.
    And you, too, Senator Kohl. You're already in the Senate, 
so I assume we don't have to approve you, but you're here and 
we welcome you. I value your commitment to public service, and 
I always say this because I mean it, given what people think 
about public service these days and politics these days doesn't 
in any way detract from the majesty of the experience of 
following public service and drilling down and keeping drilling 
down and expanding your knowledge.
    We can't seem to make bills pass well enough to satisfy the 
needs of the country, but that does not take away from the 
courage and the steadfast, and I believe the awesomeness of 
those who volunteer to come and do this. So thank you for that 
attitude.
    I'm going to start today with Jon Leibowitz, who's been 
nominated to have a second term as Commissioner and Chairman of 
the Federal Trade Commission.
    I'm a fan. During his seven-year term as a Commissioner and 
during the past three years as Chairman, Mr. Leibowitz has 
shown that he understands the vital role of the FTC as the 
Nation's premier consumer-protection body.
    You may remember during the Wall Street--the Dodd----
    Senator Boxer. Frank.
    The Chairman.--Frank, that they wanted to eliminate the 
Federal Trade Commission and give everything to the Federal 
Reserve Commission and have them set up a consumer--and, I 
think, there's somebody running for Senate in Massachusetts 
that can tell you that didn't work out very well. We kept the 
Federal Trade Commission and we kept its powers, and it's an 
awesome body, which has been around for a long time doing 
incredible work.
    Under Jon Leibowitz's leadership, the FTC has used its 
enforcement and rulemaking authorities to improve financial 
protection for consumers who are at risk with scams and frauds, 
developed important proposals to modify FTC rules on child-
privacy protection and lead the way in contemplating new 
privacy and data-security frameworks, all very complicated and 
controversial stuff in an ever-evolving online and mobile 
world.
    I appreciate Chairman Leibowitz's hard work and I look 
forward to your continued service at the FTC.
    Also welcome, Ms. Maureen Ohlhausen who has been nominated 
to serve as Commissioner at the FTC. She comes to the position 
with many years of experience in privacy, data security and 
cybersecurity law, which we need.
    She also comes with strong understanding and appreciation 
of the institution, having served on the staff of the FTC for 
many years. I'm confident that she will continue the long 
bipartisan tradition that is one of the hallmarks of the 
Commission.
    Ms. Rebecca Blank has been nominated to serve as Deputy 
Secretary of Commerce. It's nice to get somebody passed in 
Congress, you know? Takes a long time around here. Hopefully, 
we'll get this done.
    We just confirmed the Secretary of Commerce late last 
month. I'm embarrassed at how long that took. I'm pleased that, 
with his nomination and this nomination, the leadership of the 
department will be well set.
    Ms. Blank has had a distinguished career in economics. Over 
the past 3 years, she served in a variety of positions in the 
department, including serving as Acting Deputy Secretary and 
Acting Secretary of the department. She has performed these 
duties admirably and I believe she is a very strong pick for 
Deputy Secretary.
    So these two agencies that these nominees seek to lead and 
to serve on are vital to our country and our economy, and we 
need highly qualified professionals to take on these positions, 
and we're lucky that they have agreed to put themselves up for 
public scrutiny and, hopefully, nomination.
    The Ranking Member is not here. Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I'll be brief. I want to thank Dr. 
Rebecca Blank, Jon Leibowitz, Maureen Ohlhausen for agreeing to 
serve.
    Dr. Blank has done an admirable job keeping the Commerce 
Department running smoothly. In addition to her role as Under 
Secretary for Economic Affairs, she has served as Acting 
Secretary and Acting Deputy Secretary, and I thank her for her 
service and want to hear her plans for moving the department 
and our economy forward.
    I also extend a special welcome to Federal Trade Commission 
Chairman Leibowitz, who has roots in my home state of New 
Jersey, and no wonder he's wise.
    Chairman Leibowitz attended high school in Englewood, New 
Jersey. Since being sworn in as Chairman in 2009, he's made 
consumer protection a priority, and I look forward to his 
testimony.
    Ms. Ohlhausen is nominated to join Mr. Leibowitz as an FTC 
Commissioner. This is her first nomination, but she knows the 
FTC well, having worked with the agency for more than decade.
    And I'm eager to hear from each of these nominees, Mr. 
Chairman, particularly about how we can protect consumers and 
strengthen our economic recovery.
    Thank you.
    The Chairman. If there are not others, I would call on 
Senator Herb Kohl from the State of Wisconsin to introduce our 
first witness.

                 STATEMENT OF HON. HERB KOHL, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Kohl. Mr. Chairman and members of this Committee, I 
appear here today to introduce Chairman Jon Leibowitz and to 
strongly support his confirmation to another full term as a 
Commissioner of the Federal Trade Commission. Jon has served as 
a Commissioner since 2004 and as its Chairman since March of 
2009.
    As many of you know, this nomination is a matter of 
particular pride for me because Jon served as my Chief Counsel 
on my Judiciary Committee staff for 12 years until 2001. Jon 
proved to be extraordinarily able in this position. I know him 
to be highly dedicated, an excellent lawyer with a sharp mind 
and deeply committed to public service.
    Since joining the FTC, Jon has become known as a strong 
protector of full and robust competition in the economy and as 
a passionate champion for consumers.
    His many achievements as FTC Chairman include the FTC 
settlement last year with Countrywide, where consumers received 
repayment of a total of $108 million for the excessive fees 
they were charged by Countrywide in connection with their home 
mortgages, his actions to combat pay-for-delay settlements, 
which deny consumers the benefits of low-cost generic drugs, 
his initiatives to protect consumer privacy on the Internet and 
his vigorous enforcement of antitrust laws to protect consumers 
in many key industries, from healthcare to computer hardware.
    A hallmark of Jon's chairmanship of the FTC is his 
encouragement of collaboration among his colleagues on the 
Commission working hard to ensure that his agency strives to 
the fullest extent possible to reach decisions that reflect 
consensus across party and ideological lines.
    Since he joined the Commission in 2004, Jon has shown our 
entire nation those leadership qualities that I recognized 
years ago. His outstanding performance at the FTC fully 
warrants his renomination for a second term as a Commissioner. 
I urge my colleagues to join me in supporting his renomination 
to another full term.
    I thank you, Mr. Chairman, for giving me the opportunity to 
appear before you today.
    The Chairman. Senator Kohl, you are a distinguished 
visitor. We're grateful for your presence here today. I thank 
you for the service that you have done on this day and all 
days.
    I'd like to give the Ranking Member, Senator Hutchison, a 
chance to make a remark, and then I think Senator Boxer wants 
to make a remark also.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Mr. Chairman, I'm happy to yield to 
anyone who has another commitment, because I'm going to stay. 
OK.
    Thank you, Mr. Chairman, for, of course, holding this 
hearing, and I am pleased that Dr. Blank is coming back before 
the Committee for the position of Deputy Secretary at the 
Department of Commerce. We just confirmed Secretary Bryson, and 
it is important that we get his Deputy in place as soon as 
possible, so they can have the full leadership team.
    Dr. Blank is in a unique position, having served for almost 
a year as Acting Deputy Secretary and Acting Secretary for the 
2 months while the confirmation of Secretary Bryson was 
pending.
    I'm also pleased to see our two nominees for the Federal 
Trade Commission, Maureen Ohlhausen and Chairman Leibowitz. The 
FTC's mission is a critical one, we all know, and its expansive 
jurisdiction covers both consumer protection and antitrust 
issues in a broad range of industries.
    Because the FTC covers such a broad umbrella of issues, 
I'll be interested to hear the nominees' views on industry 
regulation through agency rulemaking.
    While there is a place for carefully considered regulation, 
we must be careful not to regulate for the sake of regulating, 
and before any new directives are issued, they should be 
carefully considered against all alternatives to ensure a 
balanced and fair approach that will not stifle innovation or 
competition nor impede job growth.
    This is particularly important in the online world. As 
pervasive as the Internet now is, online business models and 
services and self-regulatory programs are still fairly new. 
They are evolving every day. Any rules in this space, whether 
regulatory or legislative, would have to be informed by this 
dynamic environment, so regulating before the markets develop 
could be harmful.
    I do have some other concerns regarding recent and upcoming 
action by the Committee that I hope we can clarify and that 
would include the Interagency Working Group on Food Marketing, 
which is finalizing its recommendations and will soon send them 
to Congress. I'm unclear on the way in which the working group 
arrived at its recommendations and I would like to talk to 
Chairman Leibowitz about that.
    And Mr. Leibowitz also has been a staunch supporter for 
prohibiting so-called reverse-payment settlements for 
pharmaceuticals, which would be on my agenda to ask of him as 
well as Ms. Ohlhausen.
    So I do think we need to proceed with the hearing, and I 
appreciate very much your calling it.
    The Chairman. Thank you, Ranking Member Hutchison.
    Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you, Chairman Rockefeller and Ranking 
Member Hutchison.
    I want to say to all the nominees I'm supporting all of 
you, so never fear about that, but due to my schedule, I can't 
stay to hear the testimony.
    I would love to engage Chairman Leibowitz, not that he 
would answer me, but just by a nod of the head, so I know he's 
working on a couple of issues. And if he can't do the nod of 
the head, I'll call him later.
    But there are two things that I think are really important, 
and I don't know if my colleagues have heard about this, but 
the first issue involves the processing of gift receipts at 
national retail stores.
    Thanks to the work of the CBS-TV station in Sacramento, 
California, we learned earlier this year that Walmart stores 
were shortchanging customers returning items using gift 
receipts.
    For example, in one instance, the station's producers 
purchased various items from Walmart totaling $51, but when 
they later returned the items using their gift receipt, which 
blanks out the price, they got back $27, and it was shocking, 
and it was done over and over again. In other cities, the same 
thing happened.
    So, Mr. Chairman, it would be as if I went out and bought 
you a Christmas gift or a birthday gift and spent $35 and then 
you had a duplicate. You bring it back and you get back $15, 
and you say, ``What a chincy colleague I had there. She could 
have at least spent 35 bucks on me.''
    The point is that's out and out theft. And when they 
answered the question, the store said, oh, this was just a 
staff problem. But what was happening is because it was 
reiterated in other places--yes, Walmart blamed the staff for 
the errors. Producers in Dallas did the same thing, and they 
had the same exact problem, and in other national retail 
chains. So what's happening here? It sounds like it's some type 
of a scam going on.
    And so anyway, I wrote to you, Mr. Chairman Leibowitz, and 
I just want to know that this has been brought to your 
attention, because I wrote--I've written you a couple of times.
    I know it's hard for you to say too much, but I would hope 
that in the near future we would see a response from you on 
this. It's very disturbing. It's just like somebody's going and 
picking somebody's pocket. It's just the same deal, and then 
there's, you know, deniability.
    And then the second issue has to do with voice-mail 
security. In September, I wrote wireless phone carriers T-
Mobile and Sprint to bring to their attention a vulnerability 
with their security systems, because private voice-mail 
information is at risk of hacking.
    T-Mobile and Sprint do not require customers to input a 
number when they call their voice-mail from their own cell 
phone, and this is a major problem, because it leaves customers 
at risk of hacking through simple free and easy-to-use software 
called ``Spoofing Software.''
    Verizon and AT&T have changed their security systems to 
require customers to input their voice-mail pin whenever they 
access their voice-mail which prevents Spoofing Software from 
working.
    I asked T-Mobile and Sprint to update their security, but 
they're saying no, and they're arguing that they have no 
vulnerability.
    In July, the National Journal reported that you supported 
the FTC having jurisdiction over wireless carriers in order to 
deal with voice-mail security issues, and, by a nod of the 
head, do you still hold that opinion?
    OK. It's not quite a nod. So I will follow up on that issue 
with you.
    But, Mr. Chairman, I so appreciate this time, and I so 
appreciate your leadership, and if I could say that the two of 
you are really a great model. Senator Inhofe and I are learning 
from you, and we've just reported out a bill that we did 
working together, and it's just a pleasure to be with you. 
Thank you.
    The Chairman. Thank you, Senator Boxer.
    And Chairman Leibowitz.
    Chairman Leibowitz. Mr. Chairman, would you like me to 
start or----
    The Chairman. Yes, and you and Maureen Ohlhausen and Dr. 
Blank are all seated. Why don't you begin?

         STATEMENT OF HON. JON D. LEIBOWITZ, NOMINATION

                TO BE COMMISSIONER AND CHAIRMAN,

                    FEDERAL TRADE COMMISSION

    Chairman Leibowitz. Chairman Rockefeller, Ranking Member 
Hutchison, Senator Lautenberg, Senator Pryor, Senator Udall, 
I'm pleased to appear before you with Maureen Ohlhausen, a 
former FTC official who we hope will soon be back at the agency 
in a new role as Commissioner.
    And I'm delighted to be here with my colleagues on the 
Commission, Tom Rosch, Edith Ramirez and Julie Brill.
    I'm also joined by my wife, Ruth Marcus, by far my better 
half--some of you know her, so you know that's true--our 
daughters, Emma and Julia, and my in-laws, Arnold and Judy 
Marcus, who are somewhere back there.
    It's been a wonderful opportunity to serve on the FTC for 
the past 7 years, including the last two-and-a-half as 
Chairman.
    Just 3 years shy of our centennial, as you mentioned, 
Senator Rockefeller, we are the nation's premier consumer 
protection agency. We play a critical role in freeing the 
marketplace from predatory, fraudulent and anticompetitive 
conduct that tilts the playing field against consumers and 
honest business people, and we focus on a wide range of goods 
and services from high-tech computer chips to children's mobile 
apps to one-way truck rentals.
    The Commission's great strength is that we are bipartisan. 
We are collegial and we work hard to reach decisions by 
consensus. We are inspired by a staff that is widely recognized 
as one of the most professional, dedicated and highly qualified 
in the Federal Government.
    As you know, we are a small agency with a big mission. Let 
me highlight just a few of the issues we're going to continue 
to focus on.
    Pursuing unfair or deceptive practices aimed at financially 
distressed consumers will remain a priority at the FTC. The 
exponential growth of the Internet, combined with the current 
economic downturn has fueled a resurgence in what we call last-
dollar frauds. These are targeted at the most vulnerable 
Americans, and they include foreclosure-rescue scams, sham debt 
relief and bogus job opportunities.
    Since 2009, the FTC alone has brought more than 90 cases 
against these predators, and thanks to you and the Ranking 
Member for protecting our jurisdiction here during Dodd-Frank. 
Leveraging our resources and working cooperatively with the 
state attorneys general and other Federal and state agencies, 
we have partnered in more than 400 such cases.
    As just one example, this past summer, the FTC concluded a 
case against Countrywide for mishandling consumer loans in 
bankruptcy and charging excessive fees for mortgage servicing. 
We mailed, as Senator Kohl mentioned, $108 million in redress 
checks to more than 450,000 homeowners.
    Consumer privacy will continue to be a major focus from 
both the enforcement and the policy perspectives. Ever-evolving 
technologies, such as mobile devices, open up the riches of the 
Internet, but they also pose new threats. The FTC has responded 
by bringing nearly 100 spam and spyware cases, more than 30 
data-security cases and almost 80 cases for violations of Do-
Not-Call in the past decade.
    Last December, we also released a preliminary staff report 
highlighting self-regulatory principles that seek to protect 
consumer privacy, while, at the same time, making certain that 
industry can continue to innovate on the Internet.
    Of course, protecting privacy in the face of new 
technologies will remain a challenge. We're aware of this 
Committee's concerns about the privacy implications of mobile 
apps, geolocation devices and facial recognition, the value of 
industry-wide codes of conduct and the difficulty of 
safeguarding consumer privacy when users of electronic devices 
every year seem to grow younger as well as more tech savvy than 
their parents. We look forward to working with you to address 
these issues.
    Healthcare competition will remain very high on the FTC's 
agenda. Families struggling to make it in tough economic times 
are particularly vulnerable to rising healthcare costs. We push 
back against this trend, challenging proposed hospital mergers 
likely to raise prices and fighting various anticompetitive 
restrictions on healthcare goods and services.
    An especially egregious practice, we believe, that we work 
to restrict and not to ban is the pay-for-delay pharmaceutical 
settlement. These sweetheart deals between brand-name and 
generic drugmakers delay the entry of lower-priced generics on 
the market and cost Americans billions of dollars annually in 
higher prescription prices.
    Equally troubling, these agreements add to the Federal 
deficit, because taxpayers fund about one-third of the nation's 
prescription drugs through Medicare, veterans' programs and the 
like.
    The FTC will continue to monitor petroleum markets closely. 
We are keenly aware of the impact of gasoline prices on 
American families. Households have only limited ability to 
reduce their gasoline consumption, and increased prices 
severely cut into their ability to buy other necessary goods.
    And, finally, given the agency's jurisdiction over broad 
sectors of the economy, we will continue to produce various 
industry studies, many of which have been requested by Congress 
and virtually all of which emphasize self regulation. These 
include periodic reports on the marketing of violent 
entertainment to children. We examine movies, music and video 
games, and, next year, we'll look at content-based applications 
or apps, which all too often don't give adequate guidance to 
parents.
    One recent study concerns as Senator Hutchinson mentioned--
the marketing of healthy foods to kids. The feedback from 
stakeholders has helped us make significant improvements to the 
report's recommendations. I know this committee will have 
questions about the part of the report written by the FTC on 
marketing, and I will be happy to try to answer your questions.
    To conclude, if I'm fortunate enough to be confirmed, I 
will continue to tackle this broad portfolio of issues with the 
same energy, focus and bipartisanship that our agency has 
applied in the past and to work with this Committee and with my 
wonderful colleagues at the Commission for the benefit of 
American consumers. Thank you.
    [The prepared statement and biographical information of 
Chairman Leibowitz follow:]

     Prepared Statement of Hon. Jon D. Leibowitz, Nomination to be 
          Commissioner and Chairman, Federal Trade Commission
    I am pleased to appear before you with Maureen Ohlhausen, a former 
FTC official, who we hope will soon be back at the agency in a new role 
as a Commissioner. And I am delighted to be here with my colleagues on 
the Commission: Tom Rosch, Edith Ramirez, and Julie Brill. I am also 
joined by my wife, Ruth Marcus, and our daughters, Emma and Julia.
    It has been a wonderful opportunity to serve on the FTC for the 
past seven years, including the past two-and-a-half as Chairman. Just 
three years shy of our centennial, the FTC is the Nation's premier 
consumer protection agency. We play a critical role in freeing the 
marketplace from predatory, fraudulent, and anticompetitive conduct 
that tilts the playing field against consumers and honest 
businesspeople. And we focus on a wide range of goods and services-from 
high-tech computer chips to children's mobile apps to one-way truck 
rentals.
    The Commission's great strength is that we are bipartisan, 
collegial, and work hard to reach decisions by consensus. We are 
inspired by a staff that is widely recognized as one of the most 
professional, diligent, and highly qualified in the Federal Government.
    As you know, we are a small agency with a big mission. Let me 
highlight just a few of the issues on which we will continue to focus:
    Pursuing unfair or deceptive practices aimed at financially 
distressed consumers will remain a priority for the FTC. The 
exponential growth of the Internet, combined with the current economic 
downturn, has fueled a resurgence of what we call ``last dollar 
frauds.'' These are targeted at the most vulnerable consumers and 
include foreclosure rescue scams, sham debt relief, and bogus job 
opportunities. Since 2009, the FTC alone has brought 90 cases against 
these predators. Leveraging our resources, we partnered with State 
Attorneys General and other Federal and state agencies on more than 400 
such cases.
    As just one example, this past summer, the FTC concluded a case 
against Countrywide for, we alleged, mishandling consumer loans in 
bankruptcy and charging excessive fees for mortgage servicing. We 
mailed more than $108 million in redress checks to 450,000 homeowners.
    Consumer privacy will continue to be a major focus from both 
enforcement and policy perspectives. Ever-evolving technologies, such 
as mobile devices, open up the riches of the Internet but also pose new 
threats. The FTC has responded by bringing almost 100 spam and spyware 
cases, more than 30 data security cases, and nearly 80 cases for 
violations of Do Not Call in the past decade. Last December, we also 
released a preliminary staff report highlighting critical self-
regulatory principles that seek to protect consumers' privacy while 
allowing industry to continue to innovate on the Internet.
    Of course, protecting privacy in the face of new technologies will 
remain a challenge. We are aware of this Committee's concerns about the 
privacy implications of mobile apps, flash cookies, geo-location, and 
facial recognition; the value of industry-wide codes of conduct; and 
the difficulty of safeguarding privacy when users of electronic devices 
every year seem to grow younger as well as more tech-savvy than their 
parents. We look forward to working with you to address these issues.
    Healthcare competition will remain very high on the FTC's agenda. 
Families struggling to make it in tough economic times are particularly 
vulnerable to rising health care costs. We push back against this 
trend, challenging proposed hospital mergers likely to raise prices and 
fighting various anticompetitive restrictions on health care goods and 
services.
    An especially egregious practice that we work to restrict is the 
``pay-for-delay'' pharmaceutical settlement. These sweetheart deals 
between brand-name and generic drug makers delay entry of lower-priced 
generics on the market and cost Americans billions of dollars annually 
in higher prescription prices. Equally troubling, these agreements add 
to the Federal deficit because taxpayers fund about one third of the 
Nation's prescription drugs through Medicare, veterans' programs, and 
the like.
    The FTC will continue to monitor petroleum markets closely. We are 
keenly aware of the impact of gasoline prices on American families-
households have only limited ability to reduce their gasoline 
consumption, so increased prices severely cut into their ability to buy 
other necessary goods. This past summer, FTC staff issued a study that 
examined the various factors that increase the price of gasoline, such 
as OPEC's inherently anticompetitive behavior and rising demand in 
China and India. We also opened an investigation when we learned of 
anomalous behavior among oil refineries--profit margins were going up 
at the same time utilization rates were going down. Let me assure you, 
if we find violations of the law, we will aggressively pursue them.
    Finally, given the agency's jurisdiction over broad sectors of the 
economy, we will continue to produce various industry studies-many of 
which Congress requested and emphasize self-regulation. These include 
periodic reports on the marketing of violent entertainment to 
children--we examine movies, music, and video games, and next year, we 
will look at apps, which all too often don't give parents guidance. The 
most recent study concerns the marketing of healthy food to kids. The 
feedback from stakeholders has helped us make dramatic improvements to 
the report's recommendations. I know this Committee will have questions 
about the marketing part of that report, written by the FTC, and I will 
be happy to answer them.
    To conclude, if I am fortunate enough to be confirmed, I will 
continue to tackle this broad portfolio of issues with the same energy, 
focus, and bipartisanship that our agency has applied in the past, and 
to work with this Committee for the benefit of American consumers.
    Thank you.
                                 ______
                                 
                      a. biographical information
    1 . Name (Include any former names or nicknames used): Jonathan D. 
Leibowitz.
    2. Position to which nominated: Commissioner, Federal Trade 
Commission.
    3. Date of Nomination: March 4, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Federal Trade Commission, 600 Pennsylvania Ave NW, 
        Washington DC 20580.

    5. Date and Place of Birth: Born June 17, 1958 in New York City, 
NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children ( including 
stepchildren and children by a previous marriage).

        Married to Ruth Allyn Marcus, Journalist, Washington Post; 
        children: Emma Rose Leibowitz--age 15; Julia Rachel Leibowitz--
        age 13.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Wisconsin (1976-1980), BA 1980.
        New York University School of Law (1981-1984), JD 1984.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Chairman, Federal Trade Commission, Washington, D.C. (2009 to 
        present)

        Commissioner, Federal Trade Commission, Washington, D.C. (2004-
        2009)

        Vice President, Congressional Relations, Motion Picture 
        Association of America, Washington, D.C. (2000-2004)

        Chief Counsel, United States Senator Herb Kohl, Senate 
        Judiciary Committee, Washington, D.C. (1989-2000)

                Democratic Chief Counsel and Staff Director:

                Senate Judiciary Committee Subcommittee on Antitrust, 
                Business Rights and Competition (1997-2000);

                Senate Judiciary Committee Subcommittee on Terrorism 
                and Technology (1995-1996);

                Senate Judiciary Committee Subcommittee on Juvenile 
                Justice (1991-1994)

        Counsel, United States Representative Edward Feighan (1987-
        1988)

        Counsel, United States Senator Paul Simon, Senate Judiciary 
        Committee (1986-1987)

        Attorney, Lane and Edson, Washington, D.C. (1985-1986)

        Attorney, Cole, Raywid and Braverman, Washington, D.C. (1984-
        1985)

        Summer Associate, Katten Muchin Zavis Pearl & Geller (Summer 
        1983)

        Employee, Sib's-by-the-Sea, St. Thomas, U.S. Virgin Islands 
        (1981)

        Employee, Vantage Publishing, New York, N.Y. (1980-1981)

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years: None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, D.C. Bar, 1986& present

        Member, New York State Bar Association, Admitted 1986; Retired 
        1987 to present

        Member, Sports Club LA, 1170 22nd St. NW, Washington, D.C.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Chairman, Federal Trade Commission, 2009 to present.

        Commissioner, Federal Trade Commission, 2004-2009.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    I have made no contributions of $500 or more for the past 10 years.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Phi Beta Kappa, University of Wisconsin, 1980
        Knapp Fellowship (for Undergraduate Honors Thesis)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Speeches and Remarks
    2011

        Remarks to the Association of Magazine Media (Magazine 
        Publishers of America)
        Washington, D.C.
        April 12, 2011

        Remarks at ``Enforcers' Roundtable'' at ABA Antitrust Section 
        Spring Meeting
        Washington, D.C.
        April 1, 2011

        Remarks at American Antitrust Institute Luncheon Honoring Art 
        Amolsch
        Washington, D.C.
        March 31, 2011

        Welcome Remarks at the International Competition Network (ICN) 
        Cooperation Roundtable
        Washington, D.C.
        March 29, 2011

        Remarks to the Newspaper Association of America Board of 
        Directors
        Dallas, Texas
        March 25, 2011

        Remarks at Boston College Law School
        Newton, Massachusetts
        March 17, 2011

        Remarks at the International Association of Privacy 
        Professionals (IAPP) Global Summit
        Washington, D.C.
        March 10, 2011

        Remarks at the National Association of Attorneys General (NAAG) 
        Spring Meeting
        Washington, D.C.
        March 7, 2011

        ``Public Sector Lawyering: A Conversation with FTC Chair Jon 
        Leibowitz''
        Remarks at the Indiana University Maurer School of Law
        Bloomington, Indiana
        March 3, 2011

        Remarks at the Asia-Pacific Economic Cooperation (APEC) Privacy 
        Workshop
        Washington, D.C.
        March 1, 2011

        Remarks at the Giles Sutherland Rich American Inn at Court
        Washington, D.C.
        February 16, 2011

        ``Helping Business Bear the New Financial Consumer Protection 
        Regime''
        Remarks at the United States Chamber of Commerce
        Center for Capital Markets Competitiveness
        Washington, D.C.
        January 20, 2011

    2010

        Remarks at the American Antitrust Institute (AAI) Conference on 
        the Future of Private Antitrust Enforcement
        Washington, D.C.
        December 7, 2010

        Remarks on the Release of the Preliminary FTC Staff Report on 
        Privacy
        Washington, D.C.
        December 1, 2010

        ``Fighting for the Middle Class: The FTC Tackles Mortgage 
        Rescue Fraud''
        Remarks at a Middle Class Task Force Event with Vice President 
        Biden
        Washington, D.C.
        November 19, 2010

        Remarks at the ABA Antitrust Section Fall Council Meeting
        Washington, D.C.
        November 17, 2010

        Keynote Address at the Global Forum 2010
        Washington, D.C.
        November 8, 2010

        Lewis Bernstein Memorial Lecture
        St. John's School of Law
        Queens, New York
        October 12, 2010

        Remarks at Common Sense Media Press Conference for the Net 
        Cetera Community Toolkit
        Washington, D.C.
        October 8, 2010

        Opening Statement
        FTV/CMS Workshop on Accountable Care Organizations
        Washington, D.C.
        October 5, 2010

        Remarks at ``Toward Healthy Informed Communities: The Knight 
        Commission Report One Year Later''
        Washington, D.C.
        September 29, 2010

        Remarks at the Fordham Competition Law Institute Annual 
        Conference
        New York, New York
        September 24, 2010

        ``Making the Grade? A Year at the FTC''
        Remarks at the Fourth Annual Global Antitrust Enforcement 
        Symposium
        Georgetown Law Center
        Washington, D.C.
        September 21, 2010

        Remarks at FTC Press Conference on Intel Corporation
        Washington, D.C.
        August 4, 2010

        Remarks announcing FTC Debt Settlement Rule at a Middle Class 
        Task Force Event with Vice President Biden)
        Washington, D.C.
        July 29, 2010

        Remarks at FTC/OECD Roundtable on the OECD Consumer Policy 
        Toolkit
        Washington, D.C.
        July 21, 2010

        Introductory Remarks at the Third FTC News Media Workshop
        Washington, D.C.
        June 15, 2010

        Remarks at FTC Press Conference Regarding Settlement with 
        Countrywide
        Washington, D.C.
        June 7, 2010

        ``A Doctor and a Lawyer Walk Into a Bar: Moving Beyond 
        Stereotypes''
        Remarks to the American Medical Association House of Delegates
        Chicago, Illinois
        June 14, 2010

        ``Where's the Remote? Maintaining Consumer Control in the Age 
        of Behavioral Advertising''
        Remarks at the National Cable & Telecommunications Association
        The Cable Show 2010
        Los Angeles, California
        May 12, 2010

        Opening Remarks at the International Consumer Protection 
        Enforcement Network
        (ICPEN) Conference
        Washington, D.C.
        May 6, 2010

        Remarks at the Roundtable Conference with Enforcement Officials
        58th ABA Section of Antitrust Law Spring Meeting
        Washington, D.C.
        April 23, 2010
        Remarks at the Association of National Advertisers Advertising 
        Law and Public Policy Conference
        Washington, D.C.
        March 18, 2010

        Remarks to the Consumer Federation of America's Consumer 
        Assembly Conference
        Washington, D.C.
        March 11, 2010

        Introductory Remarks at the Second FTC News Media Workshop
        Washington, D.C.
        March 10, 2010

        Remarks at FTC Press Conference Regarding Settlement With 
        LifeLock (with Illinois AG Lisa Madigan)
        Chicago, Illinois
        March 9, 2010

        Remarks at FCC Workshop: Consumers, Transparency and the Open 
        Internet
        Washington, D.C.
        January 19, 2010

        Remarks at the 36th Annual ABA Mid-Winter Meeting
        Miami, Florida
        January 16-18, 2010

        Remarks at Pay for Delay Press Conference with Subcommittee 
        Chairman Bobby Rush
        Washington, D.C.
        January 13, 2010

    2009

        Remarks on the Release of Net Cetera with Education Secretary 
        Duncan and FCC Chairman Genachowski
        Washington, D.C.
        December 16, 2009

        Introductory Remarks for Sizing Up: Food Marketing and 
        Childhood Obesity Workshop
        Washington, D.C.
        December 15, 2009

        Introductory Remarks for OECD's Empowering E-Consumers Workshop
        Washington, D.C.
        December 8-9, 2009

        Introductory Remarks for the FTC Privacy Roundtable
        Washington, D.C.
        December 7, 2009

        Introductory Remarks for FTC/DOJ Horizontal Merger Guidelines 
        Workshop
        Washington, D.C.
        December 3, 2009

        ``Creative Destruction'' or Just ``Destruction'': How Will 
        Journalism Survive the Internet Age?
        Opening Remarks at the FTC News Media Workshop
        Washington, D.C.
        December 1--2, 2009

        Remarks at ``Operation Stolen Hope'' Mortgage Fraud Event with 
        Senator Harry Reid
        Las Vegas, Nevada
        November 24, 2009

        Remarks at National Archives Panel Discussion Regarding Supreme 
        Court Justice Louis Brandeis
        Washington, D.C.
        November 17, 2009

        Remarks at the Commission Nationale de l'Informatique et des 
        Libertes (CNIL)
        Paris, France
        October 20, 2009

        Remarks at FTC/DOJ/NAAG Antitrust Program
        Columbia University School of Law
        New York, New York
        October 7, 2009

        Federal Trade Commission Enforcement of the Antitrust Laws
        Remarks at the 36th Annual Conference on International 
        Antitrust Law & Policy of the Fordham Competition Law Institute 
        at Fordham Law School
        New York, New York
        September 24, 2009

        Introduction of Philip Lowe and Announcement of Joint FTC/DOJ 
        Project to Modernize the Horizontal Merger Guidelines
        Remarks at the Third Annual Georgetown Law Global Antitrust 
        Enforcement Symposium
        Washington, D.C.
        September 22, 2009

        Remarks at FTC/Treasury/DOJ/HUD/State Attorney General Mortgage 
        Modification Roundtable
        Washington, D.C.
        September 17, 2009

        Remarks at ``Operation Loan Lies'' Press Conference Involving 
        Law Enforcement Action Against Companies Involved in Alleged 
        Foreclosure Rescue Scams (with California AG Jeny Brown)
        Los Angeles, California
        July 15, 2009

        Remarks at the ABA Antitrust Section General Counsel Dinner
        Washington, D.C.
        June 29, 2009

        ``Pay-for-Delay'' Settlements in the Pharmaceutical Industry: 
        How Congress Can Stop Anticompetitive Conduct, Protect 
        Consumers' Wallets, and Help Pay for Health Care Reform (The 
        $35 Billion Solution)
        Remarks at the Center for American Progress' Event, ``Low Cost 
        Solutions to Health Care Through Generic Competition''
        Washington, D.C.
        June 23, 2009

        Remarks to the National Community Pharmacy Association
        Washington, D.C.
        May 13,2009

        Remarks to the Computer & Communications Industry Association 
        (CCIA) at the Newseum
        Washington, D.C.
        May 6, 2009

        Welcome Remarks at the ICN/Unilateral Conduct Workshop
        Washington, D.C.
        March 23, 2009

        Remarks at the FTC Data Security Workshop
        Washington, D.C.
        March 17, 2009

        Remarks at the 2009 Center for Democracy and Technology Gala
        Washington, D.C.
        March 10, 2009


    2008

        ``Tales from the Crypt'' Episodes '08 and '09: The Return of 
        Section 5 (``Unfair Methods of Competition in Commerce are 
        Hereby Declared Unlawful'')
        Remarks at the FTC Workshop: Section 5 of the FTC Act as a 
        Competition Statute
        Washington, D.C.
        October 17, 2008

        Remarks at the Fourth Annual In-House Counsel's Forum on 
        Pharmaceutical Antitrust
        National Harbor, Maryland
        May 21, 2008

        ``Excuse Me, I Think Your Shoe Is Ringing!'' Getting Smart 
        About Mobile Marketing Remarks at the FTC Town Hall Meeting on 
        ``Beyond Voice: Mapping the Mobile Marketplace''
        Washington, D.C.
        May 6, 2008

        Social Networking Privacy: An Oxymoron?
        Opening Remarks for Panel at State of the Net Conference
        Washington, D.C.
        January 30, 2008

    2007

        So Private, So Public: Individuals, The Internet & The Paradox 
        Of Behavioral Marketing
        Remarks at the FTC Town Hall Meeting on ``Behavioral 
        Advertising: Tracking, Targeting & Technology''
        Washington, D.C.
        November 1, 2007

        Truth or Consequences: The FTC Approach to Advertising
        Remarks at the National Advertising Division Annual Conference
        New York, New York
        September 24, 2007

        Childhood Obesity and the Obligations of Food Marketers or 
        Whether or Not You Are Part of the Problem, You Need to Be Part 
        of the Solution
        Remarks at the FTC/HHS Forum on Childhood Obesity
        Washington, D.C.
        July 18, 2007

        Navigating Between Dystopian Worlds on Network Neutrality: With 
        Misery and Wretchedness on Each Side, Can We Find a Third Way?
        Remarks to the Broadband Connectivity Competition Policy 
        Workshop
        Washington, D.C.
        February 13, 2007

        Remarks at the ABA Consumer Protection Conference
        Washington, D.C.
        Tuesday, January 30, 2007

    2006

        Remarks on ``Information Security Breaches: A View from the 
        U.S. and EU''
        Hunton & Williams
        Washington, D.C.
        November l7, 2006

        The Changing Internet: Hips Don't Lie
        Remarks at the ``Protecting Consumers in the Next Tech-ade'' 
        Group Meeting
        Washington, D.C.
        November 6, 2006

        How Settlements Make Strange Bedfellows: Or How the Federal 
        Trade Commission has Managed to Unite the Entire Pharmaceutical 
        Industry (But Only in Opposition to the FTC's Position on 
        Exclusion Payment Settlements)
        Remarks at the Generic Pharmaceutical Association's Annual 
        Policy Conference
        Washington, D.C.
        September 29, 2006

        Remarks at PFF Aspen Summit Working Dinner
        Aspen, Colorado
        August 21, 2006

        Remarks at the Center for American Progress Panel ``The 
        Internet and the Future of Consumer Protection''
        Washington, D.C.
        July 24, 2006

        Statement Concerning Whois Databases before the Internet 
        Corporation for Assigned Names and Numbers (``ICANN'') Meeting
        Marrakech, Morocco
        June 2006

        Exclusion Payments to Settle Pharmaceutical Patent Cases: 
        They're B-a-a-a-ck!
        (The Role of the Commission, Congress, and the Courts)
        Remarks at the Second Annual In-House Counsel's Forum on 
        Pharmaceutical Antitrust
        Philadelphia, Pennsylvania
        April 24, 2006

        Remarks at the ABA Spring Meeting 2006
        Washington, D.C.
        March 30, 2006

        Remarks at the Anti-Spyware Coalition Public Workshop
        Washington, D.C.
        February 9, 2006

        Remarks at the Internet Caucus State of the Net Conference
        Washington, D.C.
        February 8, 2006

    2005

        Remarks at the American Express Consumer Action Conference
        Washington, D.C.
        November 16, 2005

        Competition in the Information Society: Uncorked and Unplugged
        Remarks before the 2005 Global Forum
        Brussels, Belgium
        November 8, 2005

        Following the Yellow Brick Road to a More Competitive Landscape
        Remarks before the FTC/DOJ Workshop on Competition Policy in 
        the Real Estate Industry
        Washington, D.C.
        October25, 2005

        Remarks at the Direct Marketing Association 2005 Conference
        Atlanta, Georgia
        October 17, 2005

        Municipal Broadband: Should Cities Have a Voice?
        National Association of Telecommunications Officers and 
        Advisors (NATOA) 25th Annual Conference
        Washington, D.C.
        September 22, 2005

        Thinking Creatively About Remedies: Building on the Muris and 
        Pitofsky Years: Evolving Remedies from ``Time-Outs'' to Civil 
        Penalties (Not the Third Rail of Antitrust)
        Remarks at the American Antitrust Institute Symposium
        Washington, D.C.
        June 21, 2005

        Health Care and the FTC: The Agency as Prosecutor and Policy 
        Wonk
        (Health Care as the New Cement; and Actions Against the 
        Pharmaceutical Industry as a Game of Whack-a-Mole)
        Remarks at the Antitrust in HealthCare Conference
        American Bar Association/American Health Lawyers Association
        Washington, D.C.
        May 12, 2005

        The Good, the Bad and the Ugly: Trade Associations and 
        Antitrust
        Remarks at the American Bar Association Antitrust Spring 
        Meeting
        Washington, D.C.
        March 30, 2005

    2004

        Spam, Authentication and Ensuring the Promise of the Internet
        Welcoming Remarks on Day Two, FTC/NIST E-mail Authentication 
        Summit
        November 10, 2004
Publications
        Jon Leibowitz, Opinion, FTC Chairman: `Do Not Track' Rules 
        Would Help Web Thrive. U.S. News And World Rep., Jan. 3, 2011, 
        available at http://www.usnews.com/opinion/articles/2011/01/03/
        ftc-chairman-do-not-track-rules-would-help-web-thrive-jon-
        leibowitz.

        Jon Leibowitz, Op-Ed., This Pill Not To Be Taken With 
        Competition: How Collusion Is Keeping Generic Drugs Off the 
        Shelves. Wash. Post, Feb. 25, 2008, at A15.

        Jon Leibowitz, Thinking Creatively About Remedies: Building on 
        the Muris and Pitofsky Years: Evolving Remedies from ``Time-
        Outs'' to Civil Penalties (Not the Third Rail of Antitrust), 80 
        Tul. L. Rev. 595 (2005).

        Herb Kohl and Jon Leibowitz, Keenen Peck-A Tribute, 1990 Wis. 
        L. Rev. 291 (1990). Additionally, as Commissioner and Chairman 
        I have participated in many FTC matters and have helped to 
        write opinions and have on occasion issued separate statements. 
        The following are some of these that are available on the FTC 
        website.

    2011

        Statement by FTC Chairman Jon Leibowitz Regarding Court Ruling 
        on Red Flags Rule. March 4, 2011.

    2010

        Statement by FTC Chairman Jon Leibowitz on Department of 
        Commerce's Green Paper on Consumer Privacy. December 16, 2010.

        Statement by FTC Chairman Jon Leibowitz Regarding House and 
        Senate Passage of Legislation to Combat Deceptive Online Sales 
        Tactics. December 15, 2010.

        Statement by FTC Chairman Jon Leibowitz Regarding House and 
        Senate Passage of Legislation Clarifying Red Flags Rule. 
        December 8, 2010.

        Statement on the Release of the 2010 Horizontal Merger 
        Guidelines, Project No. P092900. August 19, 2010.

        Concurring Statement with Commissioner Brill, In the Matter of 
        Kellogg Company, FTC File No. 082 3145. June 3, 2010.

    2009

        Statement on ``Marketing Violent Entertainment to Children: A 
        Sixth Follow-Up Review of Industry Practices in the Motion 
        Picture, Music Recording & Electronic Game Industries.'' 
        December 2009.

        Statement with Commissioner Rosch, In the Matter of Intel 
        Corporation, Docket No. 9341. December 16, 2009.

        Statement on ``Marketing Violent Entertainment to Children: A 
        Sixth Follow-Up Review of Industry Practices in the Motion 
        Picture, Music Recording & Electronic Game Industries.'' 
        December 3, 2009.

        Statement on passage of H.R. 3126, the Consumer Financial 
        Protection Act of 2009 by the House Energy and Commerce 
        Committee. October 29, 2009.

        Statement on Senate Judiciary Committee's Passage of the 
        Preserve Access to Affordable Generics Act (S. 369). October 
        15, 2009.

        Statement Regarding the Announcement that Arthur D. Levinson 
        Has Resigned from Google's Board. October 12, 2009.

        Statement on Letter From Bureau of Consumer Protection Director 
        David C. Vladeck to Jane Horvath, Google Inc. Concerning the 
        Google Books Project. September 3, 2009.

        Statement on Crude Oil Price Manipulation Rule Making, Project 
        No. P082900. August 6, 2009.

        Statement on Trade Associations' Privacy Principles for 
        Behavioral Advertising. July 2, 2009.

        Joint Statement with Commissioners Harbour and Kovacic, In the 
        Matter of Endocare, Inc. and Galil Medical, Ltd. File No. 
        0910026. June 9, 2009.

        Statement on ``Authorized Generics: An Interim Report of the 
        Federal Trade Commission.'' June 2009.

        Concurring Statement, In re FTC v. Watson Pharmaceuticals et. 
        al. February 2, 2009.

        Concurring Statement on ``Federal Trade Commission Staff 
        Report: Self-Regulatory Principles For Online Behavioral 
        Advertising: Tracking, Targeting, and Technology.'' February 
        2009.

    2008

        Concurring Statement, FTC v. Ovation Pharmaceuticals, Inc., 
        (United States District Court for the District of Minnesota). 
        FTC File No. 0810156. December 16, 2008.

        Concurring Statement on the ``Rescission of Federal Trade 
        Commission Guidance Concerning the Cambridge Filter Method For 
        Testing the Tar and Nicotine Yields of Cigarettes.'' November 
        26, 2008.

        Statement Concurring in Part and Dissenting in Patt, In the 
        Matter of Carlyle Partners IV, L.P., a limited partnership, PQ 
        Corporation, INEOS Group Ltd., a corporation, and James 
        Ratcliffe, an individual. FTC File No. 071 0203. September 19, 
        2008.

        Concurring Statement on ``Marketing Food To Children and 
        Adolescents: A Review of Industry Expenditures, Activities, and 
        Self-Regulation: A Federal Trade Commission Report To 
        Congress.'' July 29, 2008.

        Dissenting Statement on ``FTC Staff Comment to the Hon. William 
        J. Seitz Concerning Ohio Executive Order 2007-23S to Establish 
        Collective Bargaining for Home Health Care Workers.'' February 
        2008.

        Statement Concurring in Part and Dissenting in Part, FTC v. 
        Cephalon, Inc. (United States District Court for the District 
        of Columbia). Civil Action No.: 1:08-cv-00244, FTC File No.: 
        061-0182. February 13, 2008.

        Statement Concurring in Part and Dissenting in Part, United 
        States of America (for the FTC), Plaintiff, v. Member Source 
        Media LLC, doing business as ConsumerGain.com, 
        PremiumPerks.com, FreeRetailRewards.com, and 
        GreatAmericanGiveaways.com, and Chris Sommer, individually and 
        as Manager of Member Source Media LLC, Defendants (United 
        States District Court for the Northern District of California). 
        Civil Action No.: CV-08 0642; FTC File No.: 072-3042. January 
        30, 2008.

        Statement, with Commissioner Harbour, Concurring in Part on 
        ``Accounting for Laws That Apply Differently to the United 
        States Postal Service and Its Private Competitors: A Report By 
        the Federal Trade Commission.'' January 2008.

    2007

        Concurring Statement, Proposed Acquisition of Hellman & 
        Friedman Capital Partners V, LP, (Click Holding Company) By 
        Google Inc., FTC File No. 071 0170. December 20, 2007.

        Statement Concurring in Part, Dissenting in Part, In re Member 
        Source Media, LLC and Chris Sommer. December 12, 2007.

        Dissenting Statement on In re Adteractive, Inc. November 28, 
        2007.

        Dissenting Statement on ``Federal Trade Commission Report On 
        Spring/Summer 2006 Nationwide Gasoline Price Increases.'' 
        August 2007.

        Statement with Commissioner Harbour, Concurring in Part and 
        Dissenting in Part, In the Matter of Kmart Corporation, Kmart 
        Services Corporation, and Kmart Promotions, LLC, corporations. 
        FTC File No.: 062 3088. August 15, 2007.

        Concurring Opinion, In the Matter of Evanston Northwestern 
        Healthcare Corp., Docket No. 9315. August 6, 2007.

        Concurring Statement on ``Credit-Based Insurance Scores: 
        Impacts on Consumers of Automobile Insurance: A Report to 
        Congress By the Federal Trade Commission (July 2007).'' July 
        2007.

        Concurring Statement on ``Broadband Connectivity Competition 
        Policy.'' June 2007. Dissenting Statement, In re DirectRevenue 
        LLC. June 29, 2007.

    2006

        Concurring Statement Regarding the Staff Report: ``Municipal 
        Provision of Wireless Internet.'' October 10, 2006.

        Concurring Opinion, In the Matter of Rambus, Inc., Docket No. 
        9302. August 2, 2006.

        Concurring Statement on ``The Federal Trade Commission 
        Investigation of Gasoline Price Manipulation and Post-Katrina 
        Gasoline Price Increases: A Commission Report to Congress.'' 
        May 2006.

        Statement with Commissioner Harbour on the Acquisition by 
        Comcast Corporation and Time Warner Cable Inc. of the Cable 
        Assets of Adelphia Communications Corporation, and Related 
        Transactions, File No. 051 0151. January 31, 2006.

    2005

        Statement Regarding TRUSTe's Trusted Download Beta Program. 
        November 16, 2005.

        Statement Concurring in Part and Dissenting in Part, FTC v. Sun 
        Spectrum Communications Org. (``Beneficial Client Care''), 
        Matter No. X04-0015. October 24, 2005.

        Concurring Statement on ``Gasoline Price Changes: The Dynamic 
        of Supply, Demand, and Competition: A Federal Trade Commission 
        Report (2005).'' July 2005.

        Statement Concurring in Part and Dissenting in Part, FTC v. 
        Creaghan A. Harry, individually and doing business as Hitech 
        Marketing, Scientific Life Nutrition, and Rejuvenation Health 
        Corp. (United States District Court, Northern District of 
        Illinois, Eastern Division), FTC File No: 042-3085, Case No.: 
        04C-4790, June 15, 2005.

        Dissenting Statement on ``Subject Line Labeling as a Weapon 
        Against Spam: A CAN-SPAM Report to Congress.'' June 2005.

        Concurring Statement, In the Matter of Genzyme Corporation and 
        Ilex Oncology, Inc. February 4, 2005.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

------------------------------------------------------------------------

------------------------------------------------------------------------
03/16/11        Before the            Prepared Statement of the Federal
                 Committee on                                    Trade Commission on the State of
                 Commerce, Science,                             Online Consumer Privacy
                 and
                 Transportation,
                 United States
                 Senate
------------------------------------------------------------------------
07/27/10        Before the            Prepared Statement of the Federal
                 Committee on                                    Trade Commission on Consumer
                 Commerce, Science,                             Privacy
                 and
                 Transportation,
                 United States
                 Senate
------------------------------------------------------------------------
07/27/10        Before the            Prepared Statement of the Federal
                 Subcommittee on                                       Commission: Oversight of the
                 Courts and                              Federal Trade Commission Bureau of
                 Competition Policy                                    Competition and the Department of
                 of the Committee            Justice Antitrust Division
                 on the Judiciary,
                 United States
                 House of
                 Representatives
------------------------------------------------------------------------
06/09/10        Before the            Prepared Statement of the Federal
                 Subcommittee on                                 Trade Commission: How the Federal
                 Antitrust,                                      Trade Commission Works to Promote
                 Competition                                           Competition and Benefit Consumers
                 Policy, and                       in a Dynamic Economy
                 Consumer Rights of
                 the Committee on
                 the Judiciary,
                 United States
                 Senate
------------------------------------------------------------------------
05/20/10        Before the            Prepared Statement of the Federal
                 Subcommittee on                                 Trade Commission On the
                 Financial Services                                    Commission's Fiscal Year 2011
                 and General                 Funding Request and Budget
                 Government of the                        Justification
                 Committee on
                 Appropriations,
                 United States
                 Senate
------------------------------------------------------------------------
02/04/10        Before the            Prepared Statement of the Federal
                 Committee on                                    Trade Commission on Financial
                 Commerce, Science,  Services and Products: The Role of
                 and Transportation                  the Federal Trade Commission in
                 of the United                              Protecting Consumers
                 States Senate
------------------------------------------------------------------------
09/10/09        Before the            Prepared Statement of the Federal
                 Committee on                                    Trade Commission on Scams Related
                 Homeland Security   to the Economic Stimulus: ``How the
                 and Governmental                                    FTC Works to Halt Fraudulent
                 Affairs, United        Schemes Exploiting the Economic
                 States Senate       Downturn and the Stimulus Package''
------------------------------------------------------------------------
07/08/09        Before the            Prepared Statement of the Federal
                 Subcommittee on                                 Trade Commission on ``Proposed
                 Commerce. Trade,                                      Consumer Financial Protection
                 and Consumer                 Agency: Implications For Consumers
                 Protection of the               and the Federal Trade Commission''
                 Committee on
                 Energy and
                 Commerce, United
                 States House of
                 Representatives
------------------------------------------------------------------------


------------------------------------------------------------------------

------------------------------------------------------------------------
03/31/09        Before the            Prepared Statement of the Federal
                 Subcommittee on                                 Trade Commission On ``Leveraging
                 Financial Services                                  FTC Resources to Protect Consumers
                 and General          of Financial Services and Promote
                 Government of the                                     Competition''
                 Committee on
                 Appropriations,
                 United States
                 House of
                 Representatives
------------------------------------------------------------------------
03/24/09        Before the            Prepared Statement of the Federal
                 Subcommittee on                                 Trade Commission on ``Consumer
                 Commerce, Trade,                                      Credit and Debt: The Role of the
                 and Consumer                            Federal Trade Commission in
                 Protection of the              Protecting the Public''
                 Committee on
                 Energy and
                 Commerce, United
                 States House of
                 Representatives
------------------------------------------------------------------------
09/23/08        Before the            Prepared Statement of the Federal
                 Subcommittee on                                 Trade Commission on Marketing Food
                 Financial Services                                 to Children and Adolescents: A
                 and General           Review of Industry Expenditures,
                 Government, and        Activities, and Self-Regulation
                 the Subcommittee
                 On Labor, Health
                 and Human
                 Services,
                 Education, and
                 Related Agencies,
                 of the Committee
                 on Appropriations,
                 United States
                 Senate
------------------------------------------------------------------------
05/14/08        Before the             The President's Fiscal Year 2009
                 Committee on                Funding Request and Budget
                 Appropriations,     Justification for the Federal Trade
                 Subcommittee on                                       Commission
                 Financial Services
                 and General
                 Government of the
                 United States
                 Senate
------------------------------------------------------------------------
04/08/08        Before the                           The Federal Trade Commission
                 Committee on               Reauthorization Act of 2008
                 Commerce, Science,
                 and Transportation
                 of the United
                 States Senate
------------------------------------------------------------------------
05/2/07         Before the                               On Protecting Consumer Access to
                 Subcommittee on       Generic Drugs: The Benefits of A
                 Commerce, Trade,               Legislative Solution to
                 and Consumer        Anticompetitive Patent Settlements
                 Protection of the       in the Pharmaceutical Industry
                 Committee On
                 Energy and
                 Commerce, United
                 States House of
                 Representatives
------------------------------------------------------------------------
04/10/07        Before the              Oversight Hearing on Technology
                 Commerce, Science,                      Issues at the Commission
                 and Transportation
                 Committee of the
                 United States
                 Senate
------------------------------------------------------------------------
01/17/07        Before the                    On Anticompetitive Patent
                 Committee on the     Settlements in the Pharmaceutical
                 Judiciary of the                              Industry
                 United States
                 Senate
------------------------------------------------------------------------
09/15/06        Before the            Prepared Statement of the Federal
                 Subcommittee on                                 Trade Commission on Internet
                 Trade, Tourism and         Governance: The Future of ICANN
                 Economic
                 Development of the
                 Committee on
                 Commerce, Science,
                 and
                 Transportation,
                 United States
                 Senate
------------------------------------------------------------------------
07/20/06        Before the Special    Prepared Statement of the Federal
                 Committee on                                    Trade Commission on Barriers to
                 Aging, United                            Generic Entry
                 States Senate
------------------------------------------------------------------------
05/11/06        Before the                   Social Security Numbers in
                 Subcommittee on                                       Commerce: Reconciling Beneficial
                 Commerce, Trade,          Uses With Threats to Privacy
                 and Consumer
                 Protection of the
                 Committee on
                 Energy and
                 Commerce. United
                 States House of
                 Representatives
------------------------------------------------------------------------
2/01/06         Before the            Prepared Statement of the Federal
                 Committee on                                    Trade Commission on Phone Records
                 Energy and          for Sale: Why Aren't Phone Records
                 Commerce, United                 Safe from Pretexting?
                 States House of
                 Representatives
------------------------------------------------------------------------
06/15/05        Before the                           Data Security and Cross-Border
                 Committee on                                     Fraud
                 Commerce, Science,
                 and Transportation
                 of the United
                 States Senate
------------------------------------------------------------------------

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    As a Commissioner of the FTC since 2004 and its Chairman since 
2009, I have come to know well the agency's jurisdiction, resources, 
and capabilities. I care deeply about the many challenges currently 
facing American consumers, whom the Commission is charged with 
protecting. My time at the FCC has been the most rewarding of my 
career. I would be honored to be able to continue helping to guide the 
Commission in its mission of protecting consumers against unfair or 
deceptive acts or practices and promoting competition.
    A primary function of the Commission is to bring law enforcement 
cases in the areas of consumer protection and competition. Doing this 
effectively requires not only knowledge of the law, but also knowledge 
of the challenges faced by consumers and businesses. My background as a 
lawyer and as a former chief counsel and staff director on the 
Judiciary Committee, and specifically, the Antitrust Subcommittee, has 
helped me in this regard. My six years at the Commission have added 
considerably to my knowledge of antitrust law and policy as well as the 
law and policy of consumer protection matters.
    My background and disposition also have provided me another skill 
that I think is indispensable to the job of FTC Chairman-the ability to 
work well with and build consensus among people with widely divergent 
views.
    The FTC is a bi-partisan agency, and this structure has served the 
agency and the public well. Despite its party composition, however, the 
Commission usually acts by consensus and I am proud to have worked to 
continue this tradition during my tenure as Chairman. Aside from 
relations with other Commissioners and public officials, I believe that 
a willingness to listen and an ability to understand the differing 
views of the many parties involved in agency actions is critical to 
fulfilling the Commission's mission.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Chairman of the FTC is the administrative head of the 
Commission, and I have been serving in this capacity since 2009. The 
Commission has approximately 1200 employees located in Washington, D.C. 
and regional offices around the country, and an annual budget 
approaching $300 million. It is the Chairman's responsibility to ensure 
that the agency has proper management and accounting controls, and to 
evaluate, monitor, and report on the effectiveness and efficiency of 
those controls. The FTC has developed programs to comply with specific 
statutory requirements to ensure proper management and accounting 
controls:

        (1) To comply with the Federal Managers' Financial Integrity 
        Act of 1982, the FTC established a separate branch, the 
        Financial Policy, Evaluation and Control Branch, within its 
        Financial Management Office. The duties of this branch are to 
        ensure that the ongoing internal control assessment program 
        provides assurance that proper accounting and administrative 
        controls are in place and operating effectively.

        (2) To comply with the Federal Information Security Management 
        Act of 2002, the agency has established a security compliance 
        program that ensures mission sensitive information is 
        safeguarded.

        (3) To comply with the Government Performance and Results Act 
        of 1993, the agency develops annual performance plans and 
        reports on its performance and financial status in its annual 
        Performance and Accountability Report (PAR) to monitor the 
        effective use of its resources in meeting its mission goals.

    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the Commission are (1) 
ensuring that the agency continues to stay abreast of and adapt to the 
technological changes affecting consumers and the marketplace; 
especially involving privacy; (2) stopping financial frauds and 
protecting consumers made vulnerable by the economic downturn; and (3) 
making the best use of the agency's limited resources.
    Technological advances have changed the way people interact, both 
socially and commercially. While these advances have produced great 
benefits for consumers, they also pose new challenges. The Internet has 
enhanced cultural awareness by allowing people to communicate globally 
at little cost, but it has also enabled malefactors from around the 
world to prey on American consumers. The ease with which technologies 
permit personal information to be broadly shared has many benefits, 
including facilitating social interactions, making financial credit 
quickly available, and assisting in medical diagnosis, but the 
collection and use of this personal information has also raised serious 
questions about privacy. On the competition front, technological 
changes have demanded that the FTC be quick and adaptive in its 
analysis of marketplace issues. The Commission's decision in May 2010 
not to seek to block Google's acquisition of mobile advertising network 
company AdMob, for example, was appropriately influenced by recent 
developments in the market, most notably a move by Apple Computer 
Inc.--the maker of the iPhone--to launch its own, competing mobile ad 
network.
    The financial hardships that so many American consumers face today 
have caused the FTC to make a priority of targeting the fraud and the 
sharp practices that aim to take the last dollar out of their pockets. 
In the past year, the FTC has brought more than 40 law enforcement 
actions to stop scams that prey on consumers suffering from the 
financial downturn. By working closely with state attorneys general, 
the Commission has expanded the reach of law enforcement efforts 
through hundreds of additional cases. In the past five years, the 
agency has filed more than 100 actions against financial service 
providers, and in the past ten years has obtained more than $500 
million in redress for consumers of these services. The FTC also is 
engaged in rulemaking and consumer education efforts related to 
financial services, both to define and stop fraudulent practices and to 
arm consumers with necessary information to enable them to avoid these 
frauds. Despite this activity, more can and should be done. A challenge 
facing the agency will be to determine how the Commission can best work 
with the new Consumer Financial Protection Bureau to ensure that 
consumers of financial products and services are better protected, but 
that these protections do not subject businesses to conflicting, 
redundant, or overly burdensome directives from the two agencies.
    The final principal challenge facing the Commission is to find a 
way to leverage limited resources to best serve the FTC's mission. The 
FTC is a small agency with a big mission. Our jurisdiction is broad, 
and covers both consumer protection and competition. Each year, the 
Commission receives hundreds of thousands of complaints. While we don't 
have the resources to investigate all of them, we use our expertise and 
talented staff to target the areas that harm consumers the most and to 
respond quickly and effectively to emergent problems. Working closely 
with other Federal agencies, state attorneys general, businesses, trade 
associations, consumer advocates, and others, the Commission needs to 
continue to be an aggressive defender of consumers.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am partially vested in the Motion Picture Association of America 
's (MPAA) 401(k) plan administered by Mass Mutual. No contributions 
were made after I resigned from the MPAA in September 2004. From my 
years working for Congress and at the FTC, I will be entitled to a 
pension after I retire, and I have invested in the Thrift Savings Plan.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have entered 
into with the Commission' s Designated Agency Ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself , on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    There is none.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    As Chairman and as a Commissioner of the FTC since 2004, I have 
advocated for and against numerous pieces of legislation, and the FTC 
has provided guidance and technical assistance to Congressional and 
Committee staff on both sides of the aisle. In these capacities I have 
also been involved in the execution of laws, deciding when and how to 
handle cases involving consumer protection and competition. In my 
capacity as a Commissioner and as Chairman of the FTC, I have also 
affected public policy, through varied actions including case 
selection, advocacy, statements, reports, research, and workshops. 
Please see attachments B and C for more information on my speeches, 
remarks, statements, and publications.
    As Counsel to Senator Kohl and to the Judiciary Committee from 1989 
through 2000-and to Senator Simon and Congressman Feighan before that--
I worked on a large number of legislative matters. These ranged from 
bankruptcy reform to crime policy to increasing the filing thresholds 
for merger reviews to encouraging the deployment of satellite 
television. In other words, one of my principal responsibilities was to 
influence legislation; during that time, I probably gave 
recommendations for literally hundreds of floor and committee votes. 
When I left the Hill to work for the MPAA, my principal legislative 
focus was more limited: to support measures that would reduce film 
piracy, especially on the Internet.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Since joining the FTC in 2004 I have acted in accordance with all 
applicable ethics laws and regulations, particularly the Standards of 
Conduct for Employees of the Executive Board, 5 C.F.R. Sec. 2635. I 
have worked closely with FTC ethics officials to ensure that my conduct 
upholds the agency's reputation for ethical behavior. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
the ethics agreement that I have entered into with the Commission's 
Designated Agency Ethics Official and that has been provided to this 
Committee. I am proud that during my tenure as Chairman, the FTC's 
ethics program has been recognized for excellence by the Office of 
Government Ethics.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    During my service as FTC Chairman and Commissioner, the agency has 
been involved in a large number of civil and administrative 
proceedings. These are detailed on the agency's website, www.ftc.gov. 
Additionally, I was named in my official capacity as Chairman of the 
FTC in the matter D.R. Horton, Inc. v. Jon Leibowitz, Chairman, et al., 
2010 U.S. Dist. LEXIS 117627 (N.D.Tex. Nov. 3, 2010). Plaintiff D.R. 
Horton sought declaratory and injunctive relief related to a civil 
investigative demand issued by the Commission in November 2009. 
Defendants Chairman Leibowitz and the FTC successfully moved to dismiss 
the complaint on the ground that the court lacked subject matter 
jurisdiction.
    I have not been involved in any MPAA-related litigation or agency 
proceeding. The MPAA, however, represented its member companies in 
connection with issues of common interest to the motion picture and 
television industry, and during the time I was an officer there, the 
MPAA was a named party in litigation and regulatory proceedings in this 
regard, and in disputes arising in the ordinary course of its business.
    The only other civil litigation in which I have been involved was a 
1986 landlord-tenant case in which I represented myself.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    There is nothing further.
                     d. relationship with committee
    l. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    If confirmed as a Commissioner of the Federal Trade Commission, I 
would work diligently with my fellow Commissioners to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures?
    If confirmed as Commissioner of the Federal Trade Commission, I 
would work diligently with my fellow Commissioners to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes
                                 ______
                                 
                        resume of jon leibowitz
Experience
Federal Trade Commission--2004 to Present
Chairman (March 2009 to Present)
Commissioner (September 2004 to March 2009)
        Supervise independent agency charged with protecting consumers 
        and promoting competition. Areas of special interest include: 
        spearheading law enforcement efforts, rulemaking, and consumer 
        education to protect consumers in the financial downturn; 
        spurring law enforcement and policy initiatives to protect 
        consumer privacy, especially online; supporting efforts to make 
        Do-Not-Call registrations permanent (enacted in 2008); 
        prioritizing cases, research, and legislation challenging anti 
        -competitive pharmaceutical (``pay-for-delay'') settlements; 
        encouraging the Commission to issue a report on consumer 
        protect ion and competition concerns with respect to so-called 
        Net Neutrality and municipal broadband; finalizing update of 
        merger guidelines; and supporting legislative efforts to ensure 
        the FTC retained jurisdiction over financial fraud and has the 
        authority it needs to confront modern challenges. Testified 
        before Congress on behalf of the Commission twenty times over 
        the last 5 years.
Motion Picture Association of America
Vice President, Congressional Affairs 2000-2004
        Represented interests of film industry before Congress on 
        intellectual property protection, anti- piracy initiatives, and 
        First Amendment issues.
Senate Judiciary Committee and Senator Herb Kohl
Democratic Chief Counsel and Staff Director 1980-2000
Subcommittee on Antitrust, Business Rights and Competition (1997-2000)
Subcommittee on Terrorism and Technology (1995-1996)
Subcommittee on Juvenile Justice (1991-1994)
        Drafted legislation, formulated strategy, built coalitions, 
        negotiated agreements, developed hearings, and supervised 
        subcommittee staff. Had overall staff responsibility for 
        Senator's policies and positions on Judiciary Committee. 
        Representative issues included mergers and acquisitions, 
        competition policy, oversight of the FTC and the DOJ Antitrust 
        Division, consumer protection, privacy, telecommunications, and 
        judicial selection, including Supreme Court nominations. 
        Directed bipartisan initiatives relating to delivery of 
        broadband technology to consumers, airline pricing, computer 
        industry business practices, and telephone and cable 
        competition. Worked on Hart-Scott-Rodino Antitrust Improvements 
        Act, which increased filing thresholds for merger reviews and 
        raised fees for large mergers, and the Brady Law, which 
        required a waiting period and background check for handgun 
        purchases.
U.S. Representative Edward Feighan
Counsel 1987-1988
        Counseled House Judiciary Committee Member on issues related 
        principally to antitrust, economic competitiveness, crime, and 
        gun control.
Senate Judiciary Committee and Senator Paul Simon
Counsel 1987-1988
        Worked on Senator's Committee staff and handled variety of 
        issues, including securities regulation, civil rights, and 
        civil liberties matters.
Private Practice 1984-1986
        Represented firm clients on corporate, commercial, and 
        securities matters.
Education
        New York University School of Law, J.D.--May 1984
        University of Wisconsin, Phi Beta Kappa, B.A. in American 
        History June 1980

    The Chairman. Thank you, Chairman Leibowitz.
    I'd like to go to you, Dr. Blank. I'm not sure of the 
protocol of all of this, but if I just mix it up a little bit, 
nobody will care. But we care about you.

  STATEMENT OF DR. REBECCA M. BLANK, NOMINATION TO BE DEPUTY 
             SECRETARY, U.S. DEPARTMENT OF COMMERCE

    Dr. Blank. Thank you very much, Chairman Rockefeller, 
Ranking Member Hutchison and other distinguished members of the 
panel. I appreciate the opportunity to be here today, and I'm 
honored to be the nominee for Deputy Secretary at the U.S. 
Department of Commerce. I'm particularly pleased at the 
opportunity to work with the newly confirmed Secretary, John 
Bryson.
    And I want to introduce my husband who is with me today, 
Hanns Kuttner. Unfortunately, our daughter, Emily, is at 
school. She's got a major exam this afternoon, so she could not 
be here.
    After more than 2 years at the Department of Commerce, I 
continue to be very excited about the work this organization 
does. In today's economy, there is no more important job than 
helping American businesses create jobs by being competitive 
and innovative.
    Each bureau in commerce supports American business, whether 
by providing weather forecasts, GDP statistics, trade 
assistance or measurement standards. To do that well, the 
department has to function well. During the past year, as 
Acting Deputy Secretary, I've served as the department's Chief 
Operating Officer, responsible for management and budget issues 
across the department's 12 bureaus. From August through 
September, I was privileged to serve as the Acting Secretary of 
Commerce.
    In both roles, I have been closely involved in the 
execution of commerce's programs. If confirmed, I hope that my 
experience will provide important continuity for the 
department, particularly as we advance vital national programs, 
such as NOAA's satellite program, in a tight fiscal 
environment.
    Over this past year, I've implemented a department-wide 
performance-measurement system. This provides quarterly 
information on how well each bureau is serving customers and 
managing its work.
    For example, we're tracking how long it takes to approve 
grants within the Economic Development Administration, and they 
have reduced that number from months to approximately 20 days.
    The U.S. Patent and Trademark Office is tracking how long 
it takes to provide patents, and their patent backlog has been 
reduced by 10 percent this last year, even as applications 
surged.
    In addition, I've worked with an excellent commerce team to 
design and implement an ongoing set of administrative cost 
savings. We expect to reduce our administrative costs by $143 
million in Fiscal Year 2012, with even greater savings in 2013.
    Ensuring that this broad department and its bureaus have 
appropriate management and accounting controls requires at 
least three things.
    First, sound judgment to identify what activities and 
information needs to be monitored in order to identify problems 
early and to track progress on high-risk activities. Second, a 
first-rate staff that run the day-to-day work of the bureau. 
And, last, a data system that provides accurate information on 
performance. Good information is necessary for good management 
decisions.
    I came to the Acting-Secretary role having already served a 
year and a half as Under Secretary for economic affairs. Since 
joining the department in 2009, I've been responsible for the 
final management and oversight of the Census Bureau and the 
Bureau of Economic Analysis.
    In that role, I oversaw $6 billion in budget expenditures 
in Fiscal Year 2010, much of it appropriated for the Decennial 
Census. Ultimately, the census came in on time and $1.8 billion 
under budget, at least in part because of close attention to 
management and budget issues.
    Prior to arriving at Commerce, I had the opportunity to 
work in the public, the private and the not-for-profit sectors. 
I have served as Dean of the Gerald R. Ford School of Public 
Policy at the University of Michigan, gaining important 
management experience in that role.
    If confirmed as Deputy Secretary of Commerce, I would 
dedicate myself to two primary goals. First, pushing forward on 
the initiatives designed to support American businesses, 
helping them grow and create jobs.
    This includes, for instance, working with NTIA on spectrum 
allocation or NIST to expand opportunities for faster and more 
effective technology transfer. Similarly, developing a strategy 
to support American manufacturing and doing more to promote 
investment in the U.S. by foreign and domestic firms will also 
spur job creation.
    Second, I will work to increase the department's efficiency 
by reducing our overhead costs, so some portion of budget 
reductions are absorbed by a decline in administrative costs.
    Major changes in the administrative structure of a 
department can only occur as part of a multi-year process with 
strong central commitment, communication and leadership. It 
should be the responsibility of the deputy secretary to see 
that that happens.
    As the global economy continues to expand, American 
companies must be innovative at home and competitive abroad. A 
primary mandate of the Department of Commerce is to provide the 
public goods, the data, the scientific information and the 
services that allow American businesses to compete effectively. 
If confirmed, I pledge to work with you to advance that agenda.
    I appreciate the opportunity to be here today and for your 
consideration of my nomination, and I look forward to your 
questions. Thank you.
    [The prepared statement and biographical information of Dr. 
Blank follow:]

  Prepared Statement of Dr. Rebecca M. Blank, Nomination to be Deputy 
                 Secretary, U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
members of the Committee, thank you for the opportunity to appear 
before you today as the nominee for Deputy Secretary of the U.S. 
Department of Commerce. I am honored President Obama nominated me for 
this position. I am particularly pleased at the opportunity to work 
closely with our newly-confirmed Secretary, John Bryson. I would also 
like to introduce my husband, Hanns Kuttner, who is able to be here 
today. Our daughter Emily is in school today.
    After more than two years at the Department of Commerce, I continue 
to be excited by its breadth and by the issues in which it engages. In 
today's economy, I do not believe there is a more important job than 
helping to create jobs and improve American competitiveness. At the 
Department of Commerce, our primary mission is to provide the critical 
public infrastructure that supports private sector growth and 
innovation. Each Bureau in Commerce supports American businesses, 
whether by providing weather forecasts, GDP statistics, trade 
assistance, or measurement standards.
    During the past year, as Acting Deputy Secretary, I've served as 
the Department's Chief Operating Officer, responsible for all 
management and budget issues across the Department's 12 bureaus and 
overseeing more than 46,000 employees. During the three months of 
August through October, I was privileged to serve as Acting Secretary 
of Commerce. In both roles, I have led the budget and management 
process and have been closely involved in monitoring the execution of 
Commerce's programs. If confirmed my experience will allow me to hit 
the ground running as the permanent Deputy Secretary. For instance, 
over the past year I have managed a Department-wide performance 
measurement system, which provides information on how well each Bureau 
is serving customers and managing its work. We are tracking how long it 
takes to approve grants in the Economic Development Administration 
(EDA), how long it takes to provide patents at the U.S. Patent and 
Trademark Office (PTO), measuring customer satisfaction with National 
Institute of Standards and Technology (NIST) products, tracking the 
timely release of data from the Census, and tracking coastal 
restoration by the National Oceanic and Atmospheric Administration 
(NOAA). In addition, I have worked with an excellent Commerce team to 
design and implement an ongoing set of administrative cost savings. We 
expect to reduce our Administrative costs by $143 million in Fiscal 
Year 2012, with even greater savings in Fiscal Year 2013.
    Ensuring that this broad Department and its Bureaus have 
appropriate management and accounting controls requires at least three 
things: First, sound judgment to identify what activities and 
information need to be monitored in order to identify problems early 
and to track progress on high-risk activities; second, a first-rate 
staff, both in the Deputy Secretary's office and within the Bureaus, 
who oversee the day-to-day work of the Department, from human resource 
management, to acquisitions, facilities, and budgets; and lastly, a 
data system that provides accurate information on performance. Good 
information is necessary for good management decisions. For example, we 
have started tracking information on the hiring process within each 
Bureau and documenting how much time each step in the process takes. 
This has allowed us to identify bottlenecks and reduce the time to 
hire, which helps attract stronger candidates. As a result of this 
effort, the average time to hire an employee within the Department of 
Commerce has gone from 105 days in 2010 to 79 days in the last quarter 
of 2011.
    I came to the Acting Deputy Secretary role having already served a 
year and a half as Under Secretary for Economic Affairs and as the 
Secretary's principal economic advisor. Since joining the Department of 
Commerce in 2009, I have been responsible for final management and 
oversight of the Census Bureau and the Bureau of Economic Analysis. In 
the Economics and Statistics Administration, I supervised a staff of 
economists and policy analysts who utilize Commerce data to shed light 
on current policy issues through reports and internal collaboration. I 
also oversaw $6 billion in budget expenditures in Fiscal Year 2010, 
much of it appropriated to fund the 2010 Decennial Census, the largest 
peacetime operation our government undertakes. I was closely involved 
with the final planning, execution, and oversight of the 2010 Census 
and worked with Census Director Bob Groves and his senior leadership, 
receiving weekly, sometimes daily, reports on key issues. Ultimately, 
the Census came in on time and $1.8 billion under budget, in part 
because of close attention to management and budget issues.
    Prior to arriving at Commerce, I've had the opportunity to work in 
the public, private, and not-for-profit sectors. Many years ago, I 
worked with a variety of heavy manufacturing industries as a consultant 
for an economic forecasting company, a job which taught me a great deal 
about the real world of business. I went on to acquire a Ph.D. in 
economics. In the years since I've held three types of positions.
    First, as an economic researcher, I have always been deeply 
interested in the ways in which the U.S. economy interacts with 
government policy. My work has focused on labor markets, on the well-
being of American families, on effective measurement of key economic 
concepts, and on the impact and evaluation of government policy 
efforts.
    Second, I have served in a number of management positions. For 
eight years, I was the Dean of the Gerald R. Ford School of Public 
Policy at the University of Michigan. In this role, I oversaw and 
managed a growing educational and research enterprise. While Dean, I 
successfully quadrupled the budget of the Ford School, built a new 
building, and started both an undergraduate and Ph.D. degree program. I 
worked within the budget, human resource, and planning systems of the 
University of Michigan, making sure that they were effectively 
implemented within my unit and working to improve these systems when 
needed. In addition, I have worked on the Boards of Directors of a 
number of non-profit organizations, with responsibility for overseeing 
their financial and management decision-making. I have run two major 
research centers, including the University of Michigan's National 
Poverty Center, effectively overseeing their staffing, finances, and 
programs.
    Third, I have been a public servant and government employee. I 
worked as a Senior Staff Economist at the Council of Economic Advisers 
during the George H.W. Bush Administration, and I returned as one of 
the three CEA members during the second term of President Clinton.
    If confirmed as Deputy Secretary of Commerce, I would dedicate my 
time to three goals. First, I would push forward on initiatives 
designed to support American businesses and help them grow and create 
jobs. This includes working with NIST to expand opportunities for 
faster and more effective technology transfer from labs to market; 
working with the National Telecommunications and Information 
Administration (NTIA) on spectrum reallocation; working with the 
International Trade Administration (ITA) and Minority Business 
Development Agency (MBDA) to promote exports and expand the National 
Export Initiative; working with PTO as it effectively implements the 
patent reform provisions of the America Invents Act and reduces the 
time needed for patent approval; working with EDA on effective economic 
development initiatives; and working with MBDA to support America's 
minority business entrepreneurs. I would expect to work closely with 
NOAA, particularly making sure that its weather satellite program is 
adequately funded and well operated and its fisheries management 
programs are implemented effectively. Two key areas where I expect to 
be involved, with Secretary Bryson's leadership, is to work across the 
Bureaus within Commerce to develop a strategy to support and promote 
American manufacturing and to promote investment in the U.S. by both 
foreign and domestic firms.
    Secondly, I would work to increase the Department's efficiency by 
reducing our overhead costs so that some portion of budget reductions 
are absorbed by a decline in administrative costs rather than imposing 
harmful cuts on important programs. I have highlighted some of our 
performance excellence initiatives already, but at the Department of 
Commerce we have launched a variety of cost-cutting initiatives, 
including acquisition reforms to reduce purchase costs, IT reforms, and 
facilities consolidation. Within an organization as complex and large 
as the Department of Commerce, these sort of administrative changes 
often require cultural changes in how work is organized and performed, 
changes that are not always welcomed by those who are used to long-time 
pre-existing systems. Hence, this type of change can only occur as part 
of a multi-year process with strong central commitment, communication, 
and leadership. It should be the responsibility of the Deputy Secretary 
to see that this process proceeds smoothly and effectively, and it is a 
responsibility for which I am well-equipped.
    Finally, we must address the challenge at Commerce, and at many 
other Departments, of retaining a skilled and motivated workforce. In 
the midst of pay freezes and potential benefit cuts, we need to ensure 
that government employment is an attractive option for hard-working, 
motivated, and skilled young adults. Without a first-rate civil 
service, the Department cannot deliver on its core functions for 
American businesses and our economy.
    As the global economy continues to expand, American companies must 
be innovative at home and competitive abroad. A primary mandate of the 
Department of Commerce is to provide the public goods--the data, the 
scientific information, and the services--that allow American 
businesses to compete effectively. If confirmed, I pledge to work with 
you to advance that agenda.
    I appreciate the opportunity to come before you today and for your 
consideration of my nomination. I look forward to your questions. Thank 
you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Rebecca Margaret Blank

        Rebecca M. Blank

        Becky Blank

    2. Position to which nominated: Deputy Secretary, Department of 
Commerce.
    3. Date of Nomination: November 1, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: U.S. Department of Commerce, 1401 Constitution Ave, NW 
        Washington, DC 20230.

    5. Date and Place of Birth: September 19, 1955; Columbia, MO.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children.

        Spouse: Johannes (Hanns) Charles Kuttner, Visiting Fellow, 
        Hudson Institute, Washington, D.C.; child: Emily Christa 
        Kuttner, Age 15.

    7. List all college and graduate degrees. Provide year and school 
attended.

------------------------------------------------------------------------
                      Dates                                     Date of
   Institution      attended          Degrees  received          degree
------------------------------------------------------------------------
University of       9/73-6/76                    B.S, Summa Cum Lau1976
 Minnesota
Massachusetts       9/79-6/83              Ph.D. (Economics)       1983
 Institute of
 Technology
------------------------------------------------------------------------

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    U.S. Department of Commerce, Washington, D.C.

        Acting Secretary, August 2011-0ctober 2011

        Acting Deputy Secretary, November 2010-March 2011 and May 2011-
        August 2011; and October 2011& present.

        Under Secretary for Economic Affairs, June 2009 to present.

    Brookings Institution, Washington, D.C.

        Robert S. Kerr Senior Fellow, Economic Studies, 2008-09.
        Robert S. Kerr Visiting Fellow, Economic Studies, 2007-08.

    University of Michigan, Ann Arbor, MI

        Joan and Sanford Weill Dean of Public Policy, Gerald R. Ford 
        School of Public Policy, 1999-2007.

        Henry Carter Adams Collegiate Professor of Public Policy, 
        Gerald R. Ford School of Public Policy, 1999-2008.

        Professor of Economics, Department of Economics, 1999-2008.

        Co-Director, National Poverty Center, 2002-2008.

    Council of Economic Advisers, Washington, D.C.

        Member-nominee, 1997-98; Member, 1998-99.

        Senior Staff Economist, 1989-90.

    Northwestern University, Evanston, IL

        Director, Joint Center for Poverty Research, 1996-97.

        Professor of Economics, 1994-1999; Associate Professor of 
        Economics, 1989-94.

        Research Faculty, Center for Urban Affairs and Policy Research. 
        1989-99.

        Associate Professor, School of Education and Social Policy. 
        1989-93.

        Co-Director, Northwestern/University of Chicago 
        Interdisciplinary Training Program in Poverty, Race, and 
        Underclass Issues. 1991-96.

    Princeton University, Princeton, NJ.

        Assistant Professor of Economics and Public Affairs, 1983-89.

        Department of Economics and Woodrow Wilson School of Public & 
        International Affairs.

    Massachusetts Institute of Technology, Cambridge, MA.

        Visiting Assistant Professor of Economics, 1988-89.

    University of Wisconsin-Madison, Madison, WI.

        Visiting Fellow, Department of Economics and Institute for 
        Research on Poverty, Fall 1985.

    Data Resources, Inc. Chicago, IL.

        Consultant & Educational Coordinator, 1976-79.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.
    Consultant for the State of Connecticut, Commission on Children, 
Nov-Dec 2007.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        Board of Directors, MDRC (formerly Manpower Demonstration 
        Research Corporation), 2000-09.

        Board of Trustees, Urban Institute, 2007-09.

        Board of Directors, Economic Policy Institute, 2008-09.

        Board of Directors, Citizens' Research Council of Michigan, 
        2000-08.

        Visiting Committee, Kennedy School of Government, Harvard 
        University, 2004-09.

        Advisory Council, Spotlight on Poverty and Opportunity, 2007-
        09.

        National Academy of Sciences

        Division Committee for the Behavioral and Social Sciences and 
        Education (DBASSE), National Research Council, 2003-08.

        DBASSE Executive Committee member, 2005-08.

        Committee on the Fiscal Future of the United States, 2008-09.

        DIW (a research/policy think tank). Berlin, Germany

        Honorary Advisory Council, DIW-DC, 2008-09.

        Association for Public Policy Analysis and Management

        President, 2007.

        Executive Committee member, 2006-08.

        Board Chair, Public Policy and International Affairs Program, 
        2003-06.

        Vice President, American Economic Association, 2007.

        Board of Editors, American Economic Journal: Economic Policy, 
        2007-09.

        Co-Editor, Labour Economics, 2004-2007; Associate Editor, 2007-
        09.

        Advisory Board, Journal of Economic Education, 2002-09.

        National Advisory Board and Senior Research Affiliate, National 
        Poverty Center, University of Michigan, 2008-09.

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

------------------------------------------------------------------------
                                        Position         Restrictive
    Social Club/          Dates         (Member/     Membership Policies
    Organization                        Officer)           (Yes/No)
------------------------------------------------------------------------
Bread for the World,  1976-present  Member           No
Washington, D.C.
------------------------------------------------------------------------
Amnesty               Around 2001-  Member           No
 International,        present
New York, NY
------------------------------------------------------------------------
Westmoreland          2008-present  Member Co-       Expects members to
 Congregational                      chair,           generally accept
 Church, UCC,                        Outreach         the religious
 Bethesda MD                         Ministries       precepts of the
                                     Committee        United Church of
                                     (2009-present)   Christ
------------------------------------------------------------------------
First Presbyterian    2000-08       Member and       Expects members to
 Church, Ann Arbor                   Elder (2004-     generally accept
 MJ                                  2008)            the religious
                                                      precepts of the
                                                      Presbyterian
                                                      Church
------------------------------------------------------------------------
Economic Dinner       1999-2008     Member           None
 Club,
Ann Arbor, MI
------------------------------------------------------------------------
American Economic     1981-present  Member, Exec     None
 Association                         Committee
                                     member (1995-
                                     97);
                                     Government
                                     Relations
                                     Committee
                                     member (2009)
                                     and Vice
                                     President
                                     (2007)
------------------------------------------------------------------------
Labor and Employment  1983-present  Member           None
 Relations
 Association
------------------------------------------------------------------------
Midwest Economics     1990-2005     Member,          None
 Association                         President
                                     (2001-02)
------------------------------------------------------------------------
Committee on the      1981-present  Member, Exec     None
 Status of Women in                  Comm member
 the Economics                       (1990-94),
 Profession                          Chair (1994-
                                     96)
------------------------------------------------------------------------
National Poverty      2008-09       Senior research  None
 Center, University                  affiliate and
 of Michigan                         member,
                                     National
                                     Advisorv Board
------------------------------------------------------------------------
Angell School PTO,    2001-07       Member           None
Ann Arbor, MI
------------------------------------------------------------------------
Westland Middle       2007-10       Member           None
 School PTA,
 Bethesda, MD
------------------------------------------------------------------------
Oxbridge              1999-08       Member           None
 Neighborhood
 Association,
Ann Arbor, MI
------------------------------------------------------------------------
Association for       1985-present  Member,          None
 Public Policy                       President
 Analysis and                        (2007),
 Management (APPAM)                  Executive
                                     Committee
                                     (2006-08),
                                     Policy Council
                                     (2001-04)
------------------------------------------------------------------------
Ann Arbor Art Center  2001-present  Member           None
------------------------------------------------------------------------
Friends of the        1997-99;      Member           None
 National Zoo          2007-presen
                       t
------------------------------------------------------------------------
Economists for Peace  About 1990-   Member           None
 and Security          present
 (earlier Economists
 Against the Arms
 Race)
------------------------------------------------------------------------
Bethesda-Chevy Case   2010-present  Member           None
 High School PTA
------------------------------------------------------------------------
Westmoreland Hills    2009-present  Member           None
 Citizens'
 Association,
Bethesda, MD
------------------------------------------------------------------------
DIW                   2001-04       Member,          None
                                     Scientific
                                     Advisory
                                     Committee
------------------------------------------------------------------------

    13. Have you ever been a candidate for and/or held a public office 
(elected, non elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Leila D. Wallace Award, First Place in Extemporaneous Speaking, 
        National Debate and Speech Contest, 1973

        Phi Beta Kappa, 1975

        National Science Foundation Graduate Fellowship, 1979-82

        Sloan Foundation Graduate Fellowship, 1982-83

        National Fellowship for Women in the Sciences, National Science 
        Foundation, 1988-89

        David Kershaw Award, 1993, Association for Public Policy 
        Analysis and Management (awarded to the young scholar whose 
        research has had the most impact on the public policy process)

        Faculty Research Associate, National Bureau of Economic 
        Research, 1990-2009

        Faculty Affiliate, Institute for Research on Poverty, 1994-2009

        Member (an elected honorary position), National Academy of 
        Social Insurance, 1997 to present

        Richard A. Lester Prize for the Outstanding Book in labor 
        Economics and Industrial Relations, 1997 (for the book It Takes 
        A Nation: A New Agenda for Fighting Poverty)

        Faculty Affiliate, Institute for Research on Poverty, 1994-2009

        Senior Research Affiliate, National Poverty Center, 2002-2009

        Lifetime National Associate, National Academy of Sciences, 2004 
        to present

        Fellow, Society of Labor Economists, 2006 to present
        Fellow, American Academy of Arts and Sciences, 2005 to present

        Research Fellow, IZA (Institute for the Study of Labor), 2007 
        to present

        Outstanding Alumni Achievement Award, University of Minnesota, 
        2008

        Eleanor Roosevelt Fellow, American Academy of Political and 
        Social Science, 2010 to present

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications
    Books

        Changing Inequality. Berkeley: University of California Press. 
        2011.

        Insufficient Funds: Savings, Assets, Credit and Banking Among 
        Low-Income Households (with Michael S. Barr). New York: Russell 
        Sage Foundation. 2009. (Co-editor with Barr and co-author on 
        one article in the volume.)

        Working and Poor: How Economic and Policy Changes are Affecting 
        Low Wage Workers (with Sheldon Danziger and Robert Schoeni). 
        New York: Russell Sage Foundation. 2006. (Co-editor with 
        Danziger and Schoeni and co-author on two articles in the 
        volume.)

        Measuring Racial Discrimination (with Marilyn Dabady and Connie 
        Citro). Washington, D.C.: National Research Council, National 
        Academy Press. 2004.

        Is the Market Moral? A Dialogue on Religion, Economics, and 
        Justice (with William McGurn). Washington, D.C.: Brookings 
        Institution. 2004.

        The New World of Welfare (with Ron Haskins). Washington, D.C.: 
        Brookings Institution. 2001. (Co-editor with Haskins and co-
        author of two articles in the volume.)

        Finding Jobs: Work and Welfare Reform (with David Card). New 
        York: Russell Sage Foundation. 2000. (Co-editor with Card and 
        co-author of two articles in the volume.)

        It Takes A Nation: A New Agenda for Fighting Poverty. 
        Princeton: Princeton University Press. 1997.

        Social Protection vs. Economic Flexibility: Is There a 
        Tradeoff? Chicago: University of Chicago Press. 1994. (Editor 
        and author of two articles in the volume.)

        Do Justice: Linking Christian Faith and Modern Economic Life. 
        Cleveland, OH: Pilgrim Press. 1992.

    Journal Articles and Book Chapters

        ``How Should We Think About Measuring Innovation and Change?'' 
        Survey of Current Business. Vol 90(2):2-4. February 2010.

        ``The Role of Economics in the Welfare-to-Work Reforms of the 
        1990s.'' In Better Living Through Economics. John J. Siegfried, 
        ed. Cambridge, MA: Harvard University Press. 2010.

        ``What We Know, What We Don't Know, and What We Need to Know 
        About Welfare Reform.'' In Welfare Reform and Its Long-term 
        Consequences for America's Poor. James P. Ziliak, ed. 
        Cambridge, UK: Cambridge University Press. 2009.

        ``Economic Change and the Structure of Opportunity for Less-
        Skilled Workers.'' In Changing Poverty, Changing Policies, 
        Maria Cancian and Sheldon H. Danziger, eds. New York: Russell 
        Sage Press. 2009.

        ``The New American Model of Work-Conditioned Public Support.'' 
        In United in Diversity? Comparing Social Models in Europe and 
        America, Jens Alber and Neil Gilbert, eds. Oxford, UK: Oxford 
        University Press. 2009.

        ``A Cautionary Tale About the Use of Administrative Data: 
        Evidence from Age of Marriage Laws'' (with Kerwin Kofi Charles 
        and James M. Sallee). American Economic Journal: Applied 
        Economics. Vol 1(2): 128-149. April2009.

        ``The Growing Problem of Disconnected Single Mothers'' (with 
        Brian K. Kovak). In Making the Work-Based Safety Net Work 
        Better, Carolyn J. Heinrich and John Karl Scholz, eds. New 
        York: Russell Sage Press. 2009.

        Improving the Measurement of Poverty (with Mark H. Greenberg). 
        The Hamilton Project Discussion Paper 2008-17. December 2008.

        ``A Christian Perspective on the Role of Government in a Market 
        Economy.'' In Global Neighbors: Christian Faith and Moral 
        Obligation in Today's Economy, Douglas A. Hicks And Mark 
        Valeri, eds. Grand Rapids, MI: Eerdmans. 2008.

        ``The Changing Incidence and Severity of Poverty Spells Among 
        Single Mothers'' (with David Card). American Economic Review. 
        Vol 98(2): 387-91. May 2008.

        ``How to Improve Poverty Measurement in the United States.'' 
        Journal of Public Analysis and Management. Vol 27(2): 233-54. 
        Spring 2008. Reprinted in Poverty, Welfare, and Public Policy, 
        Douglas J. Besharov and Douglas M. Call, eds. Wiley-Blackwell. 
        2010.

        ``Improving the Safety Net for Single Mothers Who Face Serious 
        Barriers to Work.'' Future of Children, Vol 17(2): 183-97. 
        Fall2007.

        ``Assessing Racial Discrimination: Methods and Measures'' (with 
        Douglas S. Massey). In Fragile Rights Within Cities: 
        Government, Housing, and Fairness. John Goering, ed. Lanham, 
        MD: Rowman and Littlefield. 2007.

        ``Introduction'' and editor of the special issue, ``Evaluating 
        Social Policy Changes in EU Countries.'' Journal of Labour 
        Economics. Vol 13(6):665-6. December 2006.

        ``Was Welfare Reform Successful?'' The Economists' Voice. Vol 
        3(4):Article 2. (http://www/bepress.com/ev/vol3/iss4/art2). 
        March 2006. Reprinted in The Economists' Voice: Top Economists 
        Take on Today's Problems, Joseph E. Stiglitz, Aaron S. Edlin, 
        and J. Bradford DeLong, eds. New York: Columbia University 
        Press. 2008.

        ``Are Less-Educated Women Crowding Less-Educated Men Out of the 
        Labor Market?'' (with Jonah Gelbach). In Black Males Left 
        Behind, Ronald B. Mincy, ed. Washington, D.C., Urban Institute 
        Press. 2006.

        ``What Did the 1990s Welfare Reforms Accomplish?'' In Public 
        Policy and the Income Distribution, Alan J. Auerbach, David 
        Card, and John M. Quigley, eds. New York: Russell Sage 
        Foundation. 2006.

        ``Market Behavior and Christian Behavior.'' In Faithful 
        Economics: The Moral Worlds of a Neutral Science, James W. 
        Henderson and John Pisciotta, eds. Waco, TX: Baylor University 
        Press. 2005.

        ``Poverty, Policy and Place: How Poverty and Policies to 
        Alleviate Poverty are Shaped by Local Characteristics.'' 
        International Regional Science Review. Vol 28(4):441-64. 
        October 2005.

        ``An Overview of Welfare-to-Work Efforts.'' CESifo DICE Report, 
        Journal of Institutional Comparisons. Vol 3(2): 3-7. Summer 
        2005.

        ``Tracing the Economic Impact of Cumulative Discrimination.'' 
        American Economic Review. Vol 95(2):99-103. May 2005.

        Comment on ``Assessing the Impact of Welfare Reform on Single 
        Mothers.'' Brookings Papers on Economic Activity. 2004(1):.96-
        102. 2004.

        ``Selecting Among Anti-Poverty Policies: Can an Economist be 
        Both Critical and Caring?'' Review of Social Economy. Vol 
        61(4):447-69. December 2003.

        ``Economics, Policy Analysis, and Feminism'' (with Cordelia W. 
        Reimers). In Feminist Economics Today: Beyond Economic Man, 
        Marianne Ferber and Julie Nelson, eds. Chicago: University of 
        Chicago Press. 2003.

        ``The Less Skilled Labor Market in Michigan.'' In Michigan at 
        the Millennium, Chapter 18, Charles L. Ballard, Paul N. 
        Courant, Douglas C. Drake, Ronald C. Fisher, and Elisabeth R. 
        Gerber, editors. East Lansing, MI: Michigan State University 
        Press. 2003.

        ``Changes in the Distribution of Children's Family Income Over 
        the 1990s'' (with Robert Schoeni). American Economic Review. 
        Vol 93(2):304-8. May 2003.

        ``U.S. Welfare Reform: What's Relevant for Europe?'' CESifo 
        Economic Studies. Vol 49(1):48-74. 2003. Reprinted in Hacienda 
        Publica Espafiola, Monograffa 2003, pp15-36.

        ``What Do Economists Have to Contribute to Policy Decision-
        Making?'' Quarterly Review of Economics and Finance. Vol 
        42(5):817-26. Winter 2002.

        ``Evaluating Welfare Reform in the U.S.'' Journal of Economic 
        Literature. Vol 40(4): 1105-66. December 2002.

        ``Can Equity and Efficiency Complement Each Other?'' Labour 
        Economics. Vol 9(4): 451-68. September 2002.

        ``Comments on Promoting Economic Literacy.'' American Economic 
        Review. Vol 92(2): 476-77. May 2002.

        ``The Clinton Legacy for America's Poor'' (with David T. 
        Ellwood). In American Economic Policy in the 1990s. Jeffrey A. 
        Frankel and Peter R. Orszag, eds. Cambridge, MA: MIT Press. 
        2002.

        ``The Economics of Welfare Programs.'' In International 
        Encyclopedia of the Social and Behavioral Sciences, Neil J. 
        Smelser and Paul B. Baltes, eds. Oxford: Pergamon. 2001.

        ``Labor and the Sustainability of Output and Productivity 
        Growth'' (with Matthew Shapiro). In The Roaring Nineties: Can 
        Full Employment be Sustained? Alan B. Krueger and Robert Solow, 
        eds. New York: Russell Sage. 2001.

        ``What Can Other Countries Learn About Fighting Poverty from 
        U.S. Welfare Reform?'' Zeitschrift fur Sozialreform. Volume 
        47(4):464-80. July/August 2001.

        ``Declining Caseloads/Increased Work: What Can We Conclude 
        About the Effects of Welfare Reform?'' Economic Policy Review. 
        Vol 7(2):25-36. 2001.

        ``What Causes Public Assistance Caseloads to Grow?'' Journal of 
        Human Resources. Vol 36(1):85-118. Winter 2001.

        ``An Overview of Trends in Social and Economic Well-Being, by 
        Race.'' In America Becoming: Racial Trends and Their 
        Consequences, Neil J. Smelser, William J. Wilson and Faith 
        Mitchell, eds. Washington, D.C.: National Academy Press. 2001.

        ``Strong Employment, Low Inflation: How Has the U.S. Economy 
        Done So Well?'' Canadian Public Policy. Vol 26( 
        Supplement):S175-86, July 2000.

        ``Enhancing Opportunities, Skills, and Security of American 
        Workers.'' In A Working Nation: Workers, Work and Government in 
        the New Economy, with David T. Ellwood, Rebecca M. Blank, 
        Joseph Blasi, Douglas Kruse, William A. Niskanen, and Karen 
        Lynn-Dyson. New York: Russell Sage Foundation. 2000.

        ``Comment: The State of British Economics.'' Economic Journal. 
        Vol 110(464):350-54. June 2000.

        ``Fighting Poverty: Lessons from Recent U.S. History.'' Journal 
        of Economic Perspectives. Vol 14(2):3-19. Spring 2000. 
        Reprinted in Race, Poverty and Domestic Policy, C. Michael 
        Hemy, ed. New Haven: Yale University Press. 2004.

        ``When Can Public Policy Makers Rely on Private Markets? The 
        Effective Provision of Social Services.'' Economic Journal. Vol 
        110(462):C34-C49. March 2000.

        ``Gender and Race in the Labor Market'' (with Joseph Altonji). 
        In Handbook of Labor Economics, Volume 3C. Orley C. Ashenfelter 
        and David Card, eds. New York, NY: Elsevier Science Press. 
        1999.

        ``What Goes Up Must Come Down? Explaining Recent Changes in 
        Public Assistance Caseloads'' (with Geoffrey Wallace). In 
        Economic Conditions and Welfare Reform. Sheldon Danziger, ed. 
        Kalamazoo, MI: Upjohn Institute. 1999.

        ``Labor Market Dynamics and Part-time Work.'' In Research in 
        Labor Economics, Vol 17. Solomon W. Polachek, ed. Greenwich, 
        CN: JAI Press. 1998.

        ``Trends in the Welfare System.'' In Welfare, the Family, and 
        Reproductive Behavior: Research Perspectives. National Research 
        Council, Robert Moffitt, ed. Washington, D.C.: National Academy 
        Press. 1998.

        ``Contingent Work in a Changing Labor Market.'' In Generating 
        Jobs: How to Increase Demand for Less-Skilled Workers. Richard 
        B. Freeman and Peter Gottschalk, eds. New York: Russell Sage 
        Foundation. 1998.

        ``Why Has Economic Growth Been Such an Ineffective Tool Against 
        Poverty in Recent Years?'' In Poverty and Inequality: The 
        Political Economics of Redistribution, Jon Neill, ed. 
        Kalamazoo, MI: W.E. Upjohn Institute for Employment Research. 
        1997.

        ``Research and Policy Reflections on the Structural Changes 
        Occurring in North American Labour Markets.'' In Transition and 
        Structural Change in the North American Labour Market, Michael 
        G. Abbott, Charles M Beach and Richard P. Chaykowski, eds. 
        Kingston, Ontario: IRC Press at Queen's University. 1997.

        ``Policy Watch: The 1996 Welfare Reform.'' Journal of Economic 
        Perspectives. Vol 11(1): 169-77. Winter 1997.

        ``The Misdiagnosis of Eurosclerosis.'' The American Prospect. 
        No. 30:81-85. January-February 1997.

        ``State Abortion Rates: The Impact of Policies, Providers, 
        Politics, Demographics, and Economic Environment'' (with 
        Christine C. George and Rebecca A. London). Journal of Health 
        Economics. Vol 15:513-53. Fall 1996.

        ``Trends in the Working Poor: The Impact of Economy, Family, 
        and Policy'' (with Rebecca London). In America's Working Poor. 
        Thomas R. Swartz and Kathleen Maas Weigert, eds. Notre Dame, 
        IN: University of Notre Dame Press. 1996.

        ``When Do Women Use AFDC and Food Stamps? The Dynamics of 
        Eligibility vs. Participation'' (with Patricia Ruggles). 
        Journal of Human Resources. Vol 31(1):57-89. Winter 1996.

        ``Trends in Poverty in the United States.'' In The State of 
        Humanity, Julian L. Simon, editor. Cambridge, MA: Blackwell. 
        1995.

        ``Teen Pregnancy: Government Programs Are Not the Cause.'' 
        Feminist Economics. Vol 1(2):47-58. Summer 1995.

        ``Poverty and Public Policy in the 1990s.'' In Populations at 
        Risk in America. George J. Demko and Michael G. Jackson, eds. 
        Boulder, CO: Westview Press. 1995.

        ``Changes in Inequality and Unemployment Over the 1980s: 
        Comparative Cross-National Responses.'' Journal of Population 
        Economics. Vol 8(1):1-21. February 1995.

        ``Outlook for the U.S. Labor Market and Prospects for Low-Wage 
        Entry Jobs.'' In The Work Alternative: Welfare Reform and the 
        Realities in the Job Market. Demetra S. Nightingale and Robert 
        H. Haveman, eds. Washington, D.C.: Urban Institute Press. 1995.

        ``Policy Watch: Proposals for Time-Limited Welfare.'' Journal 
        of Economic Perspectives. Vol 8(4):183-93. Fall 1994.

        ``The Employment Strategy: Public Policies to Increase Work and 
        Earnings.'' In Confronting Poverty: Prescriptions for Change. 
        Sheldon H. Danziger, Gary D. Sandefur, and Daniel H, Weinberg, 
        eds. Cambridge, MA: Harvard University Press. 1994.

        ``Does a Larger Social Safety Net Mean Less Economic 
        Flexibility?'' In Working Under Different Rules, Richard B. 
        Freeman, ed. New York: Russell Sage Foundation. 1994.

        ``Short-term Recidivism Among Public Assistance Recipients.'' 
        American Economic Review. Vol 84(2):49-53. May 1994.

        ``The Widening Wage Distribution and its Policy Implications.'' 
        In Aspects of Distribution of Wealth and Income. Dimitri B. 
        Papadimitriou, ed. New York: St. Martin's Press. 1994.

        ``Poverty, Income Distribution, and Growth: Are They Still 
        Connected?'' (with David Card). Brookings Papers on Economic 
        Activity. Vol 1993(2):285-325. 1993.

        ``Why Were Poverty Rates So High in the 1980s?'' In Poverty and 
        Prosperity in the Late Twentieth Century, Dimitri B. 
        Papadimitriou and Edward N. Wolff, eds. London: Macmillan 
        Press. 1993.

        ``Responding to Need: A Comparison of Social Safety Nets in the 
        U.S. and Canada'' (with Maria Hanratty). In Small Differences 
        that Matter, David Card and Richard Freeman, eds. Chicago: 
        University of Chicago Press. 1993.

        ``What Should Mainstream Economists Learn from Feminist 
        Theory?'' In Beyond Economic Man: Feminist Theory and 
        Economics,'' Marianne A. Ferber and Julie A. Nelson, eds. 
        Chicago: University of Chicago Press. 1993.

        Multiple Program Use in a Dynamic Context: Data From the SIPP 
        (with Patricia Ruggles). Report to the U.S. Bureau of the 
        Census, No 9301. December 1992.

        ``Using the Survey of Income and Program Participation to 
        Understand Poverty and Economic Need,'' (with Patricia 
        Ruggles). Journal of Economic and Social Measurement. Vol 
        18:155-76. 1992.

        ``Down and Out in North America: Recent Trends in Poverty in 
        the U.S. and Canada'' (with Maria Hanratty). Quarterly Journal 
        of Economics. Vol 107(1):233-54. February 1992.

        ``A Feminist Perspective on Economic Man?'' In Revolutions in 
        Knowledge: Feminism in the Social Sciences, Susan R. Zalk and 
        Janice Gordon-Kelter, eds. Boulder, CO: Westview Press. 1992.

        ``The Effects of Double-Blind versus Single-blind Reviewing: 
        Experimental Evidence from the American Economic Review.'' 
        American Economic Review. Vol 81(5):1041-67. December 1991. 
        Reprinted in Publishing Economics: Analyses of the Academic 
        Journal Market in Economics, Joshua Gans, ed. Cheltenham, UK: 
        Edward Elgar. 2000.

        ``Recent Trends in Insured and Uninsured Unemployment: Is There 
        an Explanation?'' (with David Card). Quarterly Journal of 
        Economics. Vol 106(4):1157-89. November 1991.

        ``Understanding Part-time Work.'' In Research in Labor 
        Economics, Volume 11, Lauri J. Bassi and David L. Crawford, 
        eds. Greenwich, CN: JAI Press. 1990.

        ``Are Part-time Jobs Bad Jobs?'' In A Future of Lousy Jobs? The 
        Changing Structure of U.S. Wages, Gary Burtless, editor. 
        Washington, D.C.: The Brookings Institution. 1990.

        ``Recent Trends in Housing Conditions Among the Urban Poor'' 
        (with Harvey S. Rosen). In Research in Urban Economics, Volume 
        8, Mark A Hughes and Therese J. McGuire, eds. Greenwich, CN: 
        JAI Press. 1990.

        ``Linking Faith and Economics: The UCC Experience'' (with 
        Audrey R. Chapman). PRISM: A Theological Forum for the United 
        Church of Christ. Vol 5(1):5-14. Spring 1990.

        ``Why Are Wages Cyclical in the 1970s?'' Journal of Labor 
        Economics. Vol 8(1):16-57. January 1990.

        ``Analyzing the Duration of Welfare Spells.'' Journal of Public 
        Economics. Vol 39(3):245-73. August 1989.

        ``Women and the Economics of Military Spending'' (with Lourdes 
        Beneria). In Rocking the Ship of State: Towards A Feminist 
        Peace Politics, Adrienne Harris and Ynestra King, eds. Boulder, 
        CO: Westview Press. 1989.

        ``Disaggregating the Effect of the Business Cycle on the 
        Distribution of Income.'' Economica. Vol 56(2):141-63. May 
        1989.

        ``The Role of Part-Time Work in Women's Labor Market Choices 
        Over Time.'' American Economic Review. Vol 79(1):295-99. May 
        1989.

        ``The Effect of Medical Need and Medicaid on AFDC 
        Participation.'' Journal of Human Resources. Vol 24(1):54-87. 
        Winter 1989.

        ``Poverty and Policy: The Many Faces of the Poor.'' In 
        Prophetic Visions and Economic Realities: Protestants, Jews, 
        and Catholics Confront the Bishops' Letter on the Economy, 
        Charles R. Strain, editor. Grand Rapids, MI: William B. 
        Eerdmans Publishing Co, 1989.

        ``Women's Paid Work, Household Income, and Household Well-
        Being.'' In The American Woman 1988-89: A Status Report, Sara 
        E. Rix, editor. New York, NY: W.W. Norton & Co, 1988. p123-61.

        ``The Effect of Welfare and Wage Levels on the Location 
        Decisions of Female-Headed Households.'' Journal of Urban 
        Economics. Vol 24(2):186-211. September 1988.

        ``Simultaneously Modeling the Supply of Weeks and Hours of Work 
        Among Female Household Heads.'' Journal of Labor Economics. Vol 
        6(2):177-204. April 1988.

        ``Welfare Payment Levels and the Migration of Female-Headed 
        Families.'' In Readings, Issues, and Questions in Public 
        Finance, Eleanor Brown, editor. Homewood, IL: Richard D. Irwin, 
        Inc, 1988.

        ``Part-Time Work and Wages Among Adult Women.'' Industrial 
        Relations Research Association Series, Proceedings of the 39th 
        Annual Meeting. Madison, WI: Industrial Relations Research 
        Association, May 1987. p479-86.

        ``Macroeconomics, Income Distribution and Poverty'' (with Alan 
        S. Blinder). In Fighting Poverty: What Works and What Doesn't, 
        Sheldon H. Danziger and Daniel H. Weinberg, eds. Cambridge, MA: 
        Harvard University Press, 1986.

        ``The Effect of U.S. Defense Spending on Employment and 
        Output'' (with Emma Rothschild). International Labour Review. 
        Vol 124(6):677-97. December 1985.

        ``The Impact of State Economic Differentials on Household 
        Welfare and Labor Force Behavior.'' Journal of Public 
        Economics. Vol 28(1):25-58. October 1985.

        ``An Analysis of Worker Sectoral Choice: Public vs. Private 
        Employment.'' Industrial and Labor Relations Review. Vol 
        38(2):211-24. January 1985.

    Book Reviews

        ``A Review of America Works.'' Industrial and Labor Relations 
        Review. Vol 62(2):252-253. January 2009.

        ``A Review of the Labor Market Discussion in the 2006 Economic 
        Report of the President.'' Journal of Economic Literature. Vol 
        44(3):669-73. September 2006.

        ``A Review of The Moral Ecology of Markets.'' International 
        Journal of Social Economics Vol 33(11-12): 862-63. Fall 2006.

        ``Worker Needs and Government Response: A Comment on Working in 
        America: A Blueprint for the New Labor Market.'' Industrial and 
        Labor Relations Review. Vol 55(4): 733-36. July 2002.

        ``A Review of The Color of Opportunity: Pathways to Family, 
        Welfare, and Work.'' Journal of Economic Literature. Vol 
        40(2):550-51. June 2002.

        ``A Review of Does Training for the Disadvantaged Work?, What 
        Employers Want, and Job Creation and Destruction.'' Journal of 
        Policy Analysis and Management. Vol 16(1): 311-4. Fall 1997.

        ``A Review of Welfare Realities.'' Journal of Economic 
        Literature. Vol 33(3):1363-4. September 1995.

        ``A Review of The Evaluation of the Washington State Family 
        Independence Program.'' Industrial and Labor Relations Review. 
        Vol 48(4):860-l. July 1995.

        ``A Review of Impostors in the Temple,'' Journal of Economic 
        Education. Vol 24(3): 283-6. Summer 1993.

        ``A Review of Evaluating Employment and Training Programs,'' 
        Journal of Policy Analysis and Management. Vol 12(3):596-8. 
        Summer 1993.

        ``A Review of Understanding the Gender Gap,'' Economica. Vol 
        59(233):123-4. February 1992.

        ``A Review of Dollars and Dreams,'' Journal of Economic 
        Literature. Vol 27(1):92-3. March 1990.

        ``A Review of Working but Poor,'' Journal of Economic 
        Literature. Vol 26(4):1795-6. December 1988.

        ``A Review of Work, Health and Income Among the Elderly,'' 
        Journal of Human Resources. Vol 23(3):397-411. Summer 1988.

        ``A Review of Gender in the Workplace,'' Journal of Economic 
        Literature. Vol 26(2): 728-9. June 1988.

    Articles For A Broader Public

        ``Counting the Cost.'' Sojourners. Commentary. Vol 38(4):7. 
        April 2009.

        ``Poverty and Economic Stimulus'' (with Mark H. Greenberg.) 
        Real Clear Politics, On-line opinion piece. February 10, 2009.

        ``Promoting Banking Services among Low-Income Customers.'' New 
        England Community Developments. Federal Reserve Bank of Boston. 
        2008, Issue 3.

        ``Fighting Poverty in the Land of Opportunity.'' Charlotte 
        Observer, editorial. Wednesday, December 17, 2008.

        ``Decreasing Poverty and Increasing Opportunity in America.'' A 
        memo to President-Elect Obama. The Brookings Institution. 
        November 24, 2008.

        ``Remeasuring Poverty.'' Los Angeles Times, editorial. Sunday, 
        September 25, 2008.

        ``How to Wage the Next War on Poverty: Advising and Grading the 
        Candidates.'' Pathways: a magazine on poverty, inequality and 
        social policy. Issue 1: 17-20. Winter 2008.

        ``Should Michigan Raise the Minimum Wage?'' Detroit Free Press, 
        editorial. Sunday, March 5, 2006.

        ``Living Faithful Lives in a Market Economy,'' Church and 
        Society, Presbyterian Church (U.S.A.) Vol 96(4): 12-17, March/
        April 2006.

        ``Wege aus der Armutsfalle: Lehren aus der Reform der 
        Offentlichen Fiirsorge in den USA.'' Neue Zurcher Zeitung, 
        (Zurich, Switzerland), special section on economic issues. 
        Sunday, August 31, 2003.

        ``Welfare Reform Reauthorization'' (with Ron Haskins). Poverty 
        Research News. Joint Center for Poverty Research. Vol 5(6). 
        November-December 2001.

        ``Welfare and the Economy.'' Welfare Reform and Beyond, Policy 
        Brief No. 7. Washington, D.C., Brookings Institution. September 
        2001.

        ``Economy Poses Challenge to State's Welfare System.'' Detroit 
        Free Press, editorial. Tuesday, September 11, 2001.

        ``Revisiting Welfare'' (with Ron Haskins). Washington Post, 
        editorial. February 14, 2001.

        ``A Helping Hand Isn't Enough.'' Chicago Tribune, editorial. 
        May 29, 1997.

        ``Welfare Recipients Aren't the Only Ones with Plenty of Hard 
        Work Ahead.'' Chicago Tribune, Sunday Perspective. January 12, 
        1997.

        ``Uncertain Days Ahead for America's Poor.'' Chicago Tribune, 
        editorial. November 17, 1995.

        ``Unwed Mothers Need Role Models, Not Roll Backs.'' Wall Street 
        Journal, editorial. March 7, 1995.

        ``Block Grants Ignore Feds' Welfare Role.'' Newsday, editorial. 
        February 16, 1995.

        ``The Welfare Pit: The Climb Out Isn't Easy or Cheap.'' Chicago 
        Tribune, editorial. March 23, 1994.

        ``The New Model Democrat: Can We Look to Clinton for a New 
        Model of Economic Activism?'' New Economy. Autumn 1993. p32-5.

        ``Assisting Low Income Women into the Labor Market.'' Testimony 
        to the Clinton Administration Task Force on Welfare Reform. 
        August 11, 1993.

        ``Social Scientists and the Problem of Poverty,'' The Chronicle 
        of Higher Education. Vol 38(48):Bl. August 5, 1992.

        Growth is Not Enough: Why The Recovery of the 1980s Did So 
        Little to Reduce Poverty. Report to the Joint Economic 
        Committee, Congress of the United States. Washington, D.C.: 
        Joint Economic Committee Reports, September 26, 1991.

        ``Families Must Be our Priority.'' Chicago Tribune, editorial. 
        September 30, 1991.

        ``Poor Kids Might Want to Go North.'' Joint with Maria 
        Hanratty). Cleveland Plain Dealer, editorial. August 28, 1991.

    Current Working Papers

        ``The Impact of Earnings Disregards on the Behavior of Low 
        Income Families'' (with Jordan Matsudaira). National Bureau of 
        Economic Research Working Paper #14038. May 2008.

        ``Public Policies to Alter the Use of Alternative Financial 
        Services Among Low-Income Households.'' Paper prepared for the 
        Federal Reserve Board of Governors. April 2008.

        ``Labor Markets and Human Capital Investment in Michigan: 
        Challenges and Strategies'' (with James M. Sallee). Paper 
        prepared for the conference Where Do We Go From Here? An 
        Agenda-Setting Conference for the Economic Issues Facing 
        Michigan. March 2006.

        ``What Has Welfare Reform Accomplished? Impacts on Welfare 
        Participation, Employment, Income, Poverty, and Family 
        Structure,'' (with Robert Schoeni). National Bureau of Economic 
        Research Working Paper No. 7627. Cambridge, MA: NBER. March 
        2000.
Speeches:
    In my recent roles inside government (Under Secretary, Acting 
Deputy Secretary, and Acting Secretary), I have given frequent public 
talks on issues related to my work and Administration policy.
    Prior to joining government service in 2009, I typically gave 
seminars, speeches, served as a panelist, or was in a public discussion 
multiple times each month. Many of these talks addressed particular 
aspects of the current economic situation.
    Among the most visible talks that I gave prior to joining the 
Administration in 2009 are the named lectures I was invited to deliver, 
which I list here:

        Distinguished Public Policy Lecture, Institute for Policy 
        Research, Northwestern University, April 2009.

        Aaron Wildavsky Lecture, Goldman School of Public Policy, UC-
        Berkeley, March 2009.

        Sulzberger Lecture, Sanford Institute of Public Policy, Duke 
        University, September 2008.

        McMylar Lecture, Department of Economics, Case Western Reserve 
        University, April 2007.

        American Enterprise Lecture, Furman University, March 2007.

        Alice Cook Lecture, School of Industrial and Labor Relations, 
        Cornell University, October 2006.

        Kurt W Rothschild Lecture, Department of Economics, Johannes 
        Kepler University, Linz, Austria, November 2005.

        Bazzani Lecture, Institute for Government & Public Affairs, 
        University of Illinois, October 2004.

        Monroe-Paine Lecture, Truman School, University of Missouri, 
        March 2003.

        Wellington-Burnham Lecture, Department of Economics, Tufts 
        University, October 2002.

        Merrick Lecture, Department of Economics, University of 
        Virginia, April 2002.

        Adam Smith Lecture, European Association of Labour Economists, 
        September 2001.

        J Douglas Gibson Lecture, School of Policy Studies, Queen's 
        University, Canada, March 2000.

        Distinguished Lecture on Economics in Government, Society of 
        Government Economists, January 2000.

        Frank Paish Lecture, Royal Economic Society, April 1999.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        ``Understanding the Impact of the Drilling Moratorium on the 
        Gulf Coast Economy.'' Testimony to the Small Business 
        Committee, U.S. Senate. September 16, 2010.

        ``Understanding the Recently Released Data from the Census 
        Bureau on Income, Poverty and Health Insurance Coverage for 
        2008.'' Testimony to the Joint Economic Committee, U.S. 
        Congress. September 10, 2009.

        ``What Business Should Do to Prepare for the H1N1 Flu.'' 
        Testimony to the Committee on Small Business, U.S. House of 
        Representatives. September 9, 2009.

        ``Nominations Hearing, Under Secretary for Economic Affairs.'' 
        Testimony to the Senate Commerce, Science, and Transportation 
        Committee. May 19, 2009

        ``What Do the Recently-Released U.S. Poverty Numbers Tell Us?'' 
        Testimony to the Joint Economic Committee, U.S. Congress. 
        September 25, 2008.

        ``Why the United States Needs an Improved Measure of Poverty.'' 
        Testimony to the Subcommittee on Income Security and Family 
        Support, House Ways and Means Committee, U.S. Congress. July 
        17, 2008.

        ``What Does the Unemployment Rate Indicate about the Weak Labor 
        Market?'' Testimony to the Subcommittee on Income Security and 
        Family Support, House Ways and Means Committee, U.S. Congress. 
        April 10, 2008.

        ``If the Economy's So Bad, Why is the Unemployment Rate So 
        Low?'' Testimony to the Joint Economic Committee, U.S. 
        Congress. Hearings on the Release of the February 2008 
        Unemployment Numbers. March 7 , 2008.

        ``Employment, Job Opportunities, and Inequality among Workers 
        in the U.S. Economy,'' Testimony to the House Financial 
        Services Committee. U.S. House of Representatives, Hearings on 
        the State of the Economy, the State of the Labor Market and 
        Monetary Policy. February 16, 2007.

        ``Nominations Hearing, CEA Member.'' Testimony to the Senate 
        Committee on Banking, Housing, and Urban Affairs. October 1997.

        ``The Causes and Consequences of Rising Out-of-Wedlock 
        Birthrates.'' Testimony to the Subcommittee on Human Resources, 
        Ways and Means Committee, U.S. House of Representatives, 
        Hearings on Welfare Reform. January 13, 1995.

        ``Current Trends in the Poverty and Income Statistics.'' 
        Testimony to the Subcommittee on Human Resources, Ways and 
        Means Committee, U.S. House of Representatives. September 10, 
        1992.

        Growth is Not Enough: Why The Recovery of the 1980s Did So 
        Little to Reduce Poverty. Report to the Joint Economic 
        Committee, Congress of the United States. Washington, D.C.: 
        Joint Economic Committee Reports, September 26, 1991.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been closely involved with the programs of the Department of 
Commerce since I was sworn in as Under Secretary for Economic Affairs 
in June 2009. I became Acting Deputy Secretary in November 2009, served 
as the Acting Secretary for almost 3 months while awaiting Secretary 
Bryson's confirmation and am now back in the Acting Deputy Secretary 
position. As a result, I am well acquainted with the Department and its 
activities. I have worked closely with the leadership in all the 
Department's twelve Bureaus as well as in the Office of the Secretary. 
And I have met with many of the individuals and organizations (both 
within and outside the government) who partner with the Department on 
issues such as trade and innovation. I am particularly familiar with 
the budget and management issues of the Department. During my time as 
Acting Deputy Secretary and Acting Secretary, I worked to implement the 
FY 2011 budget following an extended Continuing Resolution; to shepherd 
the FY 2012 budget as it moved through the Administration and then to 
the Congress; and to prepare a proposed FY 2013 budget for the Office 
of Management and Budget. I have implemented a Department-wide 
performance measurement system, worked closely on reducing 
administrative costs, and overseen a wide variety of management issues 
across the various Bureaus within the Department of Commerce. 
Furthermore, I am highly familiar with the substantive work of the 
Department and have worked closely with the Bureaus on issues that 
range from the National Export Initiative, to investments in weather 
satellites, to patent reform, to Census data improvements, to 
supporting innovation and tech transfer, and a host of other topics.
    My background as an economist has been particularly helpful in 
preparing me for this job in the Department of Commerce. I am familiar 
with cost-benefit analysis and program evaluation. I also understand 
the economic policy issues that Commerce is deeply involved with, 
including trade, competitiveness, innovation, spectrum management, and 
economic development. Furthermore, my time as a researcher and 
university administrator has helped me understand the parts of Commerce 
that support scientific research and its applications. This includes 
the work of the National Institute of Standards and Technology (NIST), 
as well as much of the research work inside NOAA. As Under Secretary, I 
became very familiar with the data available from the Census Bureau and 
the Bureau of Economic Analysis.
    After more than two years at the Department of Commerce, I continue 
to be fascinated by its breadth and by the issues in which it engages. 
Each Bureau in Commerce supports American business in one form or 
another, whether providing weather forecasts, GDP statistics, trade 
assistance, or support to manufacturers. At this particular moment in 
time, when America is in need of a strong, stable, and competitive 
economy, I do not believe there is any more important job than helping 
to support private sector growth and innovation. I would count myself 
honored and fortunate to be able to serve as Deputy Secretary of the 
Department of Commerce, whose primary mission is to provide the 
government services that foster private sector growth and opportunity.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Upon joining the Department of Commerce in 2009 as Under Secretary 
for Economic Affairs, I was responsible for final management oversight 
of the Census Bureau and the Bureau of Economic Analysis. In FY2010, 
this meant that I was responsible for over $6 billion in budget 
expenditures, much of it appropriated to fund the 2010 Decennial 
Census. I was closely involved with the final planning, execution, and 
oversight the 2010 Census. I worked closely with Census Director Bob 
Groves and his senior leadership, receiving weekly (and sometimes 
daily) reports on key issues, with particular attention to information 
that would provide an early signal of potential problems. This included 
ongoing attention to budgets and expenditures. Ultimately, the Census 
came in $1.8 billion under budget, in part because of close attention 
to management and budget issues.
    As Acting Deputy Secretary since November 2009, I have served as 
the Chief Operating Officer of the Department with responsibility for 
all management and budget issues. Making sure that the Department and 
its Bureaus have appropriate management and accounting controls 
requires at least three things: (1) Judgment about which data to watch 
and what information is needed to adequately monitor high-risk 
activities; (2) A first-rate group of staff, both in the Deputy 
Secretary's office and within the Bureaus, who oversee the day-to-day 
work of the Department, from human resource management, to 
acquisitions, to facilities, to budgets; and (3) A data system that 
provides information on management and accounting performance. Good 
information is necessary to good management decisions. For instance, we 
have started tracking information on the hiring process within each 
Bureau, documenting how much time each step in the hiring process 
takes. This has allowed us to identify bottlenecks and reduce the time 
to hire, which helps attract stronger candidates. As a result of this 
effort, every Bureau inside Commerce is reporting shorter hiring times. 
This is one example of the sort of management controls that need to be 
implemented across all areas of activity.
    Prior to joining the Department of Commerce, I served as Dean of 
the Gerald R. Ford School of Public Policy at the University of 
Michigan. In this role, I quadrupled the budget of the Ford School, 
built a new building, and started both an undergraduate and Ph.D. 
degree program. As Dean, I was part of the leadership team at the 
University of Michigan, a large educational and research organization 
with 32,000 faculty and staff and over 40,000 students.
    I worked within the budget, human resource, and planning systems of 
that University, making sure that they were effectively implemented 
within my unit and occasionally working to improve these systems when 
needed.
    In addition, I have worked on the Boards of Directors of a number 
of non-profit organizations, with responsibility for overseeing the 
financial and management decision-making within these organizations. I 
have run two major research centers, effectively overseeing their 
staffing, finances, and programs.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?
    First, the Department has a number of important initiatives that 
need to move forward, even in an environment where overall resources 
are reduced. Many of these initiatives are designed to more effectively 
support American businesses so they can expand and create more jobs in 
the current economy. These high-priority activities include: (1) 
Implementing a strategy to improve America's competitiveness in a 
global economy, by expanding the opportunities for innovation. This 
means effective technology transfer (NIST), ensuring our manufacturing 
sector has all the tools it needs to compete (NIST, ITA, ESA), economic 
development (EDA), support for minority businesses (MBDA), and spectrum 
management (NTIA); (2) Supporting the work of NOAA, particularly making 
sure that its weather satellite program is adequately funded and well 
operated, as well as making sure that its fisheries management programs 
are implemented effectively; (3) Strengthening export promotion 
activities, as part of President Obama's National Export Initiative. 
Exports have been leading economic growth, and expanding the strength 
and competitiveness of America's export sector is crucial, as is 
ensuring a level playing field for American companies in overseas 
markets; and (4) Implementing the America Invents Act, the new law that 
will reform the patent office and reduce the time needed for patent 
approval.
    Second, particularly in the current budget environment, the 
Department of Commerce has to run more efficiently. This means reducing 
overhead costs, so that budget reductions can be at least partially 
absorbed by reduced administrative costs rather than reduced funding 
for programs. Within the Department of Commerce, we have launched a 
variety of initiatives designed to do this, including acquisition 
reforms (intended to reduce purchase costs); IT reforms (designed to 
consolidate IT systems and make better use of IT); and facilities 
consolidation. Within an organization as complex and large as the 
Department of Commerce, these sort of administrative changes often 
require cultural changes in how work is organized and performed, 
changes that are not always welcomed by those who are used to long-time 
pre-existing systems. Hence, this type of change can only occur over a 
multi-year process with strong central commitment, communication, and 
leadership. It should be the primary job of the Deputy Secretary to see 
that this process proceeds smoothly and effectively.
    Finally, a challenge for Commerce (as well as other Departments) is 
to retain a skilled and motivated workforce. In the midst of pay 
freezes and potential benefit cuts, we need to ensure that government 
employment is an attractive option for hard-working, motivated, and 
skilled young adults. Without a first-rate civil service, the 
Department cannot deliver on its core functions. For instance, a large 
number of Senior Executive Service (SES) leaders are retirement-
eligible across Commerce's bureaus. Replacing this group with equally 
talented new SES hires will be a major and important challenge in the 
years ahead.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I have no commitments or agreements about maintaining an 
affiliation with any organization.
    I expect to maintain my membership with several professional 
organizations that reinforce my credibility as an economist and policy 
expert. This includes:

        American Economic Association

        Labor and Employment Relations Association

        Association for Public Policy Analysis and Management

    I maintain membership in several issues/advocacy organizations:

        Bread for the World

        Amnesty International

        Economists for Peace and Security

    I am a member of several community organizations:

        Westmoreland Hills Citizens Association

        Bethesda-Chevy Chase High School PTA

        Westmoreland United Church of Christ

        Friends of the National Zoo

        Ann Arbor Art Center

    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    In the years prior to joining the government in 2009, I signed 
several petitions that gathered signatures from economists to support 
specific legislative initiatives. To the best of my recollection, this 
includes a petition in favor of increasing the minimum wage, a petition 
supporting revisions to the official poverty measure, and a petition in 
favor of the Employee Free Choice Act. I also signed a statement by a 
group of economists urging states to do everything possible to limit 
their cuts to human services in the budget crisis of2008-09.
    Prior to joining government, I regularly engaged in written and 
verbal discussions of the current economy, analyzed policy options and 
stated my support for a variety of economic policy approaches. I was 
particularly active in a series of conversations with interested 
parties about improved ways to measure U.S. poverty. There was 
legislation introduced in 2008 in the House and Senate to implement an 
improved poverty measure, which I verbally endorsed on a number of 
public occasions.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have never been personally involved in any litigation or 
administrative agency proceeding.
    In their long history, the Universities for which I have worked 
have been regularly involved in various litigation and administrative 
proceedings.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of rebecca m. blank
Experience
United States Department of Commerce (DOC), Washington, D.C.
    Acting Secretary of Commerce--8/1/11 to 10/1/11
    Cabinet-level responsibility for the programs and mission of the 
Department of Commerce.

    Acting Deputy Secretary of Commerce--11/1/10 to 8/1/11 and 10/1/11 
to present
    Chief Operating Officer for the Department of Commerce (DOC), an 
agency with 11 Bureaus, 45,000 employees and a budget of approximately 
$9 billion. Key issues:

  <bullet> Dealt with difficult budget and management issues in the 
        FY2011 budget year; oversaw a process to deal with significant 
        proposed budget cuts in the FY2012 and FY2013 budgets.

  <bullet> Headed a major effort to reduce administrative costs inside 
        the Department through reforms in the acquisition and HR 
        process, changes in IT systems, and restructuring of several 
        Bureaus.

  <bullet> Implemented a Department-wide performance measurement system 
        that was used as a model for other departments

  <bullet> Worked with a number of Bureaus inside DOC, to help them 
        more effectively meet their core mission priorities. This 
        includes efforts to increase exports, to effectively fund and 
        operate weather satellites, the restructure the Census Bureau's 
        regional offices, etc.

    Under Secretary for Economic Affairs--6/1/09 to present
    Head of the Economics and Statistics Administration (ESA), serving 
as principal economic advisor to the Secretary and overseeing the two 
premier Federal agencies which produce economic and demographic data, 
the Census Bureau and the Bureau of Economic Analysis. Key issues:

  <bullet> Managed a $1.1 billion budget for ESA and its two agencies, 
        with oversight for another $7 billion in spending during FY2010 
        related to the 2010 Census.

  <bullet> Oversight of the 2010 Decennial Census, requiring 
        involvement in a wide range of management and political issues. 
        The 2010 Census, the largest domestic Federal deployment ever 
        undertaken, established 500 temporary offices with 650,000 
        temporary employees. Despite predictions of disaster by outside 
        observers in the previous year, the Census came in $1.6 billion 
        under budget and met or exceeded performance standards.

  <bullet> As head of DOC's economic analysis team, tracked key 
        economic trends and regularly reported on these within and 
        outside DOC. Collaborated with other agencies in DOC to analyze 
        the economic effects of innovation, export policy, broadband 
        expansion, etc.

  <bullet> Solicited and produced a series of policy-oriented reports, 
        in partnership with agencies across the Administration, 
        including a report on the status of the middle class (for the 
        Vice President's Middle Class Task Force); an analysis of the 
        size of the Green Economy; a study of the role of minority and 
        women-owned businesses in Federal contracting (for the 
        Department of Justice); and a report on women's social and 
        economic well-being, and a study of access to credit among 
        women-owned businesses (for the White House Council on Women 
        and Girls.)

  <bullet> Advocated for improved Federal data. Worked across agencies 
        to generate support for a number of key initiatives including a 
        new poverty measure and legislation to allow enhanced business 
        data sharing to improve industry statistics.

  <bullet> Implemented a performance-based management system within ESA 
        and its two agencies; provided ongoing senior leadership during 
        extensive management revisions within the Census Bureau, 
        including major changes to HR systems, creation of a new 
        research division inside Census, and the implementation of a 
        program to reduce costs and increase innovation.

  <bullet> Served as the Secretary of Commerce's representative to the 
        Pension Benefit Guarantee Corporation Board, which regulates 
        all defined benefit pension plans in the private sector.
Brookings Institution, Washington, D.C.
    Robert S. Kerr Senior Fellow--7/1/08-6/1/09
    Robert S. Kerr Visiting Fellow--9/1/07-6/1/08
    After spending a year at Brookings on sabbatical leave, I accepted 
their offer to stay permanently. I was not at Brookings long enough to 
initiate the full complement of research and policy projects I had 
hoped to establish there.
University of Michigan (UM), Ann Arbor, MI
    Dean, Gerald R. Ford School of Public Policy--8/99-8/1/07
    Henry Carter Adams Collegiate Professor of Public Policy--8/99-6/1/
08
    Professor of Economics--8/99-6/1/08
    Co-Director, National Poverty Center--9/02-6/08
    Dean of the newly-established Gerald R. Ford School of Public 
Policy, overseeing all issues relating to the program and institutional 
management of the Ford School.

  <bullet> In the first year, negotiated the arrangements to name the 
        school for President Gerald R. Ford, a graduate of the 
        University of Michigan.

  <bullet> Substantially expanded faculty and staff, deepening areas of 
        historical strength and expanding strength in other areas, 
        particularly on the international side.

  <bullet> Launched a successful endowment fundraising effort from 
        private donors. I faced the challenges of fundraising for a new 
        institution with limited alumni (few of whom were wealthy.) By 
        the end of2007, I had raised just under $50 million for student 
        scholarships, program activities, faculty research, and a new 
        building.

  <bullet> Initiated a series of new programs, including a new Ph.D. 
        program, an undergraduate degree program, a science policy 
        certificate, and two international exchange programs.

  <bullet> Successfully persuaded UM to move forward with a new 85,000 
        square foot building for the Ford School, shepherding this 
        building through the approval, design, funding, and 
        construction stages. It was occupied in August 2006.

  <bullet> Substantially expanded research activities and revenues 
        through outside grant dollars. Established the International 
        Policy Center, which pulled together faculty from across UM. 
        Also established the National Poverty Center and the Center for 
        Local, State, and Urban Policy.

  <bullet> Substantially enhanced staff and administrative services, 
        building a team of senior staff who oversaw a large expansion 
        in budgets, staff, students, and organizational complexity.
Council of Economic Advisers, Washington, D.C.
    Member (served while member-nominee for 9 of these months)--9/1/97-
7/1/99
    Served as one of three Senate-confirmed members on the White House 
Council of Economic Advisors in President Clinton's second term. In 
this role I was senior economic advisor on a host of internal policy 
discussions, including Social Security reform, unemployment insurance 
reform, and policies around race and gender. I played both an internal 
and external role in helping to interpret the rapidly expanding economy 
of the late 1990s.
Northwestern University, Evanston, IL
    Professor of Economics--1994-99
    Director, Joint Center for Poverty Research--1996-97
    Associate Professor of Economics--1989-94
    Associate Professor, School of Education & Social Policy--1989-93
    Served as senior faculty researcher and teacher, with outside 
funding support from a variety of sources. I was the founding director 
of the Northwestern University/University of Chicago Joint Center for 
Poverty Research, established with a $7 million/5 year grant from HHS.
Council of Economic Advisers, Washington, D.C.
    Senior Staff Economist--9/1/89-8/1/90
Princeton University, Princeton, NJ
    Assistant Professor of Economics and Public Affairs--9/1/83-8/1/89
Massachusetts Institute of Technology, Cambridge, MA
    Visiting Assistant Professor of Economics--1988-89
University of Wisconsin-Madison, Madison, WI
    Visiting Fellow--Fall 1985
Data Resources, Inc., Chicago, IL
    Consultant and Educational Coordinator--6/76-8/79
Education
    Ph.D. in Economics, Massachusetts Institute of Technology, June 
1983.
    B.S. in Economics, Summa Cum Laude, University of Minnesota, June 
1976.
Awards & Honors
    American Academy of Political and Social Science, Eleanor Roosevelt 
Fellow, Elected 2010.
    University of Minnesota, Outstanding Alumni Achievement Award, 
2008.
    American Academy of Arts of Sciences, Fellow, Elected 2005.
    Society of Labor Economists, Fellow, Elected 2006.
    National Academies of Science, Lifetime National Associate, Named 
in 2004.
    National Academy of Social Insurance, Fellow, Elected 1997.
    National Bureau of Economic Research, Faculty Research Associate, 
1990-09; Faculty Research Fellow, 1985-90.
    IZA (a European labor market research organization in Bonn). 
Research Fellow, Named in 2007.
    Institute for Research on Poverty, Faculty Affiliate, 1994-2009.
Selected Named Lectures
    James P. Houck Lecture, Department of Applied Economics, University 
of Minnesota. May 2010.
    President's Speaker, American Statistical Association, July 2009.
    Distinguished Public Policy Lecture, Institute for Policy Research, 
Northwestern University, April 2009.
    Aaron Wildavsky Lecture, Goldman School of Public Policy, UC-
Berkeley, March 2009.
    Sulzberger Lecture, Sanford Institute of Public Policy, Duke 
University, September 2008.
    McMylar Lecture, Department of Economics, Case Western Reserve 
University, April2007.
    American Enterprise Lecture, Furman University, March 2007.
    Alice Cook Lecture, School of Industrial and Labor Relations, 
Cornell University, October 2006.
    Kurt W. Rothschild Lecture. Department of Economics, Johannes 
Kepler University, Linz, Austria. November 2005.
    Bazzani Lecture, Institute for Government & Public Affairs, 
University of Illinois. October 2004.
    Monroe-Paine Lecture, Truman School, University of Missouri. March 
2003.
    Wellington-Burnham Lecture. Department of Economics, Tufts 
University. October 2002.
    Merrick Lecture. Department of Economics, University of Virginia. 
April 2002.
    Adam Smith Lecture. European Association of Labour Economists. 
September 2001.
    J. Douglas Gibson Lecture. School of Policy Studies, Queen's 
University, Canada. March2000.
    Distinguished Lecture on Economics in Government, Society of 
Government Economists. January 2000.
    Frank Paish Lecture, Royal Economic Society. April 1999.
    1997 Richard A. Lester Prize for the Outstanding Book in Labor 
Economics and Industrial Relations.
    1993 David Kershaw Prize. Awarded biannually by the Association of 
Public Policy Analysis and Management to the young scholar (under age 
40) whose research has had the most impact on the public policy 
process.
Other Professional Activities
    MRDC (formerly Manpower Demonstration Research Corp), New York, NY
    Board of Directors, 1993-97, 2000-09.

    Urban Institute, Washington, D.C.
    Board of Trustees, 2007-09.

    Economic Policy Institute, Washington, D.C.
    Board of Directors, 2008-09.

    Kennedy School of Government, Harvard University, Cambridge, MA
    Visiting Committee, 2004-09.

    DIW (a German research/policy think tank) Berlin, Germany
    Scientific Advisory Committee, 2001-2004; Advisory Council, DIW-DC, 
2008-09.

    Center for Budget and Policy Priorities, Washington, D.C.
    Board of Directors, 1994-97.

    Citizens' Research Council of Michigan
    Board of Directors, 2000-08

    National Academies of Science, Washington, D.C.
    Member, Division Committee for the Behavioral and Social Sciences 
and Education (DBASSE) 2003-08; Served as member or chair of multiple 
NAS scientific panels.

    Association for Public Policy Analysis and Management
    President, 2007; Executive Committee member, 2006-08; Policy 
Council member, 2001-04.

    Public Policy and International Affairs Program
    Board chair, 2003-06; Vice chair, 2001-03.

    American Economic Association
    Vice President, 2007; Executive Committee, 1995-97; Committee on 
the Status of Women in the Economics Profession (a subcommittee of the 
AEA) Chair, 1993-96; Executive Board 1990-96.

    Midwest Economic Association
    President, 2001-02; Vice President, 1994-95.
Editorial appointments
    Board of Editors, American Economic Journal: Economic Policy. 2007-
09
    Co-Editor, Labour Economics. 2004-07. Associate Editor, 2007-09.
    Co-Editor, Journal of Human Resources, 1995-97.
    Board of Editors, American Economic Review, 1993-97.
    Advisory Board, Journal of Public Economics, 1993-97.
    Advisory Board, Journal of Economic Education, 1992-97, 2002-09.
    Advisory Board, Feminist Economics, 1994-97.

    The Chairman. Thank you very much.
    If anybody has not had the chance to read Dr. Blank's bio, 
don't, because you'll be so depressed by your own that you'll 
probably leave the hearing.
    Ms. Ohlhausen, please.

      STATEMENT OF MAUREEN K. OHLHAUSEN, NOMINATION TO BE 
             COMMISSIONER, FEDERAL TRADE COMMISSION

    Ms. Ohlhausen. Thank you. Chairman Rockefeller, Ranking 
Member Hutchison and members of the Committee, it is a great 
honor to have been nominated by the President to serve as a 
Commissioner of the Federal Trade Commission.
    Thank you for the opportunity to appear before this 
Committee and for the time and attention you and your staff 
have devoted to this hearing.
    I'd like to take the opportunity to introduce my family, 
who's sitting behind me, my husband, Peter, my son Kevin----
    The Chairman. Yes, well could they stand up? You see, with 
Chairman Leibowitz, nobody stood up.
    Ms. Ohlhausen. OK.
    The Chairman. So everybody was introduced, but there was 
just a sea of faces. OK. There we go.
    Ms. Ohlhausen. My husband, Peter, my son Neil, my daughter 
Katie, my son Brian, my son Kevin. And behind him is Kevin's 
fiancee, Suzanne Collier, and my mother-in-law Anita Ohlhausen.
    I'm also honored to be appearing with FTC Chairman Jon 
Leibowitz, who was a Commissioner during my previous tenure at 
the agency and who, as Chairman, has led the agency to many 
successes during his tenure. If confirmed, I look forward to 
joining him and many other former colleagues at the Commission.
    I will be very fortunate, if I am confirmed, to have the 
opportunity to return to public service at the FTC, an agency 
that has played an important role in American economic life for 
almost 100 years.
    I've spent much of my legal career at the Commission, first 
in the General Counsel's office, then working for an FTC 
Commissioner, and, finally, serving as the Director of the 
Office of Policy Planning.
    In these positions, I gained extensive knowledge about the 
FTC's mission, which is to prevent business practices that are 
anticompetitive or deceptive or unfair to consumers, to enhance 
informed consumer choice and public understanding of the 
competitive process and to accomplish these missions without 
unduly burdening legitimate business activity.
    I also gained in-depth experience of the variety of tools 
the Commission may employ to advance this mission, both as an 
enforcer and as a policy leader.
    My work in private practice with Wilkinson Barker and 
Knauer, as well as my academic activities, have also focused on 
the FTC and broadened my understanding of the Commission's role 
and capabilities.
    The American economy and American consumers face many 
challenges today, and the FTC can help them meet these 
challenges. The FTC has a strong track record of aggressive 
enforcement against fraud and deception, and the current 
Commission has continued those efforts by attacking last-dollar 
frauds, such as bogus job opportunities and fraudulent debt 
relief that flourish during hard economic times.
    Other challenges are related to the breathtaking 
technological progress that American society has experienced in 
the last few years with the explosive growth in Internet usage 
by consumers and businesses and the growth of smartphones.
    These two new technologies have offered consumers great 
benefits in terms of convenience, connectedness and access to 
content and services, while, at the same time, heightening 
concerns about privacy and data security.
    The task for the FTC is to help consumers protect their 
privacy without diminishing consumer benefits or hampering 
competition in industry innovation.
    The Commission currently has a reassessment of its privacy 
framework underway, and, if confirmed, I look forward to 
consulting with my colleagues, the FTC staff, Congress and 
consumer and industry groups to strike a balance that best 
serves consumers' needs and preferences.
    These technological changes have also spurred the creation 
of new combinations, business models and practices that can 
drive innovation and competition in high tech and other 
markets.
    Antitrust law plays an important role in ensuring that 
markets do not suffer from anticompetitive mergers or harmful 
practices, and I believe in strong antitrust enforcement.
    Antitrust law is meant to protect consumers, not particular 
competitors, and economics is an essential tool for determining 
the likely competitive impact of any business combination or 
behavior. A freely functioning market, subject to antitrust 
oversight, provides the most benefits for consumers.
    In addition to the Commission's enforcement work, I value 
the FTC's policy research and development activities, including 
its expert economic studies, as well as its excellent consumer 
and business education efforts.
    I also support the FTC's competition advocacy program which 
can play a crucial role in highlighting government-imposed 
restraints on competition.
    I believe the FTC should use its many tools to help ensure 
that consumers enjoy the benefits of a well-functioning market.
    In conclusion, if I am confirmed, I hope that my knowledge 
of the Commission and its many capabilities, combined with my 
expertise in consumer protection and competition, will help the 
agency fulfill its mission to protect consumers.
    Thank you very much.
    [The prepared statement and biographical information of Ms. 
Ohlhausen follow:]

     Prepared Statement of Maureen K. Ohlhausen, Nomination to be 
                 Commissioner, Federal Trade Commission
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, it is a great honor to have been nominated by the President 
to serve as a Commissioner of the Federal Trade Commission. Thank you 
for the opportunity to appear before this Committee and for the time 
and attention you and your staff have devoted to this hearing. I am 
also honored to be appearing with FTC Chairman Jon Leibowitz, who was a 
Commissioner during my previous time at the agency and who, as 
Chairman, has led the agency to many successes during his tenure. If 
confirmed, I look forward to joining him and many other former 
colleagues at the Commission.
    I will be very fortunate, if I am confirmed, to have the 
opportunity to return to public service at the FTC, an agency that has 
played an important role in American economic life for almost 100 
years. I have spent much of my legal career at the Commission, first in 
the General Counsel's office, then working for an FTC Commissioner, and 
finally serving as the Director of the Office of Policy Planning.
    [n these positions I gained extensive knowledge about the FTC's 
mission, which is to prevent business practices that are 
anticompetitive or deceptive or unfair to consumers; to enhance 
informed consumer choice and public understanding of the competitive 
process; and to accomplish these missions without unduly burdening 
legitimate business activity. I also gained in-depth experience of the 
variety of tools the Commission may employ to advance this mission, 
both as an enforcer and as a policy leader. My work in private practice 
with Wilkinson Barker and Knauer, as well as my academic activities, 
have also focused on the FTC and broadened my understanding of the 
Commission's role and capabilities.
    The American economy and American consumers face many challenges 
today and the FTC can help them meet these challenges. The FTC has a 
strong track record of aggressive enforcement against fraud and 
deception, and the current Commission has continued those efforts by 
attacking ``last dollar'' frauds, such as bogus job opportunities and 
fraudulent debt relief, that flourish during hard economic times.
    Other challenges are related to the breathtaking technological 
progress that American society has experienced in the last few years, 
with the explosive growth in Internet usage by consumers and businesses 
and the growth of smart phones. These new technologies have offered 
consumers great benefits in terms of convenience, connectedness, and 
access to content and services, while at the same time heightening 
concerns about privacy and data security. The task for the FTC is to 
help consumers protect their privacy without diminishing consumer 
benefits or hampering competition and industry innovation. The 
Commission currently has a reassessment of its privacy framework 
underway and, if confirmed, l look forward to consulting with my 
colleagues, the FTC staff, Congress, and consumer and industry groups 
to strike a balance that best serves consumers' needs and preferences.
    These technological changes have also spurred the creation of new 
combinations, business models, and practices that can drive innovation 
and competition in high tech and other markets. Antitrust law plays an 
important role in ensuring that markets do not suffer from 
anticompetitive mergers or harmful practices, and I believe in strong 
antitrust enforcement. Antitrust law is meant to protect consumers, not 
particular competitors, and economics is an essential tool for 
determining the likely competitive impact of any business combination 
or behavior. A freely functioning market, subject to antitrust 
oversight, provides the most benefits for consumers.
    In addition to the Commission's enforcement work, I value the FTC's 
policy research and development activities, including its expert 
economic studies, as well as its excellent consumer and business 
education efforts. I also support the FTC's competition advocacy 
program, which can play a crucial role in highlighting government-
imposed restraints on competition. I believe the FTC should use its 
many tools to help ensure that consumers enjoy the benefits of a well 
functioning market.
    In conclusion, if I am confirmed, I hope that my knowledge of the 
Commission and its many capabilities, combined with my expertise in 
consumer protection and competition, will help the agency fulfill its 
mission to protect consumers.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Maureen Kraemer Ohlhausen (maiden name Maureen Elizabeth 
        Kraemer).

    2. Position to which nominated: Federal Trade Commissioner.
    3. Date of Nomination: July 21, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 2300 N St., NW, Suite 700, Washington, DC 20037.

    5. Date and Place of Birth: April 5, 1962; New York, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Peter Ohlhausen, President, Ohlhausen Research, Inc.; 
        son: Kevin Ohlhausen, age 24; daughter: Katherine Ohlhausen, 
        age 22; son: Brian Ohlhausen, age 19; son: Neil Ohlhausen, age 
        17.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Virginia, B.A. 1984.
        George Mason University School of Law, J.D. 1991.

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Wilkinson Barker Knauer, LLP (2009 to present): law firm partner 
and head of FTC practice, counsel clients on consumer protection and 
competition matters, such as consumer privacy and data security 
requirements, antitrust investigations, advertising and marketing 
matters, and issues involving FTC authority and jurisdiction.

    Business Software Alliance (2009): technology policy counsel, 
analyze issues and develop public policy positions in areas such as 
innovation, privacy, and e-commerce and articulate positions through 
white papers, reports, and conferences.

    Federal Trade Commission (1997-2008):

        Director, Office of Policy Planning (2004-2008): member of 
        agency senior staff, manage staff of five attorneys, head 
        agency-wide efforts on various competition and consumer 
        protection issues, particularly in areas of e-commerce and 
        technology; head agency strategic plan review and agency self 
        assessment.

        Deputy Director, Office of Policy Planning (2003-2004): help 
        manage staff of 4 attorneys and oversee agency-wide efforts on 
        various competition and consumer protection issues.

        Attorney Advisor, Office of Policy Planning (2001-2003): assist 
        in agency efforts on various competition and consumer 
        protection issues.

        Attorney Advisor, Office of Commissioner Orson Swindle (1998-
        2001): advise Commissioner on antitrust and consumer protection 
        issues.

        Attorney, Office of General Counsel (1997-1998): provide legal 
        advice on a variety of legal issues, including the scope of FTC 
        authority.

    George Mason University School of Law (2006-2007): Adjunct 
professor, taught classes in unfair trade practices and Internet 
privacy

    U.S. Court of Appeals for the D.C. Circuit (1992-1997):

        Special Assistant to Judge Sentelle and panel for appointing 
        independent counsel (1995-1997): provide legal research and 
        administrative support.

        Law Clerk to Judge Sentelle (1994-1995): performed legal 
        research and helped draft appellate decisions in all areas of 
        law.

        Staff Attorney (1992-1994): researched and wrote legal 
        memoranda for three-judge panels on motions, emergency matters, 
        and matters disposed of without oral argument in all areas of 
        law.

    U.S. Court of Federal Claims (1991-1992): Law Clerk to Judge Yock, 
performed legal research and helped draft opinions for government 
contracts matters and other claims against the government.

    Levan, Schimel, Richman & Belman (1988): Summer associate at law 
firm.

    CT Corporation (1984-1987): provide assistance to attorneys in 
corporate matters, such as drafting articles of incorporation.

    9. Attach a copy of your resume. Attached at end of Section A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        Wilkinson Barker Knauer, LLP (2009 to present) non-equity 
        partner.
        Business Software Alliance (1/2009 to 11/2009) technology 
        policy counsel (employee)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        American Bar Association, Antitrust Section, member 
        (approximately 2002 to present): Senior Editor Antitrust Law 
        Journal (2008 to present), other editorial positions (2005 to 
        2008); member Competition and Public Policy Task Force (2008 to 
        2010); Vice-chair Advocacy Committee (2007 to 2008).

        Federal Communications Bar Association, member (2010 to 
        present) Virginia State Bar, member (1992 to present).

        D.C. Bar, member (2010 to present).

        Girl Scouts of America, Troop Leader (1998 to 2001) (Girl 
        Scouts of America restricts ``Girl Membership'' to girls in 
        grades K-12, ``Adult Membership'' is open to women and men 18 
        years of age or older).

        Federalist Society, member (estimated 1992 to 2002).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

------------------------------------------------------------------------

------------------------------------------------------------------------
Bush-Cheney '04                                   12/03/03      $2,000
John McCain 2008                                   4/26/07        $250
John McCain 2008                                    5/1/08        $250
McCain Victory 2008 (John McCain final             7/24/08      $1,000
 recipient)
McCain-Palin Victory 2008 (RNC final               9/15/08        $800
 recipient)
------------------------------------------------------------------------

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    J.D. with distinction; American Jurisprudence Award for Excellence 
in Business Associations; B.A. with distinction; National Merit 
Scholar; Echol's Scholar (top 5 percent of incoming class at University 
of Virginia).
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications
        The FTC's New Privacy Framework, Antitrust Magazine, Spring 
        2011

        COMPETITION AS PUBLIC POLICY (Am. Bar Ass'n book) (editor with 
        Bernard Nigro and Charles Compton) (2010)

        The FTC Complaint Against Intel: Implications for Consumer 
        Protection, The CPI Antitrust Journal (Apr. 2010)

        Editor's Note to Symposium: The End of the Microsoft Case? 
        75(3) Antitrust Law Journal691 (2009)

        Moving Sideways: Post-Granholm Developments in Wine Direct 
        Shipping and their Implications for Competition (with Gregory 
        P. Luib), 75(2) Antitrust Law Journal505 (2008)

        Enforcement Perspectives on the Noerr-Pennington Doctrine, 
        Antitrust Magazine, Spring 2007

        Identifying, Challenging, and Assigning Political 
        Responsibility for State Restrictions on Competition, 2 
        Competition Policy International 151 (2006)

        Issues in Real Estate Brokerage, Antitrust Source, Nov. 2005

        Obesity and Advertising Policy (with Todd J. Zywicki and Debra 
        Holt), 12(4) George Mason Law Review 979 (2005)

        Ban on Charitable Solicitations Likely Unconstitutional (with 
        Thomas Pahl) Free Speech & Election Law Practice Group 
        Newsletter-Volume 3, Issue 3, Winter 2000
Speeches
        Standard Setting and Information Sharing Issues for Trade 
        Associations (panel discussion)
        D.C. Bar Association Antitrust Symposium,
        Feb.2011

        Rewriting the Telecomm Act: Has the Time Come? (panel 
        discussion)
        2010 Federalist Society National Lawyers Convention
        Nov. 2010

        FTC Issues for Broadcasters
        Representing Your Local Broadcaster Program
        Apr. 2010

        Supersizing the FTC & What It Means for Media, the Internet, 
        and Advertising (panel discussion)
        Progress and Freedom Foundation Capitol Hill Briefing
        Apr. 2010

        Keynote speech and panel on the future of the Internet
        Telecommunications Policy Research Conference
        Sept. 2008

        Market Studies: The U.S. FTC Perspective
        Office of Fair Trading Conference on Market Studies, London
        June 2008

        Regulatory Review: Bureau Chiefs & Legal Advisors on Media 
        Matters (panel discussion)
        The Cable Show
        May 2008

        Non-Litigation Advocacy (panel discussion)
        American Bar Association, Antitrust Spring Meeting
        Mar. 2008

        Competition Policy in Regulated Sectors
        Korea Development Institute Conference, Seoul
        July 2007

        The Pros and Cons of Antitrust in Deregulated Markets
        Stockholm, Sweden
        Nov. 2004

        Antitrust Fundamentals (presentation and discussion)
        American Bar Association, Antirust Spring Meeting
        Apr. 2000 and 2001

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        Hearing before the Subcommittee on Housing and Community 
        Opportunity, U.S. House of Representatives, on Competition in 
        the Real Estate Brokerage Industry, Testimony on Behalf of the 
        FTC (July 25, 2006).

        Hearing before the Subcommittee on Commerce, Trade, and 
        Consumer Protection, U.S. House of Representatives, Consumer 
        Protection and Competition Issues Concerning the Contact Lens 
        Industry, Testimony on Behalf of the FTC (September 15, 2006).

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Starting with my experience as a law student, I excelled in 
antitrust law and decided to pursue a career in that field at a Federal 
antitrust agency. I was fortunate enough to first get the chance to 
serve as a law clerk at the D.C. Circuit, which honed my legal research 
and writing abilities and provided me an excellent background in 
administrative law. I put these abilities to good use in my role as an 
attorney in the FTC's Office of General Counsel, where I worked on 
issues involving the scope of Commission's authority, particularly 
limitations on its power over common carriers, and the interplay 
between the antitrust laws and the First Amendment.
    As an attorney advisor with Commissioner Orson Swindle for three 
years, I helped review a number of large mergers and some non-merger 
antitrust matters, a wide variety of consumer protection cases, 
including some of the earliest online privacy cases, and a variety of 
reports on the petroleum industry, competition issues, and advertising 
issues. During this time, I gained in-depth experience of how the 
Commission functions both internally and externally and also 
established strong relationships with the staff in the Bureaus of 
Consumer Protection, Competition, and Economics, as well as in the 
other supporting offices.
    During my tenure at the Office of Policy Planning, I helped develop 
Commission positions on a number of cutting-edge issues, such as 
barriers to e-commerce, restraints on advertising, and the impact of 
new technologies on consumer protection and competition. I also oversaw 
outreach to other agencies, international organizations, the business 
community, and consumer organizations on a variety of topics. As 
Director of the Office of Policy Planning and a member of the 
Commission's senior staff for four years, I headed a number of agency-
wide efforts in areas such as real estate competition and broadband 
Internet access. I also testified on behalf of the agency before 
Congress, the Antitrust Modernization Commission, and the Organization 
for Economic Cooperation and Development. In addition, I contributed to 
FTC testimony and submissions on numerous other occasions.
    I also played a key planning and evaluation role for the agency, 
heading up the drafting of the FTC's five year strategic plan for 2006 
to 2011. In addition, I led an agency self-assessment, The Federal 
Trade Commission at 100: The Continuing Pursuit of Better Practices 
(Jan. 2009), which involved nine separate roundtables and input from 
dozens of commentators.
    In my role as the head of the FTC practice at Wilkinson Barker 
Knauer, LLP, I closely follow FTC issues such as privacy, advertising, 
and antitrust matters, both at the Commission, in Congress, and in the 
courts. I have advised clients on how to adhere to FTC requirements and 
helped them prepare comments to the FTC on various privacy issues.
    My professional association and academic activities have also 
centered on FTC-related matters. As a senior editor of the American Bar 
Association Antirust Law Journal, and through my various other 
activities and publications, I have helped play a role in advancing 
scholarship and informing the bar, industry, and the public on 
important antitrust and consumer protection matters. I have also co-
chaired the Federal Communications Bar Association Annual Privacy 
Symposium for the last two years. Finally, as an adjunct professor at 
George Mason University School of Law, I taught unfair trade practices 
and the emerging law of Internet privacy, both of which are highly 
relevant to the FTC's mission.
    I wish to serve as an FTC Commissioner because I believe my deep 
knowledge of the Commission, combined with my expertise in competition 
and consumer protection matters, can help fulfill the agency's mission 
as defined in its recent strategic plan: ``To prevent business 
practices that are anticompetitive or deceptive or unfair to consumers; 
to enhance informed consumer choice and public understanding of the 
competitive process; and to accomplish these missions without unduly 
burdening legitimate business activity.'' During my almost 12-year 
tenure at the FTC and in my other legal activities and scholarship, I 
have focused on these goals and believe I can advance them further as a 
Commissioner.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As a Commissioner, I believe it would be my responsibility to 
ensure that the FTC has proper management and accounting controls. In 
my time at the FTC, I oversaw the completion of the agency's 2006-2011 
strategic plan as required by the Government Performance and 
Accountability Results Act of 1993. This required a description of the 
relation between performance goals or measures in the annual 
performance budget and the strategic goal framework, among other 
factors. I was also involved in the agency's annual budget process, 
both as an attorney advisor to Commissioner Swindle and in my role as 
the Director of the Office of Policy Planning and am thus generally 
familiar with the FTC's budget and other financial responsibilities. In 
addition, my experience in leading the FTC's self assessment in 2008 to 
2009 also gave me insight on how to manage a competition and consumer 
protection agency.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the FTC are as follows:

        1. New technologies have heightened concerns about privacy and 
        data security while also offering consumers great benefits in 
        terms of convenience, connectedness, and access to free content 
        and services. The challenge for the FTC will be to address 
        consumer protection concerns in a targeted way that does not 
        diminish consumer benefits or industry innovation.

        2. New business models combined with new technologies also have 
        created new competition challenges, such as strong first mover 
        advantages and the convergence of previously separate 
        platforms. This evolution will require a careful approach that 
        preserves competition while avoiding actions that hamper 
        innovation in business models as well as in technology. Also, 
        the convergence of common carrier services with non-common 
        carrier services may raise jurisdictional challenges for the 
        FTC.

        3. Many Federal agencies will likely be facing reduced 
        resources for the foreseeable future and the FTC, like other 
        agencies, will need to use its limited resources to the 
        greatest effect to benefit consumers. Unfortunately, during 
        times of economic distress, schemes that exploit consumers seem 
        to proliferate, such as credit counseling or job seeking scams, 
        so the need for FTC consumer protection activity will likely 
        increase. Also, there may be an increase in mergers as interest 
        rates stay low and weakened businesses seek to consolidate. 
        This would also raise the demands on the FTC competition 
        resources.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a 401(k) account through my current employer, Wilkinson 
Barker Knauer, LLP. The 401(k) plan is administered by the American Bar 
Association Retirement Funds. If I am still employed there, the firm 
will start making contributions to my 401(k) plan on July 1, 2011. 
However, the firm's contributions will not vest until December 1, 2011. 
If I leave the firm prior to December 1, 2011, I will not receive any 
of the firm's contributions to my 401(k) plan. In addition, when I 
leave the firm, I will receive a severance payment that is a prorated 
share of my 2011 annual bonus based on my billings to the date of my 
resignation. My other retirement accounts are with the Federal Thrift 
Savings Plan or with excepted investment funds.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I plan to remain a member of the American Bar Association Antitrust 
Section but will resign as an editor of the Antitrust Law Journal if 
confirmed.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have entered 
into with the Commission's Designated Agency Ethics Official and that 
has been provided to the Committee. I am not aware of any other 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have entered 
into with the Commission's Designated Agency Ethics Official and that 
has been provided to the Committee. I am not aware of any other 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    During my tenure as technology policy counsel at the Business 
Software Alliance, I provided background information on military health 
information record systems and attended meetings with Congressional 
staff in connection with the Alliance's efforts to remove a requirement 
for open source software health information technology contained in an 
early version of the American Recovery and Reinvestment Act of 2009.
    In 2011, I worked with a client to draft some small wording changes 
to an early version of the Commercial Privacy Bill of Rights Act (Kerry 
McCain Privacy Bill), which the client then discussed with 
Congressional staff. My efforts amounted to approximately 5 hours of 
work.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of the ethics agreement that I have entered into with 
the Commission's Designated Agency Ethics Official and that been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    If confirmed as a Federal Trade Commissioner, I would work 
diligently with the Chairman and my fellow Commissioners to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    If confirmed as a Federal Trade Commissioner, I would work 
diligently with the Chairman and my fellow Commissioners to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
        attachment to section a--resume of maureen k. ohlhausen
Experience
    Wilkinson Barker & Knauer, LLP, December 2009 to present: As the 
lead partner for the firm's Federal Trade Commission practice, counsel 
clients on consumer protection and competition matters, such as 
consumer privacy and data security requirements, antitrust 
investigations, advertising and marketing matters, and issues involving 
FTC authority and jurisdiction.

    Business Software Alliance, Technology Policy Counsel, January 2009 
to November 2009: Senior member of the policy staff responsible for 
working with major software and hardware member companies to develop 
policy positions in areas such as innovation, privacy, and e-commerce, 
and articulating these positions through white papers, reports, and 
conferences.
Federal Trade Commission
    Director, Office of Policy Planning, 2004 to 2008: Member of agency 
senior staff responsible for developing and implementing FTC Chairman's 
policy agenda on cutting edge competition and consumer protection 
topics, with emphasis on identifying emerging issues and evaluating the 
competitive impact of regulation through advocacy in state, federal, 
and international fora. As head of the Commission's Internet Access 
Task Force, directed a wide-ranging inquiry into issues surrounding net 
neutrality and oversaw the issuance of the Broadband Connectivity 
Competition Policy Report. Represented the agency in testimony before 
Congress and the Antitrust Modernization Commission.

    Office of Policy Planning, Deputy Director 2003-2004; Attorney 
Advisor 2001-2003.

    Attorney Advisor, Office of Commissioner Orson Swindle, 1998-2001. 
Advised Commissioner on antitrust and consumer protection issues.

    Attorney, Office of the General Counsel, 1997-1998. Advised 
Commission on a variety of legal issues.
U.S. Court of Appeals for the D.C. Circuit
    Law Clerk/Special Assistant, 1994-1997, Chambers of the Honorable 
David B. Sentelle.

    Staff Attorney, 1992-1994. Researched and wrote memoranda for 
three-judge panels on motions, emergency matters, and matters disposed 
of without oral argument in all areas of law.
U.S. Court of Federal Claims
    Law Clerk, 1991-1992, Chambers of the Honorable Robert J. Yock.
Education
    George Mason University School of Law, Arlington, VA.
    Juris Doctor with Distinction, May 1991. Class rank: 41168; 
American Jurisprudence Award for Excellence in Business Associations. 
Research assistant to professor William Kovacic.

    University of Virginia, Charlottesville, VA.
    Bachelor of Arts with Distinction, May 1984. National Merit 
Scholar; Echols Scholar (top 5 percent of incoming class).
Publications
    The FTC's New Privacy Framework, Antitrust Magazine, Spring 2011; 
Competition as Public Policy (Am. Bar Ass'n 2010) (editor with Bernard 
Nigro and Charles Compton); The FTC Complaint Against Intel: 
Implications for Consumer Protection, The CPI Antitrust Journal (Apr. 
2010); Editor's Note to Symposium: The End of the Microsoft Case? 75(3) 
Antitrust Law Joumal691 (2009); Moving Sideways: Post-Granholm 
Developments in Wine Direct Shipping and their Implications for 
Competition (with Gregory P. Luib), 75(2) Antitrust Law Journal505 
(2008); Enforcement Perspectives on the Noerr-Pennington Doctrine, 
Antitrust Magazine, Spring 2007; Identifying, Challenging, and 
Assigning Political Responsibility for State Restrictions on 
Competition, 2 Competition Policy International 151 (2006); Issues in 
Real Estate Brokerage, Antitrust Source, Nov. 2005; Obesity and 
Advertising Policy (with Todd J. Zywicki and Debra Holt), 12(4) George 
Mason Law Review 979 (2005).
Associations and Activities
    Member, Virginia State Bar, admitted 1992; District of Columbia 
Bar, admitted 2010.

    Senior Editor, Antitrust Law Journal 2008 to present; Associate 
Editor (2006-2008); Assistant Editor (2005-2006).

    Member, ABA Competition and Public Policy Task Force (2008-2010).

    Vice Chair, Advocacy Committee, American Bar Association, Section 
of Antitrust Law (2007-2008).

    George Mason University School of Law, Adjunct faculty: Unfair 
Trade Practices (Fall 2006 and Summer 2007), Emerging Law of Internet 
Privacy (Summer 2006).

    The Chairman. Thank you very much, and thank all of you.
    I'm going to start with a Boxer-like question for Chairman 
Leibowitz. The press has a lot to say about possible settlement 
between the FTC and Facebook. You cannot, under any 
circumstances, comment on anything that I'm saying, so that 
leaves me more time to say what I feel.
    Chairman Leibowitz. OK.
    The Chairman. I want to convey to you my personal 
perspective that any commission action with regard to Facebook 
should contemplate two aspects. One, the requiring of Facebook 
to obtain informed consent from their users, so that the 
company does not deceive consumers with respect to its privacy 
policy.
    Number two, a rigorous enforcement regime regarding what 
they promise their users.
    It has frankly been my experience in watching this company 
in its very rapid growth that they have changed privacy 
settings on users without notifying them first. I think they 
need very strict monitoring, and so I say that to you, and no 
comment is required.
    Chairman Leibowitz. Just to say we hear you loud and clear 
and we appreciate your understanding that we cannot comment on 
this matter.
    The Chairman. I know that. OK. But you can on the next one. 
And that was brought up by Ranking Member Kay Bailey Hutchison. 
It's actually one of the more interesting questions about a 
committee which used to be not as consumer oriented as this one 
now is, consumer protection. We're into that very heavily. It's 
a priority for us.
    Now, the FTC should be aggressive in taking on businesses, 
both large and small, that profit from harming ordinary 
Americans with unfair deceptive practices, but there are those 
also who say, yes, that sounds good, but the FTC should be 
careful not to overburden business and should respect self-
regulation.
    And from that you get into the question is this a job-
killer regulation or is that a myth? And I'm going to be very 
interested in what your general thoughts are, as well as yours, 
Ms. Ohlhausen.
    Chairman Leibowitz. Well, with respect to sort of consumer 
privacy, in many issues involving consumer protection, we take 
a two-pronged approach. One prong is we go after malefactors, 
companies that engage in unfair or deceptive acts or practices. 
And, as I said, we have brought more than 90 cases against 
companies in the last two-and-a-half years that have offered 
Americans foreclosure-rescue scams, sham debt relief, and more 
than 100 privacy cases. We take those issues very seriously.
    And on the policy front, we do believe in self-regulation, 
and we have seen companies step up to the plate when they want 
to, when they're responsible. Again, I think sometimes the 
specter of legislation, particularly in the privacy area, is 
very helpful in getting some companies to understand the 
benefits of self-regulation, and so we commend this Committee 
for all of your efforts in this area.
    And then sometimes, of course, in some areas like data 
security, we have come to a consensus decision that we do 
support legislation because it would benefit consumers.
    So it's really a two-pronged approach. One prong is 
enforcement. One is policy.
    We always start with self-regulation and we like to hope 
for the best, and we've seen some progress in some areas. We 
need to see more progress in others.
    The Chairman. That was a careful answer, and not entirely 
satisfactory to me because you say the threat of regulation can 
often do the trick. A lot of people have been listening about 
threats of self-regulation for a very long time and it never 
really arrives. They know that, so they build that into a cost 
of doing business and don't conform.
    So just clarify for me, again, what deserves regulation? 
What deserves a chance at self-regulation?
    Chairman Leibowitz. Well, again, if a company makes, for 
example, a commitment, ``we will protect your data,'' and they 
don't, then that is generally a violation of the FTC Act. It's 
an unfair, deceptive act or practice, and we will go after that 
company, and we have.
    From a policy perspective, again, we have very little 
regulatory authority, as you know, Senator, and so we like to 
support regulation. We believe in using the bully pulpit, and, 
if that doesn't work, at times, we support legislation.
    And so, for example, in our privacy report, which we 
released last year, which I know you're familiar with, we 
called for more privacy by design. We called for more choice 
and more transparency.
    Very few people read privacy notices online. I asked our 
staff to take a look at privacy notices in the mobile space, 
because so much commerce is moving to mobile. And we found one 
privacy policy that took 109 clicks to get through. So you 
should not read that while you're driving. I don't think any 
consumers read that at all.
    When we see real problems in the marketplace, the first 
approach we take, even if it's not a violation, is to try to 
get companies to do a better job, and sometimes they do, and 
sometimes they don't.
    And so, again, we brought more than 100 spam and spyware 
cases, more than 30 data-security cases, and 79 Do-Not-Call 
cases in the last decade. We brought a major case against 
Google involving its Buzz Network, because it took information 
that we alleged it had committed to keeping private and used it 
to jumpstart its first attempt at a social network.
    And we want to work with this committee on legislation, and 
we have worked with Members of this Committee on both sides of 
the aisle.
    I hope that's not too unsatisfactory, but we will continue 
this conversation, Senator, I'm sure.
    The Chairman. OK. It was much better.
    Chairman Leibowitz. Thank you.
    Ranking Member Hutchison?
    Senator Hutchison. Well, thank you, Mr. Chairman. I am not 
clear from your answers really what you are using as 
guidelines, and so let me take on the Interagency Food 
Marketing Working Group.
    The FTC, along with the FDA, the CDC, and the USDA, were 
tasked with studying and developing recommendations for 
standards for the marketing of food toward children 17 and 
younger.
    However, there are concerns about what is being said is 
going to come out, and it is not going to be recommendations 
for Congress, but, rather, guidelines, and, further, that some 
of the guidelines are actually going to say that certain things 
should not be done that are considered actually healthy by the 
Department of Health and Human Services and the U.S. Department 
of Agriculture in the 2010 dietary guidelines which they put 
out.
    So tell me what is myth and what is true and what kind of 
standard are you using from the authorization that Congress 
gave, juxtaposed against what you're going to actually put out?
    Chairman Leibowitz. That's a great question, and it came 
from the Appropriations Committee, as you know. Senator Harkin 
and then Senator Brownback tasked us with this, with being part 
of what we call the Interagency Working Group.
    We're responsible for the nutrition part, and what we are 
going to do--and we actually had a hearing on this particular 
matter in the House about 2-1/2 weeks ago and we put testimony 
in and we can make that part of this record.
    We're going to make recommendations. They are voluntary. 
They are unenforceable. We're going to make it utterly clear 
that there's no private right of action that will come out of 
these recommendations.
    We put out the guidance, initially, as you know, and we did 
what we always do. We put out guidance which is we listened to 
stakeholders, and all the stakeholders acknowledged that there 
is a serious childhood obesity problem.
    But we got a lot of comments and we are making 
modifications on the marketing side. We're going to carve out 
12 to 17 year olds. We are only going to apply the 
recommendations to children ages 2 to 11. We are going to carve 
out charitable. We are going to carve out sports after school. 
We are going to stick to what the CFBAI, which is the self-
regulatory entity of the largest food marketing companies, came 
up with, which is marketing in measured media.
    And so I think that the guidance, and I hope it comes out 
quickly, because there's a lot of hubbub about what the 
agencies might do, I think when we do it you will see that, it 
will be much more practical. I can assure you it will be on the 
marketing side, which we are responsible for. And it will be 
more balanced, and I think folks who care about this issue, no 
matter what their preconceptions are, will think it is going 
forward.
    And I want to make two other points on this. One is that we 
have no intention of regulating. We have no authority to do it, 
even if we did, there would be serious First Amendment issues.
    And the other is that, after we released the draft 
guidance, which we were taking comments on, the major food-
marketing companies came up with their own self-regulatory 
standards, and that was very, very significant. We had been 
calling for this as an agency since probably 2006. So we are 
aware of the changes in the marketplace and we are making 
changes in our guidance.
    Senator Hutchison. Let me just ask you if--since you are 
going to be putting these guidelines out and some of them are 
even in opposition to guidelines from other Federal agencies or 
recommendations from other Federal agencies, then could someone 
bring a case before the FTC that there is an unfair or 
deceptive trade practice based on the voluntary guidelines that 
are going to come out from this committee in which the FTC 
participated?
    Chairman Leibowitz. Absolutely not, Senator. Absolutely 
not.
    Senator Hutchison. Do you think that you have followed the 
authorization from the Committee, from the appropriations----
    Chairman Leibowitz. I do think we have followed the 
guidance from the appropriations language. We are going to make 
recommendations to Congress.
    The one area where I would say we've pushed back is if you 
look at the appropriations report language. It says children 2 
to 17, and we put that out for comment. We actually thought, 
based on our work and other studies we had done about food 
marketing to children, that children ages 12 to 17 have 
different cognitive abilities. Commercials, or advertising, if 
they influence children, influence younger children much more 
than older ones.
    So the one area where I think we will push back as a 
Commission, or where we will, is in only applying this guidance 
to younger children, ages 2 to 11. That's what the self-
regulatory approach of the CFBAI, the major food marketers, is 
as well.
    Chairman Hutchinson. Well, thank you. I do have other 
questions, if we have a second round, Mr. Chairman, but my time 
is up. Thank you.
    The Chairman. Thank you, Senator Hutchinson.
    Senator Lautenberg.
    And, also, I want to say to Senator Pryor, although he made 
a late arrival, he is the Chair for this entire discussion, so 
you get an extra 2 minutes in your questioning.
    Senator Lautenberg. Pryor doesn't mean priority, you know. 
Thanks, Mr. Chairman.
    Dr. Blank, Federal agencies are expected to ensure that the 
benefits of proposed regulations exceed their costs, and yet we 
are seeing a broad assault on regulations that protect public 
health, the environment, consumers.
    Do you believe that we can confirm the fact that Federal 
regulation is always a net positive for our economy and our 
society?
    Dr. Blank. So I think President Obama has been clear that 
we need regulations on things like safety and security and 
health and that those regulations are often very appropriate 
and very necessary.
    I spend a lot of time talking to different business groups, 
and I rarely hear of people who are against regulations per se. 
What they are upset about is when regulations are imposed in a 
discretionary manner or when they are changing and it is 
uncertain exactly what the rules are and how they can best be 
followed.
    That said, clearly, all of the administration agencies have 
been asked to do cost-benefit analysis of their specific 
regulations, and we are doing that at the Department of 
Commerce. And to the extent we identify regulations that impose 
undue burdens, we will be discussing that and seeing whether we 
can make changes.
    Senator Lautenberg. Is it thought now that putting 
regulations into the system are a more arduous task than it has 
been in years past? Is it tougher to get things into place?
    Dr. Blank. I don't know that I have a good answer to that. 
We do a limited amount of regulation inside the Department of 
Commerce and I don't think that's true in the areas that we 
regulate, but it could be true in some other places.
    Senator Lautenberg. Yes, because you used the word 
arbitrary, and I think that therein lies the umbrella that 
takes care of those who dissent from having regulation put into 
place, even if it does yield a net benefit.
    So we discuss these things here at length, and there are 
two sides in every story, as you know, and I'm not sure that 
it's always meritorious in some way, but it doesn't matter, not 
to our ability to get things going here.
    Tobacco companies, Mr. Chairman, continue to spend billions 
of dollars each year on advertising and promotions that lure 
children into smoking, keep smokers hooked.
    Now, as FTC Chairman, what actions might be taken to expose 
the truth about tobacco marketing and the health risks of these 
products?
    I remind you that I was the Senate author of the no-smoking 
in airplanes.
    Chairman Leibowitz. I'm aware of that, Senator, and we have 
a very proud history in this area. In 1964, just after the 
Surgeon General came out with its cigarette report or report on 
cancer, it was the FTC that put the first warnings on labels 
with a cigarette-labeling rule. Subsequently, Congress turned 
that into legislation.
    We will continue to do periodic reports. We did one this 
July and we expect to have another one out next year on the 
advertising expenses of tobacco companies.
    I think what we've seen, as you know, is that for tobacco 
involving smoke, the advertising expenses have gone down, but 
smokeless tobacco agencies have gone up, and we will continue 
to be involved in that.
    Some of our jurisdiction over things like testing went over 
to the FDA in legislation 2 years ago, and they are the 
appropriate entity to look at testing. We are not any more. But 
we will continue to stay involved in this issue.
    Senator Lautenberg. Thank you.
    Dr. Blank, we know that changes in ocean chemistry caused 
by carbon dioxide will affect our food supply and the health of 
our oceans, yet research on ocean acidification is still in its 
infancy.
    Now, I wrote a law in 2009 requiring NOAA to lead an 
interagency effort to study the effects of ocean acidification. 
Are you familiar enough with this to say that you're going to 
continue to build on the Administration's commitment to better 
understanding in addressing this growing problem? Because it 
portends bad things for our ecology, I think.
    Dr. Blank. Thank you, senator. I appreciate that law and 
the nudging that you have given to us, that authorization to do 
more work and research on the ocean-acidification issues. They 
are obviously important both for the ecology of coastlines as 
well as for the survival of various fish stocks, and both of 
those are central to NOAA's mission.
    We have certainly tried to move forward as quickly as we 
can on implementation of the provisions within your law. I know 
there's a lot of interest in pursuing this research on ocean 
acidification. There's a strong sense this is a very important 
area, and I certainly will pledge to you that I will continue 
to make sure that work moves forward.
    Senator Lautenberg. Thank you, Mr. Chairman. Thank you to 
all the witnesses.
    The Chairman. Thank you, Senator Lautenberg.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    And, Dr. Blank, if I could start with you, there's, in some 
quarters, a belief, maybe, that the United States cannot 
manufacture anymore, and I disagree with that, and I think most 
on this committee disagree with that.
    But, also, Gary Pisano and Willie Shih from the Harvard 
Business School, have just suggested that a country will 
eventually lose its competitive edge in R&D design and 
engineering unless there's a strong domestic manufacturing 
base. Do you agree with that?
    Dr. Blank. Yes, I do, sir.
    Senator Pryor. And why?
    Dr. Blank. I believe that there is a lot of evidence that, 
first of all, the presence of manufacturing is closely linked 
with the presence of engineering and design, and you cannot 
maintain design and engineering in this country if there is not 
production occurring nearby.
    Second, I do think that particularly advanced 
manufacturing, high-value added products are a comparative 
advantage in this country and a real driver of a very important 
sector of our economy, which has actually been expanding and 
leading the economic growth of the last year.
    Senator Pryor. I hope that'll be a major focus of you as 
you serve in this capacity, is try to make sure that we have 
the right kind of manufacturing in this country.
    The second question I have for you, Dr. Blank, is that the 
National Export Initiative, you know, is setting out to try to 
double U.S. exports over 5 years. Senator Tom Udall and I 
recently introduced a bill titled, the ``Clean Energy 
Technology Manufacturing and Export Assistance Act,'' S. 1586.
    How can the Department of Commerce and the International 
Trade Administration more effectively promote the export of 
U.S. clean-energy services and products?
    Dr. Blank. So that's an excellent question, and I'd 
certainly welcome a conversation with you and your staff on the 
ideas that you have and that are in this bill.
    I mean, I don't know that clean-energy products, in terms 
of promoting their export, are notably different than other 
products. We need to have a real advantage in this country in 
producing these and innovating in them and doing the design and 
the patenting and the technology transfer that gives our 
industry an edge over the rest of the world. And if we don't 
have that background of research and design, we're not going to 
have the leadership in exported manufacture.
    So, I mean, it's similar to other products. We have to 
really work on supporting the whole range of this manufacturing 
industry, so that it stays in this country.
    Senator Pryor. Yes, I think that's part of the idea there 
is if the Department of Commerce can help us open those export 
markets for U.S.-manufactured products, it just helps our 
marketplace here to continue to develop and grow and be the 
leader.
    Let me turn, if I may, to the other two witnesses, and I 
guess, Chairman Leibowitz, I'll start with you. I want to ask a 
question that I'm not sure you can comment on, and it has to do 
with pharmacy-benefit managers. And there's a merger between 
Express Scripts and Medco, supposedly, if I understand what the 
news accounts say. They already have somewhere between 50 and 
60 percent of the market for prescriptions, and the merger of 
these two companies could impact more than 135 million 
Americans. That's about a third of the U.S. population.
    And I have concerns about the consolidation of the 
marketplace with PBMs. And, again, I don't know if you can 
comment on that, but I wanted to express my concern, and if you 
can comment, I would love to hear your comments.
    Chairman Leibowitz. I can comment to say--because the 
companies have acknowledged this--that we are reviewing the 
merger. We are going to apply the appropriate standard under 
the Clayton Act, which is if the merger may substantially 
lessen competition, we will challenge it. If it doesn't, we 
won't.
    I have seen that figure, 50 to 60 percent. I think that may 
be within PBMs as opposed to within all prescriptions written 
or all medicines consumed.
    But because it is a matter under investigation, I will 
leave it at that, except to say we hear your comments and we 
are working very diligently with two of our bureaus, the Bureau 
of Economics and the Bureau of Competition, to review this 
proposed deal.
    Senator Pryor. Thank you.
    Ms. Ohlhausen, did you have any comments on that?
    Ms. Ohlhausen. Just that I am aware that the commission has 
an investigation and if I'm confirmed I would certainly want to 
talk to the bureaus and my colleagues to determine if there's a 
competitive problem.
    Senator Pryor. Thank you.
    This committee continues to look for bipartisan consensus 
on data security, and I want to thank the Chair and Ranking 
Member for trying to get us to that consensus, but I'd like to 
switch gears a little bit and ask the both of you about 
privacy.
    I read the FTC's proposed update on the Children's Online 
Privacy Protection Rule, and it says, let's see, in addition to 
children under 13, I believe that teens also face challenges in 
the online world, so not just 13 and under, but teens 
generally.
    And that sort of raises the question of what you two 
believe would be the core components of meaningful privacy 
legislation, regulation and principles regarding teens, again, 
not just 13 and under, but teens generally.
    Chairman Leibowitz. So, as you know, we put out guidance on 
COPPA. We are taking comments on it, and we have seen a lot of 
support from stakeholders, but also comments, and we will be 
reviewing those as we go forward with the rulemaking.
    For teens, as you know, they are not covered if they are 13 
to 17, but we are very, very concerned about privacy and social 
media aimed at teens. As you know, teenagers have an incredible 
ability to use the Internet, but, sometimes, they act 
impulsively--not my children, of course--and their judgment can 
be in doubt, and so it's an area we are very, very concerned 
about.
    I would say that is one of the reasons we are going to do a 
deeper study into applications. We have found that some of them 
are not rated, even if they are content-based, particularly in 
the mobile space. And some of them are rated, but may not be 
rated accurately because they are self-rated. And so that is an 
area we are going to continue on.
    And then if you look at our privacy report, we talk a 
little bit about teens, and some of the areas we have looked at 
in the draft privacy report, which we hope to finalize by the 
end of the year, include geolocation and things like Do-Not-
Track.
    So we want to work with you as Subcommittee Chairman and 
work with this whole Committee, because I know it is a very 
important issue to you and it is an important issue to us.
    Ms. Ohlhausen. And I agree that I think teens raise 
distinct issues than younger children, where the parent really 
controls or should control their interaction and their release 
of data, but they are different than adults.
    So I do think it's important to take a close look at the 
issues and make sure that they have a clear understanding of, 
you know, what data is being collected about them, how it's 
being used and that they're not just sort of pulled into doing 
something they don't really understand what the ramifications 
will be.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor.
    Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    On the voluntary guidelines on food marketing, let me ask 
you this, I noticed over the weekend--and I'm trying to avoid 
sugar and starch. I think it's important, but I didn't need 
changes in advertising to get me to do that. I mean, I kind of 
knew I wasn't healthy and got to work on it.
    And so I noticed an advertisement over the weekend, where a 
young boy and his father were playing touch football, and Tony 
the Tiger was playing with them. And they walked inside after 
they played touch football together, and Tony the Tiger kind of 
walked with them. And then the father and the son sat down and 
had a bowl of frosted flakes. Would that be against the 
guidelines?
    Chairman Leibowitz. I don't think so. Of course, they are 
recommendations. They are voluntary. They are not enforceable.
    Senator McCaskill. Well, but----
    Chairman Leibowitz. No, no, no----
    Senator McCaskill.--people can advertise----
    Chairman Leibowitz.--I think I saw that same advertisement 
and it was to a general audience.
    Now, the industry itself, the CFBAI has made its own 
pledges about what should or shouldn't be advertised, and if 
frosted flakes are within that group, by a certain period of 
time, they will phase out advertisements targeted to audiences 
age 2 to 11.
    And so we will put out final guidance that will reflect, to 
a large extent, the support for self-regulation and for the 
guidance that the food-marketing companies have put into place, 
and----
    Senator McCaskill. I think the food-marketing companies are 
doing a good job trying to do some of this on their own, but 
let me get back to my question.
    Chairman Leibowitz. Sure.
    Senator McCaskill. Would that advertisement violate the 
voluntary guidelines that are going to be issued by the 
interagency group? Yes or no.
    Chairman Leibowitz. I think the answer is almost certainly 
not.
    Senator McCaskill. OK.
    Chairman Leibowitz. The caveat is that I would need to see 
where it is and where it is placed, but almost----
    Senator McCaskill. I would love you to look--have your 
folks look at the commercial and look at the guidelines and get 
back to me with a specific answer, because the young boy in the 
ad is certainly younger than 11, and it is Tony the Tiger, and 
I don't think Tony the Tiger--I mean, although--I remember my 
mother not buying me frosted flakes, even though I thought Tony 
the Tiger was cool. That's how old Tony the Tiger is. He's been 
around a long time. I want to make sure we are using some 
common sense here.
    Let me ask you another question about your jurisdiction, 
Mr. Leibowitz.
    I'm curious about your entry into labeling of alcohol 
products. This is brand new. And you and I have talked before 
in this hearing about how much work you have to do that you 
can't get to because you don't have enough folks, and, 
typically, the alcohol and tobacco agency, the bureau is 
somebody who has always taken the jurisdiction on labeling and 
marketing of alcohol.
    And for you to go there when this has never happened 
before, I am curious as to how that happened, since I think 
you've got plenty to do without entering into new areas.
    Chairman Leibowitz. Well, we certainly do have plenty to 
do. Now, we have done, by either statutory obligation from 
Congress or through appropriations language, we have done--and 
I'll get back to you on this--periodic, almost annual alcohol-
advertising reports--and they are very supported by industry--
about how much industry is spending on advertising.
    With respect to the Four Loko case, we worked with the FDA 
and we sent them warning letters and they stopped putting 
caffeine in these fortified alcohol drinks, which are known 
around campuses as Blackout in a Can----
    Senator McCaskill. Yes. No--Listen----
    Chairman Leibowitz. I know you're not suggesting----
    Senator McCaskill. No, I think we need to do something 
about this product.
    Chairman Leibowitz. Right.
    Senator McCaskill. The question is your jurisdiction versus 
the Bureau of Alcohol and how this happened that you stepped 
into an area that you have never, ever been in before as 
opposed to the Bureau of Alcohol--Treasury.
    Chairman Leibowitz. I want to get back to you on this. I 
believe, at least with the warning letters, we certainly 
consulted with BATF or the Bureau of Alcohol. But let me get 
back to you and give you a fuller answer.
    Senator McCaskill. Yes, that would be perfect.
    Chairman Leibowitz. I understand your concern.
    And the one thing we also did was because some had raised 
concerns about this, we put a draft consent decree on the 
record and then we opened it up for comments, and we are 
extending the comment period for people who have comments or 
entities that do, and we will take those comments into account.
    Senator McCaskill. I don't want anyone to misinterpret. 
Sometimes I--my sarcasm gets me trouble on this committee 
because people take things out of context. I don't want anyone 
to interpret my questions that I don't think something needed 
to be done about this product.
    Chairman Leibowitz. No, I understand.
    Senator McCaskill. The question is who should be doing it? 
And I'm trying to keep you guys focused on this huge body of 
work you have without beginning other areas that typically you 
have not gone in.
    Chairman Leibowitz. And, Senator, we appreciate that. We 
are a small agency with a big mission and we do worry that the 
quality of our work is being strained by the quantity of 
demands placed on us. And so when we head to the outer area of 
our jurisdiction, it is not always a good idea. So I hear what 
you're saying. Thank you.
    Senator McCaskill. Thank you. Thank you very much. Thank 
you, Mr. Chairman.
    The Chairman. Sarcasm?
    Senator McCaskill. Me?
    The Chairman. Impossible.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to all our witnesses here.
    I guess I'd start with you, Dr. Blank, because, you know, I 
chair the Subcommittee on export promotion, which includes 
tourism, and Senator Blunt and I--he's ranking Republican--have 
been working together. We have a bill that we would love to get 
done very quickly.
    We're having our hearing Thursday to speed up the--help the 
State Department to speed up their visa approvals. As you know, 
we've lost 16 percent of the international tourism market. 
Every point we've lost is 160,000 jobs. It's an immediate way 
to bring jobs in our country.
    Could you talk about how the Department of Commerce views 
the economic impact of getting additional tourists in the U.S.?
    Dr. Blank. So one of the things that I think is much 
underappreciated is the fact that foreign tourists are a major 
export for the United States. It's people from abroad buying 
U.S. goods and services. And this is a potentially vastly 
expanding market, particularly with the growth in middle 
income, families in China and Brazil and some of the other 
large countries. So this is a central part to the National 
Export Initiative in terms of expanding exports within the 
Department of Commerce.
    As you know, we play a key role on the Tourism Policy 
Counsel working with State Department on the visa issue. My 
understanding is there has been some real progress on this 
issue.
    Senator Klobuchar. There has been.
    Dr. Blank. I know that there's more progress that needs to 
be made. And we also, obviously, worked on standing up the 
Corporation for Travel Promotion, and that's moving forward and 
I think recently announced its international advertising 
efforts, and work with the Travel and Tourism Advisory Board 
from the private sector. So----
    Senator Klobuchar. Very good. Yes, there's been some market 
improvements in the last few months. We're excited. Tom Knight 
over at the State Department has been helping, and I know 
you've been doing a good job. So we're looking forward to the 
hearing tomorrow and getting some of that out there--or 
Thursday.
    Mr. Leibowitz, two issues I want to ask you about. The 
first is the grey-market issue. I've been working very hard on 
this drug-shortage issue. The president did an administrative 
order a week ago, endorsed the bill that I, with Senator Casey, 
Senator Collins and others, to give the FDA some early warning.
    Could you talk about if there's a mechanism for the FTC to 
address the vendors who essentially have a monopoly on specific 
drugs that are in shortage?
    Chairman Leibowitz. Well, we are aware of your legislation, 
and, of course, if the drug shortage is due to anticompetitive 
behavior, a conspiracy to violate the antitrust laws or some 
sort of monopolization, we would have jurisdiction there.
    We are also working with the FDA, which has more 
information. And HHS, which, as you know, just issued a report 
to see whether there is something that we can do that would be 
useful in this area, because, obviously, it's a serious 
problem.
    Senator Klobuchar. OK. And then I wanted to get at the 
marketing guidelines. I know a few of my colleagues have asked 
those questions, but--So just to get this clear, you considered 
these voluntary. Do you have authority to issue industry-wide 
regulations or do you think that they are voluntary suggestions 
or how do you consider them?
    Chairman Leibowitz. These are voluntary recommendations. 
They are unenforceable. We do not have regulatory authority 
here.
    And, as you know, Senator, because we've talked about it, I 
believe that the marketing guidance that we are going to come 
out with, because, again, we don't do the nutrition side, but 
the marketing guidance will be very, very balanced, and I think 
people will like it.
    And we did listen to stakeholders when we put out the first 
draft for comment.
    Senator Klobuchar. So you've made some changes, I know, 
because I was--been very involved on the AG committee on the--a 
lot of the nutrition work we've done and we've seen some market 
improvements, my daughter, I see them in the school every day 
with what's in the vending machines, things like that.
    But so they're voluntary, and you've also worked on some of 
the changes. I remember 2-percent milk was included for a 
while. And what's happening with low-fat yogurt?
    Chairman Leibowitz. Right. So, we don't do the nutrition, 
but low-fat yogurt, certain types of cereal, one of my 
daughters went through a period where she was eating Special K 
with yogurt and fruit for breakfast, and I thought this was a 
small triumph for parenting.
    Senator Klobuchar. It is, when the other choice might be 
waffles or toast, that is----
    Chairman Leibowitz. Right. And I found out that in the 
draft nutrition guidance, it would not have met the standards 
because it had too many grams of sugar. I think the draft cut-
off was at seven. It was at eight and it had seven or it was a 
nine and it had 10, and so I was actually very surprised by 
that.
    But I know that the Department of Agriculture and HHS are 
working hard. I like to think when they come up with their 
modified or final nutrition guidance--again, it will be 
recommendations. It is not a regulation. It will be a more 
balanced nutritional meal of sorts.
    Senator Klobuchar. OK. Thank you very much. I appreciate 
all three of you being here. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Chairman Leibowitz and also Ms. Ohlhausen, the--Oh, I'm--
Kelly, I'm sorry. Senator Ayotte. Ayotte. Got it right?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Yes, you did. Thank you, Mr. Chairman.
    The Chairman. You're welcome.
    Senator Ayotte. Chairman Leibowitz, Ms. Ohlhausen and Dr. 
Blank, I appreciate your being here.
    I also wanted to echo what Senator McCaskill said. I share 
her concerns to address this jurisdictional issue because I 
know the BATF is also looking at this and want to make sure 
that it's clear guidance. So I look forward to your answer on 
that and appreciate it.
    Chairman Leibowitz. Thank you.
    Senator Ayotte. Chairman, I've also been concerned about 
the open-ended nature of the FTC's statutory authority extended 
to it under Section 5. The business community needs certainty, 
guidance and predictability when it comes to antitrust laws, 
and, frankly, every other type of regulation, so that they can 
comply.
    In your written testimony, you said that if we find 
violations of the law, we will aggressively pursue them, and I 
wholeheartedly agree with that.
    But the problem is that, in many instances, the business 
community is unsure about what your interpretation of the law 
is, and, therefore, who may be liable and what they may be 
liable for.
    And there are some instances where the FTC threatens to 
enforce a standard and only the FTC knows what that standard 
is. So if the FTC is working to eliminate, for example, 
deception and unfairness under Section 5, isn't it absolutely 
necessary to start with properly providing notice of which 
standard you're going to apply? And, also, can you define for 
me your view of what the proper limits are with your authority 
under Section 5?
    Chairman Leibowitz. Right. So this is a great question, and 
you're absolutely right. Businesses want certainty and we ought 
to provide guidance to them.
    Section 5, unfair methods of competition, was created by 
this Committee in 1914, when you created the FTC and drafted 
the FTC Act, is a modest penumbra around the antitrust 
statutes.
    But whenever we have used it--and I have gone back and read 
the legislative history of the statute--you wanted to give us 
broader jurisdiction, but limited remedies.
    So, for example, unlike the Antitrust Division, we don't 
put people in jail. We don't fine malefactors. But in the 
instances in which we have used Section 5 recently--and, of 
course, we have used that statute as a Commission going back to 
our early years--the touchstone has always been harm to the 
competitive process, harm to competition, harm to consumers. 
And we have only used it twice, since I have been Chairman, and 
I think most people understand that is a fairly judicious use. 
Both times they were unanimous bipartisan votes and we issued 
guidance.
    So we issued guidance in the U-Haul case, which involved an 
invitation to collude. We alleged that U-Haul's executives 
reached out to Budget Rent-a-Car and said, ``Let's raise prices 
for trucks in Florida.'' And if Budget had said yes, we would 
have kicked it over to the antitrust division's criminal 
section for criminal prosecution, because that is hardcore 
price fixing.
    Fortunately, Budget did not, and so the best way to reach 
it and perhaps the only way to reach it is as an unfair method 
of competition.
    The other time we used it was in the Intel case involving 
what we believed to be anticompetitive behavior. We also used 
the Sherman Act for monopolization. We ended up settling, I 
think on good terms for consumers and competition, and on good 
terms for Intel. Again, it was a unanimous vote. And we will 
continue to look toward ways to give folks guidance.
    But I'd also say that the Supreme Court, the last two times 
it has looked at this issue, in the Sperry and Hutchinson case 
and in Indiana Federation of Dentists, which was written by 
your predecessor as attorney general, Justice Souter, has 
acknowledged the scope of Section 5. But we want to work with 
you on this.
    Senator Ayotte. Well, I appreciate it, because I love the 
word penumbra, but it's only a word that lawyers could love. 
So----
    Chairman Leibowitz. I understand.
    Senator Ayotte. To the extent you can give guidance, it's 
very appreciated, so people can comply and we get better 
results for consumers as well.
    I wanted to ask Dr. Blank about when you and I met, we 
talked about my concerns about overregulation of the fishing 
industry, and particularly the catch shares program.
    In fact, Senator Brown and I have been so worried about our 
fishermen that we introduced a bill, as you're familiar with, 
that would actually eliminate that program because of the 
detrimental impact on our small fishermen and to commercial and 
recreational fishing.
    So can you help me--you said you'd work closely with NOAA 
to make sure its fisheries management programs are implemented 
effectively.
    What do you think went wrong in implementing the catch 
shares program? And how would you go about improving the 
program to make sure that we don't eliminate these fishermen 
who get their livelihood in a very important way?
    Dr. Blank. So catch shares is one program to manage fish 
stocks. It's not the only program, and it has been implemented 
in a number of places around the country quite successfully. 
There clearly have been some more problems in New England.
    I would note that the selection of what type of management 
program is used is actually done collaboratively with the local 
fish-management councils, so that, in that sense, it's a 
voluntary choice amongst a number of different choices.
    I think that, you know, there has not been as much 
consultation back and forth and, you know, in terms of NOAA's 
interactions with some of the fisheries councils inside--you 
know, in an open and completely transparent way with some of 
the fisheries councils in the New England region. That has been 
a problem.
    We've obviously, in the past, had some problems with our 
law enforcement that I think we have completely cleaned up, but 
it was--You know, we need to do this well if we're going to do 
it.
    And I think we have sometimes not been quite as transparent 
as we need to be about the science on which--you know, the 
basis on which we set various stocks and, you know, decide sort 
of what the catches should be. We have to be quite clear about 
what that's based on and why we're saying what we're saying. 
And both those issues of transparency and communication and 
collaboration, I think, are most important.
    Senator Ayotte. Thank you. I appreciate your answer, Dr. 
Blank. And my time is up.
    I just want to say this is a very important issue to a 
noble profession in the Northeast. And I am hopeful that we 
will start a relationship where there is that communication 
transparency there and that laws are enforced fairly and not to 
eliminate these fishermen who have--many of them, this 
livelihood has been in their families, and it's something that 
we want to preserve in New England, and, obviously, keep those 
jobs.
    Dr. Blank. Thank you.
    The Chairman. Thank you Senator.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    I'd like to follow up on one of Senator Pryor's questions, 
Mr. Leibowitz and Ms. Ohlhausen, about the potential merger of 
Express Scripts and Medco, and, with that, I'm told that 
approximately 135 million people, more than one-third of 
Americans, would rely on--a large, kind of a mega PBM.
    One of my concerns is community pharmacy, and in much of 
rural America, community pharmacy, in many cases, is the 
healthcare provider, and with the ability to push entities into 
things that are best for the PBM, especially now pushing things 
into mail order.
    We have all of the closures of the post offices, which, 
again, we don't think of, but, if you're having to drive, 10-15 
miles to get your prescription and things, that really is a big 
deal.
    I guess my question is do you all, when you make your 
considerations, do you factor in things like that? Is that 
something that comes into play?
    Chairman Leibowitz. That is a really good question, 
Senator. Let me just start on community pharmacists. My mother-
in-law, who is actually in the room, was a pharmacist. My 
father-in-law was a professor of pharmacology. I have met with 
community pharmacists on a variety of issues, often involving 
PBMs, and so I listen to them, and we do at the Commission. So 
we are aware of their concerns.
    I cannot talk about a particular merger, other than to 
acknowledge that we are doing this, that we are reviewing 
Express Scripts, Medco. But I can say that we look not only at 
price effects, but non-price competition effects as well.
    So non-price effects might be, for example, reduction in 
service, closing of stores. Those are factors that we will take 
into account as we review this proposed acquisition.
    Senator Boozman. Thank you.
    Ms. Ohlhausen. And, Senator, I agree. Talking about mergers 
in general, it's always very important to look at the impact on 
the ultimate consumer of any merger. So that's the type of 
consideration that you go in.
    Senator Boozman. Good. Very good.
    One other thing, and, again, this kind of goes with the 
senator's question while ago about Section 5. As you know, a 
group of attorney generals from 36 states and three have 
written you a letter and basically said that they would like to 
get more aggressive with stolen IT, those kind of things, and 
are willing to work in conjunction with you to really start 
policing this.
    And I guess what I would like to know is, where do you see 
Section 5 entering into that and how can we accomplish that? 
That is a huge deal.
    Chairman Leibowitz. Well, these are very serious concerns, 
I know, for the Attorneys General who wrote us, and their 
letter, again, acknowledged the scope of Section 5. And so we 
just received it, I think, a week ago Monday. It is circulating 
around the Commission. Whenever you get a letter from 36 state 
AGs, plus--you're right, three from the territories.
    Senator Boozman. Three from the territories.
    Chairman Leibowitz. Three from the territories. You take it 
really seriously, and we will try to come up with a consensus 
response.
    But it also points out that we are an agency that is 
supposed to stop anticompetitive conduct.
    But going back to Senator Ayotte's question, we need to 
have limitations on Section 5. Not everything that someone 
raises with us is an unfair method of competition. That may not 
rise to the level of antitrust violation.
    So we need to think that through as a Commission, and with 
some luck, we will have Ms. Ohlhausen with us helping us to 
think these issues through.
    Senator Boozman. Well, again, I think that is almost 
unprecedented, having that kind of response, you know, from so 
many Attorney Generals.
    Chairman Leibowitz. It is.
    Senator Boozman. And it is a huge problem, and so perhaps 
using Section 5 or with your help figuring out how we can do 
something else to eliminate the problem, because it is a huge 
problem, that would be very helpful.
    Chairman Leibowitz. We hear you and we will factor that 
into our consideration. Thank you, Senator.
    Senator Boozman. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Boozman.
    Dr. Blank, had two extraordinary experiences--well, many 
more than that, but the question I want to ask you, in West 
Virginia, when I was Governor, I spent a lot of time going 
overseas trying to market West Virginia products.
    And then when I came here, I spent a lot time trying to go 
overseas and get Japanese countries and Taiwanese companies to 
come here to West Virginia to locate, and it worked. It was 
really hard. It was a really hard sell.
    And I remember, years ago, trying to get somebody to 
increase their obvious capacity through clean-water--you know, 
I mean, just that incredible system where they could have 
really marketed it overseas, but they had the feeling that they 
wouldn't do well overseas. Maybe it's an Appalachian thing, I 
don't know, but they just had the feeling that they wouldn't do 
well, and so they did not go on that trip in which they could 
have scored tens of millions of dollars of business.
    Fast forward, we had the U.S. and Foreign Commercial 
Service, and then they left at a certain point. They were very 
helpful on exports.
    Now, I had--the only hearing I've ever had as Chairman, on 
exports, in Charleston, West Virginia. We had some folks from 
the Commerce Department down there, and a whole lot of people 
turned up from West Virginia, which really surprised me. In 
other words, it was a packed courthouse, as it turned out.
    And exports are on their mind, particularly because the 
coal industry is suffering in a variety of ways. Our state 
economy is changing. We're going to a higher-tech economy. It's 
a very uncomfortable shift because sections of the state have 
been in certain patterns for decades and decades and decades, 
and so we need some help.
    And what I would love to see is to go back to the U.S. and 
Foreign Commercial Service--but now you could do it under the 
International Trade Administration--a couple of people in West 
Virginia, the difference from your department--the difference 
that they would make in people being adventuresome and 
confident and willing to take a risk. I mean, risk taking is 
what we need more than anything in West Virginia, not 
necessarily football, but risk taking, and that comes with 
encouragement.
    And one of your deputy secretaries was down there and he 
sort of turned everybody on their head simply by what he said. 
And then we turned around and he pointed out to us that our 
exports had gone up almost at twice the rate in the State of 
West Virginia as was true in the entire country, and nobody 
could believe that. Well, why couldn't they believe that? 
Because they're, in a sense, trained not to believe that, and 
it's wrong. So what we need are some enablers there.
    Now, heaven knows what's going to happen to your budget. I 
understand; but I really want to make the point that people who 
encourage those who are interested in exporting to follow 
through on it, and following through on it make a huge 
difference in West Virginia.
    That hearing was the subject of a lot of talk for several 
months after it was completed. I thought it was going to be 
somewhat of a routine hearing. It was anything but that. People 
were hungry for thinking about exports.
    So I want to plant that thought in your head. You can't 
possibly answer it now because you're not there yet, but you 
know there's a certain virtue to my question.
    Dr. Blank. Yes, as you probably know, the vast majority of 
companies that export export to only one country, and one of 
the things that we are working on is expanding that realm. And 
then there's large--you know, only a very small number of 
American companies export at all, and, in some sense, this is 
the mission of ITA and our domestic and foreign commercial 
services to expand that.
    One thing that we are working on, which I think is very 
important, particularly for rural areas, you know, no matter 
what we do, in terms of offices, not everyone is going to be 
able to walk through the door of one of our offices. So we are 
working very hard on expanding and making much more user-
friendly our online services, so that people can get to us, get 
to us more rapidly, get better services on line, know who to 
contact if they want to hold conversations, if they want 
someone to come out and work with them, and those sorts of 
changes to our export.gov website, as well as to a larger web 
portal that is going to open up access to all sort of business-
related services across the government, called Business USA, is 
very high on my priority list.
    The Chairman. Good.
    Chairman Leibowitz and Ms. Ohlhausen, I'm very vigorous on 
the subject of protecting privacy, particularly online privacy 
and particularly children's online privacy. There's so much 
talk about the fact that you don't have the power, in fact, to 
enforce it. People know that, so you can--it's like me having a 
hearing. I can have a hearing and I can embarrass some people, 
but I can't do anything about it unless I pass legislation.
    That being in mind, to me, the most efficient way of people 
being able to protect their privacy is what I would call, and 
what you would call, Do Not Track online capability. In other 
words, you click once and the message goes out to everybody for 
all time that unless you retract it, they cannot do it. There 
are no ways around it.
    Now, I would be interested in both of your thoughts about 
that, because that's a strong action to take. But, you know, as 
you look at what's happening in the world of bullying and 
sexual predatoring towards younger children, but, really, it's 
a world that takes pride in its new frontiership and it's 
unregulated, we-can-do-anything-we-want status.
    And it was interesting, I listened to Mark Zuckerberg and 
Sheryl Sandberg talk on Charlie Rose the other night, and their 
conversation, for an hour, was replete with that kind of 
thinking. It's, the world is ours. We are the future. And any 
sense of restraint or not once was a single consequence, 
collateral-damage type thing that was brought up by either of 
them. And Charlie Rose was enthralled by both of them, so he 
didn't help either.
    So my question to each of you would be how--and you have a 
report which gets very close to that. I have legislation which 
gets exactly to that. And I would be interested in your 
thoughts about it, both of you.
    Chairman Leibowitz. Well, I guess I would say that I think 
there is a way in which a hearing plus legislation does more 
than simply admonish someone. I think sometimes it lights a 
fire under them. And at least with respect to Do Not Track, we 
are seeing lots of support for this in the advertising 
industry.
    Now, there are different flavors of it or versions of it, 
as you know. We have called for Do Not Track through browsers, 
which we think would be very, very successful, and Microsoft 
and Mozilla and Apple have all endorsed it, as have a number of 
advertising networks.
    There's also the Digital Advertising Alliance, which has 
some ways to go, but has made very meaningful strides toward 
giving consumers this kind of choice one click away or two 
clicks away.
    And I was speaking last week at something called the 
ad:tech Conference. It is the largest convention of Internet 
advertisers. And I was surprised at how much support there was 
for this, and it is in part because when consumers are more 
empowered on the Internet, they have more trust in going on the 
Internet, and they do more commerce. And most of the Internet 
advertisers recognize that the sky won't fall down if they give 
consumers choice. And we, of course, think giving consumers 
choice is always a good idea.
    I would say that if we don't see more progress by industry, 
I am sure that your legislation will be moving through the 
Committee and we will be working with you. I am happy to work 
with you. I would have to go back and talk to the Commissioners 
about that, but we will help you with it.
    And then, finally, if you violate the law, if you say 
something to a consumer in the privacy space, like, ``we will 
protect your data,'' or ``we will protect your information,'' 
and then you do not honor that commitment, we will go after 
you, and we have done that on numerous occasions, and, sadly, 
we will probably have to do it on numerous occasions going 
forward.
    So we want to work with you on Do Not Track and we want to 
work with companies to help them do this, hopefully 
voluntarily.
    The Chairman. Ms. Ohlhausen.
    Ms. Ohlhausen. Yes. And I also agree that it's very 
important that consumers' preferences and choices be respected. 
The FTC has brought some good enforcement cases where consumers 
thought they were opting out of tracking and they were actually 
tracked, and I think that has made some very good progress in 
that area. And the FTC's report on privacy from December 2010 
talked about a Do Not Track option.
    And I would, if I'm confirmed, be very interested to talk 
to the FTC staff and see what they think about the feasibility 
of having some sort of one-click option, whether it's through 
an opt-in system or through a browser, and also get their views 
on the self-regulatory process, the Digital Advertising 
Alliance and some of the progress that's been made in the 
browsers to get an idea.
    But I do agree that it's important that consumers have 
confidence when using the Internet, confidence about how their 
information will be used and how it's collected.
    Chairman Leibowitz. And if I could just add one thing, 
Senator, my kids can go online and order clothes from, say, 
Forever 21. In one click they can figure out what size, what 
color, where to deliver it. You know, the people who designed 
that should be the people who design Do Not Track, because it 
needs to be one click away. It needs to be clear to consumers. 
I don't think we are quite one click away yet in the industry.
    The Chairman. Not quite yet. Thank you, all three of you, 
very much.
    Senator Hutchison.
    Senator Hutchison. Since you have explored Do Not Track, on 
the Do Not Fax, we've all gotten the faxes on our home fax 
machines that are advertisements, and you have a little number 
that you call and say take my number off your list.
    I got one just recently that was a new innovation, and it 
was the advertisement and then to get off their list, you had 
to go online to a website.
    Now, first of all, there are a lot of people who have fax 
machines and do not have computers, older people especially. 
And it's a hassle. If you're getting a fax, you're right by a 
phone, so you can call and you can take care of it, although I 
wish that there was one button that you could say--You call 
this number and you will be forever barred from getting 
unwanted advertising on the fax machine.
    So if you can figure out the Do Not Track with one button, 
would you also take up Do Not Fax?
    And especially do you think that there should be something 
that would not allow them to use a website on a computer to get 
off a fax line?
    Chairman Leibowitz. Yes. Many of us have had the 
circumstance of having fax after fax after fax come through our 
homes. It might be your only phone line or you might actually 
have things you want to do and you do not need these 
advertisements.
    You know, we have the Do Not Call Registry. There are more 
than 200 million phone numbers that are on it. It has been a 
fabulous success. Dave Barry called it the most successful 
government program since the Elvis stamp.
    And on faxes, we still have a ways to go. I think we need 
to work with the Federal Communications Commission on that, but 
we will absolutely get back to you and see what we can do to 
make it clear and easier for consumers, because, yes, it is, at 
the very least, a nuisance.
    Senator Hutchison. Ms. Ohlhausen, do you have a view on 
that?
    Ms. Ohlhausen. To be honest, I don't know a lot about the 
Do Not Fax rule that exists, but I would be happy to look into 
it.
    Senator Hutchison. I would like to ask you, Ms. Ohlhausen, 
because we have certainly focused on the chairman, who has a 
record. That's the hazard of having a record when you come up 
here.
    But I'd like to know some of your views on regulation. 
You've had, certainly, a long background at the FTC and you 
know these issues.
    Do you think the FTC has the authority that it needs to 
assure that we don't allow deceptive trade practices and unfair 
trade practices or do you think there is enough? Mr. Leibowitz 
has suggested that perhaps the FTC needs more authority. Just 
tell us what your general view of regulation is.
    Ms. Ohlhausen. Certainly, Senator. So my general view of 
regulation is that it, you know, can be appropriate and, you 
know, often very necessary to protect consumers.
    The FTC in the FTC Act, Section 5, has a very broad 
authority, and it's used it quite effectively, I think, over 
time.
    In some instances, when the FTC has perceived problems, 
issues that are harming consumers, but they can't quite reach 
it through Section 5, Congress has been able to give them 
additional authority to make a rule or if there's a new law to 
reach that kind of conduct. So, over time, I think, that's a 
process that's worked fairly well, where gaps have been 
identified and Congress has given the FTC further direction. I 
think it's sort an iterative process where the FTC gets a good 
idea through enforcement.
    I think data security is a very good example of that right 
now, where the FTC has brought over 30 data-security cases and 
has found that, you know, it might be beneficial to actually 
have some legislation that gives it additional authority.
    So I see that as a useful process. Identify the problem 
first, determine if there's--you know, can be reached through 
current law, and if it can't, then try to get additional 
authority to reach those kind of consumer problems.
    Chairman Leibowitz. I agree with Ms. Ohlhausen, and we are 
an enforcement agency more than we are a regulator, but we 
always look at costs and benefits whenever we put anything out 
for guidance.
    Senator Hutchison. Let me ask Ms. Ohlhausen, Chairman 
Leibowitz has advocated outlawing the reverse payments in 
pharmaceutical patent litigation settlements, and I'd like to 
know your view on this issue.
    Ms. Ohlhausen. Yes, I think those kinds of settlements have 
the potential to be anticompetitive in certain circumstances. 
So I believe that it's important to evaluate them sort of on 
their own merits, you know, on a case-by-case basis, to see if 
they are being used in an anticompetitive way.
    Senator Hutchison. Do you think that the government really 
has a role in limiting settlement options between private 
litigants?
    Ms. Ohlhausen. Well, a settlement between private litigants 
is--you know, an agreement is sort of--An agreement can be 
between two competitors. Settlements are often a very efficient 
way to resolve a private conflict, to resolve an issue between 
two private parties.
    But, as in any agreement between two private parties, it 
can have the potential to be anticompetitive. So I think they 
need to be looked at.
    Senator Hutchison. Even though a judge is going to approve 
that settlement?
    Ms. Ohlhausen. A judge, you know, may approve it, and I'm 
not confident that a judge would always be applying the 
antitrust laws to the settlement to make sure it's not 
anticompetitive. So I think that having an antitrust expert 
look at it is helpful.
    Chairman Leibowitz. And I would like to add that we view 
this as a Commission. This has been a priority for us going 
back to Tim Muris, the first Republican Chairman under 
President Bush, and, really, Bob Pitofsky, the last Democratic 
chairman under President Clinton, every single commissioner, 
Democrat, Republican and Independent, has called for 
restrictions on these agreements.
    And the way we look at it is that it distorts the 
marketplace, because, of course, there should be settlements.
    And 70 percent of the settlements we review, and in the 
2003 Medicare Modernization Act, you required us to review 
those agreements, do not involve compensation from the brand to 
the generic and the generic delaying entry.
    Brands have much higher profit margins than generics. 
Generics have small profit margins, because there are multiple 
competitors, as you both know, on the marketplace 6 months 
after the first generic gets in.
    So if the brand can put a big bag of compensation on the 
table and the generic can earn more by not competing, by 
sitting it out--and, again, this doesn't happen always. It 
doesn't happen in most settlements, but it happens in a few--
then we think that that is a problem.
    And so we have brought cases. The circuits are split, you 
know. We have supported certain types of a legislative approach 
that would involve burden shifting, not banning.
    But it is a complicated issue and, Senator, you're right, 
of course--it is intuitive to support settlements. We are too 
litigious a society. Courts do not have time to actually 
litigate all these cases. So we like to think that we are on 
the right side of this issue.
    I believe, at some point, a case will get to the Supreme 
Court and that will resolve it. Maybe Congress will pass 
legislation. Maybe it won't. But I think it will get resolved 
in the next few years.
    And the only other point I would mention is the legislation 
introduced by Senators Kohl and Grassley. It has scoring 
effects of several billion dollars--I think $4.8 billion in 
reduced cost to government. We estimate that these deals cost 
about $3.5 billion each year to consumers in the cost of higher 
healthcare and higher co-pays, but it is a complicated issue. 
There is no doubt about it.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    And I think it's been a very helpful hearing, and it's 
brought up a variety of interesting points.
    Actually one of the most interesting, Chairman Leibowitz, 
came from you with the statement that you're not seeking 
necessarily more powers and everything, but you're seeking more 
people, and, you know, that applies just as much to the 
Department of Commerce.
    None of us know what's going to happen. None of us know 
what the Super Committee is going to do or not do, whether 
we're going to go into a sequestration. That won't really take 
effect until 2013, but everybody's on tenterhooks.
    So, in fact, you can't go ahead and make commitments to 
things that you really feel strongly about, because you're not 
sure that the budget's going to be there or maybe you're sure 
the budget isn't going to be there, and so you just don't do 
it.
    And that's something that the public generally does not 
figure into your angst factor. You have to worry about that all 
the time, enough money and enough people and more and more 
demand as people get more and more savvy, particularly in the 
telecommunications field.
    So thank you all three very much.
    Chairman Leibowitz. Thank you.
    The Chairman. And I look forward to all three of you being 
in your proper places.
    Hearing is adjourned.
    [Whereupon, at 4:09 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Jon D. Leibowitz
    Question 1. In May, I wrote a letter to Apple and Google asking 
them whether the software applications for their popular smartphones 
are in compliance with COPPA. The FTC recently announced its first 
COPPA enforcement action against a mobile application developer. 
Chairman Leibowitz, can you tell me about the Commission's recent COPPA 
enforcement action against a mobile application developer?
    Answer. In August 2011, the FTC announced a settlement with W3 
Innovations, LLC, a small company that does business as ``Broken Thumbs 
Apps.'' The FTC's settlement also named company president and owner 
Justin Maples. W3 develops and distributes mobile gaming apps on the 
Apple platform. The FTC alleged that several of W3's interactive apps--
including Emily's Girl World, Emily's Dress Up, Emily's Dress Up & 
Shop, and Emily's Runway High Fashion--sent and received information 
via the Internet and were ``online services directed to children'' as 
defined in the FTC's COPPA Rule.
    The Emily's apps at issue in the FTC action allowed children to 
play virtual versions of classic games such as ``Cootie Catcher'' and 
``Truth or Dare,'' and to design outfits and create virtual fashion 
models. Each of the apps encouraged children to send comments and 
submit blog postings to ``Emily'' via e-mail, and to post messages 
online.
    The FTC's complaint alleged that W3 failed both to provide direct 
notice to parents of their information collection and disclosure 
practices and to obtain verifiable consent from parents prior to 
collecting, using, or disclosing children's personal information (e.g., 
e-mail addresses, blog postings). The consent decree requires W3 to 
comply with COPPA in the future, delete all improperly collected 
children's personal information, pay a $50,000 civil penalty, and keep 
certain records to demonstrate compliance.

    Question 2. I urge the FTC to remain vigilant about children's 
privacy issues and to use all the tools at its disposal to protect 
children's privacy. Chairman Leibowitz, what can I expect to see the 
FTC do in this area during your second term as Chairman?
    Answer. The FTC remains committed to protecting children's privacy 
as children increasingly engage online. As you are aware, the FTC 
recently published proposed changes to the Children's Online Privacy 
Protection Rule and will be taking comments on this proposal until 
December 23, 2011. Once the comment period is closed, we will move as 
expeditiously as possible, but it is very important to give careful 
thought and consideration to all the comments and the policy 
implications of any change.
    In addition, our enforcement of the COPPA Rule continues apace. 
Most recently, the FTC announced a settlement with Jones O. Godwin, the 
individual operator of the child-directed social networking website 
www.skidekids.com. The agency expects to announce additional COPPA 
enforcement actions in the months to come. As a complement to our law 
enforcement actions, agency staff routinely assists website operators 
with Rule compliance, regularly updating business education materials 
and responding to inquiries from operators and their counsel.

    Question 3. During the debate over the Dodd-Frank Act, I worked 
hard to preserve FTC's authorities and prevent the transfer of consumer 
protection authority for financial products and services over to the 
Consumer Financial Protection Bureau (CFPB.) The result will be that 
there are two ``cops on the beat'' in this essential area. How do you 
anticipate that the FTC and the CFPB will work together? Once the CFPB 
has a director in place and begins to exercise its full authority, what 
role do you see for the FTC in consumer financial protection?
    Answer. Thank you for your work to preserve the FTC's role in 
protecting consumers of financial products and services. In these tough 
economic times, consumers need ``cops on the beat,'' and the FTC is 
eager to continue serving as one of those cops.
    The FTC is primarily a law enforcement agency. We have engaged in 
aggressive law enforcement actions to protect consumers of financial 
products and services. We have been especially active in our law 
enforcement activities targeting fraud and other egregious practices 
seeking consumers' last dollars, including loan modification and 
foreclosure rescue services, debt relief services, debt collection, and 
alternative financial services, such as payday loans. With the Dodd-
Frank Act, the scope of the Commission's law enforcement authority did 
not change. The FTC, therefore, will continue to be vigilant in 
monitoring the marketplace for violations of the laws we enforce, and 
we will continue to act quickly and effectively against those who 
violate them.
    The FTC will be a willing and able law enforcement partner of the 
CFPB. The Dodd-Frank Act requires that the Commission and the CFPB 
enter into a Memorandum of Understanding (``MOU'') by January 21, 2012, 
setting forth, among other things, how the two agencies will cooperate 
and coordinate law enforcement activities. The two agencies currently 
are actively engaged in drafting such an agreement.
    While the MOU is being drafted, the two agencies have moved forward 
with extensive and detailed discussions to promote coordination and 
avoid duplication in our law enforcement efforts, and to provide 
consistent guidance to industry members seeking to comply with the laws 
both agencies enforce. Other senior FTC officials and I have met with 
CFPB officials on a number of occasions to discuss generally how the 
two agencies can work together effectively. In addition, the FTC and 
the CFPB recently entered into an information-sharing agreement that 
permits staff investigating targets and prosecuting cases to share non-
public information. The two agencies further have established staff 
level enforcement working groups on six topics: (1) credit reporting; 
(2) debt collection; (3) debt relief (mortgage assistance relief, debt 
relief, and credit repair services); (4) mortgage advertising; (5) 
mortgage servicing; and (6) online lending. These groups have met and 
will continue to meet on a regular and frequent basis to discuss trends 
in industry practices, enforcement targets, investigative techniques, 
actions that will be filed, and numerous law enforcement-related 
issues.
    Given that the FTC is primarily a law enforcement agency, 
coordination and cooperation between the FTC and the CFPB related to 
law enforcement activities is the main focus of our partnership. But I 
would be remiss if I did not mention that we are cooperating and 
coordinating with the CFPB on a broad range of non- law enforcement 
issues. The FTC staff is providing views and sharing its experience 
with the CFPB staff to assist the CFPB in its supervision, examination, 
rulemaking, consumer education, research, consumer complaint process, 
and numerous other activities and initiatives to implement the Dodd-
Frank Act.

    Question 4. There are some who believed that the FTC should step 
back and let the CFPB take over all aspects of consumer financial 
protection. I am pleased to see that the FTC has not taken that 
approach and has continued aggressive enforcement. In your next term, I 
urge you to stay vigilant and continue to protect consumers from 
financial frauds and scams. Chairman Leibowitz, do you believe the 
Commission will remain aggressive with your authority and not take a 
back-seat to the CFPB?
    Answer. The Commission will continue to be vigilant in monitoring 
the marketplace for violations of the laws we enforce, and we will 
continue to act quickly and effectively against those who violate them. 
In fulfilling our statutory mandate, we will be a willing and able law 
enforcement partner of the CFPB. And we will be an equal partner.
    In its law enforcement work, the Commission will continue to be ``a 
cop on the beat,'' vigorously protecting consumers from financial 
frauds and scams. The persistence of the economic downturn has 
continued to put financially-strapped consumers at risk of harm, and, 
therefore, we have focused our law enforcement efforts on protecting 
them from mortgage assistance relief scams, debt relief frauds, and 
egregious debt collectors. For example, the FTC issued the Mortgage 
Assistance Relief Services Rule in 2010 and has brought 35 law 
enforcement actions against providers of such services during the last 
3 years. Similarly, the Commission issued debt relief amendments to the 
Telemarketing Sales Rule in 2010, and we have filed 18 law enforcement 
actions against providers of debt relief services in the last 3 years. 
The Commission will continue to be active in protecting consumers from 
these and other financial frauds and scams.

    Question 5. Since the repeal of Prohibition, states have been the 
primary authority when it comes to regulating the distribution and sale 
of alcohol. States have enacted varied laws that presumably reflect the 
attitudes and beliefs that their citizens have about alcohol sales and 
health and safety issues. Chairman Leibowitz, the Office of Policy 
Planning has issued reports and other public documents regarding state 
regulation of alcohol sales. The FTC has a mission to promote 
competitive free markets, but alcohol is a drug highly susceptible to 
abuse (particularly by minors) and is not akin to consumer products or 
services. Why does the FTC have an interest in using its resources to 
weigh in on state laws and regulations regarding alcohol sales and 
distribution?
    Answer. The FTC's competition advocacy program responds to requests 
from state legislators and regulatory authorities for comments on the 
likely competitive effects of proposed laws and rules. FTC staff with 
competition expertise explains the nature of any likely competitive 
effects and why they may occur.
    Thus, no advocacy letter is drafted unless there has been a request 
for comment from a relevant authority. In addition, FTC staff 
recognizes that the consumer's interests in the benefits of healthy 
competition--lower prices and greater product variety and convenience, 
for example--are not the only public interests that may be at stake in 
any particular context, and this may be particularly true where the 
distribution and sale of alcohol is concerned. State lawmakers have the 
responsibility to weigh all of the relevant factors for themselves. FTC 
staff's analysis simply provides information that may assist lawmakers 
and regulators in assessing the nature and scope of any tradeoffs 
between the benefits of competition and other values.
    The FTC's competition advocacy program uses a very small share of 
the agency's resources, and the resources devoted to the alcoholic 
beverage industry, in particular, are much smaller still. The FTC has 
not issued any competition reports involving alcohol since its 
congressionally authorized 2003 Wine Report,\1\ which the Supreme Court 
cited supportively several times in its 2005 decision in Granholm v. 
Heald.\2\
---------------------------------------------------------------------------
    \1\ Federal Trade Commission, Possible Anticompetitive Barriers to 
E-Commerce: Wine (2003), available at http://www.ftc.gov/os/2003/07/
winereport2.pdf.
    \2\ 544 U.S. 460 (2005).
---------------------------------------------------------------------------
    The FTC continues to enforce the FTC Act's prohibitions of ``unfair 
methods of competition'' and ``unfair or deceptive acts or practices'' 
in the alcohol industry through law enforcement, promotion of effective 
alcohol industry self-regulation, and consumer education. The FTC also 
will continue to respond to congressional requests in this area: for 
example, our 2003 Report, Alcohol Marketing and Advertising: A Report 
to Congress,\3\ was conducted under the direction of the Conferees of 
the House and Senate Appropriations Committees. Since that time, the 
FTC has issued another report dealing with self-regulation by the 
alcohol industry \4\ and is now requesting OMB approval under the 
Paperwork Reduction Act for a follow-on study in this area.\5\ These 
reports have been designed to monitor and evaluate the effectiveness of 
industry self-regulation that seeks to curb the marketing of alcohol to 
underage youth, and include recommendations for improving those 
industry efforts.
---------------------------------------------------------------------------
    \3\ Alcohol Marketing and Advertising: A Report to Congress (2003), 
available at http://www.ftc.gov/os/2003/09/alcohol08report.pdf.
    \4\ FTC, Self-Regulation in the Alcohol Industry: Report Commission 
(2008), available at http://www.ftc.gov/os/2008/06/
080626alcoholreport.pdf.
    \5\ See http://www.ftc.gov/opa/2011/11/alcoholstudy.shtm.
---------------------------------------------------------------------------
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                         Hon. Jon D. Liebowitz
    Question 1. Thanks to the work of a CBS television station in 
Sacramento, California, we learned earlier this year that Walmart 
stores in California and other states were short-changing customers 
returning items using gift receipts. In one instance, the station's 
producers purchased various items from Walmart totaling $51.00, but 
when they later returned the items using gift receipts, they received 
$27.00, only 52 percent of the original purchase price. Walmart blamed 
staff for the errors, but similar results occurred at their stores in 
Dallas and Philadelphia, and again in Sacramento when producers ``re-
tested'' the stores.
    I've written the FTC twice to request an investigation, and I 
understand you cannot comment on whether there is an open 
investigation--but we're learning that this problem isn't exclusive to 
Walmart and it is happening at a number of other national retailers. 
Producers at a Dallas CBS station were recently shorted at three 
separate national chains when returning items with gift receipts. Can 
you tell the Committee whether the FTC believes this is a widespread 
problem among national retailers? If consumers somehow discover they 
are not receiving the full price when returning items with gift 
receipts, what can they do to alert the FTC?
    Answer. Thank you for your continuing concern about the gift 
receipt practices of Walmart and other national retailers. The FTC is 
aware of reports that Walmart stores in California and other states 
across the Nation failed to abide by Walmart's own policy by refunding 
less than the full purchase price of items returned with a gift 
receipt. The FTC is also aware of media reports concerning similar 
practices at other national retailers.
    As you note in your question, Commission rules prevent me from 
revealing specifically whether FTC staff has opened an investigation 
into this or any other matter. Nonetheless, I want to emphasize that I 
share your concern over retail stores and other businesses that fail to 
honor their refund policies or engage in other refund-related deceptive 
practices. Such deceptive practices related to gift receipts are 
especially troubling because recipients reasonably expect that they 
will receive in exchange the full value of the price originally paid, 
yet they do not know the original price paid.
    For consumers who believe that they have been victimized by a 
retailer's gift receipt practice, we strongly encourage them to file a 
complaint on the FTC's website at www.ftc.gov or by calling the FTC's 
toll-free number at 1-877-FTC-HELP (1-877-382-4357). The FTC enters all 
complaints it receives into Consumer Sentinel, a secure online database 
that is used by the FTC and thousands of civil and criminal law 
enforcement authorities worldwide. Consumer complaints can help law 
enforcement authorities detect patterns of wrongdoing and lead to 
investigations and prosecutions.

    Question 2. I would like to bring to your attention a recent study 
conducted by Professor Kay Cooksey of Clemson University involving 
concrete vapor barriers. The study tested products that claim to 
prevent the diffusion of moisture vapor, contaminants, and soil gases 
through buildings' concrete foundations to protect indoor air quality. 
The study concluded that several concrete vapor barriers purchased in 
retail stores actually performed significantly worse than their 
marketed and advertised levels of effectiveness. There are concerns 
that this marketing presents consumers with a false sense that the 
products they are purchasing for use in their home, office, or school 
buildings will effectively keep out harmful contaminants. It is my 
understanding that the enforcement division of the FTC's Bureau of 
Consumer Protection received a copy of this study in June 2011, and 
that the Secretary of the FTC has acknowledged receipt of a formal 
complaint arising from the study in response to a recent Congressional 
inquiry. Have FTC enforcement officials looked into the findings of the 
Clemson study? Can you provide a status update related to the formal 
complaint filed with the FTC?
    Answer. We are aware of the study by Professor Cooksey involving 
the performance of vapor barriers, and the formal complaint based on 
the study. In 2009, at the request of the Commission, the United States 
Department of Justice filed a complaint and secured an order in Federal 
District Court against Insulation Solutions, Inc., one of the vapor 
barrier manufacturers identified in the study. The order resolved 
allegations that Insulation Solutions and two other defendants violated 
Section 5 of the FTC Act and the Commission's R-Value Rule in 
connection with their marketing of insulation. Among other things, the 
order prohibits the defendants from making false, misleading, or 
unsubstantiated energy-related representations about a product or 
service. The order, however, does not apply to the permeance 
representations regarding vapor barriers at issue here.
    In August, staff received additional information from the 
complainant. As stated above, Commission rules prevent me from 
revealing specifically whether FTC staff has opened an investigation 
into this or any other matter. In determining whether to allocate 
resources to investigating any particular formal complaint, staff must 
consider a number of factors, including the type of violation alleged, 
the nature and amount of consumer injury at issue, the number of 
consumers affected, and the likelihood of preventing future unlawful 
conduct and securing redress or other relief. FTC staff will give 
carefully consideration to the information it received to determine 
whether Commission action is warranted and in the public interest.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Jon D. Leibowitz
    Question 1. Since 2007, oil prices have jumped from $90 per barrel 
in December 2007, to $147 per barrel in June 2008, to $31 per barrel in 
December 2008, to $115 per barrel in March 2012, to around $100 per 
barrel today. During this same period, there has been little change in 
the world's oil supply and demand balance. What is your explanation for 
this oil price volatility? To what extent do you believe forces beyond 
changing global crude prices and supply and demand fundamentals play a 
role in this price volatility? To the extent you believe that forced 
beyond supply and demand fundamentals play a role in this price 
volatility, how will you use the tools and resources of the Commission 
to improve the Commission's current protections for consumers and 
ensure a wholesale petroleum market free from fraud and manipulation?
    Answer. There has actually been a significant long-term change in 
the world's oil supply and demand balance in recent years, and crude 
oil price volatility since 2004 reflects that change. In September of 
this year, the Commission's Bureau of Economics published its most 
recent analysis of the factors most responsible for the fluctuation in 
gasoline prices.\6\ The staff report notes that crude oil continues to 
be the main driver of gasoline prices, and price changes in gasoline 
since 2004 largely reflect the volatility of crude prices. Between 2004 
and 2007, crude oil prices rose steadily as crude consumption 
increased. As the recession led to a decrease in worldwide crude 
consumption in 2008 and 2009, crude prices fell significantly. Since 
2009, crude consumption has increased again, well above 2007 levels, 
and crude prices have returned to those levels. This year there was 
also a significant supply disruption due to the loss of most Libyan 
crude oil production, which also put upward pressure on crude 
prices.\7\ Moreover, although crude oil demand has decreased since 2004 
in North America, Europe, Japan, and Korea, it has increased 
substantially in developing countries (particularly China), leading to 
an overall consumption increase of almost 7 percent between 2004 and 
2010. Changes in gasoline prices showed remarkable consistency with 
changes in crude oil prices over this same period, falling from $3.50 
per gallon in January 2008 to less than $1.50 in January 2009, while 
otherwise rising steadily from 2004 to 2011, as demand outpaced 
supply.\8\
---------------------------------------------------------------------------
    \6\ Federal Trade Commission, Bureau of Economics, Gasoline Price 
Changes and the Petroleum Industry: An Update (Sept. 2011), available 
at http://www.ftc.gov/os/2011/09/110901gasoline
pricereport.pdf.
    \7\ Because consumers do not substantially reduce their demand for 
gasoline in response to either short- or long-run price increases, a 
relatively small shift in supply can lead to a large change in price. 
See Federal Trade Commission, Gasoline Price Changes: The Dynamic of 
Supply, Demand, and Competition 8 (2005), available at http://
www.ftc.gov/reports/gasprices05/050705gaspricesrpt.pdf.
    \8\ Gasoline Price Changes and the Petroleum Industry, supra note 
1, at 5, Figure 1, Comparison of the Monthly National Average Price of 
Gasoline (excluding taxes) and the Prices of WTI and Brent Crude, 
January 2001-May 2011.
---------------------------------------------------------------------------
    Of course, other forces beyond normal market supply and demand have 
an impact on crude oil price levels. The main factor is the 
Organization of the Petroleum Exporting Countries (OPEC), which 
accounts for over 70 percent of the world's proven oil reserves. OPEC 
attempts to maintain the price of oil by limiting output and assigning 
quotas. These actions by OPEC would be a criminal price fixing 
violation of the U.S. antitrust laws if private firms engaged in them.
    As a general matter, any agreement by competing producers to 
restrict output and increase prices would violate the antitrust laws. 
The Commission remains vigilant against any form of potential 
anticompetitive conduct--whether merger or non-merger--and is committed 
to use all of its tools to attack such conduct when it is found. In 
April of this year, the Commission signed a Memorandum of Understanding 
with the Commodity Futures Trading Commission, allowing us to share 
confidential data when we believe there is the potential for 
anticompetitive conduct in futures markets that could impact wholesale 
petroleum prices in violation of the Commission's new Market 
Manipulation Rule (MMR). In June of this year, the Commission opened a 
major investigation (described in fuller detail in the answer to 
Question # 2) into whether anticompetitive activity is occurring in 
petroleum markets, from exploration to retail gasoline sales. In this 
ongoing investigation, the Commission is using its authority under both 
the antitrust laws and the MMR.

    Question 2. I authored legislation that was included as part of the 
Energy Independence and Security Act of 2007 that, for the first time, 
charged the Federal Trade Commission with the responsibility of 
policing the wholesale petroleum markets for manipulation. I was 
pleased the Commission completed a Final Petroleum Market Manipulation 
Rule that did not include a safe harbor for futures markets activities. 
As the final rule makes clear, oil futures markets are inextricably 
linked to wholesale oil markets, and policing the wholesale markets for 
manipulation requires a view into the oil futures markets. Over the 
last 3 years, oil consumers have ridden a gas-price roller coaster with 
fluctuating prices that cannot be explained by supply and demand 
fundamentals. For example, December crude oil prices have varied from 
$85 per barrel in 2007, to $31 in 2008, to $73 in 2009, to $86 in 2010, 
with peaks at $147 in June 2008 and around $100 today.
    Like the Commission, the Federal Energy Regulatory Commission 
(FERC) was given nearly identical market manipulation authority in the 
2005 energy bill, and to date it has aggressively used this authority 
to conduct 93 investigations resulting in 45 settlements totaling over 
$150 million in penalties. Congress intended that the Commission 
enforce its market manipulation rule with the same proactive 
aggressiveness that FERC employs, to deter manipulative behavior, 
prosecute bad actors, and draw a bright line to distinguish legal from 
prohibited behavior.
    I wrote to the Commission on March 25, 2011, asking for an 
investigation into gas price volatility and asking what specific steps 
it was taking to proactively enforce its final Petroleum Market 
Manipulation Rule. I was terribly disappointed with the Commission's 
response on April 19, 2011, that provided no information on what the 
Commission was doing to implement aggressively and proactively the 
Final Petroleum Market Manipulation Rule. The response letter confirmed 
that the Commission is doing little more than ``monitoring daily 
gasoline and diesel prices'' and ``evaluating complaints'' through ``e-
mail and telephone hotlines.''
    You stated that when the Petroleum Market Manipulation Rule was 
finalized that ``This new Rule will allow us to crack down on fraud and 
manipulation that can drive up prices at the pump. We will police the 
oil markets--and if we find companies that are manipulating the 
markets, we will go after them.''
  <bullet> Do you believe the Commission has done everything it could 
        have to use the authority of the Petroleum Market Manipulation 
        Rule aggressively in order to protect consumers from 
        unnecessarily high and volatile gas and diesel prices?

  <bullet> What is your plan to more aggressively and proactively 
        implement the Petroleum Market Manipulation Rule in order to 
        protect consumers from unnecessarily high and volatile gas and 
        diesel prices?
    Answer. The Commission's enforcement of the MMR has been both 
proactive and consistent with the authority granted by Congress. By 
design, the FTC and FERC have different regulatory obligations and deal 
with some different industries, and those unique obligations given to 
each agency will automatically lead to different enforcement outcomes. 
FERC's mission is substantially regulatory and is designed to ensure 
reliable, efficient, and sustainable energy for customers. In 
furtherance of that mission, FERC uses its anti-manipulation rule to 
promote its goal of providing efficient energy services at a reasonable 
cost. Manipulative conduct might involve violations of FERC rules 
designed to limit market power or to ensure the efficient operation of 
regulated markets. Moreover, FERC's rule fits within an existing 
regulatory scheme that regulates individual firm conduct, with ongoing 
and extensive data-reporting obligations.
    Unlike FERC, which is primarily a sectoral regulator, the FTC is 
essentially a law enforcement agency. The FTC does not have broad 
regulatory authority over the wholesale petroleum markets that are 
covered by the MMR. It has not been authorized to determine prices or 
position limits for wholesale petroleum products. Such authority would 
be inconsistent with enforcement of the antitrust laws, which are 
designed to protect the competitive function of markets, not to 
establish what might be a ``fair'' price level. The FTC's authority is 
narrowly focused toward identifying and prosecuting fraudulent behavior 
that violates the MMR.
    Pursuant to its Congressional mandate, the Commission has 
aggressively enforced the MMR when we have had some reason to believe a 
violation may have occurred. Earlier this year, Commission staff 
noticed certain anomalies in petroleum and gasoline prices. After 
substantial increases in crude oil and refined petroleum products 
prices and profit margins, the Energy Information Administration 
reported that U.S. refiners' refining margins had increased 
substantially between the beginning of 2011 and early May, while those 
refiners were using only 81.7 percent of their capacity in early May (a 
7 percent reduction from the same period in 2010). In June, the 
Commission announced it had opened an investigation into Petroleum 
Industry Practices and Pricing, FTC File No. 111 0183. The Commission 
opened the investigation and authorized the use of compulsory process 
to determine whether oil producers, refiners, transporters, marketers, 
or physical or financial traders (1) have engaged or are engaging in 
practices that have lessened or may lessen competition; (2) have 
engaged or are engaging in manipulation in the production, refining, 
transportation, distribution, or wholesale supply of crude oil or 
petroleum products; or (3) have provided false or misleading 
information related to the wholesale price of crude oil or petroleum 
products to a Federal department or agency.\9\ Of note, this is the 
first Commission investigation to combine its antitrust and market 
manipulation authority, and will provide a template going forward to 
determine whether such combined investigations can efficiently maximize 
scarce enforcement resources. That investigation is ongoing.
---------------------------------------------------------------------------
    \9\ The Working Group's focus on this last issue stemmed in part 
from Attorney General Holder's guidance in a May 6, 2011, memorandum to 
the group that ``[i]f wholesale prices continue to decrease, fraud or 
manipulation must not be allowed to prevent price decreases from being 
passed on to consumers at the pump.''
---------------------------------------------------------------------------
    Aside from the current investigation, both in the course of our 
regular law enforcement activities and in our role as a member of the 
Oil and Gas Price Fraud Working Group, we continue to monitor the 
situation, and will take action if we detect any anticompetitive or 
fraudulent practices in these markets.

    Question 3. In response to increased petroleum market volatility, 
Attorney General Eric Holder announced on April 21, 2011, the formation 
of a Financial Fraud Enforcement Task Force Working Group to focus 
specifically on fraud in the energy markets. Attorney General Holder 
announced that the Oil and Gas Price Fraud Working Group was to monitor 
oil and gas markets for potential violations of criminal or civil laws 
to safeguard against unlawful consumer harm. The Federal Trade 
Commission is part of this working group. I was pleased the Working 
Group was established, however I'm concerned that this group has done 
very little to undertake the necessary investigation into petroleum 
markets.

  <bullet> Please describe the specific actions that the Oil and Gas 
        Price Fraud Working Group has undertaken, including meetings of 
        the Working Group, meetings with industry participants, 
        investigations commenced, or any other action specific to the 
        Working Group.

  <bullet> Please describe the specific actions the Commission has 
        taken as a member of the Working Group, and specific actions 
        the Department of Justice asked the Commission to take as a 
        member of the Working Group.

  <bullet> Is the Working Group still active? If so, please describe 
        the current and ongoing actions of the Working Group.
    Answer. The Oil and Gas Price Fraud Working Group--comprising 
representatives of a number of Federal agencies as well as officials 
from state attorney general offices--held its initial meeting on May 2, 
2011, during last spring's petroleum and gasoline price increases. The 
meeting, held largely for the purposes of organization and establishing 
priorities, gave each agency an opportunity to share with the others 
its experience and expertise in the oil and gas sector. The Working 
Group met again on May 13 to discuss each member agency's ability to 
share information with other members, to explore ways in which each 
agency might inform the others about complaints from the public 
concerning oil and gas issues, and to review the relationship between 
crude oil price fluctuations and price developments in the retail 
market.\10\ Smaller sub-groups of agency officials met in ensuing weeks 
to discuss in greater detail the extent to which agencies can share 
information and to learn about one another's procedures for handling 
complaints from the public. On June 28, the overall Working Group met 
again to discuss investigations and enforcement actions by the member 
agencies--including the FTC's Petroleum Industry Practices and Pricing 
Investigation (discussed above in Answer #2)--and to get updates 
concerning information sharing and complaint handling.
---------------------------------------------------------------------------
    \10\ The Working Group's focus on this last issue stemmed in part 
from Attorney General Holder's guidance in a May 6, 2011, memorandum to 
the group that ``[i]f wholesale prices continue to decrease, fraud or 
manipulation must not be allowed to prevent price decreases from being 
passed on to consumers at the pump.''
---------------------------------------------------------------------------
    The Commission has been active in the petroleum sector since the 
Working Group was organized and, to the extent possible, has kept other 
member agencies apprised of its activities. As discussed above in 
Answers #1 and #2, the FTC Bureau of Economics released its report on 
Gasoline Price Changes and the Petroleum Industry: An Update in 
September 2011, 3 months after the Commission announced the initiation 
of the Petroleum Industry Practices and Pricing Investigation. FTC 
staff have discussed those developments with Working Group colleagues. 
In addition, the Commission is conducting other, nonpublic 
investigations in the petroleum sector. Although it is not itself an 
investigative body, the Working Group has enhanced the possibilities 
for cooperative information-sharing among member agencies, and various 
agencies' investigations in the petroleum sector--including those by 
the FTC--may well benefit from information gleaned from the Working 
Group process.
    The Working Group remains active: member agencies are ready to 
share relevant information to the extent permitted by laws and 
regulations, and there is ongoing discussion of complaint handling 
procedures. Following the recent appointment of a new Executive 
Director, we expect the Working Group to continue meeting periodically. 
Meanwhile, the FTC continues active pursuit of its Petroleum Industry 
Practices and Pricing Investigation as well as other discrete 
investigations.

    Question 4. Federal Communications Chairman Julius Genachowski 
recently helped launch a new initiative called jobs4america. The goal 
is to create 100,000 new broadband-enabled contact center jobs over the 
next 2 years--many of which are coming back from overseas. What do you 
see as the FTC's role in helping to advance predictable policies that 
enable U.S. based contact centers to grow, thrive, and create more jobs 
here in America?
    Answer. One core mission of the FTC is to promote competitiveness 
in the marketplace across all industries, including contact centers. We 
accomplish this goal through targeted law enforcement and balanced 
regulation, which are complemented by our consumer and business 
education and outreach. Contact centers, which provide in-bound and 
out-bound services to consumers using telemarketing, direct and 
electronic mail, messaging and other media to facilitate commerce, can 
be positively impacted by a range of the agency's work. For example, 
law enforcement action by the FTC challenging unfair or deceptive 
conduct by bad actors levels the competitive playing field, enabling 
legitimate actors to prosper and thrive. At the same time, certain 
types of regulatory initiatives, such as the Do Not Call Registry and 
other provisions of the Telemarketing Sales Rule, ensure that 
legitimate actors know how to abide by the law and do so in a way that 
instills consumer confidence and trust in the marketplace.

    Question 4a. In order to ensure consumers have the best experience 
possible when they pick up the phone to seek answers from a contact 
center, the contact center industry has created and developed an 
accreditation process for contact centers in cooperation with the FTC. 
What do you see as the role of these proactive self-regulatory 
accreditation mechanisms as a tool for advancing better consumer 
service and remediation?
    Answer. We are aware of ongoing efforts by the American 
Teleservices Association (``ATA'') through its Self-Regulatory 
Organization (``SRO'') to develop an accreditation process for contact 
centers to ensure their operations comply with relevant laws and rules. 
Indeed, we have discussed this SRO initiative with ATA for several 
years.
    We have consistently supported serious self-regulatory initiatives 
that promote compliance with the law, and we are especially encouraged 
by the fact that this particular initiative provides for independent 
certified auditing. While we have not reviewed the current 
accreditation process in detail, we understand it has been designed to 
ensure specific compliance with the requirements of the Telemarketing 
Sales Rule, including Do No Call provisions, and that the ATA is 
seeking to expand the SRO to reach other legal requirements that affect 
contact centers more broadly. We will continue to encourage and support 
the ATA as it seeks ways to assist its members in complying with the 
law and, in so doing, enhancing consumer welfare.

    Question 5. Recently, a group of Attorneys General from 36 states 
and 3 U.S. territories recently sent a letter to the Commission urging 
you to take action against the unfair competition suffered by U.S. 
manufacturers and workers when they are forced to compete against 
companies that use stolen information technology to illegally cut their 
costs.
    The letter included examples of this problem, including a paper 
mill in Washington State that must compete with a Mexican paper mill 
using over $10 million in stolen software.
    U.S. manufacturers and workers are among the most efficient in the 
world, and I have no doubt they can compete with anyone that plays by 
the rules. But they cannot possibly compete against manufacturers that 
gain an unfair cost advantage by stealing millions of dollars in U.S. 
technologies. Is there anything, in your view, that the Commission can 
do to help protect U.S. manufacturers and workers against this form of 
unfair competition? Does existing Federal law give you the authority 
you need, or would you need additional tools or authority from 
Congress?
    Answer. In 1914, the Senate Commerce Committee was instrumental in 
the assignment to the FTC of authority under the Federal Trade 
Commission Act to challenge unfair methods of competition. As the 
Supreme Court has held, Congress intended prohibited ``unfair methods 
of competition'' to include conduct that would not violate the 
antitrust laws. The FTC has and will continue to use this authority 
judiciously, to protect competition and consumers.
    The FTC has received the letter from the Attorneys General about 
which you speak, and we agree that the theft of intellectual property 
by rivals of U.S. manufacturers raises significant concerns. The letter 
is being circulated within the Commission, and is under serious 
consideration. At the same time, it is important to note that not all 
harms caused by unethical businesses--for example harm to a competitor, 
but not to competition itself--will be ``unfair methods of 
competition.'' We take all complaints of harm to competition seriously 
and will certainly do so with this one.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                         Hon. Jon D. Liebowitz
    Question. Studies show that food marketing has a large effect on 
what children are willing to eat. While companies have taken steps to 
self-regulate, several studies funded by the New Jersey-based Robert 
Wood Johnson Foundation show that companies could use guidance as to 
how to further reduce the marketing of unhealthy foods to children.
    In 2009, with bipartisan support, Congress directed the FTC to work 
with other Federal agencies to develop voluntary food marketing 
guidelines. Earlier this year, the Interagency Working Group on Food 
Marketed to Children (``IWG'') proposed this guidance.
    The marketing guidelines were supposed to be sent to Congress in 
July 2010. Now, the Senate Financial Services Appropriations has 
proposed giving the FTC until December 15. Will you have the guidelines 
to us by then?
    Answer. The four member agencies of the IWG are currently 
finalizing a report to Congress setting out recommendations for 
nutrition principles and marketing definitions to guide voluntary 
industry efforts. The Federal Trade Commission has completed the 
recommendations with respect to marketing and is making every effort to 
obtain final approval from the other agencies responsible for the 
nutrition principles in order to submit the report to Congress by 
December 15.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Pryor to 
                         Hon. Jon D. Liebowitz
    Question. It is my understanding that earlier this year, the FTC 
accepted a settlement with Phusion Projects regarding ``Four Loko,'' a 
carbonated flavored malt beverage product with a high volume of 
alcohol, which requires the company to relabel and repackage the 
product. The relabel will compare the alcohol content of ``Four Loko'' 
to that of a regular beer rather than express the percentage of alcohol 
by volume. The government typically has not utilized comparative 
strength claims for alcohol. Have any concerns been raised that the 
comparative disclosure requirement will have the unintended consequence 
of actually encouraging consumption of ``Four Loko'' rather than 
discouraging it? Were other labeling methods considered? What was the 
rationale behind this particular decision?
    Answer. Four Loko is a 12 percent alcohol by volume (``alc/vol.'') 
flavored malt beverage, sold in a 23.5 ounce can. It bears, on its 
label, the statement ``12 percent alc/vol.'' The FTC complaint alleges 
that Phusion's packaging and marketing made an implied representation 
that Four Loko has as much alcohol as one or two beers and can be 
safely consumed on a single occasion. (Copies of these marketing 
materials may be found at http://www.ftc.gov/os/caselist/1123084/
111003phusionexhibits
.pdf). In fact, a 23.5 ounce, 12 percent alcohol by volume Four Loko 
has as much alcohol as four or five beers, and drinking just one 
constitutes unsafe ``binge drinking.'' See http://www.ftc.gov/opa/2011/
10/fourloko.shtm.
    The Commission's proposed order would require that any Phusion 
brand flavored malt beverage containing more alcohol than the amount in 
2.5 regular beers must: (1) disclose alcohol content in a specified 
manner, and (2) be resealable. Under the proposed order, the disclosure 
on a 23.5 ounce, 12 percent alcohol by volume flavored malt beverage 
would say: This can has as much alcohol as 4\1/2\ regular (12 oz, 5 
percent alc/vol) beers.
    The goal of the proposed order is to ensure that the Phusion labels 
contained a readily understandable statement of alcohol content. It 
does not appear that the current ``12 percent alc/vol'' statement on 
the label accomplishes this goal. Accordingly, FTC staff worked closely 
with staff of the Alcohol and Tobacco Tax and Trade Bureau (``TTB'') to 
develop the language, location, and appearance of the disclosure.\11\ 
During that process, TTB staff advised FTC staff that: (a) TTB would 
approve labels containing the disclosure; (b) TTB would permit other 
vendors of high alcohol, flavored malt beverages to also use these 
disclosures; and (c) the disclosure does not constitute a prohibited 
``strength'' claim.
---------------------------------------------------------------------------
    \11\ The TTB has jurisdiction over the legal importation, 
distribution, and sale of distilled spirits, wine, and malt beverages. 
It pre-approves labels before alcohol beverages may be sold.
---------------------------------------------------------------------------
    We are not aware of any evidence that properly labeled Four Loko 
will be more attractive to young adults than it is right now. In fact, 
Four Loko is often referred to as ``Blackout in a Can.'' The FTC has 
alleged that the packaging and marketing for the product misrepresented 
the amount of alcohol it contained. Therefore, the disclosure is 
important to inform parents and other responsible adults to the alcohol 
content of the beverage.
    The Commission has sought public comment on its proposed complaint 
and consent agreement. We recently extended the deadline for submitting 
comments to December 2, 2011, to provide interested parties with a 
sufficient opportunity to consider the issues and express their views. 
After reviewing the comments, the Commission will determine whether to 
make the proposed settlement final.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                         Hon. Jon D. Liebowitz
    Question 1. I know you have used the term ``voluntary'' to 
characterize the principles that the Working Group issued to guide 
self-regulatory efforts of food and media companies. I also am fully 
aware that you are preparing the guidelines in response to a directive 
from Congress.
    However, because agencies like the FTC, USDA, FDA and the Centers 
for Disease Control put their names on the detailed nutrition standards 
contained in the April 28, 2011 report, could the guidelines run the 
danger of creating de facto new Federal nutrition standard--a standard 
that sharply conflicts with the U.S. Dietary Guidelines that these same 
agencies announced last year, and conflicts with foods approved for the 
School Lunch program, and for the WIC and SNAP programs?
    Answer. The IWG's recommendations will be clearly presented as 
recommendations for voluntary principles to guide industry self-
regulatory efforts. The IWG will also make it clear that the principles 
do not have the force or effect of law and cannot be used as a basis 
for law enforcement action by the agencies. The IWG recommended 
principles are intended only guidance for the specific purpose of 
marketing food to children and are not intended to displace nutritional 
standards for regulatory purposes or to create a legally enforceable 
standard of care. The issue of how the recommendations relate to other 
Federal nutrition guidelines and programs is outside of the FTC's area 
of expertise, so I would defer to the USDA and FDA on that aspect of 
your question.

    Question 2. I know you are planning to issue final guidelines soon 
that may make some changes to the preliminary guidelines. I am 
concerned that the preliminary guidelines could restrict marketing of 
some foods to the point where Tony the Tiger could not be featured in a 
Frosted Flakes commercial. It is my understanding that the FTC believes 
that such an ad would not be covered by the suggested principles 
because it is an ad directed to parents, not children. However, is the 
issue under the proposed guidelines whether this is ``directed'' to an 
adult audience or whether the product, Kellogg's Frosted Flakes, could 
be advertised to an audience that included 30 percent of age 2-11 or 20 
percent age 12-17?
    Answer. The FTC has recommended to the IWG that the revised 
recommendations address only marketing directed to children ages 2 to 
11. We anticipate that our recommendations will not cover children ages 
12 to 17, with the narrow exception of certain in-school marketing 
activities. The FTC has also recommended revising the proposed audience 
share for children's programming from 30 percent to 35 percent audience 
ages 2 to 11, the same threshold currently applied by the Children's 
Food and Beverage Advertising Initiative (``CFBAI'') self-regulatory 
program. In addition, we anticipate that the revised recommendations 
will exempt the use of characters such as Tony the Tiger on product 
packaging.
    With respect to your specific question about a commercial for 
Frosted Flakes, the audience composition would be one factor that could 
be considered in determining whether the ad was targeted to children 
under 12. In addition to considering whether the program during which 
the ad ran had 35 percent or more children under 12 in the audience, 
other factors could include whether the program was rated TV-Y or TV-Y7 
(indicating the intended audience is young children), and company 
intent as indicated in its marketing plan.
    Moreover, as already noted, the IWG recommendations are intended 
only to guide voluntary industry efforts and thus do not restrict 
companies from advertising any product in any media.

    Question 3. Why has the Working Group come up with sugar and sodium 
standards that are much stricter from standards that USDA has recently 
deemed healthy and appropriate for school lunches? Should the 
guidelines be developed with the collaboration of the companies that 
produce these foods, and then taken to OMB for review to assure that 
the government is not issuing two separate and conflicting standards 
for healthy foods?
    Answer. The proposed nutrition and marketing principles that the 
IWG put out for public comment in April were only a preliminary draft. 
The IWG is making substantial revisions to those principles based on 
the input it received from the food industry and other stakeholders 
during the comment period.
    The issue of how the revised recommendations on nutrition relate to 
other Federal nutrition guidelines for school meal programs is outside 
of the FTC's expertise, so I would defer to the USDA on that specific 
aspect of your question.
    The IWG's final report to Congress will not recommend regulations, 
but merely set out voluntary principles to guide industry self-
regulatory programs. As such, I do not believe OMB review is necessary, 
nor am I aware of any precedent for OMB review of similar FTC reports 
to Congress. For example, neither the FTC's 2008 report to Congress on 
food marketing to children and adolescents nor its 2009 report to 
Congress on marketing violent entertainment to children, both of which 
included recommendations for industry self-regulation, were not 
submitted for OMB review.\1\
---------------------------------------------------------------------------
    \1\ See FTC, Marketing Food to Children and Adolescents: A Review 
of Industry Expenditures, Activities, and Self-Regulation: A Report to 
Congress (July 2008), available at http://www.ftc.gov/os/2008/07/
P064595foodmarketingreport.pdf; FTC, Marketing Violent Entertainment to 
Children: A Sixth Follow-up Review of Industry Practices in the Motion 
Picture, Music Recording & Electronic Game Industries: A Report to 
Congress (Dec. 2009), available at http://www.ftc.gov/os/2009/12/
P994511violententertainment.pdf.

    Question 4. The standards for sodium, fat and sugar content set 
forth in your April 28 proposal represents a highly detailed 
prescription for manufacturing of food products that your report even 
acknowledges that ``. . .If the proposed nutrition principles were 
fully implemented by industry as proposed, a large percentage of food 
products currently in the marketplace would not meet the principles. . 
. .''
    (a) If the food industry made all of the changes that you 
recommend, what would be the cost to the industry and to consumers?
    (b) Have you conducted the study that Senator Harkin called for in 
his appropriations report directive to the Working Group and did that 
provide you with a strong degree of certainty that if you made all of 
these changes it would have a perceptible impact on rates of childhood 
obesity in this country? Could you provide us with that evidence?
    Answer. (a) The FTC does not have the expertise or data to respond 
to your question on what percentage of foods currently in the 
marketplace would meet the IWG's revised recommendations on nutrition, 
and I would defer to the other IWG agencies on that specific aspect of 
your question. I want to emphasize, however, that the recommendations 
only apply to the marketing of food directly to children, not to 
marketing to a general audience or to the sale of food. Moreover, to 
the extent the revised IWG nutrition principles (including those 
related to sodium, fat, and sugar) are much closer to the industry's 
CFBAI program, they should be achievable for most foods and affordable 
for industry.
    Even assuming the food industry voluntarily implemented the IWG's 
revised recommendations in full, the cost would vary depending on how 
the companies chose to implement the recommendations. Companies could 
use different approaches to implementation, including reformulating 
foods marketed to children, substituting one product in their portfolio 
for another in child-directed marketing (for example, advertising 
orange juice in place of soda), and/or marketing the product to a 
general audience.
    (b) Yes, based on briefing sessions with the staff members from the 
offices of both Senator Harkin and then-Senator Brownback, we believe 
that the IWG has fulfilled the directive to conduct a study. The IWG 
completed a deliberate and thorough study of relevant marketing 
research, nutrition research, and self-regulatory programs governing 
food marketed to children. The sources reviewed are detailed in the 
IWG's April 28, 2011 Request for Comments on the preliminary proposed 
principles. On marketing issues, key sources included the Institute of 
Medicine's (``IOM'') 2006 report on food marketing to children and 
youth, the FTC's 2008 study on food marketing expenditures and 
activities directed to children, and data compiled by the FTC for a 
follow-up study.\2\ On the nutrition side, the IWG relied primarily on 
the most current nutrition research supporting the 2010 Dietary 
Guidelines for Americans. In addition, the IWG solicited public comment 
on its preliminary proposal, including 30 specific questions on 
marketing, nutrition, and economic impact (costs and benefits). 
Congress did not direct the IWG to conduct a study on the impact of its 
recommendations on childhood obesity. As Senator Harkin noted in his 
July 13, 2011 letter to the IWG agencies, the IOM panel of experts had 
concluded in the 2006 IOM Report that ``food and beverage marketing 
influences the diets and health prospects of children and youth'' and 
that ``food and beverage marketing practices geared to children and 
youth are out of balance with healthful diets and contribute to an 
environment that puts their health at risk.'' \3\
---------------------------------------------------------------------------
    \2\ Institute of Medicine, Food Marketing to Children and Youth: 
Threat or Opportunity? (National Academies Press 2006) (2006 IOM 
Report); Federal Trade Commission, Marketing Food to Children and 
Adolescents: A Review of Industry Expenditures, Activities, and Self-
Regulation, A Report to Congress (July 2008), available at http://
www.ftc.gov/os/2008/07/P064504food
mktingreport.pdf.
    \3\ Letter from Senator Tom Harkin and Representative Rosa L. 
DeLauro to FTC Chairman Jon Leibowitz, USDA Secretary Tom Vilsack, CDC 
Director Thomas Frieden, and FDA Commissioner Margaret Hamburg (July 
13, 2011).

    Question 5. Have you prepared an economic analysis of the impact of 
your proposed restrictions, if fully adopted, on the price of food? 
Have you prepared an economic analysis of the impact of implementing 
these guidelines on jobs and sales in the U.S. economy?
    Answer. The Congressional mandate for the IWG did not include a 
directive to conduct an economic impact analysis of the IWG's 
recommendations for voluntary industry self-regulation. The IWG did 
solicit information on the impact of its proposal as part of its 
request for comments.\4\ Furthermore, the substantial revisions the IWG 
is making to its recommendations in response to comments should 
alleviate any concerns about the economic impact.
---------------------------------------------------------------------------
    \4\ The dire economic reports submitted during the comment period, 
however, appear to be founded on implausible assumptions and do not 
withstand scrutiny. As an example, one study, issued by IHS Consulting, 
predicts a loss of 74,000 jobs, but provides no explanation of 
methodology or supporting analysis. The IHS prediction is based on a 
particularly implausible assumption that advertising spending would 
drop by $1.9 billion in the first year alone. That figure represents an 
amount larger than the FTC's own estimates of the entire amount spent 
annually on all forms of food marketing to both children and 
adolescents. A second report, prepared by Georgetown Economic Services, 
predicts dramatic increases in the cost of American diets, but is 
premised on the assumption that all Americans (both children and 
adults) would switch from their current diet to a diet only of foods 
meeting the IWG principles--a highly improbable outcome of voluntary 
recommendations that relate only to marketing activities directed to 
children.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. Jon D. Liebowitz
    Question 1. Deceptive advertising that could endanger children's 
health Mr. Leibowitz, we hear a lot these days about parents' concerns 
about sports concussion. Concussions used to just be dismissed as 
``dings or ``bell ringers.'' We now recognize concussions as a form of 
traumatic brain injury, and we know that multiple concussions or blows 
to the head can lead to lasting brain damage.
    So it is natural that young athletes, coaches, and parents are 
looking for ways to play sports more safely. Unfortunately, some 
companies appear to be taking advantage of these safety concerns by 
using deceptive concussion prevention claims to sell children's sports 
equipment.
    Earlier this year, I wrote you to ask for an investigation of 
potential violations of the FTC Act related to selling and 
reconditioning football helmets. Last month, this committee examined 
``anti concussion'' and ``concussion reduction'' claims in marketing 
for soccer headbands, helmets, mouth guards, and even dietary 
supplements for children's use.
    I know you cannot comment on what the FTC may, or may not, be doing 
in regards to my request for an investigation.
    However, I would like to ask if you share my view that, in general, 
issues involving serious children's health concerns should be a high 
priority for the FTC when it considers potential enforcement actions?
    Answer. I cannot think of an issue that is more important than 
protecting children's health and safety. And I am proud to say that the 
Commission has a long history of bringing cases to protect children's 
health or safety when those interests are potentially implicated by 
unfair or deceptive marketing practices.
    In the 1970s, the Commission challenged advertising practices that 
portrayed children engaging in dangerous behavior or exposed to 
potentially dangerous products. Uncle Bens, Inc., 89 F.T.C. 131 (1977) 
(consent) (challenging ads that showed children cooking food on stove 
without close adult supervision); Philip Morris, Inc., 82 F.T.C. 16 
(1973) (consent) (challenging distribution of free sample razor blades 
without protective packaging in home-delivered newspapers).
    In 1997, we challenged R.J. Reynolds use of the Joe Camel campaign 
to market Camel cigarettes, alleging that the campaign induced many 
youngsters under the age of 18 to smoke Camel cigarettes or increased 
the risk that they would do so.
    In 1999, our concern for teenagers and athletes prompted the 
Commission to challenge the marketers of purported body-building 
supplements containing androstenedione and other steroid hormones for 
making allegedly unsubstantiated claims about the safety or lack of 
side effects of their products. FTC v. AST Nutritional Concepts & 
Research, Inc., Civ. No. 99 WY 2197 (D. Colo., May 4, 2000) (permanent 
injunction); FTC v. Met RX USA, Inc., et al., Civ. No. SACV99 1407 DOC 
(ANX) (C.D. Cal., Nov. 24, 1999) (stipulated final order for permanent 
injunction).
    In 2004, in a complaint against the marketer of a product called 
the Skinny Pill for Kids, we alleged, among other things, that the 
defendants falsely claimed that the Skinny Pill for Kids was proven 
safe for children ages 6 to 12. FTC v. Fountain of Youth Group, LLC, 
Civ. No. 3:04-CV-47-J-99HTS (M.D. Fla. 2004) (stipulated final order 
for permanent injunction).

    Question 2. FTC authority to impose civil penalties in cases where 
children's health is endangered Mr. Leibowitz, at a hearing last month 
this committee examined some of the sports concussion claims used to 
children's sports equipment and even dietary supplements. One of the 
medical experts at the hearing, Dr. Jeffry Kutcher of the University of 
Michigan, told the Committee that:

        ``The potential harm that I see being caused by products that 
        claim to prevent concussion, when they do not, is far more than 
        simply the financial harm of paying more for something that 
        isn't likely to work as claimed.''

    Youth athletes who have already suffered a concussion--as well as 
their coaches and parents--could be especially susceptible to false 
claims that a product prevents head injuries. Children could end up 
putting themselves at greater risk of multiple concussions and lifelong 
brain damage if they return to play too soon or if they falsely believe 
in a product's claim of concussion prevention.
    I introduced legislation that would allow the FTC to impose civil 
penalties when companies uses false injury prevention claim to sell 
children's sports equipment. For cases such as these, would having 
civil penalty authority for violations of Section 5 of the FTC Act help 
deter would-be violators from endangering children health?
    Answer. I certainly agree with Dr. Kutcher that the potential harm 
to young athletes from false or unsubstantiated concussion protection 
claims made for sporting goods equipment far exceeds the price of that 
equipment and, indeed, may not even be calculable.
    We all want sporting goods manufacturers to improve the concussion 
protection provided by products they sell. At the same time, it is 
critical that they not exaggerate the protective capabilities of those 
products in their marketing materials.
    The prospect of being subject to civil penalties could deter 
sporting goods sellers from making false or misleading safety claims 
for their products.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                         Hon. Jon D. Liebowitz
    Question 1. In August 2011, the FTC and the Department of Justice 
signed a memorandum of understanding with China, which outlined a 
framework for antirust cooperation. Can you outline the Commission's 
plans going forward with regard to engagement with China?
    Answer. The Commission plans to continue and expand upon its robust 
engagement with China's antimonopoly agencies. The new Memorandum of 
Understanding provides a framework for enhanced engagement with the 
three Chinese antitrust agencies. If re-confirmed, I look forward to 
future exchanges between senior officials and staff on issues of 
competition policy and practice, including substantive analysis and 
procedural best practices. To this end, we plan to continue our 
technical assistance programs and workshops for China's antimonopoly 
agencies, which have covered a full range of antitrust topics over the 
past several years, including programs on merger review, the abuse of 
dominance, and the intersection of antitrust and intellectual property 
policies. The FTC recently hosted an official from China's Ministry of 
Commerce (China's merger review agency) in our Bureau of Competition as 
part of our international fellows program (made possible by the 
authority granted by Congress under the U.S. SAFE WEB Act) and we look 
forward to hosting additional fellows from the Chinese agencies over 
the coming years. We will, as appropriate, provide comments on proposed 
rules and guidelines issued by China's antimonopoly agencies and share 
our experience with China's new agencies as they implement the 
antimonopoly law. Finally, in appropriate instances, we will cooperate 
with China's agencies on cases under concurrent review.

    Question 2. How do you plan to address the technical nature and 
handling of specific cases in which enforcement authorities from both 
jurisdictions are engaged?
    Answer. We will develop our cooperative relations with China's 
antimonopoly agencies based on our extensive experience cooperating on 
cases with other countries' competition law enforcers, and subject to 
all applicable rules regarding confidentiality. Cooperation with sister 
antitrust enforcers on cases under common investigation enables the 
agencies to identify issues of common interest, improve our analyses, 
and avoid inconsistent outcomes on the matter under review, while 
promoting greater understanding and convergence toward sound antitrust 
analysis. Cooperation may involve exchanges of non-confidential 
information, process-related information, such as the timetable for 
review, and, as appropriate, staff views on market definition, 
competitive effects, and suitable remedies. Discussion of confidential 
information submitted by a party or third party occurs only if the 
entity grants a waiver of confidentiality. As has been the case with 
other jurisdictions, we expect that cooperation on cases with China 
will begin modestly and, as we gain experience and mutual trust, may 
become more robust over time.

    Question 3. There is a major effort underway by U.S. agencies 
responsible for trade and investment to address concerns about 
discrimination in the approach of China and other economies (EU, India, 
Brazil, Korea) to the standards- setting context. How does the FTC 
coordinate its approach to IP protection and standards setting with 
other departments and agencies in the administration that are 
responsible for international standards and IP policies?
    Answer. We work together with other U.S. Government agencies to 
ensure that foreign governments and audiences understand the importance 
of protecting private property rights, including IP rights, 
safeguarding a robust competitive process, and ensuring the rule of 
law.
    The FTC participates in several U.S. Government interagency groups 
that address IP issues, including standard setting. For example, with 
respect to China the FTC participates in the U.S.-China Joint Committee 
on Commerce and Trade (JCCT) and its IP Working Group. In October 2011, 
together with USPTO and DOJ Antitrust Division, the FTC co-founded an 
inter-agency antitrust-IP coordination group to address issues at the 
intersection of intellectual property and competition law and policy. 
We also work and coordinate with NIST on standards policy issues that 
affect competition.
    Through these and other mechanisms, the FTC provides input to and 
coordinates with relevant U.S. agencies on the competition-related 
aspects of IP and standard setting policies.

    Question 4. Where has the FTC identified differences in the 
approach it is advocating on standards and IP and the approaches of 
other U.S. Government departments/agencies?
    Answer. The FTC harmonizes its approach to standards and IP with 
the approaches of other U.S. Government departments and agencies. This 
harmonization encourages and protects innovation and the resulting 
incentives for investment, job growth, and U.S. competitiveness.
    To avoid differences in approach, the FTC regularly engages with 
other departments and agencies to exchange views regarding each group's 
primary focus and expertise. The FTC brings expertise on competition 
and a consumer focus to the discussion. Other departments and agencies 
bring different expertise and focuses, including patent rights 
assignment, export promotion, and international trade negotiations. By 
sharing expertise and understanding each other's perspectives, the 
agencies can avoid differences in approach.
    Examples of the FTC's work with other departments and agencies on 
standards and IP include:

  <bullet> As described in the response to 1(C) above, the FTC 
        participates in interagency discussions regarding IP issues, 
        including standards, with respect to China.

  <bullet> The FTC and USTR have recently begun a liaison group that 
        will continue to foster a common understanding of issues 
        related to standards and intellectual property.

  <bullet> The FTC is an advisory participant in the NTSC Subcommittee 
        on Standards. The FTC also coordinates with the National 
        Academies of Science in connection with the standards research 
        that the NAS conducts on behalf of the USPTO.

  <bullet> The PTO, DOJ Antitrust Division, and the FTC all recently 
        appointed staff to serve as non-voting members of the American 
        National Standards Institute's Intellectual Property Rights 
        Policy Committee. Non-voting observance of this ANSI committee 
        is one way in which all three agencies maintain a common base 
        of background facts and knowledge of private institutional 
        concerns.

  <bullet> In March 2011, the FTC released a report, The Evolving IP 
        Marketplace: Aligning Patent Notice and Remedies with 
        Competition,'' \11\ (2011 IP Report), That report articulated 
        ways in which the law of patent notice and remedies could be 
        improved to increase innovation and better align the patent 
        system and competition policy.\12\
---------------------------------------------------------------------------
    \11\ This report is available at www.ftc.gov/os/2011/03/
110307patentreport.pdf.
    \12\ See 2011 IP Report at 7.

    <ctr-circle> The report was based, in part, on a May 26, 2010, 
            joint public workshop held by the FTC, Department of 
            Justice, and the Department of Commerce's U.S. Patent and 
            Trademark Office on the intersection of patent policy and 
            competition policy and its implications for promoting 
            innovation. Assistant Attorney General for the Antitrust 
            Division Christine Varney, Under Secretary of Commerce for 
            Intellectual Property and Director of the USPTO David J. 
            Kappos, U.S. Chief Technology Officer Aneesh Chopra and FTC 
---------------------------------------------------------------------------
            Commissioner Edith Ramirez each spoke at the workshop.

    <ctr-circle> Eight more days of public hearings explored patent 
            notice, patent remedies, innovation, and competition issues 
            with more than 140 participants, including business 
            representatives from large and small firms, start-ups and 
            the independent inventor community, leading patent 
            practitioners, economists, and patent law scholars. The FTC 
            also received nearly 50 written submissions on these 
            issues.

    <ctr-circle> The report explains that ``[t]he patent system plays a 
            critical role in promoting innovation across industries 
            from biotechnology to nanotechnology, and by entities from 
            large corporations to independent inventors.'' \13\
---------------------------------------------------------------------------
    \13\ 2011 IP Report at 1.

    <ctr-circle> Most of the recommendations in the report are 
---------------------------------------------------------------------------
            addressed to the courts for their consideration.

    <ctr-circle> The FTC shared a draft of the report with the USPTO 
            before it was published. The USPTO has expressed agreement 
            with many of the report's recommendations and has already 
            implemented some of the report's recommendations for the 
            USPTO. The FTC expects to continue a dialogue with the 
            USPTO about these issues.

  <bullet> In 2007, the FTC and DOJ jointly issued a report entitled, 
        ``Antitrust Enforcement and Intellectual Property Rights: 
        Promoting Innovation and Competition.'' This report focused on 
        how to incorporate careful consideration of the benefits of 
        patent rights into antitrust analysis, so that antitrust 
        enforcers could avoid challenging efficient, legitimate uses of 
        patent rights, which could undermine innovation incentives and 
        thereby harm consumers.

    Question 5. How does the FTC estimate the likely costs to the U.S. 
economy--businesses and workers--of any divergences in policy 
approaches among departments and agencies of our government?
    Answer. An estimate of the costs to the U.S. economy of any 
divergences in policy approaches among different departments and 
agencies would inevitably be difficult, if not impossible, and the FTC 
has not undertaken such a study. Rather, by taking steps of the kind 
described in response to 1(D), the FTC has sought to minimize 
divergence in policy approaches to IP and standards setting among the 
relevant agencies. We believe our harmonization efforts in the IP and 
standard setting areas have been successful. We will continue to work 
with other departments and agencies to promote innovation through 
strong intellectual property rights and vigorous competition, and to 
minimize any costs to the U.S. economy.

    Question 6. The FTC has issued reports which say that pay-for-delay 
arrangements hurt consumers and increase costs for Federal programs 
such as Medicare and Medicaid; in fact, the FTC has said it costs 
consumers an estimated $3.5 billion a year. In a report released 
October 2011, the FTC pointed to 28 cases that bear the telltale signs 
of pay-for-delay, including ``compensation to the generic manufacturer 
and a restriction on the generic manufacturer's ability to market its 
product.'' The 2011 report highlighted many more cases than an earlier 
report your office released on this issue in 2004. Could you give your 
opinion as to why these types of arrangements have proliferated in 
recent years?
    Answer. Since 2005, a few appellate courts--notably the Second and 
Federal Circuits--have taken a permissive approach to these deals, 
erroneously in my opinion. In essence, they have adopted a legal rule 
that allows branded pharmaceutical companies to pay potential generic 
competitors any amount of money to stay off the market until patent 
expiration, unless the patent was obtained by fraud or the patent 
litigation is a sham. The approach presumes all patents are ironclad, 
which conflicts with patent law, sound economic analysis, and 
established antitrust principles (as well as a prior decision from the 
Sixth Circuit). Both the brand company and the generic company make 
more money by entering pay-for-delay deals than competing. Therefore, 
it is entirely expected that the deals would become commonplace in 
response to the lenient treatment that pay-for-delay deals have 
received from some courts. Unfortunately, patent settlements that 
combine restrictions on generic entry with compensation, according to a 
FTC staff analysis, delay generic competition roughly seventeen months 
and cost consumers, on average, $3.5 billion a year. Congress could 
lower the cost of prescription drugs for both consumers and the Federal 
Government by enacting legislation to restrict this practice.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Hon. Jon D. Liebowitz
    Question 1. There are a number of companies collecting 
unprecedented amounts of personal information about consumers and some 
have better track records of protecting that information than others. 
Do you feel the FTC has the tools to adequately address data security?
    Answer. The Commission has brought more than three dozen actions 
challenging companies' failure to implement reasonable and appropriate 
data security--most under Section 5 of the FTC Act. I note that what 
constitutes reasonable security will depend on the size of the company, 
the nature of the data, and the potential risks at issue. Still, I 
support the Commission's recommendation that Congress enact Federal 
legislation requiring all companies that hold consumer data to take 
reasonable measures to safeguard it and to notify consumers when the 
security of their information is breached. Such legislation is 
important for several reasons. First, it would give the agency a 
specific statutory mandate for its data security program. Second, 
Congress could require all companies that hold sensitive consumer 
data--not just companies within the FTC's jurisdiction--to take 
reasonable measures to safeguard it. Third, Federal legislation 
requiring notice to consumers when their sensitive information is 
compromised in a breach would ensure that consumers, no matter which 
state they live in, could take steps to protect themselves. Finally, 
legislation would give the Commission authority to seek civil penalties 
in data security cases, which would increase the deterrent value of its 
orders, as the existing equitable remedies such as disgorgement and 
redress are often inadequate in these types of cases.

    Question 2. Looking forward with regard to data security, how can 
the FTC make sure we are prepared for future technologies and not just 
reacting to the past?
    Answer. I believe that legal requirements applicable to data 
security should be flexible in order to remain current as technology 
change and as security threats and vulnerabilities change. The 
Commission has followed this approach in its data security program in 
applying Section 5 of the FTC Act and in other contexts. In 
promulgating the Safeguards Rule to implement the Gramm-Leach-Bliley 
Act's security requirements for financial institutions, for example, 
the Commission adopted flexible standards based on reasonableness, 
rather than prescribing the use of specific technologies. This type of 
technology-neutral approach is critical because data security is a 
continuously evolving process.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                         Hon. Jon D. Leibowitz
Pharmacy Benefit Management
    Question 1. In the past few years, the FTC has sent a number of 
letters addressing state legislation that attempts to increase Pharmacy 
Benefit Management (PBM) transparency. In fact, my own state of South 
Dakota has passed legislation attempting to improve PBM transparency. 
In each of the letters I reviewed, the FTC sides with the PBMs. These 
conclusions seem to be based on 2005 studies that are based on data 
from 2002 and 2003. Was the underlying data provided by the PBMs only 
or did it include information from any objective third parties?
    Answer. Although transparency can be beneficial to consumers, FTC 
staff has raised concerns about proposals that would force PBMs to 
disclose more confidential business information than other businesses 
must legally disclose. Requiring PBMs to disclose certain sensitive 
business information could dampen competition and facilitate tacit 
collusion among drug manufacturers that compete to be on a formulary or 
pharmacies that compete to be in a PBM's pharmacy network; such tacit 
collusion could ultimately raise prices to health plans and consumers.
    In undertaking any study, the FTC always seeks the most reliable 
and valid data that are available, and information from objective third 
parties can be very valuable. In this case, the Medicare Modernization 
Act of 2003 \1\ directed the FTC to address specific questions, which 
the FTC answered in its 2005 study, Pharmacy Benefit Managers: 
Ownership of Mail-Order Pharmacies. Because some of the confidential 
data needed to answer those questions were not available from any 
objective third party,\2\ the FTC subpoenaed data from four groups of 
respondents: large PBMs, small and insurer-owned PBMs, retail pharmacy-
owned PBMs, and retail pharmacy chains. The FTC staff then carefully 
checked the accuracy of the data provided under subpoena. For example, 
FTC staff obtained business documents created by these companies in 
their ordinary course of business, which enabled staff to verify that 
the data provided to the FTC were consistent with the companies' own 
internal analyses discussed in these documents. Furthermore, FTC staff 
checked to ensure that the data PBMs reported on prescriptions filled 
in retail pharmacies were consistent with data obtained directly from 
those pharmacies.
---------------------------------------------------------------------------
    \1\ Medicare Prescription Drug, Improvement, and Modernization Act 
of 2003, Pub. L. No. 108-173, tit. I,  110, 117 Stat. 2066, 2174, 42 
U.S.C.  1395w-101 (2003).
    \2\ Federal Trade Commission, Pharmacy Benefit Managers: Ownership 
Of Mail-order Pharmacies (Aug. 2005) (``PBM STUDY''), available at 
http://www.ftc.gov/reports/pharm
benefit05/050906pharmbenefitrpt.pdf. The vote in favor of the report 
was 5-0.
---------------------------------------------------------------------------
    Since the release of the FTC's 2005 PBM study, FTC staff has 
continued to monitor outside empirical studies of pharmacy benefits, 
PBMs, and mail order pharmacies. These are relatively few in number, 
and tend to be based on much more limited data sets than those 
available for the FTC's report, but their findings are broadly 
consistent with those reported in the FTC's report. For example, a 
December 2005 study published jointly by the State of Maryland's Health 
Care Commission and Insurance Administration found that if Maryland 
insurance law were liberalized to allow greater use of mail order 
maintenance drugs, Maryland consumers would save 2-6 percent on retail 
drug purchases, and third-party payers could receive discounts of 5-10 
percent.\3\
---------------------------------------------------------------------------
    \3\ Md. Health Care Comm. and Md. Ins. Admin., Mail-Order Purchase 
of Maintenance Drugs: Impact on Consumers, Payers, and Retail 
Pharmacies, 2-3 (Dec. 23, 2005), available at http://mhcc.maryland.gov/
legislative/mailorderrpt.pdf.

    Question 2. Can we trust that the FTC can and will objectively do 
its job in examining PBM mergers if we know the FTC has a history of 
advocating on behalf of PBMs in state matters?
    Answer. The Commission is a competition advocate; it does not 
advocate on behalf of private interests. We are an independent, 
bipartisan, and expert administrative agency with a strong record of 
diligent and effective enforcement to protect consumers from unfair or 
deceptive conduct and unfair methods of competition in a great variety 
of industries. In fulfilling our mission, we thoroughly investigate 
alleged misconduct and review mergers to determine whether they are 
likely to injure competition and consumers. We do, and we will continue 
to, objectively do our jobs, and we always assess all the evidence 
available to us.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         Hon. Jon D. Leibowitz
FTC involvement in state alcohol regulation:
    Question 1. Are you aware and do you think it appropriate that the 
FTC and its field offices have coordinated in the past with private 
interests and professional plaintiffs to assist in undermining state 
regulatory systems like the one we have in Mississippi?
    Answer. The FTC's competition advocacy program, which uses a very 
small portion of the agency's resources, responds to requests from 
state legislators and regulatory authorities for comments on the likely 
competitive effects of proposed laws and rules. FTC staff with 
competition expertise explains the nature of any likely competitive 
effects and why they may occur. In gathering relevant information to 
respond to these requests, FTC staff may consult with a wide variety of 
stakeholders, including Federal and state lawmakers, consumers, 
industry experts, and large and small businesses, but FTC staff 
provides its own analyses in response to requests for comments.
    Moreover, FTC staff recognizes that the benefits of healthy 
competition--lower prices and greater product variety and convenience--
may not be the only public interests at stake in certain contexts, and 
that may be particularly true where the distribution and sale of 
alcohol is concerned. State lawmakers have the responsibility to weigh 
all of the relevant factors for themselves. FTC staff's analysis simply 
provides information that may assist lawmakers and regulators in 
assessing the nature and scope of any tradeoffs between the benefits of 
competition and other values.

    Question 2. Do you see this being a central focus for either of you 
moving forward and can you tell me which statutory provisions, if any, 
authorize the FTC to become involved in issues relating to how a state 
regulates the marketing and sale of alcoholic beverages under its 21st 
Amendment authority.
    Answer. I do not see this area as a central focus for the FTC 
moving forward. In terms of statutory authority, Section 5 of the FTC 
Act prohibits both ``unfair methods of competition'' and ``unfair or 
deceptive acts or practices'' in most areas of the economy not 
expressly exempted from FTC Act scrutiny. Hence, we have scrutinized 
proposed mergers in the alcohol industry under the FTC Act and the 
Clayton Act. In addition, as explained above, the FTC's competition 
advocacy program is designed to respond to requests for comments and to 
provide information and analysis on competition issues that state 
legislators or other authorities are free to accept or ignore.

    Question 3. Under those statutes, what do you see as FTC's proper 
role in alcoholic beverage marketing and sale issues--particularly as 
it relates to questions of state law?
    Answer. I see the FTC's proper role in this area as to continue 
enforcing the FTC Act's prohibitions of ``unfair methods of 
competition'' and ``unfair or deceptive acts or practices'' through law 
enforcement, promotion of effective alcohol industry self- regulation, 
and consumer education, and to continue to respond to requests for 
comments from state legislators and other regulatory authorities. The 
FTC also will continue to respond to Congressional requests in this 
area: for example, our 2003 Report, Alcohol Marketing and Advertising: 
A Report to Congress,\4\ was conducted under the direction of the 
Conferees of the House and Senate Appropriations Committees. Since that 
time, the FTC has issued another report dealing with self-regulation by 
the alcohol industry \5\ and is now requesting OMB approval under the 
Paperwork Reduction Act for a follow-on study in this area.\6\
---------------------------------------------------------------------------
    \4\ Alcohol Marketing and Advertising: A Report to Congress (2003), 
available at http://www.ftc.gov/os/2003/09/alcohol08report.pdf.
    \5\ FTC, Self-Regulation in the Alcohol Industry: Report Commission 
(2008), available at http://www.ftc.gov/os/2008/06/
080626alcoholreport.pdf.
    \6\ See http://www.ftc.gov/opa/2011/11/alcoholstudy.shtm.

    Question 4. How should the FTC coordinate with other Federal 
agencies--particularly those charged with regulating alcoholic 
beverages--before it adopts a policy position or intervenes in 
litigation or legislation?
    Answer. The Commission seeks to collaborate with other agencies in 
the Federal Government as appropriate to the matter at hand. For 
example, the investigation that led to the previously mentioned 2003 
Report on Alcohol Marketing and Advertising was conducted in 
collaboration with the U.S. Treasury's Alcohol and Tobacco Tax and 
Trade Bureau (TTB, formerly the Bureau of Alcohol, Tobacco and 
Firearms). The FTC also coordinated the agency's ``We Don't Serve 
Teens'' program with the TTB, as well as the U.S. Department of Labor, 
U.S. Department of Transportation National Highway Traffic Safety 
Administration, and U.S. Department of Education Office of Safe and 
Drug Free Schools.

    Question 5. I understand why the FTC would be concerned about 
unfair methods of competition and unfair or deceptive acts or 
practices. But can you tell me what that has to do with state laws 
affecting alcoholic beverage marketing or sales? Do you believe that a 
state law can be an unfair business practice?
    Answer. A duly enacted state statute itself cannot be an unfair 
business practice. In particular circumstances, proposed state laws 
affecting alcoholic beverage marketing or sales may have procompetitive 
or anticompetitive effects. If and when a state legislator asks for 
advice on the likely competitive effects of such laws, the FTC staff 
responds as appropriate.
PBM's:
    Question 6. My constituents have expressed numerous concerns 
regarding the potential anticompetitive effects of PBM mergers. They 
have informed me this could potentially harm patients by reducing their 
choice and access to pharmacy services, resulting in higher drug costs. 
I am concerned about the impact these mergers could have on my 
constituents. Under your leadership, how should the FTC evaluate and 
address these concerns as it reviews ongoing consolidations in this 
market? Can we trust the FTC can and will objectively do its job in 
examining these mergers?
    Answer. Without referring to any particular matter, the FTC would 
be concerned about any proposed merger that likely would enable the 
merged firm to exploit marketpower by raising price or reducing output. 
In addition to these concerns, the Commission also considers the 
likelihood that the proposed merger would enable the merged firm to 
exercise market power in ways that harm consumers along non-price 
dimensions of competition such as product quality, product variety, 
service, or innovation. The FTC's concern is always on a merger's 
potential to harm competition and consumers, not the identity of the 
merging parties. But competition is not just about price; it is about 
choices, such as the ease of access to stores or retail outlets that 
might be closed if a merger is consummated.
    Medco and Express Scripts have disclosed that the FTC is 
investigating their proposed merger, but I cannot talk about the 
details of the matter. I can tell you that the investigation is being 
conducted by an able team of FTC staff, and it will be conducted 
objectively, as are all of our investigations.

    Question 7. In 2007, the FTC allowed the CVS/Caremark merger to 
proceed. Since then, numerous groups have raised concerns about the 
conduct of CVS/Caremark. In 2009, the FTC opened an investigation in 
these alleged abuses, of which there are signs that even today, these 
practices continue. What types of remedies should the FTC consider to 
ensure practices like these do not continue to harm consumers?
    Answer. It is public knowledge that the FTC is conducting an 
investigation of CVS Caremark, a combined pharmacy retailer and PBM. 
While I cannot discuss the details of this non-public investigation, I 
can tell you that the staffs of the competition, consumer protection, 
and economics bureaus are actively working together on this matter.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                         Hon. Jon D. Leibowitz
    Question 1. Do transparency, consumer protection concerns, and 
access to pharmacists--the frontline/only source of primary care in 
parts of rural America--factor into the FTC's investigation of 
continued PBM market consolidation?
    Answer. Without commenting on any particular merger, as indicated 
in the Horizontal Merger Guidelines, the Commission examines many 
market facts to determine if a proposed merger is likely to create or 
enhance market power. Among the things we consider is evidence relating 
to the likelihood that a proposed merger would enable the merged firm 
to exercise market power in ways that harm consumers along non-price 
dimensions of competition such as product quality, product variety, 
service, or innovation. I can assure you that Commission staff is aware 
of and will fully consider the concerns of community pharmacists 
relating to PBMs.

    Question 2. We've seen numerous groups express concern that PBM 
consolidation has occurred in conjunction with reduced prescription 
drug choices, higher prices, and patient privacy violations. What types 
of remedies should the FTC consider to ensure that further PBM 
consolidation does not harm consumers?
    Answer. The FTC has examined PBMs in various contexts: in merger 
investigations; as part of broad-based hearings on health care 
competition; and in a ``Conflict of Interest'' study regarding PBM 
practices, which was issued in 2005. Scrutiny of competitive issues 
relating to PBMs is part of the agency's ongoing efforts to preserve 
and promote competition in health care markets. It is now public 
knowledge that the FTC is conducting investigations of CVS Caremark and 
of the proposed merger of Express Scripts and Medco. While I cannot 
discuss the details of these non-public investigations, I can assure 
you that the Commission has broad authority to prevent or remedy harm 
to competition and consumers wherever found.

    Question 3. In response to recent PBM disclosure, abuse, and 
transparency legislation passed by various states, the FTC has sent 
numerous letters to local officials reiterating PBM-associated cost-
savings. What is the purpose of this advocacy work? In addition, many 
of these communications seem to rely on industry-data to support PBM 
cost-savings claims. How can one industry's data be used to justify not 
regulating that very industry?
    Answer. The FTC's competition advocacy program is designed to 
respond to requests from state legislators and other regulatory 
authorities for an analysis of the likely competitive effects of 
proposed laws and rules. In response to such requests, FTC staff has 
addressed proposals that would require PBMs to disclose more 
confidential business information than other businesses are typically 
required to disclose. FTC staff has expressed concern that requiring 
PBMs to disclose certain sensitive business information could dampen 
competition and facilitate tacit collusion among drug manufacturers 
that compete to be on a formulary or pharmacies that compete to be in a 
PBM's pharmacy network; such tacit collusion could ultimately raise 
prices to health plans and consumers.
    Special disclosure requirements might be justified if there was 
strong evidence that PBMs exploited an information advantage to charge 
their clients unusually high prices. FTC staff has cited evidence on 
cost savings as an indication that this is not likely the case. In its 
2005 PBM study, Pharmacy Benefit Managers: Ownership of Mail-Order 
Pharmacies,\7\ the FTC found the prices for a common basket of 
prescription drugs dispensed by PBM-owned mail order pharmacies were 
typically lower than the prices charged by retail pharmacies. Moreover, 
a 2005 Maryland study found that statutory impediments to the use of 
mail-order pharmacies for maintenance drugs can be costly for a State 
and its citizens.\8\
---------------------------------------------------------------------------
    \7\ Federal Trade Commission, Pharmacy Benefit Managers: Ownership 
of Mail-order Pharmacies (Aug. 2005) (``PBM STUDY''), available at 
http://www.ftc.gov/reports/pharm
benefit05/050906pharmbenefitrpt.pdf.
    \8\ Md. Health Care Comm. and Md. Ins. Admin., Mail-Order Purchase 
of Maintenance Drugs: Impact on Consumers, Payers, and Retail 
Pharmacies, 2-3 (Dec. 23, 2005), available at http://mhcc.maryland.gov/
legislative/mailorderrpt.pdf (noting greater use of mail-order 
maintenance drugs, as would be enabled by liberalizing Maryland 
insurance law, would save Maryland consumers 2-6 percent on retail drug 
purchases, and provide third-party carriers with discounts of 5-10 
percent).
---------------------------------------------------------------------------
    The data on which FTC staff relies are not just one industry's 
data. The data for the FTC's PBM study were obtained under subpoena 
from four groups of respondents--large PBMs, small and insurer-owned 
PBMs, retail pharmacy-owned PBMs, and retail pharmacy chains. FTC staff 
was able to verify that the data provided to the FTC were consistent 
with the companies' internal analyses discussed in their business 
documents, which were created in the ordinary course of business, and 
that the data PBMs reported on prescriptions filled in retail 
pharmacies were consistent with the data obtained directly from these 
retail pharmacies. FTC staff also has continued to monitor outside 
empirical studies of pharmacy benefits, PBMs, and mail order pharmacies 
since the release of the FTC's 2005 PBM Study. These studies are few in 
number, and tend to rely on more limited data sets than those available 
for our own report, but their findings are broadly consistent with 
those of the FTC's 2005 PBM study.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Patrick J. Toomey to 
                         Hon. Jon D. Leibowitz
    Question 1. In the area of consumer protection, the Federal Trade 
Commission's FY 2012 budget request stated that the FTC is focused on 
``protecting consumers in the financial services marketplace.'' Please 
describe in detail the Commission's enforcement, rulemaking, and other 
activities over the last 2 years, as well as activities currently 
underway. Please include information regarding the personnel, budget, 
and other resources required by these activities.
    Answer. I appreciate this opportunity to discuss the Commission's 
authority, resources, and activities during the past 2 years in 
fulfilling our mission to protect consumers of financial services. The 
FTC deals with issues that touch the economic life of nearly every 
American. It is the only Federal agency with both consumer protection 
and competition jurisdiction in broad sectors of the economy. In 
consumer protection, the Commission's mandate is to protect consumers 
from unfair and deceptive practices. That broad mandate brings the 
Commission's work into areas as varied as children's online privacy, 
false claims for foods, drugs, and dietary supplements, weight-loss 
advertising, scholarship scams, pyramid schemes, and identity theft, to 
name just a few. The Commission's actions to protect consumers of 
financial services are a very important part of its consumer protection 
work.
    The FTC is primarily a law enforcement agency, investigating and 
prosecuting those who engage in fraud or other unlawful conduct that 
harms or is likely to harm consumers. In addition to its law 
enforcement role, the Commission engages in rulemaking, consumer and 
business education, and research and policy development initiatives to 
assist consumers in the financial services marketplace. As part of its 
consumer protection mission, the Commission protects consumers at every 
stage of the consumer financial services life cycle, from the 
advertising and marketing of financial products to debt collection to 
mortgage assistance and debt relief.
Authority
        The Commission has broad enforcement powers under the Federal 
        Trade Commission Act (``FTC Act'') to protect consumers of 
        financial services. The agency can bring law enforcement 
        actions to enforce Section 5 of the FTC Act, which prohibits 
        unfair or deceptive acts or practices in or affecting commerce. 
        In addition, the Commission can bring law enforcement actions 
        to enforce a number of consumer protection statutes that 
        specifically relate to financial services, including the Truth 
        in Lending Act (``TILA''), the Home Ownership and Equity 
        Protection Act (``HOEPA''), the Consumer Leasing Act (``CLA''), 
        the Fair Debt Collection Practices Act (``FDCPA''), the Fair 
        Credit Reporting Act (``FCRA''), the Equal Credit Opportunity 
        Act (``ECOA''), the Credit Repair Organizations Act (``CROA''), 
        the Electronic Funds Transfer Act (``EFTA''), and the privacy 
        provisions of the Gramm-Leach-Bliley Act (``GLB Act''). The 
        Commission also can enforce rules that it has issued, including 
        the Mortgage Assistance Relief Services Rule (``MARS Rule''), 
        the Mortgage Acts and Practices--Advertising Rule (``MAP-Ad 
        Rule''), and the Telemarketing Sales Rule (``TSR''), as well as 
        certain rules that other agencies have issued to implement 
        consumer protection statutes that specifically relate to 
        financial services, including Regulations B, E, M, and Z. Under 
        the Dodd-Frank Act, the Commission retains its law enforcement 
        authority, exercising it concurrently with the Consumer 
        Financial Protection Bureau (``CFPB'').

        The Commission also has authority to issue regulations to 
        protect consumers of financial services. Pursuant to Section 18 
        of the FTC Act, the Commission can issue rules to implement 
        Section 5 of the FTC Act's prohibition on unfair and deceptive 
        acts and practices relating to financial products and 
        services.\9\ Pursuant to the Omnibus Appropriations Act of 
        2009, the Commission also had authority to issue rules 
        protecting consumers from unfair or deceptive practices in 
        connection with mortgage-related products and services. 
        Otherwise, the Commission generally does not have authority to 
        issue rules to implement consumer protection statutes that 
        specifically relate to financial services. Pursuant to the 
        Dodd-Frank Act, the Commission's rulemaking authority under the 
        2009 Omnibus Appropriations Act and much of the Federal banking 
        authority consumer protection rulemaking authority passed to 
        the CFPB as of July 21, 2011. The CFPB also has rulemaking 
        authority to implement the FDCPA.
---------------------------------------------------------------------------
    \9\ The Commission has not used that authority to issue rules 
affecting financial practices in more than two decades due to 
burdensome procedural requirements required under the Magnuson-Moss 
Warranty--FTC Improvement Act that often result in proceedings taking 
ten or more years to complete.
---------------------------------------------------------------------------
Resources
        As part of fulfilling its consumer protection mission, the 
        Commission over the past 2 years has allocated significant 
        resources to conducting the law enforcement and other 
        activities discussed in detail below. In Fiscal Year 2010, the 
        Commission allocated 114.6 FTEs (37 percent of its total 
        Consumer Protection resources), including staff in the Bureau 
        of Consumer Protection's Divisions of Financial Practices, 
        Privacy and Identity Protection, Marketing Practices, and 
        Enforcement, and the agency's regional offices, and $16 million 
        to its financial services work. In Fiscal Year 2011, the FTC 
        allocated 101.6 FTEs (33 percent of its total Consumer 
        Protection resources) and $13.8 million to its financial 
        services work. The Commission will continue to allocate 
        significant resources to engage in law enforcement and other 
        activities to protect consumers of financial services.\10\
---------------------------------------------------------------------------
    \10\ The drop in resources between 2010 and 2011 is not indicative 
of a change in the Commission's emphasis on protecting consumers in the 
financial services marketplace. Rather, the decrease is due to losing 
eleven staff to the CFPB, and the time necessary to replace those 
positions, and due to the conclusion of several resource-intensive 
matters.
---------------------------------------------------------------------------
Recent Law Enforcement Activities
        Over the last 2 years, as the economic downturn has persisted, 
        fraudulent schemes exploiting consumers in financial distress 
        have proliferated. The Commission's top consumer protection 
        priority has been and remains using law enforcement to stop 
        scammers who prey on the most vulnerable consumers, trying to 
        pick the last dollars out of their pockets through false 
        promises. In the financial services marketplace, the Commission 
        has targeted these ``last dollar frauds'' promising assistance 
        in obtaining mortgage loan modifications and foreclosure 
        relief; the elimination or reduction of consumers' credit card 
        debt; tax relief; and credit repair. The Commission also has 
        been vigilant in engaging in a broad range of activities to 
        protect consumers in connection with debt collection, mortgage 
        finance, automobile finance and extended warranties, payment 
        systems, and credit reporting.\11\ Below is a more detailed 
        discussion of the Commission's law enforcement activities in 
        the financial marketplace. In response to your question, I have 
        identified all actions the Commission has made public during 
        the specified time-frame of Fiscal Years 2010 and 2011. 
        Although I cannot discuss non-public investigations, I assure 
        you that Commission staff has investigated and developed 
        numerous other matters during Fiscal Years 2010 and 2011 on 
        which the Commission itself has not yet acted, but will result 
        in enforcement actions.
---------------------------------------------------------------------------
    \11\ The Commission also has brought numerous actions in the past 2 
years alleging unfair practices against payment processers assisting 
frauds and alleging EFTA and Regulation E violations against frauds 
engaging in unauthorized billing practices using consumers' debit 
account information. Although these practices involve financial 
services, I am not including a discussion of them in this response 
because the underlying frauds do not involve financial services.
---------------------------------------------------------------------------
Scams Directed at Consumers in Debt
  <bullet> Mortgage Assistance Relief and Foreclosure Rescue Services--
        In Fiscal Years 2010 and 2011, the Commission has filed 13 law 
        enforcement actions against 76 defendants who offered or 
        provided purported mortgage assistance relief and foreclosure 
        rescue services.\12\ All of these cases alleged that the 
        defendants violated Section 5 of the FTC Act. Most recently, 
        the Commission recently brought its first case also alleging 
        violations of the MARS Rule, discussed further below.\13\ 
        During the past 2 years, the Commission has partially or fully 
        resolved through litigation or settlement 27 cases against 132 
        defendants, including some of the cases filed during this time 
        period and some cases previously filed.\14\ In the resolved 
        cases, the Commission obtained permanent bans and final 
        judgments totaling over $135.8 million in monetary relief 
        ($56.3 million of which has been suspended based on the 
        defendants' inability to pay more), for consumer redress and 
        disgorgement. In addition to bringing its own cases, the FTC 
        has played a key role in assisting other Federal and state law 
        enforcers in bringing hundreds of additional law enforcement 
        actions against loan modification and other foreclosure relief 
        scams. More cases enforcing the FTC Act and the MARS Rule are 
        in the pipeline.
---------------------------------------------------------------------------
    \12\ FTC v. Christopher Mallett, Case No.1:11-cv-01664-CKK (D.D.C. 
filed Sep. 14, 2011) (http://www.ftc.gov/os/caselist/1123105/
index.shtm); FTC v. Phillip A. Flora, Case No. SACV11-00299-AG- (JEMx) 
(C.D. Cal. filed Feb. 22, 2011) (http://www.ftc.gov/os/caselist/
1023005/index.shtm); FTC v. U.S. Mortgage Funding, Inc., Case No. 11-
CV-80155-COHN (S.D. Fla. filed Feb. 7, 2011) (http://www.ftc.gov/os/
caselist/1023146/index.shtm); FTC v. Residential Relief Found., Inc., 
JFM 10VC 3214 (D. Md. filed Nov. 15, 2010) (http://www.ftc.gov/os/
caselist/1023234/index.shtm); FTC v. U.S. Homeowners Relief, Inc., No. 
SA-CV-10-1452 JST (PJWx) (C.D. Cal. filed Sept. 27, 2010) (http://
www.ftc.gov/os/caselist/1023018/index.shtm); FTC v. National Hometeam 
Solutions, LLC, No. 4:08-cv-067 (E.D. Tex. filed Aug. 30, 2010) 
(contempt action) (http://www.ftc.gov/os/caselist/0823067/index.shtm); 
FTC v. Dominant Leads, LLC, No. 1:10-cv-00997 (D.D.C. filed June 15, 
2010) (http://www.ftc.gov/os/caselist/1023152/index.shtm); FTC v. The 
Debt Advocacy Ctr., LLC, No. 1:09-cv-2712 (N.D. Ohio filed Nov. 19, 
2009) (http://www.ftc.gov/os/caselist/0923143/index.shtm); FTC v. First 
Universal Lending, LLC, No. 09-82322-CIV-ZLOCH (S.D. Fla. filed Nov. 
18, 2009) (http://www.ftc.gov/os/caselist/0923130/index.shtm); FTC v. 
Kirkland Young, LLC, No. 09-23507-CIV-GOLD/MCALILEY (S.D. Fla. filed 
Nov. 18, 2009) (http://www.ftc.gov/os/caselist/0923162/index.shtm); FTC 
v. Truman Foreclosure Assistance, LLC, No. 09-23543-CV-LEONARD-TURNOFF 
(S.D. Fla. filed Nov. 23, 2009) (http://www.ftc.gov/os/caselist/
0923192/index.shtm); FTC v. 1st Guaranty Mortgage Corp., No. 09-CV-
61846 (S.D. Fla. filed Nov.17, 2009) (http://www.ftc.gov/os/caselist/
0923169/index.shtm); and FTC v. Washington Data Res., Inc., No. 8:09-
cv-2309-T-23 TMB (M.D. Fla. filed Nov. 12, 2009) (http://www.ftc.gov/
os/caselist/0923173/index.shtm).
    \13\ FTC v. Christopher Mallett, Case No.1:11-cv-01664-CKK (D.D.C. 
filed Sep. 14, 2011) (http://www.ftc.gov/os/caselist/1123105/
index.shtm).
    \14\ FTC v. Phillip A. Flora, supra; FTC v. U.S. Mortgage Funding, 
Inc., supra; FTC v. Residential Relief Found., Inc., supra; FTC v. 
National Hometeam Solutions, LLC, supra; FTC v. Dominant Leads, LLC, 
supra; FTC v. First Universal Lending, LLC, supra; FTC v. Kirkland 
Young, LLC, supra; FTC v. Truman Foreclosure Assistance, supra; FTC v. 
1st Guaranty Mortgage Corp., supra; FTC v. Washington Data Res., Inc., 
supra; FTC v. Federal Housing Modification Dept., No. 1:09-cv-01753-RJL 
(D.D.C.) (http://www.ftc.gov/os/caselist/0923124/index.shtm); FTC v. 
United Credit Adjusters, No. 09-cv-00798 (D.N.J.) (http://www.ftc.gov/
os/caselist/0823211/index.shtm); FTC v. Infinity Group Servs., No. 
8:09-cv-00977-DOC-MLG (C.D. Cal.) (http://www.ftc.gov/os/caselist/
0923135/index.shtm); FTC v. Lucas Law Ctr., No. SA-CV-09-770 DOC (ANx) 
(C.D. Cal.) (http://www.ftc.gov/os/caselist/0923127/index.shtm); FTC v. 
Apply2Save, Inc., (D. Idaho) (http://www.ftc.gov/os/caselist/0923117/
index.shtm); FTC v. Loss Mitigation Servs., Inc., SA-CV-09-800 DOC 
(ANx) (C.D. Cal.) (http://www.ftc.gov/os/caselist/0923073/index.shtm); 
FTC v. U.S. Foreclosure Relief Corp., SA-CV-09-768 JVS (MLGx) (C.D. 
Cal.) (http://www.ftc.gov/os/caselist/0923120/index.shtm); FTC v. 
Freedom Foreclosure Prevention Serv., LLC, No. 09-1167 (D. Ariz.) 
(http://www.ftc.gov/os/caselist/0923061/index.shtm); FTC v. Data Med. 
Capital, Inc., No. SA-CV-99-1266 AHS (EEx) (C.D. Cal.) (http://
www.ftc.gov/os/caselist/x000001.shtm); FTC v. Dinamica Financiera LLC, 
No. 09-CV-03554 (C.D. Cal.) (http://www.ftc.gov/os/caselist/0823103/
index.shtm); FTC v. Sean Cantkier, Case No. 1:09-cv-00894 (CKK) 
(D.D.C.) (http://www.ftc.gov/os/caselist/0923147/index.shtm); FTC v. 
Federal Loan Modification Law Ctr., LLP, Case No. SA-CV-09-401-CJC 
(MLGx) (C.D. Cal.) (http://www.ftc.gov/os/caselist/0923070/index.shtm); 
FTC v. Home Assure LLC, Case No. 8:09-cv-547-T-23TBM (M.D. Fla.) 
(http://www.ftc.gov/os/caselist/0823192/index.shtm); FTC v. Thomas 
Ryan, No. 1:09-cv-00535-HHK (D.D.C.) (http://www.ftc.gov/os/caselist/
0923116/index.shtm); FTC v. Hope Now Modifications, No. 1:09-cv-01204-
JBS-JS (D.N.J.) (http://www.ftc.gov/os/caselist/0923079/index.shtm); 
FTC v. New Hope Prop., LLC, No. 1:09-cv-01203-JBS-JS (D.N.J.) (http://
www.ftc.gov/os/caselist/0923068/index.shtm); FTC v. National 
Foreclosure Relief, Inc., No. 8:09-cv-00117-DOC-MLG (C.D. Cal.) (http:/
/www.ftc.gov/os/caselist/0823067/index.shtm); and FTC v. Safe Harbour 
Found. of Florida, Inc., No. 1:08-cv-01185 (N.D. Ill.) (http://
www.ftc.gov/os/caselist/0823028/index.shtm).

  <bullet> Debt Relief Services--In Fiscal Years 2010 and 2011, the 
        Commission has filed 15 law enforcement actions against 94 
        defendants who offered or provided purported debt settlement 
        and other debt relief services.\15\
---------------------------------------------------------------------------
    \15\ FTC v. Christopher Mallett, supra; FTC v. Debt Relief USA, 
Inc., No. 3:11-cv-02059-N (N.D. Tex. filed Aug. 17, 2011) (http://
www.ftc.gov/os/caselist/0923052/index.shtm); FTC v. Media Innovations, 
LLC, No. 8:11-cv-00164-RWT (D. Md. filed Jan. 20, 2011) (http://
www.ftc.gov/os/caselist/0923054/index.shtm); FTC v. Debt Consultants of 
Amer., Inc., No. No. 3:10-cv-02447 (N.D. Tex. filed Dec. 2, 2010) 
(http://www.ftc.gov/os/caselist/0923152/index.shtm); FTC v. Financial 
Freedom of Amer., Inc., No. 3:10-cv-02446 (N.D. Tex. filed Dec. 2, 
2010) (http://www.ftc.gov/os/caselist/0923056/index.shtm); FTC v. 
Debt.com Mktg., No. SACV10-01788 DOC (Rzx) (C.D. Cal. filed Nov. 22, 
2010) (http://www.ftc.gov/os/caselist/0923040/index.shtm); FTC v. 
Direct Fin. Mgmt., Inc., No. 10 C 7194 (N.D. Ill. filed Nov. 8, 2010) 
(http://www.ftc.gov/os/caselist/1023061/index.shtm); FTC v. Residential 
Relief Found., Inc.; FTC v. Dominant Leads; FTC v. Asia Pacific 
Telecom, Inc., No. 10 C 3168 (N.D. Ill. filed May 24, 2010) (http://
www.ftc.gov/os/caselist/1023060/index.shtm); FTC v. Advanced Mgmt. 
Servs. NW LLC, No. 10-cv-00148- LR (E.D. Wash. filed May 10, 2010) 
(http://www.ftc.gov/os/caselist/0923187/index.shtm); FTC v. Credit 
Restoration Brokers, LLC, No. 2:10-cv-0030-CEH-SPC (M.D. Fla. filed 
Jan. 20, 2010) (http://www.ftc.gov/os/caselist/0823001/index.shtm); FTC 
v. JPM Accelerated Servs., Inc., No. 09-CV-2021 (M.D. Fla. filed Nov. 
30, 2009) (http://www.ftc.gov/os/caselist/0923190/index.shtm); FTC v. 
Econ. Relief Techs., LLC, No. 09-CV-3347 (N.D. Ga. filed Nov. 30, 2009) 
(http://www.ftc.gov/os/caselist/0923118/index.shtm: and FTC v. 2145183 
Ontario Inc., No. 09-CV-7423 (N.D. Ill. filed Nov. 30, 2009) (http://
www.ftc.gov/os/caselist/0923183/index.shtm).

    Eleven of the cases challenged false and unsubstantiated promises 
        made by entities that they could substantially reduce or 
        eliminate consumers' debt in violation of Section 5 of the FTC 
        Act, and, for conduct occurring after the TSR was amended to 
        cover debt relief services in 2010, in violation of the TSR. In 
        three of these cases, the Commission challenged the defendants' 
        practices in connection with the marketing of debt relief 
        services and mortgage assistance relief services, discussed 
        above.\16\ Three of the cases charged marketers with using 
        illegal robocalls to consumers whose phone numbers were on the 
        Do Not Call Registry, deceptively claiming they could reduce 
        consumers' credit card interest rates, in violation of Section 
        5 of the FTC Act and the TSR.\17\ During the same time period, 
        the Commission has fully or partially resolved 13 cases, 
        resulting in strong injunctive relief and approximately $197 
        million (approximately $160.8 million of which was suspended 
        based on defendants' inability to pay more) as consumer redress 
        and disgorgement remedies.\18\ More cases enforcing the FTC Act 
        and the TSR are in the pipeline.
---------------------------------------------------------------------------
    \16\ FTC v. Christopher Mallett, supra; FTC v. Residential Relief 
Found., Inc., supra; and FTC v. Dominant Leads, supra.
    \17\ FTC v. 2145183 Ontario Inc., supra; FTC v. Econ. Relief 
Techs., supra; and FTC v. JPM Accelerated Servs., Inc., supra.
    \18\ FTC v. Residential Relief Found., Inc., supra; FTC v. Debt 
Relief USA, Inc., supra; FTC v. Dominant Leads, LLC, supra; FTC v. 
2145183 Ontario Inc., supra; FTC v. Advanced Mgmt. Serv. NW LLC, supra; 
FTC v. Media Innovations, LLC, supra; FTC v. Debt.com Mktg., supra; FTC 
v. Econ. Relief Techs., LLC, supra; FTC v. MCS Programs, LLC, No. 09-
CV-5380 (W.D. Wash.) (http://www.ftc.gov/os/caselist/0823216/
index.shtm); FTC v. Group One Networks, Inc., No. 8:09-CV-00352 (M.D. 
Fla.) (http://www.ftc.gov/os/caselist/0723230/index.shtm); FTC v. 
Credit Restoration Brokers, LLC, supra; FTC v. JPM Accelerated Servs., 
Inc., supra; FTC v. Randall L. Leshin, No. 06-61851, CIV-Zloch (S.D. 
Fla.) (contempt action resolved Jan. 2010) (http://www.ftc.gov/os/
caselist/0523146/index.shtm).
---------------------------------------------------------------------------
  <bullet> Credit Repair Services--The FTC has filed 4 law enforcement 
        actions against 14 defendants who offered or provided credit 
        repair services in the past 2 years.\19\ Two of these cases 
        have involved alleged violations of the CROA or both the CROA 
        and FTC Act. The other two cases are contempt actions. In one 
        of those contempt actions, the defendant was found in civil 
        contempt of a 2009 Federal court order banning him from 
        engaging in credit repair activities, arising out of a 2008 FTC 
        action alleging violations of the FTC Act and CROA. The 
        remaining contempt action, which is ongoing, alleges violations 
        of a 2010 Federal court order prohibiting the defendants from 
        engaging in deceptive marketing practices and from violating 
        the FTC Act and CROA. During the 2-year period, we have 
        partially or fully resolved through litigation or settlement 7 
        cases involving 29 defendants.\20\ In the resolved cases, the 
        Commission obtained permanent injunctive relief in all of the 
        cases, bans on engaging in credit repair in 2 cases against 11 
        defendants, and final judgments totaling $33,886,494 in 
        monetary relief, including consumer redress and disgorgement.
---------------------------------------------------------------------------
    \19\ United States v. RMCN Credit Servs., Inc., No. 4:11-cv-00650 
(E.D. Tex. filed Oct. 12, 2011) (http://www.ftc.gov/os/caselist/
0823253/index.shtm); FTC v. Credit Restoration Brokers, LLC, No. 2:10-
cv-00030-CEH-SPC (M.D. Fla. filed Apr. 12, 2011) (contempt action) 
(http://www.ftc.gov/os/caselist/0823001/index.shtm); FTC v. RCA Credit 
Servs., LLC, No. 8:08-cv-2062-T-27MAP (M.D. Fla. filed June 21, 2011) 
(contempt action) (http://www.ftc.gov/os/caselist/0823148/index.shtm); 
FTC v. Credit Restoration Brokers, LLC, No. 2:10-cv-00030-CEH-SPC (M.D. 
Fla. filed Jan. 20, 2010) (http://www.ftc.gov/os/caselist/0823001/
index.shtm).
    \20\ FTC v. Credit Restoration Brokers, LLC, supra; FTC v. RCA 
Credit Servs., LLC, supra; FTC v. Advantage Credit Repair LLC, No. 
1:08-cv-05994 (N.D. Ill.) (http://www.ftc.gov/os/caselist/0823223/
index.shtm); FTC v. United Credit Adjusters, Inc., supra; FTC v. 
Nationwide Credit Servs., Inc., No. 3:08-cv-01000-HLA-TEM (M.D. Fla.) 
(http://www.ftc.gov/os/caselist/0823219/index.shtm); FTC v. Clean 
Credit Report Servs., Inc., No. 1:08-cv-22922-AJ (S.D. Fla.) (http://
www.ftc.gov/os/caselist/0823220/index.shtm); FTC v. Latrese & Kevin 
Enters. Inc., No. 3:08-cv-01001-MMH-JRK (M.D. Fla.) (http://
www.ftc.gov/os/caselist/0823007/index.shtm).

  <bullet> Tax Relief Services--In the past 2 years, the Commission has 
        filed one case against three defendants and two relief 
        defendants who offered tax relief services./21/ This case 
        alleged that the defendants violated Section 5 of the FTC Act. 
        The case currently is in litigation.
---------------------------------------------------------------------------
    \21\ FTC v. American Tax Relief, LLC, No. 11-6397 DSF (PJWx) (C.D. 
Cal. filed Sept. 24, 2010) (http://www.ftc.gov/os/caselist/1023083/
index.shtm).
---------------------------------------------------------------------------
Payday Loans
  <bullet> In Fiscal Years 2010 and 2011, the FTC has filed four law 
        enforcement actions against 30 defendants who offered or 
        collected on payday loans.\22\ In each of these cases, the 
        Commission alleged that the defendants violated Section 5 of 
        the FTC Act. In one case, the Commission also alleged that the 
        defendants violated FDCPA and the FTC's Credit Practices Rule. 
        In another, the Commission alleged that the defendants violated 
        EFTA, and the FTC's Credit Practices Rule. All four of these 
        actions are currently pending, and the Commission has secured 
        preliminary relief in each of them. In one case, the court 
        issued an opinion granting summary judgment in favor of the 
        Commission, but a final order has not yet been issued. The 
        Commission also has resolved an outstanding action against four 
        defendants who deceived payday loan applicants into buying an 
        unwanted product.\23\ The Commission alleged that the 
        defendants violated Section 5 of the FTC Act. The Commission 
        obtained permanent injunctive relief as well as a final 
        judgment of $5,206,872.
---------------------------------------------------------------------------
    \22\ FTC v. LoanPointe, LLC, Case No. 2:10 CV-00225 DAK (C.D. Utah 
filed Mar. 15, 2010) (http://www.ftc.gov/os/caselist/1023021/
index.shtm); FTC v. Moneymaker, 2:11-cv-00461-JCM-RJJ (D. Nev. Filed 
Apr. 14, 2011) (http://www.ftc.gov/os/caselist/1023165/index.shtm); FTC 
v. Direct Benefits Group, LLC, Case No. 6:11-cv-01186-JA-GJK (M.D. Fla. 
filed Jul. 19, 2011) (http://www.ftc.gov/os/caselist/1123114/
index.shtm); and FTC v. Payday Fin.l, LLC, Case No. 3:11-cv-03017-RAL 
(D.S.D. filed Sept. 6, 2011) (http://www.ftc.gov/os/caselist/1123023/
index.shtm).
    \23\ FTC v. Swish Mktg., Inc., C09-03814 (N.D. Cal. filed Aug. 20, 
2009) (http://www.ftc.gov/os/caselist/0723241/c0903814.shtm).
---------------------------------------------------------------------------
Debt Collection
  <bullet> In Fiscal Years 2010 and 2011, the FTC filed six law 
        enforcement actions against 30 defendants engaged in debt 
        collection.\24\ These actions alleged violations of Section 5 
        of the FTC Act and the FDCPA. Two of the actions also included 
        allegations in connection with the marketing of payday loans, 
        discussed above.\25\ The agency has partially or fully resolved 
        through litigation or settlement four of these cases with 
        regard to eight defendants\26\. In the resolved cases, the 
        Commission obtained $5.645 million in civil penalties. In 
        addition, in June 2011, the Commission filed an amicus brief 
        opposing the settlement of a private class action because 
        consumers would receive only a minimal payment to surrender 
        their rights under the FDCPA.\27\ More cases enforcing the FTC 
        Act and the FDCPA are in the pipeline.
---------------------------------------------------------------------------
    \24\ FTC v. Forensic Case Mgmt. Servs., Inc., LACV11-7484 RGK (C.D. 
Cal. filed Sept. 12, 2011) (http://www.ftc.gov/opa/2011/09/
rumson.shtm); U.S. v. West Asset Mgmt., Inc., 1:11-cv-00746-ODE-JFK 
(N.D. Ga. filed March 10, 2011) (http://www.ftc.gov/opa/2011/03/
wam.shtm); FTC v. LoanPointe, supra; FTC v. Payday Fin., LLC, supra; 
U.S. v. Allied Interstate, Inc., 10-cv-04295-PJS-AJB (D. Minn. filed 
Oct. 21, 2010) (http://www.ftc.gov/opa/2010/10/alliedinterstate.shtm); 
U.S. v. Credit Bureau Collection Servs., 2:10-cv-169 (S.D. Ohio filed 
Feb. 24, 2010) (http://www.ftc.gov/opa/2010/03/creditcollect.shtm).
    \25\ FTC v. LoanPointe, LLC, supra, and FTC v. Payday Financial, 
LLC, supra.
    \26\ FTC v. LoanPointe, LLC, supra; U.S. v. Allied Interstate, 
Inc., supra; U.S. v. West Asset Mgmt., Inc.. supra; U.S. v. Credit 
Bureau Collection Servs., supra.
    \27\ See Press Release, FTC, FTC Files Amicus Brief in U.S. 
District Court Opposing Proposed Class Action Settlement with Debt 
Buyer Midland Funding LLC, June 23, 2011, available at http://
www.ftc.gov/opa/2011/06/amicusmidland.shtm.
---------------------------------------------------------------------------
Mortgage Finance
  <bullet> Mortgage Advertising--Given that there has been relatively 
        less mortgage origination and advertising recently in light of 
        the economic downturn and credit crunch, the Commission has 
        focused its resources on combating ``last dollar frauds,'' as 
        discussed above. Commission staff, however, continues to 
        actively monitor the mortgage marketplace, including mortgage 
        advertising.

  <bullet> Fair Lending/Mortgage Origination--In the past 2 years, the 
        FTC has brought two law enforcement actions against four 
        defendants who allegedly were violating fair lending laws in 
        connection with offering or providing mortgages to 
        consumers.\28\ These cases alleged that the defendants violated 
        the FTC Act, ECOA, and Regulation B. Both of these cases 
        settled, with the court entering judgments against the 
        defendants for $5.5 million and $2.9 million, with these 
        judgments being suspended upon payment of $1.5 million and 
        $200,000, respectively. In addition the orders bar the 
        defendants from discriminating on the basis of national origin 
        in credit transactions and require them to establish fair 
        lending monitoring programs.
---------------------------------------------------------------------------
    \28\ FTC v. Gateway Funding Diversified Mortgage Servs., L.P., 08-
5805 (E.D. Pa. filed December 15, 2008) (http://www.ftc.gov/os/
caselist/0623063/index.shtm); FTC v. Golden Empire Mortgage, Inc., 
CV09-03227 (C.D. Cal. filed May 7, 2009) (http://www.ftc.gov/os/
caselist/0623061/index.shtm).

    In addition, the Commission has been investigating several 
        companies to determine whether the Commission would have reason 
        to believe that any of the targets have violated Section 5 of 
        the FTC Act, The Consumer Credit Protection Act, 15 U.S.C.  
        1601 et seq., or ECOA and Regulation B in connection with the 
---------------------------------------------------------------------------
        selling of homes and originating mortgages to consumers.

  <bullet> Mortgage Servicing--In June 2010, the Commission settled 
        allegations that Countrywide Home Loans, Inc., in connection 
        with servicing consumers' mortgages, engaged in unfair and 
        deceptive acts and practices in violation of Section 5 of the 
        FTC Act.\29\ In addition to barring Countrywide from engaging 
        in the same or similar acts and practices in the future, the 
        settlement agreement requires that the company must pay $108 
        million dollars to injured consumers. To date, more than $72 
        million of the $108 million has been paid to over 288,000 
        consumers, with the FTC and its redress administrator working 
        diligently to return the remaining redress amounts to injured 
        consumers.
---------------------------------------------------------------------------
    \29\ FTC v. Countrywide Home Loans, Inc., Case No. CV-10-4193 (C.D. 
Cal. filed June 7, 2010) http://www.ftc.gov/os/caselist/0823205/
index.shtm.
---------------------------------------------------------------------------
Automobile Finance and Warranties
  <bullet> Holder in Due Course Rule--In May 2011, the Commission 
        announced that it had reviewed the contracts of nearly 50 
        franchised and independent auto dealers in 45 states, and two 
        large online automobile dealers, and found that these dealers 
        were in compliance with the FTC's Holder in Due Course 
        Rule.\30\ Based on these findings, the FTC staff closed its 
        investigations of these dealers without law enforcement 
        actions.
---------------------------------------------------------------------------
    \30\ See Press Release, FTC, FTC Finds Broad Compliance Among Auto 
Dealers with Rule That Protects Consumers With Car Loans, May 16, 2011, 
available at http://www.ftc.gov/opa/2011/05/holderrule.shtm.

  <bullet> Robocalls Promising Extended Automobile Warranties--The FTC 
        has filed three law enforcement actions against 13 defendants 
        who violated the Telemarketing Sales Rule and other laws by 
        making pre-recorded robocalls to consumers that deceptively 
        offered to extend their existing automobile warranties.\31\ Two 
        of those cases have been fully resolved and one remains 
        pending. During the 2-year period, the FTC also has fully 
        resolved through litigation or settlement three such cases 
        involving 13 defendants.\32\ In the resolved cases, the 
        Commission obtained permanent injunctive relief, including bans 
        on any future telemarketing, and final judgments totaling 
        $77,493,620 in monetary relief, including consumer redress and 
        disgorgement. More cases targeting these robocallers are in the 
        pipeline.
---------------------------------------------------------------------------
    \31\ FTC v. Econ. Relief Techs., LLC, supra; FTC v. Asia Pacific 
Telecom, Inc., , supra; FTC v. Khalilian, No. 10- 21788 (S.D. Fla. 
filed June 2, 2010) (http://www.ftc.gov/os/caselist/1023173/
index.shtm).
    \32\ FTC v. Voice Touch, Inc., No. 09 CV 2929 (N.D. Ill.) (http://
www.ftc.gov/os/caselist/0823263/index.shtm); FTC v. Econ. Relief 
Techs., LLC, supra; and FTC v. Khalilian, supra.
---------------------------------------------------------------------------
Credit Reporting
  <bullet> The Commission continues to enforce the FCRA against 
        consumer reporting agencies and users of consumer reports to 
        ensure that consumer reports are only supplied to those with a 
        permissible purpose. In the past 2 years, the Commission has 
        brought 9 law enforcement actions and obtained over $2 million 
        in civil penalties.\33\ In the Teletrack, Inc. matter for 
        example, the Commission's complaint alleged that Teletrack 
        violated the FCRA by selling consumer reports obtained from its 
        credit reporting business to marketers, who did not have a 
        ``permissible purpose.'' Teletrack sold lists of consumers who 
        previously sought payday loans to third parties that wanted to 
        use the information to target potential customers. In addition, 
        the Commission settled cases with three resellers of consumer 
        reports where the complaints alleged that because of the 
        companies' basic security failures, hackers were able to access 
        sensitive consumer report information.
---------------------------------------------------------------------------
    \33\ U.S. v. Teletrack, No. 1:11-CV-2060 (N.D. Ga. filed June 24, 
2011) (http://www.ftc.gov/os/caselist/1023075/index.shtm); In the 
Matter of SettlementOne Credit Corporation, FTC Docket No. C-4330 (Aug. 
19, 2011) (http://www.ftc.gov/os/caselist/0823208/index.shtm); In the 
Matter of ACRAnet, Inc., FTC Docket No. C-4331 (Aug. 19, 2011) (http://
www.ftc.gov/os/caselist/0923088/index.shtm); and In the Matter of 
Fajilan and Assocs., Inc., FTC Docket No. C-4330 (Aug. 19, 2011) 
(http://www.ftc.gov/os/caselist/0923089/index.shtm); U.S. v. First 
Advantage SafeRent, Inc., Civ. No. 10-0090 (D. Md. 2010) (http://
www.ftc.gov/os/caselist/0823016/index.shtm); U.S. v. Credit Bureau 
Collection Servs., Civ. No. 10-0169 (S.D. Ohio 2010) (http://
www.ftc.gov/os/caselist/0623226/index.shtm); U.S. v. Direct Marketing 
Assocs. Corp., Civ. No. 10-0696 (D. Ariz. 2010); U.S. v. Central 
Credit, LLC, Civ. No. 10-0565 (D. Nev. 2010); FTC v. Navone, No. 2:08-
CV-01842 (D. Nev. filed Dec. 30, 2009) (http://www.ftc.gov/os/caselist/
0723067/index.shtm).

  <bullet> In July 2010 the FTC staff sent warning letters to 18 
        companies offering free credit reports warning them of the need 
        to comply with the Free Credit Report Rule. As a result of this 
        campaign, the entities that received the letter either shut 
        down or changed their practices.
Recent Rulemaking Activities
  <bullet> Mortgage Assistance Relief Services Rule--In November 2010, 
        the Commission issued the Mortgage Assistance Relief Services--
        or ``MARS''--Rule, to prevent loan modification and foreclosure 
        rescue companies from engaging in deceptive and unfair acts and 
        practices.\34\ Among other things, it prohibits the mortgage 
        assistance relief providers from making deceptive claims, 
        requires that they disclose key information, and bars them from 
        collecting fees until consumers receive a loan modification or 
        other relief. Administration of the MARS Rule transferred to 
        the CFPB on July 21, 2011, but the Commission retains the 
        authority to enforce the MARS Rule, concurrently with the CFPB.
---------------------------------------------------------------------------
    \34\ Mortgage Assistance Relief Services, Final Rule, 75 Fed. Reg. 
75092 (Dec. 1, 2010), available at http://www.ftc.gov/os/fedreg/2010/
december/R911003mars.pdf.
---------------------------------------------------------------------------
  <bullet> Telemarketing Sales Rule Amendments Regarding Debt Relief 
        Services--In July 2010, the FTC issued amendments to the 
        Telemarketing Sales Rule designed to curb deception and abuse 
        in debt relief services.\35\ In addition to prohibiting 
        deceptive claims for debt relief services and mandating 
        disclosures, this Rule prohibits providers of debt relief 
        services from collecting fees unless and until they have 
        delivered acceptable results to consumers.
---------------------------------------------------------------------------
    \35\ Telemarketing Sales Rule, Final Rule Amendments, 75 Fed. Reg. 
48458 (Aug. 10, 2010), available at http://www.ftc.gov/os/2010/07/
100810tsrdebtreliefamendments.pdf.
---------------------------------------------------------------------------
  <bullet> Mortgage Acts and Practices--Advertising Rule--In July 2011, 
        the FTC issued its Mortgage Acts and Practices--Advertising 
        Rule (``MAP-Ad Rule''), which bans deceptive claims about 
        consumer mortgages in advertising or other types of commercial 
        communications.\36\ The Rule is intended to protect consumers 
        from such claims and to create a level playing field for 
        legitimate businesses to compete in the marketplace. Under the 
        Dodd-Frank Act, administration of the MAP-Ad Rule transferred 
        to the CFPB on July 21, 2011, but the FTC retains the authority 
        to enforce the Rule concurrently with the CFPB.
---------------------------------------------------------------------------
    \36\ Mortgage Acts and Practices--Advertising, Final Rule, 76 Fed. 
Reg. 43826 (July 22, 2011), available at http://www.ftc.gov/os/fedreg/
2011/07/110719mortgagead-finalrule.pdf.
---------------------------------------------------------------------------
  <bullet> Credit Reporting--In the past 2 years, the Commission has 
        completed the rulemakings required by the Fair and Accurate 
        Credit Transaction Act (``FACT ACT'') amendments to the FCRA. 
        In July 2011, the Commission issued amendments to the Risk-
        Based Pricing Rule to implement the Dodd-Frank Act.\37\ In 
        February 2010, pursuant to the Credit CARD Act of 2009, the 
        Commission amended the Free Credit Report Rule to require 
        disclosures in the advertising of free credit reports and to 
        restrict practices that might confuse consumers as they attempt 
        to obtain their federally mandated free annual credit 
        reports.\38\
---------------------------------------------------------------------------
    \37\ Fair Credit Reporting Risk-Based Pricing Regulations, Final 
Rules, 76 Fed. Reg. 41602 (July 15, 2011), available at http://
www.ftc.gov/os/2011/07/110706riskbasedpricingfrn.pdf.
    \38\ Free Annual File Disclosures, Final Rule, 75 Fed. Reg. 9726 
(Mar. 3, 2010), available at http://www.ftc.gov/os/2010/02/
100223facta.pdf.
---------------------------------------------------------------------------
Recent Consumer and Business Education Activities
    Although law enforcement is the primary means used by the 
Commission to combat mortgage lending acts and practices that harm 
consumers, the Commission also takes an active role in educating 
American consumers about issues that affect their financial well-being. 
Accordingly, virtually every law enforcement action has an education 
component. That helps consumers learn how to recognize, avoid and 
report a similar experience. The agency empowers consumers by providing 
practical, objective, actionable, and plain language information in 
English and Spanish.
    In addition, the Commission understands that many businesses seek 
guidance on how to comply with the laws and regulations enforced by the 
Commission. To that end, the FTC also engages in extensive business 
education related to the financial services marketplace, designed using 
``plain English'' to help businesses learn how easy it is to comply 
with the law.
    The FTC communicates to consumers and businesses through print 
publications; websites that feature video, interactive games, blog 
posts and audio content; the media; and partnerships with other 
government agencies, industry associations, and non-profits that help 
us leverage resources, raise awareness and improve compliance. FTC 
staff also attend and speak at conferences and workshops.
    As detailed below, the Commission issued or updated a significant 
number of consumer and business education materials over the past 2 
years. These items are part of an extensive library of materials at 
ftc.gov/consumer and business.ftc.gov.
    Additionally, the Commission maintains ftc.gov/MoneyMatters, which 
offers short, practical tips, videos, and links to reliable sources on 
a variety of topics from credit repair, debt collection, job hunting 
and job scams to vehicle repossession, managing mortgage payments and 
avoiding foreclosure rescue scams.
    The Commission's YouTube channel--YouTube.com/FTCvideos--features 
videos ranging from 15 seconds to 10 minutes on a variety of financial-
related subjects, including dramatic stories of people who have avoided 
mortgage foreclosure rescue scams and an animated production outlining 
the rights of debtors and the rules for debt collectors.
    In Fiscal Year 2011, the agency distributed more than 16 million 
publications, and logged more than 24 million visits to its consumer 
and business information on ftc.gov. The ``Credit'' consumer 
information index page is consistently one of the most viewed pages on 
the FTC website.

  <bullet> Mortgage Assistance Relief Services--For consumers, the 
        Commission issued: Mortgage Assistance Relief Scams: Another 
        Potential Stress for Homeowners in Distress, Forensic Mortgage 
        Loan Audit Scams: A New Twist on Foreclosure Rescue Fraud, and 
        For Homeowners, published in cooperation with the Making Home 
        Affordable program and Hope Now (an alliance of housing 
        counselors, mortgage companies, investors, and other mortgage 
        market participants). The Commission worked with the Treasury 
        Department and the Department of Housing and Urban Development, 
        as well as with loan servicers and non-profit organizations, to 
        create and distribute these educational materials to consumers, 
        including a notice sent to homeowners with their monthly 
        mortgage statement warning them against scams. The Commission 
        also issued business education materials: Mortgage Assistance 
        Relief Services Rule: A Compliance Guide for Business and 
        Mortgage Assistance Relief Services Rule: A Compliance Guide 
        for Lawyers to help businesses meet their obligations under the 
        MARS Rule.

  <bullet> Debt Relief Services--For consumers, the Commission issued 
        or updated Settling Your Credit Card Debts, Knee Deep in Debt, 
        and Fiscal Fitness: Choosing a Credit Counselor. For business, 
        the Commission released Debt Relief Services: Is Your Company 
        Complying with the Rules?, Debt Relief Services & the 
        Telemarketing Sales Rule: A Guide for Business, and Complying 
        with the Telemarketing Sales Rule.

  <bullet> Debt Collection--This past year, the Commission issued the 
        consumer publication, Paying the Debts of a Deceased Relative: 
        Who is Responsible?, to explain what to do when a loved one 
        dies and debt collectors are calling, and Debt Collection 
        Arbitration: The Who, What, Why, and How to explain how debt 
        collection arbitration works and consumers rights.

  <bullet> Mortgage Advertising--In March 2011, the Commission updated 
        its consumer publication, Reverse Mortgages: Get the Facts 
        Before Cashing in on Your Home's Equity.

  <bullet> Mortgage Servicing--In June 2010, the Commission updated 
        Mortgage Servicing: Making Sure Your Payments Count.

  <bullet> Payment Methods--In September 2011, the FTC released a new 
        business publication, New Rules on Electronic Payments Lower 
        Costs for Retailers, in English and Spanish, informing 
        businesses that accept payment by credit or debit card about 
        rules implemented as part of the Dodd-Frank Act, including 
        interchange fees for debit card transactions, minimum dollar 
        amounts for credit card purchases, and the networks available 
        on a debit card for routing transactions. In the last 2 years, 
        the FTC also updated its publications about gift cards.
Recent Research and Policy Development Activities
    The financial services marketplace in the United States is dynamic. 
The Commission therefore engages in public workshops and other research 
efforts so that it may better understand particular consumer protection 
issues in the changing marketplace, and advocate for policies that 
promote protections for consumers. During the past 2 years, the 
Commission has engaged in such activities in the area of debt 
collection and automobile financing. In addition, the Commission staff 
often submits formal staff comments and provides informal feedback on 
financial services issues to other Federal and state policymakers.

  <bullet> Debt Collection--In July 2011, the Commission issued a final 
        policy statement clarifying when the FTC would take action 
        against collectors who are trying to collect the debts of 
        deceased consumers.\39\ In April 2011, the FTC held a public 
        workshop to address the impact of new debt collection 
        technologies and currently staff is working on a report 
        summarizing what the Commission learned from the workshop.\40\ 
        In July 2010, the Commission issued a report called ``Repairing 
        a Broken System: Protecting Consumers in Debt Collection 
        Litigation and Arbitration'' that discussed the serious 
        problems in the system for resolving debt collection disputes 
        and that recommended significant reforms to improve the 
        efficiency and equity of these systems.\41\ In late 2009, the 
        FTC commenced a comprehensive, empirical study of the debt 
        buying industry, and the Commission continues to work on this 
        study. In addition, each March, the Commission has submitted to 
        Congress its FDCPA Annual Report.\42\
---------------------------------------------------------------------------
    \39\ Statement of Policy Regarding Communications in Connection 
With the Collection of Decedents' Debts, Policy Statement, 76 Fed. Reg. 
44915 (July 27, 2011), available at http://www.ftc.gov/os/2011/07/
110720fdcpa.pdf.
    \40\ See Press Release, FTC, FTC to Hold Workshop on Ways to 
Protect Consumers As Debt Collection Technologies Change, Apr, 25, 
2011, available at http://www.ftc.gov/opa/2011/04/debtcollection.shtm.
    \41\ FTC, Repairing a Broken System: Protecting Consumers in Debt 
Collection Litigation and Arbitration (July 2010), available at http://
www.ftc.gov/os/2010/07/debtcollectionreport.pdf.
    \42\ FTC, Annual Report 2010: Fair Debt Collection Practices Act, 
available at http://www.ftc.gov/os/2010/04/P104802fdcpa2010annrpt.pdf; 
FTC, Annual Report 2011: Fair Debt Collection Practices Act, available 
at http://www.ftc.gov/os/2011/03/110321fairdebt
collectreport.pdf.

  <bullet> Mortgage Advertising--The Commission staff is coordinating 
        with the CFPB staff regarding their possible development of a 
        new mortgage shopping form and streamlined mortgage disclosures 
---------------------------------------------------------------------------
        under Section 1098 of the Dodd-Frank Act.

  <bullet> Fair Lending/Mortgage Origination--In December 2010, FTC 
        staff submitted comments to the Board of Governors of the 
        Federal Reserve (``Board'') recommending ways the Board could 
        strengthen the rules under the Home Mortgage Disclosure Act 
        (``HMDA'')\43\. HMDA and its implementing Regulation C require 
        some mortgage lenders to collect and report mortgage data that 
        the FTC and other government enforcement agencies use to 
        analyze whether the lenders are complying with ECOA and 
        Regulation B.
---------------------------------------------------------------------------
    \43\ FTC Staff Comment Before the Board of Governors of the Federal 
Reserve Concerning the Home Mortgage Disclosure Act (Dec. 3, 2010), 
available at http://www.ftc.gov/os/2010/12/
101217Federalreserveregulation.pdf.

  <bullet> Automobile Finance--Under the Dodd-Frank Act, as of July 21, 
        2011, the Commission acquired the authority to issue rules 
        prohibiting unfair and deceptive acts and practices in 
        connection with motor vehicle dealers, using the notice and 
        comment rulemaking procedures in Section 553 of the 
        Administrative Procedure Act. To consider whether any new 
        initiatives would be appropriate in this area--such as 
        enforcement actions, business or consumer education, and 
        rulemaking--in 2011 the FTC conducted three roundtable events 
        around the country, in Detroit, San Antonio, and Washington, 
        D.C., to gather information on consumer protection issues that 
        may arise in the sale, lease, or financing of motor 
        vehicles\44\. FTC staff is considering what it learned through 
        these roundtables, and it will recommend, if appropriate, 
        measures to the Commission to protect consumers who buy, 
        finance, or lease motor vehicles.
---------------------------------------------------------------------------
    \44\ See http://www.ftc.gov/bcp/workshops/motorvehicles.

  <bullet> Payment Methods--Title IV of the Credit CARD Act, effective 
        August 2010, amended EFTA to make it applicable to general-use 
        prepaid cards, gift certificates, and store gift cards. It also 
        required the Board, in consultation with the FTC, to issue 
        related rules. The Commission's staff consulted with the Board, 
        in connection with its development of these final rules, which 
        the Board issued in April 2010. Among other things, the rules 
        provide that gift card funds cannot expire for at least 5 
        years, and inactivity fees can be charged only after a card has 
        not been used for at least 1 year. For all cards sold after 
        January 31, 2011, the expiration date must be clearly disclosed 
        on the card, and fees must be clearly disclosed on the card or 
---------------------------------------------------------------------------
        its packaging.

    In addition, Section 508 of the Credit CARD Act required the FTC to 
conduct a study regarding the cost-effectiveness of making emergency 
automated teller machine (ATM) technology available. Such technology is 
intended to permit ATM users under duress to electronically alert a 
local law enforcement agency that an incident is taking place at the 
ATM. The Commission's Bureau of Economics conducted this study and 
issued its report to Congress in April 2010.\45\ The report concluded 
that the available evidence did not permit definitive conclusions about 
whether emergency-PIN or alarm button systems reduce ATM crimes. The 
report also determined that these systems may impose substantial 
implementation costs, although no formally derived cost estimates of 
implementing these technologies are currently available.
---------------------------------------------------------------------------
    \45\ FTC, Bureau of Econ. Staff Report, Credit Card Accountability 
Responsibility and Disclosure Act of 2009--Report on Emergency 
Technology for Use with ATMs (2010), available at http://www.ftc.gov/
opa/2010/05/atm.shtm.

  <bullet> Credit Reporting--In July 2011, the FTC issued a staff 
        report that compiles and updates the agency's guidance on the 
        FCRA and withdrew the 1990 FCRA Commentary.\46\ The staff 
        report, entitled ``Forty Years of Experience with the Fair 
        Credit Reporting Act: An FTC Staff Report and Summary of 
        Interpretations,'' provides a brief overview of the FTC's role 
        in enforcing and interpreting the FCRA and includes a section-
        by-section summary of the staff's interpretations of the Act. 
        In January 2011, pursuant to the FACT Act amendments to the 
        FCRA, the Commission submitted its fourth interim report to 
        Congress describing progress the agency has made on a national 
        study examining the accuracy of credit reports.
---------------------------------------------------------------------------
    \46\ FTC Staff Report, 40 Years of Experience with the Fair Credit 
Reporting Act: An FTC Staff Report with Summary of Interpretations 
(July 2011), available at http://www.ftc.gov/os/2011/07/
110720fcrareport.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                         Hon. Jon D. Leibowitz
    Question 1. The United States' relationship with China has been in 
the news a lot lately regarding currency manipulation, trade, 
protection of Intellectual Property, counterfeit electronic parts in 
the military supply chain, and a host of other issues. China has even 
managed to become an issue in the Presidential race. In August, the 
FTC, along with DOJ, signed an MOU outlining a framework for antitrust 
cooperation with China. Can you give the Committee a sense of plans 
going forward with regard to engaging with China? How do you plan to 
address the technical nature and handling of specific cases that span 
multiple jurisdictions.
    Answer. The Commission plans to continue and expand upon its robust 
engagement with China's antimonopoly agencies. The new Memorandum of 
Understanding provides a framework for enhanced engagement with the 
three Chinese antitrust agencies. If re-confirmed, I look forward to 
future exchanges between senior officials and staff on issues of 
competition policy and practice, including substantive analysis and 
procedural best practices. We will continue our technical assistance 
programs and workshops for China's antimonopoly agencies, which have 
covered a full range of antitrust topics over the past several years, 
including programs on merger review, the abuse of dominance, and the 
intersection of antitrust and intellectual property policies. The FTC 
recently hosted an official from China's Ministry of Commerce (China's 
merger review agency) in our Bureau of Competition as part of our 
international fellows program (made possible by the authority granted 
by Congress under the U.S. SAFE WEB Act). We look forward to hosting 
additional fellows from the Chinese agencies over the coming years. We 
will, as appropriate, provide comments on proposed rules and guidelines 
issued by China's antimonopoly agencies and share our experience with 
China's new agencies as they implement the antimonopoly law. Finally, 
in appropriate instances, we will cooperate with China's agencies on 
cases under concurrent review.
    We are very much looking forward to further developing our 
cooperative relations with China's antimonopoly agencies based on our 
extensive experience cooperating on cases with other countries' 
competition law enforcers and subject to all applicable rules regarding 
confidentiality. Cooperation with sister antitrust enforcers on cases 
under common investigation enables the agencies to identify issues of 
common interest, improve analyses, and avoid inconsistent outcomes on 
the matter under review, while promoting greater understanding and 
convergence toward sound antitrust analysis. Cooperation may involve 
exchanges of non-confidential information, process-related information, 
such as the timetable for review, and, as appropriate, staff views on 
market definition, competitive effects, and suitable remedies. 
Discussion of confidential information submitted by a party or third 
party occurs only if the entity grants a waiver of confidentiality. As 
has been the case with other jurisdictions, we expect that cooperation 
on cases with China will begin modestly and, as we gain experience and 
mutual trust, may become more robust over time.

    Question 2. In your response to my question on the use of Section 5 
you indicated in your answer that Section 5 was indeed limited in part 
by the remedies available to the FTC. The fact that remedies are 
limited does not replace the need to give guidance to the business 
community on what types of anti-competitive conduct are uniquely 
enforceable under Section 5 and not enforceable under the antitrust 
laws. Beyond invitation to collude, what guidance can and should the 
Federal Trade Commission offer?
    Answer. The Commission's decision criterion for bringing a Section 
5 ``unfair methods of competition'' case is whether the practice is 
likely to harm competition. As the Supreme Court has found, Congress 
clearly intended the FTC's Section 5 authority to extend beyond the 
bounds of the antitrust laws. We have used, and will continue to use, 
this authority judiciously, and when we use the authority, we will 
thoroughly explain our actions so as to provide guidance for the 
business community. Recently, the Commission has issued such guidance 
in the detailed Complaint and the Analysis to Aid Public Comment that 
accompanied our action against U-Haul for allegedly inviting its rival 
to collude on price. We also issued such guidance in our Complaint and 
Analysis to Aid Public Comment in the Intel matter, which described our 
allegations against Intel and described why we concluded that deceptive 
conduct by Intel skewed competition in its favor in violation of 
Section 5. Additionally, we issue guidance through speeches, 
congressional testimony, workshop materials, and advisory opinions.

    Question 3. In regard to your remedies point, Section 5 does not 
provide for fining authority, nor does it provide for follow-on private 
litigation which can seek treble damages. However, in the Intel case, 
which you mentioned was settled, the original Federal Trade Commission 
complaint suggested compulsory licensing of Intel's intellectual 
property as a potential remedy. Compulsory licensing as a remedy can be 
far more damaging than a fine or facing treble damages. Further, it has 
been widely viewed as an inappropriate remedy in single-firm conduct 
cases, including by the Supreme Court. When is it appropriate to 
threaten or consider compulsory licensing as a remedy? Is it 
irresponsible to treat such a problematic remedy so casually given the 
implications for how such a remedy might expansively be used by foreign 
antitrust authorities in jurisdictions which have suspect and limited 
judicial review?
    Answer. The Federal Trade Commission is obligated by law to request 
remedies that restore competition as it would have been but for the 
anticompetitive conduct of each respondent. When the Commission issues 
a complaint, it must provide the respondent with notice as to the range 
of remedies that might be imposed on it if all of the law violations 
alleged in the Complaint are proven. That notice enables each 
respondent to understand, and litigate as it thinks appropriate, not 
only the facts and law relating to the conduct alleged, but the 
propriety of potential remedies in the event that it is found to have 
broken the law. The Commission gives great and careful thought to 
remedies, seeking to narrowly tailor them to each matter at hand, but, 
at the beginning of a litigation, the Commission must be clear as to 
what the broadest possible range of remedies may be supported by the 
evidence. Decisions are either made by a Federal district court judge 
or appealed to a Federal circuit court, or both. We are not aware of 
any principle of Supreme Court (or other) jurisprudence holding that 
compulsory licensing is always an inappropriate remedy in 
monopolization cases. In fact, although infrequent, in some instances 
it is foreseeable that that some form of compulsory licensing may be 
necessary to restore competition to a market in which competition has 
been stunted by a monopolists' anticompetitive conduct. Where that is a 
possibility, the respondents must have notice of it. Accordingly, we 
take the utmost care in considering such remedies, and we make every 
effort to ensure that this is understood by our foreign partners.

    Question 4. Mr. Leibowitz, in testimony before the House Energy and 
Commerce Committee, David Vladeck of the Federal Trade Commission 
stated that the Interagency Working Group on Food Marketed to Children 
would not propose that food companies change the trade dress elements 
of their packaging or remove brand equity characters, like Tony the 
Tiger, from food products. Please confirm that your final 
recommendations will not endorse any restrictions on packaging or in- 
store marketing, including packaging and in-store marketing that 
features characters not owned or controlled by food companies.
    Answer. The Interagency Working Group report is being finalized now 
and has not yet been formally approved by the four member agencies. 
However, I support the exclusion of packaging and in-store displays, 
including characters and trade dress used in such packaging and 
displays, from the scope of covered marketing activities.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Rebecca M. Blank
    Question 1. Small and rural businesses are the backbone of this 
country's economy and provide jobs for millions of Americans. Too often 
they are overlooked and don't have a chance to take advantage of 
opportunities and assistance provided by the government. What is your 
experience with small and rural businesses?
    Answer. I believe that supporting small and rural businesses is an 
essential component of the Commerce Department's mission. A number of 
my cousins run small family farms in rural Missouri and I have watched 
them deal with the challenges as well as the rewards of self-employment 
in an uncertain economic climate.
    One way to help small and rural businesses take advantage of 
beneficial services and programs regardless of where a business is 
located is to ensure they are able to access information and services 
on-line. CommerceConnect is one example of a customer service 
initiative that connects American firms with federal, state, and local 
business assistance resources, including more than 70 Department of 
Commerce programs.
    Additionally, access to broadband is indispensable to ensuring 
access to information which enables economic growth. I am pleased to 
report that the Commerce Department has invested approximately $4 
billion in expanding broadband access since 2009. West Virginia was 
awarded $130 million from the National Telecommunications and 
Information Administration's (NTIA) Broadband Technology Opportunities 
Program (BTOP) for expanding and improving broadband infrastructure in 
the state with an additional $4.5 million to promote increased 
broadband adoption. These projects will directly benefit more than 
1,000 community anchor institutions, including hospitals, public safety 
agencies, libraries and government offices. Every K-to-12 school in the 
state will be connected to broadband, and one project will bring 
broadband service to the sparsely populated and terrain-challenged 
areas of Hardy County, West Virginia.
    The Economic Development Administration (EDA) is another bureau 
within the Commerce Department, with which I have worked, that provides 
critical economic development support to rural communities and small 
businesses. EDA's approach is to support bottom-up economic 
development. EDA recognizes that jobs are not created in Washington, 
DC, but in regions and communities-and particularly by small 
businesses-all across the country. EDA's approach to investment 
empowers rural communities to access the specific assistance needed to 
support long-term economic development. Historically, slightly more 
than 50 percent of EDA investments have been made in rural areas.
    If confirmed, I will be committed to ensuring the Department's 
programs and services are accessible to small and rural businesses in 
West Virginia and across the Nation. These firms are vital to our 
economy and future job growth.

    Question 2. What will you do to reach firms that may be reluctant 
to partner with the government or may not know about the Department's 
partnership opportunities?
    Answer. In recent years, the Commerce Department has taken 
important steps to enhance its outreach to American businesses through 
web portals, contact centers and field staff to enable firms to access 
information and services provided by the Commerce Department regardless 
of where they are located.
    For example, CommerceConnect is a customer service initiative that 
connects American firms with federal, state, and local business 
assistance resources, including more than 70 Department of Commerce 
programs. Demand for CommerceConnect services has increased 
significantly since it was launched in 2009, which is an indication of 
the value its services provide to businesses nationwide. In FY 2011, 
CommerceConnect assisted 875 clients, referring them to over 1,300 
programs, products and services to address their business needs.
    Building on the success of initiatives like CommerceConnect, in 
October, President Obama established BusinessUSA, a common, open, web 
service for small businesses and businesses focused on exporting. This 
effort intends to connect businesses to resources across Federal 
government agencies more easily and provide personalized, efficient 
service. Through BusinessUSA, we aim to reach businesses in every 
corner of the country. The Department of Commerce and the Small 
Business Administration are serving as leaders of a growing inter-
agency Steering Committee working to advance BusinessUSA. Together, the 
Committee will design, develop and launch this new service, as well as 
ensure BusinessUSA becomes a dynamic service that implements ongoing 
improvements based on customer feedback. The initial website release is 
scheduled for early 2012.
    Other outreach to U.S. firms occurs through public events with 
senior Department officials. One of the best aspects of my work as a 
senior Commerce Department official has been the opportunity to travel 
to cities across the country to talk about the work we are doing at the 
Department to create jobs through programs such as the National Export 
Initiative. In addition, newsletters, webinars, and conferences also 
provide important opportunities to educate business owners about the 
services available to them through the Department of Commerce that can 
help grow their business.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Dr. Rebecca M. Blank
    Question 1. Marine Operations Center--Pacific CMOC-P--From the 
beginning, I have been an adamant opponent of relocating the Marine 
Operations Center-Pacific (MOC-P) from the Puget Sound to Newport, 
Oregon. For that reason alone, it has been extremely difficult to get 
information from the Department on the project. As a result, I demanded 
an Inspector General's report of NOAA's MOC-P acquisition. Have you 
read the Inspector General's Report? If not, you should carefully read 
and evaluate the Inspector General's report and compare it with your 
experience at NOAA. At a minimum, I believe you will be very 
disappointed with NOAA's process.
    I urge you to reach out to MOC-P personnel. As Deputy Secretary, I 
want you to hold a closed door meeting with NOAA MOC-P employees, 
without senior management. I want you to hear from NOAA employees 
themselves about the process of the move, the necessity of maintaining 
fleet and collaborative science presence in Seattle. Can you commit to 
meeting with NOAA employees in Seattle to discuss this important issue?
    Answer. If confirmed, I look forward to visiting NOAA employees and 
facilities around the country and I will certainly familiarize myself 
with MOC-P, and read and evaluate the Inspector General's report.

    Question 2. Ship time, stock assessment surveys and Orcas--I am 
very concerned about the impact of drastic cuts to ship time, and the 
recent decommissioning of the McArthur II. Fishing quotas in the North 
Pacific are based on stock assessment survey data. Without stock data, 
regional fishery management councils are forced to lower the total 
allowable catch due to stock uncertainty. Cutting ship time will 
decrease stock data, which will decrease catch, net profit, and 
therefore, could eliminate jobs for Washington state fishermen. As 
Deputy Secretary of Commerce, how would you direct NOAA to restore ship 
time and protect commercial and recreational fishing jobs in my state?
    Answer. If confirmed, I will work to support the requested 
resources for ship time and ensure that future budget requests put NOAA 
in the best position to support the fishing industry with current, high 
quality data. I will also continue to work to ensure NOAA continues to 
plan the most efficient allocation of available resources to meet 
NOAA's highest priority ship observation needs.

    Question 3. Endangered southern resident orca research funding was 
cut, eliminating offshore vessel based surveys and inhibiting NOAA 
scientists from collecting data critical to the recovery of Orcas. As 
secretary, how will you work to restore ship time funding for critical 
programs such as orca research mandated by the Endangered Species Act?
    Answer. If confirmed, I will be a strong advocate for NOAA to have 
the best science on which to base its decisions. As you note, ship time 
to collect data and information about fisheries, orcas and ocean 
acidification is vital to ensuring NOAA's decisions are scientifically 
sound. If confirmed, I would continue to work with the Secretary, 
Members of Congress, the fisheries community, academia, and others to 
promote and to continuously strengthen the excellence of NOAA's 
research and science efforts.

    Question 4. Interagency Coordination on Infectious Salmon Anemia 
Virus--Infectious salmon anemia virus was recently detected in wild 
salmon populations off British Columbia, Canada. This is a huge concern 
for Washington state industry because the virus virtually wiped out 
fishing industries in Chile and Norway. Recently I introduced an 
amendment to H.R. 2112 which calls on the National Aquatic Animal 
Health Task Force (NOAA is a member) to produce a report to Congress 
outlining the threat. My amendment was cosponsored by Senators 
Murkowski, Begich, Boxer, Feinstein, Murray, Wyden and Merkley. As the 
Deputy Secretary of Commerce, will you evaluate the threat of 
infectious salmon anemia on our commercial, tribal and recreational 
fisheries? Can your analysis include potential pathways for 
transmission--both in the natural environment and in commerce? 
Furthermore, will you direct NOAA to test the susceptibility of Pacific 
salmon, steelhead, cod, and herring to the virus? Understanding the 
species at rick will enable NOAA to maximize tax payer dollars to 
prioritize surveillance and monitoring regimes.
    Answer. NOAA is taking this threat very seriously. Healthy salmon 
populations are vitally important to the economy, culture, and natural 
environment of the United States, particularly the Pacific Northwest. 
NOAA is committed to increasing its testing and surveillance of wild, 
farmed, and hatchery salmon in sites across the Pacific Northwest to 
ensure that any potential threat of a virus is detected at the smallest 
scale. In addition, NOAA is working on emergency response plans should 
we detect the virus. NOAA's approach will continue to be both 
collaborative and thorough so we can rely on the best expertise in 
ensuring that our salmon populations remain healthy and our salmon 
fisheries remain economically viable.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Dr. Rebecca M. Blank
    Question 1. Do you believe public-private partnerships are an 
effective mechanism to address our country's growing workforce gap and 
build on successful initiatives such as science parks?
    Answer. Yes, public-private partnership can be an important tool in 
economic development. Public-private partnerships promote dialogue and 
collaboration between private industry and federal, state, and local 
officials which can help identify challenges and foster solutions to 
issues such as industry workforce training needs in a particular 
region. Strong regional clusters often grow from dynamic public-private 
partnerships that connect business leaders, universities, non-profit 
organizations, government officials, and other strategic partners to 
help regions capitalize on shared strengths to enhance regional 
economies, create jobs, and compete globally.
    Many of the Commerce Department's Economic Development 
Administration's (EDA) investments are built on successful public-
private partnerships, including the recently implemented Jobs and 
Innovation Accelerator Challenge, which brought together both public 
and private partners to build upon America's regional innovation 
clusters with the goal of creating jobs and leveraging key industries 
for economic growth.
    EDA makes strategic investments that foster job creation, 
particularly in areas of long-term economic hardship or adjustment, by 
investing in public assets and providing economic supports such as 
workforce training. Public-private partnerships focused on these types 
of investments are sometimes necessary to reduce the risk to private 
sector businesses and increase the overall level of investment in 
economically distressed regions.
    Examples:

    The Delta Center for Economic Development at Arkansas State 
University in Jonesboro, Arkansas

    The Delta Center is an EDA University Center that provides 
technical support, strategic planning services, research and analysis, 
training, and leadership development for local governments, chambers of 
commerce, and development organizations across Arkansas. Through the 
Delta Center, University faculty works directly with community leaders 
to identify assets and leverage them to build local capacity and grow 
the economy. The Delta Center also operates a business incubator and, 
with the assistance of Arkansas State's College of Business, supports 
the development and growth of small businesses. Since the beginning of 
2010, the Delta Center has assisted more than 440 firms, helped create 
141 jobs, and helped save 286 jobs.
    The Sandia Science and Technology Park in New Mexico is 
internationally recognized, master-planned, and strategically located 
near the U.S. Department of Energy's Sandia National Laboratory. The 
Science and Technology Park is an entire community dedicated to linking 
public sector research with private sector business opportunities where 
companies and startups collaborate on a broad assortment of 
technologies, products, and services. The Park is home to 33 companies 
employing over 2,000 people in higher-skill, higher-wage jobs.
    Since 2000, EDA has invested $2.8 million in four projects at the 
Park. EDA's investments have assisted various stages of the Park's 
development, from developing the Park's initial strategic plans, to 
building a fiber optic security network, to installing a state-of-the-
art point of presence communication system. The total project costs for 
these four projects was $4.9 million.
    The Commonwealth Center for Advanced Manufacturing (CCAM) in Prince 
George County, Virginia.
    CCAM is a public-private partnership that connects best-in-class 
manufacturers and many of Virginia's top institutions of higher 
education, including the University of Virginia, Virginia Tech 
University, and Virginia State University. CCAM's mission is to 
transform applied research into business advantages through 
collaboration and delivery of new ``production ready'' solutions to 
factories. In September 2011, EDA invested $4 million of an $8.8 
million project, to construct office and high-bay manufacturing space 
at the CCAM facility.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                          Dr. Rebecca M. Blank
    Question 1. In 2010, the President announced a goal of clearing 500 
MHz of spectrum over the next decade. NTIA released an initial report 
in January 2011 which included 115 MHz of spectrum. Unfortunately, only 
15 MHz was being cleared by Federal agencies, the rest would have to be 
shared. It is my understanding that NTIA is working on a follow up 
report which should be released soon. What is the status of the report?
    Answer. The report,--An Assessment of the Viability of 
Accommodating Wireless Broadband in the 1755-1850 MHz Band, is 
currently in the interagency clearance process managed by the Office of 
Management and Budget. We intend to release this report as soon as it 
is final in the coming weeks.

    Question 2. How much closer will we be to the goal of 500 MHz on 
unencumbered spectrum within 10 years?
    Answer. NTIA and the Federal agencies have been working diligently 
to meet the President's goal as quickly as possible. NTIA's plan 
identified over 2,200 megahertz of spectrum for evaluation, prioritized 
spectrum bands for review, and targeted four spectrum bands 
representing 410 megahertz of spectrum based upon the potential for 
relocation within five years.
    The upcoming report on the 1755-1850 MHz band will provide a 
recommendation on the repurposing of as much as 95 megahertz of 
additional spectrum toward the 500 megahertz goal. In January 2012, the 
Federal agencies will identify the next band(s) to be reviewed, and 
will begin the process toward making additional reallocation 
recommendations next fall. In addition to the Federal spectrum being 
identified by NTIA, the Federal Communications Commission (FCC) 
identified another approximately 280 MHz of spectrum that could 
potentially be repurposed for wireless broadband. The reallocation of a 
significant portion of this spectrum is dependent on Congress enacting 
legislation to authorize the FCC to conduct incentive auctions.
    NTIA's most recent status report, including more information on the 
spectrum bands for future consideration and upcoming activities, is 
available at http://www.ntia.doc.gov/files/ntia/publications/
second_interim_progress_report_on_
the_ten_year_plan_and_timetable.pdf.

    Question 3. Will the report any process improvements or other 
efforts to help Federal agencies better utilize spectrum?
    Answer. No. The report focuses on assessing the viability of 
accommodating wireless broadband services in the 1755-1850 MHz band. 
This involves identifying the systems currently in the band as well as 
the costs of moving these systems to comparable bands. However, in the 
American Jobs Act, President Obama put forward proposals to improve the 
process by which Federal agencies relocate their systems to other 
spectrum, including providing agencies the necessary up-front financial 
resources to plan their relocation activities more effectively and 
accurately (thus increasing certainty in relocation costs and a faster 
relocation schedule); ensuring that agencies come out of the process 
with comparable, or where appropriate, updated capabilities; and 
ensuring that agencies can recover the costs of sharing their spectrum.

    Question 4. I have been concerned for some time now about the state 
of spectrum management policy, as you know. Spectrum is a limited 
resource and licensees and users are typically more comfortable with 
the status quo than with efficiency measures. As you know, I have been 
working with Senator Roger Wicker on bipartisan legislation to 
modernize the Federal spectrum relocation process in an effort to clear 
underutilized Federal spectrum for other uses by making the process 
more predictable and transparent for both Federal agencies and 
potential spectrum auction bidders. I have also actively encouraged 
public safety licensees and commercial licensees to manage spectrum 
more efficiently, and I have sought ways to consolidate use of spectrum 
where possible. S. 522 was reintroduced this Congress and although it 
passed the Commerce Committee without objection last year, the bill 
seems to be stalled because of Administration opposition to process 
improvements which include creating an independent panel comprised of 
OMB, NTIA, and the FCC to review Federal agency relocation plans and a 
timeline for transitions. Aside from requests for Congress to authorize 
the use of the Spectrum Relocation Fund for forward-planning funding 
for Federal agencies--which was included in the spectrum legislation 
passed by the Senate Commerce Committee this past summer--I have 
received no concrete suggestions or ideas from the Administration. I am 
very concerned about the lack of serious dialogue about this 
legislation and about a way forward. Will you commit to working with me 
to improve the Federal spectrum relocation process so that we can clear 
underutilized Federal spectrum for other useful purposes?
    Answer. Yes.

    Question 5. Can you offer any specific recommendations regarding 
process improvements?
    Answer. In the American Jobs Act, the President put forward 
proposals to improve the process by which Federal agencies relocate 
their systems to other spectrum, including providing agencies the 
necessary up-front financial resources to plan their relocation 
activities more effectively and accurately (thus increasing certainty 
in relocation costs and a faster relocation schedule); ensuring that 
agencies come out of the process with comparable, or where appropriate, 
updated capabilities; and ensuring that agencies can recover the costs 
of sharing their spectrum. I support these proposals and, if confirmed, 
I look forward to working with Congress to establish the statutory 
framework necessary to meet the Nation's spectrum needs in the long 
term.

    Question 6. I understand the Commerce Department is very focused on 
implementing patent reform. Can you provide an update on how this 
process is going?
    Answer. Under the America Invents Act (AIA), the U.S. Patent and 
Trademark Office (USPTO) is charged with implementing new rules to 
modernize the U.S. patent system, conducting studies, and establishing 
new programs. The agency is on track to implement all the changes in 
accordance with statutory due dates.
    First, there are 20 provisions in the AIA that impact USPTO 
operations and require the agency to promulgate new rules in a staged 
manner over a period of 60 days to 18 months from the date of 
enactment. The USPTO has implemented seven of those provisions to date, 
including the establishment of a prioritized examination procedure 
(Track One) option, and is on schedule to issue Notices of Proposed 
Rulemaking (NPRMs) for nine additional ones in mid-January. Thereafter, 
the USPTO will turn to assembling NPRMs for the remaining provisions.
    Second, Congress has mandated the USPTO to conduct seven studies 
and consult on two additional ones over a period of four months to 
three years from enactment. The agency is well under way to timely 
completion of the first two studies, with report due dates in mid-
January 2012. For those two studies, on the issues of prior user rights 
and on options to aid independent inventors and small businesses, the 
USPTO has conducted public hearings and collected written comments from 
the public. The public hearing on prior user rights was conducted on 
October 25, 2011, at USPTO headquarters. Two hearings on international 
protection for independent inventors and small business were conducted 
at USPTO headquarters on October 27, 2011, and at the University of 
Southern California Law School on November 1, 2011. The agency is 
currently drafting these reports and soon will begin the third study 
with a report due date in mid-June 2012.
    Lastly, the USPTO must establish four new programs within three 
years of enactment. The agency has the first program--pro bono legal 
assistance for under-resourced independent inventors and small 
businesses--running and is working on launching the other three 
programs.

    Question 7. How much of an effect will the changes Congress 
authorized have on innovation and economic activity?
    Answer. The America Invents Act will help to spur innovation and 
the economy in various ways, both in the short term and in the long 
term.
    First, the AIA contains provisions to assist patent holders in 
obtaining more certain patent property rights. The AIA migrates the 
United States to a first-inventor-to-file system, which entails a 
simplified prior art system for judging the novelty and obviousness of 
a claimed invention. The AIA also contains a provision to streamline 
the information and process for submitting an inventor's oath/
declaration, facilitating the ability of assignees to file patent 
applications. The AIA further contains a provision to allow a third 
party to submit prior art to the USPTO during patent examination, thus 
enabling examiners to weed out unpatentable inventions early in 
examination. With more certain patent property rights, patent owners 
will be able to license and sell their patents and inventions faster 
and easier both nationally and internationally.
    Second, the AIA offers ways to remove bad patents from the patent 
system, thereby clearing patent thickets and opening doors for new 
technology to advance. In particular, the AIA establishes a post-grant 
review and inter partes reviews, both of which enable a third party to 
challenge the patentability of an issued patent if certain conditions 
are met. The agency in turn is statutorily bound to make a decision 
within 12 months with a six month good cause extension possible. Post 
grant review and inter partes review offer an alternative to district 
court litigation and will be faster and cheaper for the parties.
    Third, the AIA requires the USPTO to establish specialized programs 
to assist independent inventors and small businesses in securing patent 
protection for their inventions. These provisions are critical to the 
U.S. economy as two out of three new jobs are created by small 
businesses. More specifically, the USPTO has already established a pro 
bono program to assist under-resourced independent inventors and small 
businesses to file and prosecute patent applications before the USPTO. 
In the same spirit, the USPTO is required to establish a Patent 
Ombudsman to further assist independent inventors and small businesses 
in prosecuting patent applications in the USPTO. And the AIA requires 
the USPTO to study and report to Congress on ways that the USPTO or 
other government agencies can financially assist small business in 
obtaining global patent rights, such as through a loan or grant 
program.
    Finally, the AIA contains financial provisions that are favorable 
to fully funding the USPTO, such as granting the USPTO fee setting 
authority and imposing a 15 percent surcharge on current fees. With 
additional funds, the agency will be able to hire more examiners and 
administrative patent judges to tackle the backlog of unexamined patent 
applications and pending appeals, respectively. The agency likewise 
will be able to modernize its outdated automation systems. Both changes 
will speed patent examination, enhance the quality of review, and bring 
forward inventions to market that are presently sitting in the USPTO 
files.

    Question 8. Can you provide an overview of the SelectUSA program 
and how it is progressing?
    Answer. SelectUSA was established by Executive Order on June 15, 
2011 to create jobs, spur economic growth, and promote American 
competitiveness by facilitating business investment in the United 
States. SelectUSA resides within the U.S. & Foreign Commercial Service 
(USFCS) of the International Trade Administration (ITA) at the U.S. 
Department of Commerce (DOC). SelectUSA serves as a single point of 
contact for individual companies, U.S. economic development 
organizations (EDOs), foreign EDOs, and other relevant stakeholders 
that need assistance or guidance regarding investing in the United 
States. SelectUSA serves investors primarily through ombudsman, 
advocacy and information clearinghouse activities. It works with 
foreign companies who are considering U.S. investment, as well as with 
expanding domestically based companies who are weighing U.S. versus 
non-U.S. locations.
    Ombudsman: SelectUSA provides comprehensive ombudsman support to 
current or prospective investors encountering obstacles or confusion in 
the Federal regulatory process, or seeking to identify Federal 
resources (e.g., programs or existing investment incentives) that will 
facilitate business investment, retention, or expansion in the United 
States. The program facilitates this service at the request of a 
company, or an EDO on behalf of a company.
    Advocacy: SelectUSA will, at the request of a U.S. EDO engaged in 
an international business investment location competition, provide U.S. 
government-level advocacy (e.g., promotion) of the United States as a 
destination for a company to invest. Individual U.S. state, local, and 
regional EDOs often compete against one another as well as national 
level foreign governments in site selection competitions. To level the 
international playing field, SelectUSA can, when appropriate, promote 
the U.S. business climate to a potential investor in an ongoing 
international business investment location competition that may be at 
risk or in which a decision is imminent, and when a federal-level 
engagement can convey the appropriate support.
    Information Clearinghouse Activities: SelectUSA serves as an 
information clearinghouse for current or prospective business 
investors, their agents, and the U.S. EDOs that seek to attract, 
retain, or expand business investments in their respective communities. 
SelectUSA responds to investor inquiries, disseminating information to 
companies that need it to investigate the logistical process of making 
an investment in the United States. SelectUSA leverages media and its 
own brand to disseminate information to current and prospective 
investors and U.S. EDOs, driving demand to its suite of services and 
promoting the United States as a destination for business investment.

    Question 9. How will SelectUSA encourage more investments from 
foreign companies?
    Answer. SelectUSA encourages foreign direct investment in the 
United States by providing foreign investors with information and 
guidance on the process of investing in the United States.
    SelectUSA's Ombudsman service is targeted to the needs of foreign 
investors and helps firms understand and navigate the Federal 
regulatory process if they encounter confusion or difficulty. The 
program also helps firms identify Federal resources (e.g., programs or 
existing investment incentives) that will facilitate business 
investment, retention, or expansion in the United States. SelectUSA 
also responds to investor inquiries and disseminates information 
regarding U.S. market and investment trends, as well as the competitive 
advantages of investing in the United States.

    Question 10. How will this program interact with state and local 
economic development efforts?
    Answer. SelectUSA provides U.S. state, regional, and local EDOs 
with support in their efforts to attract, retain, or expand business 
investment in their respective communities. This support is provided in 
a geographically neutral manner--the program never directs a current or 
prospective investor to one investment destination over another within 
the United States. SelectUSA's Advocacy service can assist U.S. EDOs as 
they compete for an investment decision against foreign governments, 
when appropriate, by coordinating federal-level engagement to encourage 
investment in the United States (e.g., promoting the United States 
overall as a destination for investment). This support helps level the 
international field for U.S. EDOs engaged in international business 
investment location competitions. Senior leadership in the U.S. 
Department of Commerce or elsewhere in the U.S. Government may be asked 
to engage on behalf of a U.S. EDO to promote the United States as the 
investment destination rather than another country. The ombudsman 
service (described above) is also leveraged to support U.S. EDOs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Dr. Rebecca M. Blank
    Question 1. Alaska recently endured a massive winter storm with 
hurricane force winds and a strong tide surge. There's no question 
lives were saved because of advance notice of the timing and severity 
of this approaching storm. Alaskans took heed and hunkered down, 
boarded up buildings and got away from the coast, stayed with family 
and friends or in village schools. Our Polar orbiting weather 
satellites (JPSS) need replacement to maintain the accuracy of the 
Nation's forecasts. These are a big ticket item in tough economic 
times--but absolutely necessary to protect lives and property. This 
information also necessary for National Defense. What does the Commerce 
Department need to strengthen our weather forecasting through 
modernization of the weather satellite system?
    Answer. First, let me say how pleased we were by the JPSS funding 
level in the FY 2012 final appropriation for the National Oceanic and 
Atmospheric Administration (NOAA). We very much appreciate the support 
and recognition of the program's importance. Our National Weather 
Service's (NWS) Weather Forecast Offices (WFOs) in Anchorage and 
Fairbanks recognized the storm potential of the recent storm in Alaska 
almost six days in advance. This was primarily due to predictions 
provided by numerical weather models prior to the storm. These models 
were fed, in large part, by data from NOAA polar-orbiting satellites.
    Both Geostationary Operational Environmental Satellites (GOES) and 
Polar Operational Environmental Satellites (POES) were critical to 
forecast operations: GOES, when the storm was south of 50N latitude and 
the Western Aleutian Islands; and POES, when the storm crossed into the 
Central Bering Sea. The Fairbanks WFO and the Alaska Regional 
Operations Center provided around the clock Impact Decision Support 
Services to the state and Federal partners throughout the event, and 
provided staffing at the state Emergency Operations Center 15 hours per 
day Monday through Thursday. WFOs Fairbanks and Anchorage, the NWS 
Alaska Aviation Weather Unit, and the NWS Alaska Regional Operations 
Center continued to provide weather support to the state and Federal 
partners, and communities as restoration and recovery efforts proceeded 
following the storm.
    Geostationary and polar-orbiting satellites are complementary data 
sources required to meet NOAA's forecast mission. Between these two 
systems, the Nation is provided with advance notice of unexpected 
severe weather, such as hurricanes, winter storms, and even solar 
storms; however, it is imperative that these programs receive adequate 
and timely funding over the next several years to ensure mission 
continuity. The Department of Commerce appreciates the strong 
bipartisan effort that resulted in $924 million for JPSS in the FY 2012 
CJS conference report. This funding is vital to keeping the program on 
track and to avoid exacerbating the likely gap in observations that is 
the result of previous funding challenges. The lack of timely and 
adequate funds in FY 2011 has led to an almost 100 percent chance of a 
gap in polar-orbiting satellite coverage in the afternoon orbit between 
the end of NPP's operational life and the launch of JPSS-1. In order to 
prevent that gap from increasing, the JPSS program will need adequate 
and timely funds over the next several years, which is why the current 
funding level is so important. Similarly, the next-generation GOES-R, 
scheduled to launch in 2015, will provide continuity of coverage and 
improvement over our current GOES satellites, but one of the biggest 
risks to the program's success is budget uncertainty. GOES-R received 
full funding in the FY 2012 CJS conference bill, but the program will 
need sustained funds in order to meet the targeted launch date. With 
sustained adequate funding, the Department of Commerce will be able to 
maintain and strengthen our weather forecasting through modernization 
of the weather satellite system.

    Question 2. These satellite systems are a major portion of the 
Department's budget and can crowd out other worthy programs. Is there a 
way to think creatively about how to pay for them, such as through 
future spectrum sales? Would you be willing to work with this committee 
on such approaches?
    Answer. Our weather satellite systems are important pieces of 
national infrastructure that support two of the Department of 
Commerce's Primary Mission Essential Functions. We believe that 
accurate weather forecasting is a key national security concern, 
protecting this Nation from the damage of severe storms, supporting 
large amounts of weather-dependent commerce, and providing vital 
information to the military. In this tight fiscal environment, it is 
imperative that we have stable and adequate funding for the weather 
satellite program, which may require alternative sources of funding. 
The Department of Commerce and NOAA have examined using spectrum 
auction proceeds as a potential alternative for programs like the Joint 
Polar Satellite System; however this would require legislation to 
achieve. If confirmed, I would look forward to continuing to work with 
the Secretary to explore these and other potential funding options with 
the Committee.

    Question 3. Alaska provides up to 60 percent of the Nation's 
seafood in any given year. Managing these marine fisheries is a major 
responsibility of the Commerce Department. I am concerned in these 
tough economic times there will be a reduction in the basic research 
and management efforts--like stock assessments. Will the Commerce 
Department continue to support the basic research needed to maintain 
this economic engine and the sustainability of our stocks?
    Answer. It is important that NOAA carry out its Magnuson-Stevens 
Act responsibilities to utilize sound science to sustain healthy fish 
stocks and a healthy and profitable fishing industry. However, NOAA is 
limited by current budget realities. If confirmed, I will continue to 
work with the Secretary to ensure NOAA invests its resources in a 
manner that fulfills its obligations and sustains our Nation's 
commercial and recreational fishing businesses to the fullest extent 
possible during these trying fiscal times.

    Question 4. Alaska fishermen generally have trust in the science 
and management under the Magnuson Stevens Act, but fishermen elsewhere 
tell me they do not. What can we do to bridge this gap in trust between 
fishermen and managers of this important Federal responsibility?
    Answer. The National Oceanic and Atmospheric Administration's 
(NOAA) National Marine Fisheries Service (NMFS) shares a goal with the 
fishing industry of ensuring there is a healthy and sustainable fishing 
industry in the future. An effective working relationship with the 
fishing industry is essential to meeting this important goal, and NOAA 
has made significant efforts over the past two years to improve this 
relationship. If confirmed, I pledge to continue to work with the 
Secretary to make sure that NOAA continues its efforts to improve 
relations with the fishing industry.

    Question 5. Alaska's economy depends on international exports of 
seafood, minerals and other resources. What steps can we take to 
strengthen our Nation's international trade? How can the Commerce 
Department improve relationships with tribal entities and in rural 
areas, which sometime feel overlooked, to improve economic stability 
and foreign trade even in these constrained budget times?
    Answer. The Commerce Department is working hard to promote the 
National Export Initiative (NEI), with a goal of doubling exports of 
U.S. goods and services by the end of 2014. Since it was announced, the 
NEI has leveraged government resources and policies to help create 
conditions that have allowed exports to grow at an annualized rate of 
16.3 percent, a pace that puts us ahead of schedule toward the goal. If 
confirmed, I will continue to work alongside Secretary Bryson, the 
International Trade Administration and other bureaus within the 
Department to ensure the Department remains on track to double exports 
in five years. We must continue to robustly enforce our trade laws to 
provide a fair and level playing field for U.S. firms and workers as 
well as maximize opportunities to expand market access abroad through 
direct advocacy and removing barriers to trade.
    Further, the recently adopted free trade agreements with Korea, 
Panama and Colombia will benefit many industries in Alaska by 
eliminating and lowering tariffs for U.S. products and increasing 
market access for U.S. goods and services. Korea is a particularly 
important market for Alaska's energy, seafood and other products. The 
Commerce Department stands ready to work with businesses throughout 
Alaska and the Nation to ensure they are able to take advantage of the 
benefits these trade agreements provide as the Administration moves 
forward with implementation of the agreements.
    To work effectively with any specific community, government 
officials need to develop working relationships which enable dialogue 
and collaboration. This then opens the door to share information about 
relevant programs and services. As Under Secretary for Economic 
Affairs, I oversaw the 2010 Decennial Census. I know from my work with 
the U.S. Census Bureau how important it was for census workers to 
develop relationships with Native American communities and tribal 
entities. Engaging community leaders an developing partnerships with 
Native communities was essential for the Census Bureau to complete the 
2010 Census.
    If confirmed as Deputy Secretary, I will encourage the same 
approach to engage tribal entities in Alaska to promote exports and 
economic growth. Further, I would welcome your suggestions on how the 
resources of the Commerce Department can best help tribal entities grow 
their businesses and create jobs.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Dr. Rebecca M. Blank
    Question 1. As the Ranking Member of the Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard, the concerns of Maine's 
fishermen are my concerns. Given that prior to Secretary Bryson's 
confirmation you served as Acting Secretary and prior to that, served 
as Acting Deputy Secretary, I know you are well aware of the concerns 
of New England fishermen and the marine community, which have been 
detailed in numerous independent reports by the Inspector General and 
outside consultants.
    Addressing these problems has been a significant focus for both the 
agency and the Department in recent years--indeed, in 2010, a year when 
we saw the worst oil spill in our Nation's history, the Department's 
Inspector General still identified ``Effectively Balancing NOAA's Goals 
of Protecting the Environment and Supporting the Fishing Industry'' as 
one of the Department's top challenges in 2011. While we have moved on 
to name new--top challenges&Verbar; for 2012, the fishermen of Maine 
are still working to address some of the practical and operational 
concerns that adversely affect their businesses.
    Just this morning, I, along with the rest of the New England 
delegation, received a letter from a group of groundfish fishermen 
asking for our support in building critical management infrastructure 
and funding for science so that we can have better fisheries 
management. They believe, as do I, that we should be promoting 
stability, profitability and flexibility for the fishing industry in 
our work here in Washington. If you are confirmed as Deputy Secretary, 
how will you ensure that NOAA is actively seeking pragmatic solutions 
to constructive requests for cooperation from the fishing industry, and 
working aggressively to implement them?
    Answer. To promote a healthy and sustainable fishing industry, we 
must work together with fisheries stakeholders to ensure that the 
resources on which the fishing industry depends are healthy and used 
sustainably. The Department and NOAA are dedicated to empowering 
fishermen to participate as partners in the development of workable 
solutions to New England fisheries management issues. If confirmed, I 
look forward to continuing to work with the Secretary and NOAA to 
ensure the fishing industry has a voice in the ongoing development of 
fisheries management practices and infrastructure in New England and 
across the Nation.

    Question 2. The American manufacturing sector, like the rest of the 
American economy, was hit hard by the latest recession. But as a result 
of a confluence of events, U.S. manufacturers have been on an uneven 
playing field when it comes to competing with the rest of the world 
since before the recent economic downturn. Specifically, rising health 
care and energy costs, compliance with myriad regulations, and high 
tort litigation costs are placing American manufacturers at a strong 
disadvantage. As an anecdote, the U.S. corporate tax rate remains by-
and-large unchanged over the past two decades, while major competitors 
have lowered theirs. These so called external costs, according to the 
National Association of Manufacturers (NAM), have resulted in a nearly 
18 percent disadvantage for U.S. manufacturing firms when compared with 
similar costs for nine of America's major trading partners. It is no 
wonder, then, that manufacturing in May grew at the slowest pace in 20 
months, and it has lost over six million jobs--or roughly one-third of 
its employment--over the past decade.
    Despite these challenges, there can be no doubt that manufacturing 
is essential to our Nation's future. In 2008, U.S. manufacturing 
generated $1.64 trillion worth of goods, meaning that if it were a 
country, it would be the eighth largest economy in the world. 
Furthermore, the United States is the world's largest manufacturing 
economy, as it produces 21 percent of all global manufactured products. 
American manufacturing is responsible for 12 million American jobs 
directly, and another 6.6 million indirectly, for a total of one in six 
private sector jobs. And U.S. manufacturing employees have notably 
higher annual earnings and are recognized as the most productive 
workers in the world. According to the Manufacturers Association of 
Maine, workers in my home state's manufacturing sector earn almost 
$1,000 per month more than their counterparts in other sectors, and 
they have increased output per employee by 66 percent over the past 8 
years--from $60,000 in 2001 to $89,000 in 2009. If confirmed, what 
specific steps will you take as Deputy Secretary of Commerce to 
strengthen the position of American manufacturers in the global 
economy, so that they can create jobs and opportunity here?
    Answer. The American manufacturing sector is critical to our long-
term economic strength. Many years ago, I worked with a variety of 
heavy manufacturing industries as a consultant for an economic 
forecasting company, a job which taught me a great deal about the 
realities of business and the value of a strong domestic manufacturing 
base. U.S. manufacturers are a primary source of exports and provide 
good paying jobs for hard-working Americans. Secretary of Commerce John 
Bryson has made it one of his top priorities to help the domestic 
manufacturing sector succeed and thrive. If confirmed as Deputy 
Secretary, it will be my privilege to support Secretary Bryson and the 
Obama Administration in this work by helping U.S. manufacturers become 
more innovative at home and competitive abroad. Recognizing how 
critical the manufacturing sector is to the overall U.S. economy, the 
Obama Administration is committed to building domestic manufacturing 
capabilities to create the new products, new industries and new jobs of 
the future.
    At the Commerce Department, we are bolstering our efforts to help 
strengthen and grow manufacturing in the United States. Our National 
Institute of Standards and Technology (NIST) is particularly well-
positioned to support this goal because of its unique mission to work 
closely with industry. As such, NIST recently created the position of 
Chief Manufacturing Officer and appointed Michael Molnar to serve in 
this new role.
    Mr. Molnar, a manufacturing industry executive, will be responsible 
for planning and coordinating NIST's broad array of manufacturing 
research and services programs. He will serve as NIST's central point 
of contact with the White House, the Department of Commerce and other 
agencies on technical and policy issues related to manufacturing. This 
new position will leverage NIST's strong relationships with industry to 
accelerate innovation that will create 21st-century manufacturing jobs 
and enhance our global competitiveness. As part of this effort, he will 
work to promote and support the Advanced Manufacturing Partnership 
launched this summer by President Obama that brings industry, 
universities and the Federal Government together to invest in emerging 
technologies.
    To further help manufacturers succeed, the Department will continue 
to invest in research and development; work to increase exports of 
manufactured goods through the National Export Initiative, which is on 
track to achieve the Administration's goal of doubling U.S. exports 
over five years; and robustly enforce our trade laws to ensure American 
firms can compete fairly in the global marketplace. Additionally, the 
Department will prioritize programs with a record of success in 
benefiting manufacturers such as the Hollings Manufacturing Extension 
Partnership. Further, the Department will work aggressively to 
implement the recently adopted America Invents Act to ensure American 
manufacturers and their employees are able to realize the full benefit 
of their ingenuity, innovation and hard work by speeding the delivery 
of a patentable idea to the marketplace.
    If confirmed as Deputy Secretary, I will meet regularly with all 
bureau chiefs of the Department to measure progress and ensure that 
these and other top priorities of the Department remain on track. If 
confirmed, I will also continue to oversee the Department's annual 
budget planning and will work to prioritize and coordinate program 
funding across bureaus to ensure programs and initiatives that 
demonstrate success in helping U.S. manufacturers are adequately funded 
in a time of reduced overall budgets.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. John D Rockefeller IV 
                        to Maureen K. Ohlhausen
    Question 1. I urge the FTC to remain vigilant about children's 
privacy issues and to use all the tools at its disposal to protect 
children's privacy. Ms. Ohlhausen, do you agree that the proposed 
changes are necessary to strengthen COPPA?
    Answer. The FTC has sought to protect children's online privacy for 
many years through the promulgation and enforcement of the COPPA Rule, 
other enforcement actions under Section 5 of the FTC Act, and consumer 
and business education and outreach efforts. I strongly support these 
activities by the FTC to protect children's privacy. In September 2011, 
the Commission proposed changes to the COPPA Rule to reflect 
technological changes in the marketplace, such as Internet access 
through smart phones and gaming platforms and new methods of 
information collection. I agree that it is necessary to strengthen and 
update the COPPA Rule to continue to protect children's privacy as they 
access the Internet through new devices and their personal information 
is collected in new ways that were not anticipated in the original 
COPPA Rule promulgated over a decade ago.

    Question 2. During the debate over the Dodd-Frank Act, I worked 
hard to preserve FTC's authorities and prevent the transfer of consumer 
protection authority for financial products and services over to the 
Consumer Financial Protection Bureau (CFPB.) The result will be that 
there are two ``cops on the beat'' in this essential area. How do you 
anticipate that the FTC and the CFPB will work together? Once the CFPB 
has a director in place and begins to exercise its full authority, what 
role do you see for the FTC in consumer financial protection?
    Answer. As you acknowledged in your question, the FTC's authority 
over an array of nonbank financial products and services was 
essentially preserved in the Dodd-Frank Act. I anticipate that the FTC 
will successfully coordinate and consult with the CFPB regarding 
rulemaking and enforcement activities involving consumer financial 
products and services, as well as with regard to handling financial 
complaints and promoting financial literacy. The FTC already has a good 
track record of coordinating oversight and enforcement with other 
federal agencies, such as the FDA and the FCC, which can provide a 
template for its work with the CFPB. It is also my understanding that 
the FTC and CFPB are in the process of negotiating a memorandum of 
understanding, as required by the Dodd-Frank Act. If confirmed, I would 
encourage the FTC to maintain an active enforcement agenda and to 
coordinate with the CFPB to protect consumers effectively, while 
avoiding undue duplication of efforts or regulatory inconsistency.

    Question 3. There are some who believed that the FTC should step 
back and let the CFPB take over all aspects of consumer financial 
protection. I am pleased to see that the FTC has not taken that 
approach and has continued aggressive enforcement. In your next term, I 
urge you to stay vigilant and continue to protect consumers from 
financial frauds and scams. Ms. Ohlhausen, what are your thoughts on 
how the FTC should use its authority in conjunction with the CFPB?
    Answer. American consumers are facing many challenges in connection 
with the recent financial downturn, and I believe that one way the FTC 
should use its enforcement authority to challenge violations that seek 
to exploit consumers' vulnerabilities, such as in the areas of debt 
collection, loan modification, and mortgage servicing. For example, 
after the official launch of the CFPB this summer, the FTC has brought 
a case against Rincon Management Services for abusive debt collection 
practices and against payday lender Payday Financial for deceptive 
practices. I believe the FTC should continue to pursue these kinds of 
violations.

    Question 4. Since the repeal of Prohibition, states have been the 
primary authority when it comes to regulating the distribution and sale 
of alcohol. States have enacted varied laws that presumably reflect the 
attitudes and beliefs that their citizens have about alcohol sales and 
health and safety issues. Ms. Ohlhausen, the Office of Policy Planning 
has issued reports and other public documents regarding state 
regulation of alcohol sales. The FTC has a mission to promote 
competitive free markets, but alcohol is a drug highly susceptible to 
abuse (particularly by minors) and is not akin to consumer products or 
services. Why does the FTC have an interest in using its resources to 
weigh in on state laws and regulations regarding alcohol sales and 
distribution?
    Answer. Alcohol usage, particularly underage drinking, poses many 
challenges for states and the federal government, and the sale and 
distribution of alcohol can raise issues that fall under the 
Commission's FTC Act and Clayton Act authority over competition and 
consumer protection matters. Thus, the Commission has long engaged in a 
wide variety of activities involving the alcohol industry, including 
antitrust enforcement regarding mergers in the spirits and wine 
industries and consumer protection enforcement, such as the recent 
action against Phusion Projects for deceptive advertising of its Four 
Loko product. The Commission staff has also engaged in policy-oriented 
work in connection with alcohol for many decades, including monitoring 
alcohol advertising for compliance with self-regulatory principles, 
providing views to other federal agencies on alcohol labeling issues, 
issuing economic studies of the alcohol industry, providing a 
Congressionally requested report on the advertising of certain alcohol 
products, and creating public-private education campaigns to discourage 
serving alcohol to teens. Through these activities carried out over 
many years, the FTC has gained expertise in competition and consumer 
protection issues related to the distribution and sale of alcohol.
    State officials have for several decades contacted the FTC staff to 
request advice on the likely impact on consumers and competition of 
particular proposed state legislation or regulation in a variety of 
areas in which the FTC has expertise, such as healthcare, gasoline, 
privacy, and alcohol. In response to these requests, the FTC staff, 
with the approval of the Commission, routinely issues letters that 
provide such advice to aid the requesting state officials based on the 
Commission's experience and expertise in certain industries. These 
letters only offer advice, however, and the state official must make 
his or her own decision about what best serves the state's 
constituents' needs. For alcohol distribution issues in particular, the 
FTC staff has stated that ``clearly, other public interests are at 
stake besides the consumer interests in low prices, product variety, 
and convenience, and states must weigh policy choices for themselves.'' 
(FTC Staff Wine Report, July 2003, at 2.)
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Maureen K. Ohlhausen
    Question 1. As a former state legislator and insurance 
commissioner, I am a firm believer in our system of federalism. Alcohol 
regulation, in particular, is an area historically reserved to the 
states under a three-tiered system of regulation. You have written 
extensively as a private citizen and a government official about the 
interstate commerce aspects of alcohol marketing. As an FTC 
Commissioner, what would be your view on the proper role of the 
Commission in the regulation and marketing of alcohol? And as an FTC 
commissioner, do you anticipate pushing for policies that contemplate a 
larger role for the FTC in promoting direct shipment of wine or 
alcohol?
    Answer. Alcohol usage, particularly underage drinking, poses many 
challenges for states and the federal government, and the sale and 
distribution of alcohol can raise issues that fall under the 
Commission's FTC Act and Clayton Act authority over competition and 
consumer protection matters. Thus, the Commission has long engaged in a 
wide variety of activities involving the alcohol industry, including 
antitrust enforcement regarding mergers in the spirits and wine 
industries and consumer protection enforcement, such as the recent 
action against Phusion Projects for deceptive advertising of its Four 
Loko product. The Commission staff has also engaged in policy-oriented 
work in connection with alcohol for many decades, including monitoring 
alcohol advertising for compliance with self-regulatory principles, 
providing views to other federal agencies on alcohol labeling issues, 
issuing economic studies of the alcohol industry, providing a 
Congressionally requested report on the advertising of certain alcohol 
products, and creating public-private education campaigns to discourage 
serving alcohol to teens. If confirmed, I would support the FTC 
continuing to exercise its enforcement and study authority in 
connection with the alcohol industry in the same manner as it has done 
in the past.

    Question 2. What express provisions of federal or constitutional 
law give the Federal Trade Commission authority over alcohol or to 
promulgate policies affecting the sale or marketing of alcohol?
    Answer. The FTC has authority under the FTC Act and the Clayton Act 
to review mergers and authority under the FTC Act to challenge 
anticompetitive behavior in many industries, including the alcohol 
industry, and to exercise consumer protection oversight over marketing 
and advertising practices in many industries, including alcohol. In 
addition, Section 6 of the FTC Act gives the FTC authority to conduct 
studies and issue reports.

    Question 3. In a 2003 report issued by FTC staff, you wrote 
``consumers could reap significant benefits if they had the option of 
purchasing wine online from out-of-state sources and having it shipped 
directly to them. Consumers could save money, choose from a much 
greater variety of wines, and enjoy the convenience of home delivery.'' 
What analysis, if any, did staff give to the public health and public 
safety implications of direct shipment of alcohol to consumers?
    Answer. The 2003 FTC staff wine report included an economic study 
of the effects on price and availability of a state prohibition on the 
direct shipment of wine, as well as an examination of whether direct 
shipment would allow minors easier access to wine. Recognizing that the 
states play a vital role in alcohol regulation and the prevention of 
underage drinking, the report also included the results of a survey of 
the 24 states that permitted the direct shipment of wine about whether 
they had experienced problems with minors accessing alcohol through 
direct wine shipments (most states reported few, if any, problems) and 
what safeguards they employed to prevent such access. The 2003 wine 
report also noted, however, for alcohol distribution issues ``clearly, 
other public interests are at stake besides the consumer interests in 
low prices, product variety, and convenience, and states must weigh 
policy choices for themselves.'' (FTC Staff Wine Report, July 2003, at 
2.)
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Maureen K. Ohlhausen
    Question 1. Since 2007, oil prices have jumped from $90 per barrel 
in December 2007, to $147 per barrel in June 2008, to $31 per barrel in 
December 2008, to $115 per barrel in March 2012, to around $100 per 
barrel today. During this same period, there has been little change in 
the world's oil supply and demand balance. What is your explanation for 
this oil price volatility?
    Answer. The volatility in oil prices has created many challenges 
and concerns for American consumers and the U.S. economy. As part of 
the FTC's extensive oversight of the petroleum industry, which includes 
enforcement and monitoring, its staff has also undertaken studies and 
produced extensive reports. A September 2011 report by the staff of the 
FTC Bureau of Economics found that crude oil prices since 2005 have 
changed due to shifts in both world-wide demand and supply. The report 
found that despite the global recession, which affected consumption in 
some areas, overall consumption increased by almost 7% between 2004 and 
2010, which has put upward pressure on crude oil prices, despite 
increases in world production.

    Question 1a. To what extent do you believe forces beyond changing 
global crude prices and supply and demand fundamentals play a role in 
this price volatility?
    Answer. According to the FTC staff's September 2011 report, 
currently over 70% of the world's proven oil reserves are in OPEC 
member countries. OPEC's attempts to maintain the price of oil by 
limiting output and assigning quotas also plays a role in price 
volatility. In addition, it appears likely that political instability 
in some oil producing regions may also contribute to price volatility. 
The FTC should also be vigilant about detecting any anticompetitive 
conduct that may affect oil prices and that falls under the FTC's 
jurisdiction (OPEC's activities do not).

    Question 1b. To the extent you believe that forced beyond supply 
and demand fundamentals play a role in this price volatility, how will 
you use the tools and resources of the Commission to improve the 
Commission's current protections for consumers and ensure a wholesale 
petroleum market free from fraud and manipulation?
    Answer. I believe it is important for the FTC to be vigilant about 
whether any anticompetitive conduct that violates the U.S. antitrust 
laws is contributing to the volatility of oil prices. I support the 
Commission's use of its many tools to ensure a well-functioning 
wholesale petroleum market, including enforcement, monitoring, and 
research.

    Question 2. I authored legislation that was included as part of the 
Energy Independence and Security Act of 2007 that, for the first time, 
charged the Federal Trade Commission with the responsibility of 
policing the wholesale petroleum markets for manipulation. I was 
pleased the Commission completed a Final Petroleum Market Manipulation 
Rule that did not include a safe harbor for futures markets activities. 
As the final rule makes clear, oil futures markets are inextricably 
linked to wholesale oil markets, and policing the wholesale markets for 
manipulation requires a view into the oil futures markets. Over the 
last three years, oil consumers have ridden a gas-price roller coaster 
with fluctuating prices that cannot be explained by supply and demand 
fundamentals. For example, December crude oil prices have varied from 
$85 per barrel in 2007, to $31 in 2008, to $73 in 2009, to $86 in 2010, 
with peaks at $147 in June 2008 and around $100 today.
    Like the Commission, the Federal Energy Regulatory Commission 
(FERC) was given nearly identical market manipulation authority in the 
2005 energy bill, and to date it has aggressively used this authority 
to conduct 93 investigations resulting in 45 settlements totaling over 
$150 million in penalties. Congress intended that the Commission 
enforce its market manipulation rule with the same proactive 
aggressiveness that FERC employs, to deter manipulative behavior, 
prosecute bad actors, and draw a bright line to distinguish legal from 
prohibited behavior.
    I wrote to the Commission on March 25, 2011, asking for an 
investigation into gas price volatility and asking what specific steps 
it was taking to proactively enforce its final Petroleum Market 
Manipulation Rule. I was terribly disappointed with the Commission's 
response on April 19, 2011, that provided no information on what the 
Commission was doing to implement aggressively and proactively the 
Final Petroleum Market Manipulation Rule. The response letter confirmed 
that the Commission is doing little more than ``monitoring daily 
gasoline and diesel prices'' and ``evaluating complaints'' through 
``email and telephone hotlines.'' Chairman Leibowitz stated that when 
the Petroleum Market Manipulation Rule was finalized that ``This new 
Rule will allow us to crack down on fraud and manipulation that can 
drive up prices at the pump. We will police the oil markets--and if we 
find companies that are manipulating the markets, we will go after 
them.''
    Do you believe the Commission has done everything it could have to 
use the authority of the Petroleum Market Manipulation Rule 
aggressively in order to protect consumers from unnecessarily high and 
volatile gas and diesel prices?
    Answer. It is my understanding that the FTC is conducting an 
investigation to determine whether certain oil producers, refiners, 
transporters, marketers, physical or financial traders, or others have 
engaged in anticompetitive conduct or provided false or misleading 
information regarding oil or petroleum products to a federal agency. As 
a private attorney, I do not at this time know the current state of 
this investigation. If confirmed, I would consult with agency staff and 
the Commissioners about how the FTC has conducted the investigation and 
its progress to date.

    Question 2a. If confirmed, would you support the Commission being 
more aggressive and proactive in implementing the Petroleum Market 
Manipulation Rule in order to protect consumers from unnecessarily high 
and volatile gas and diesel prices?
    Answer. If confirmed, I would consult with agency staff and the 
Commissioners about the status of the current investigation and whether 
there is evidence that entities have violated the Petroleum Market 
Manipulation Rule. If the investigation reveals evidence of illegal 
conduct, I would support enforcement action by the FTC.

    Question 3. Recently, a group of Attorneys General from 36 states 
and 3 U.S. territories recently sent a letter to the Commission urging 
you to take action against the unfair competition suffered by U.S. 
manufacturers and workers when they are forced to compete against 
companies that use stolen information technology to illegally cut their 
costs. The letter included examples of this problem, including a paper 
mill in Washington State that must compete with a Mexican paper mill 
using over $10 million in stolen software. U.S. manufacturers and 
workers are among the most efficient in the world, and I have no doubt 
they can compete with anyone that plays by the rules. But they cannot 
possibly compete against manufacturers that gain an unfair cost 
advantage by stealing millions of dollars in U.S. technologies. Is 
there anything, in your view, that the Commission can do to help 
protect U.S. manufacturers and workers against this form of unfair 
competition?
    Answer. The FTC should examine under Section 5 of the FTC Act any 
``unfair methods of competition'' that harm competition, consistent 
with agency precedent and guiding case law.
    Question 3a. Do you believe that existing federal law gives the 
Commission authority it needs to address this type of unfair 
competition, or would it need additional tools or authority from 
Congress?
    Answer. Whether the activities you describe would constitute unfair 
methods of competition under Section 5 of the FTC Act as guided by 
agency precedent and relevant case law is a complex and novel matter. 
Without an analysis of the likely effects on competition of the conduct 
at issue, I cannot at this time determine whether the FTC can address 
such conduct as an ``unfair method of competition'' under the FTC Act.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                          Maureen K. Ohlhausen
    Question 1. In August 2011, the FTC and the Department of Justice 
signed a memorandum of understanding with China, which outlined a 
framework for antirust cooperation. Can you outline the Commission's 
plans going forward with regard to engagement with China?
    Answer. It is my understanding that the FTC will participate in 
periodic high-level consultations among the FTC, the U.S. Department of 
Justice, and China's three antitrust agencies to promote communication 
and cooperation among the agencies. Specific activities will include 
exchanges of information and advice; training programs and workshops to 
enhance agency effectiveness; the provision of comments on proposed 
laws, regulations, and guidelines; and cooperation on specific cases or 
investigations, when in the agencies' common interest.

    Question 1a. How do you plan to address the technical nature and 
handling of specific cases in which enforcement authorities from both 
jurisdictions are engaged?
    Answer. The FTC and Chinese antitrust agencies may (but are not 
required to) work together on antitrust cases and mergers that impact 
both the U.S. and China. It is my understanding that the FTC may share 
views and non-confidential information with the Chinese agencies but 
that it may not share confidential information unless the parties who 
provided the information agree and grant a waiver. If confirmed, I will 
consult with FTC staff and the Commissioners about specific cases that 
involve enforcement authorities from both jurisdictions to ensure that 
they are handled in a fair and expeditious manner that, where 
appropriate and consistent with U.S. antitrust law, enhances 
convergence towards internationally-recognized best practices and 
avoids conflicting outcomes.

    Question 1b. There is a major effort underway by U.S. agencies 
responsible for trade and investment to address concerns about 
discrimination in the approach of China and other economies (EU, India, 
Brazil, Korea) to the standards-setting context. How does the FTC 
coordinate its approach to IP protection and standards setting with 
other departments and agencies in the administration that are 
responsible for international standards and IP policies?
    Answer. I believe it is important for the U.S. government to strive 
to speak internationally with one voice on these issues, and it is my 
understanding that the FTC works with other federal agencies to 
coordinate the U.S. approach to IP protection and standard setting 
policy. For example, the FTC participates in U.S. government 
interagency discussions and processes and works with the State 
Department and agencies with responsibility for international trade, 
intellectual property, and other policies. The FTC is part of 
interagency groups that can include USTR, the Department of Commerce, 
the Department of State, and other federal agencies on some aspects of 
implementation of competition laws and policies of other countries, 
such as China.

    Question 1c. Where has the FTC identified differences in the 
approach it is advocating on standards and IP and the approaches of 
other U.S. government departments/agencies?
    Answer. I am not aware of instances in which the FTC has identified 
differences in its approach on standards and IP and the approaches of 
other U.S. government departments or agencies. It is my understanding 
that the FTC's position has generally been that properly understood, 
antitrust and intellectual property are not in conflict, that the mere 
exercise of intellectual property rights does not harm competition, and 
that the kinds of practices in connection with IP that do harm 
competition are the same as those regarding other forms of property, 
such as collusion and improper exclusion. If confirmed, I will consider 
carefully any differences between the approach the FTC is advocating on 
standards and IP and the approaches of other parts of the U.S. 
government.

    Question 1d. How does the FTC estimate the likely costs to the U.S. 
economy--businesses and workers--of any divergences in policy 
approaches among departments and agencies of our government?
    Answer. It is my understanding that the FTC works with other 
federal agencies to coordinate the U.S. approach to a variety of 
issues, such as IP and privacy law, in an effort to reduce any 
divergences in policy among departments and agencies. Given these 
efforts, I believe the FTC understands that any divergence in policy 
approaches among departments and agencies in the U.S. government may 
impose costs, but I am not aware of how the FTC estimates what these 
costs would be.

    Question 2. The FTC has issued reports which say that pay-for-delay 
arrangements hurt consumers and increase costs for federal programs 
such as Medicare and Medicaid; in fact, the FTC has said it costs 
consumers an estimated $3.5 billion a year. In a report released 
October 2011, the FTC pointed to 28 cases that bear the telltale signs 
of pay-for-delay, including ``compensation to the generic manufacturer 
and a restriction on the generic manufacturer's ability to market its 
product.'' The 2011 report highlighted many more cases than an earlier 
report your office released on this issue in 2004. Could you give your 
opinion as to why these types of arrangements have proliferated in 
recent years?
    Answer. It is important for the FTC to be vigilant about 
maintaining competition in the pharmaceutical marketplace to protect 
consumers, and the FTC has challenged as anticompetitive some 
agreements between branded and generic pharmaceutical companies that 
would have delayed generic entry into the marketplace. Although a 
federal circuit court in 2003 found illegal an agreement between a 
branded and a generic pharmaceutical company to delay entry, several 
other federal circuit courts subsequently held that similar agreements 
were not illegal. I believe that these agreements have proliferated in 
recent years because they benefit the parties to the agreement and the 
risk that such agreements will be found illegal under the antitrust 
laws is greatly reduced in light of these subsequent court decisions.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                          Maureen K. Ohlhausen
    Question. I have heard some concerns about the FTC overstepping its 
authority and overturning state laws regulating alcohol. Do you believe 
that the FTC is in a better position to determine which alcohol laws 
contribute to the ``welfare'' of a state's citizens than its own 
legislators and locally elected officials?
    Answer. Alcohol usage, particularly underage drinking, poses many 
challenges for states and the federal government, and the sale and 
distribution of alcohol can raise issues that fall under the 
Commission's FTC Act and Clayton Act authority over competition and 
consumer protection matters. Thus, the Commission has long engaged in a 
wide variety of activities involving the alcohol industry, including 
antitrust enforcement regarding mergers in the spirits and wine 
industries and consumer protection enforcement, such as the recent 
action against Phusion Projects for deceptive advertising of its Four 
Loko product. The Commission staff has also engaged in policy-oriented 
work in connection with alcohol for many decades, including monitoring 
alcohol advertising for compliance with self-regulatory principles, 
providing views to other federal agencies on alcohol labeling issues, 
issuing economic studies of the alcohol industry, providing a 
Congressionally requested report on the advertising of certain alcohol 
products, and creating public-private education campaigns to discourage 
serving alcohol to teens. Through these activities over many years, the 
FTC has gained expertise in competition and consumer protection issues 
related to the distribution and sale of alcohol.
    State officials have for several decades contacted the FTC staff to 
request advice on the likely impact on consumers and competition of 
particular proposed state legislation or regulation in a variety of 
areas in which the FTC has expertise, such as healthcare, gasoline, 
privacy, and alcohol. In response to these requests, the FTC staff, 
with the approval of the Commission, routinely issues letters that 
provide such advice to aid the requesting state officials based on the 
Commission's expertise in consumer protection and competition issues in 
these industries. These letters only offer advice, however, and the 
state official must make his or her own decision about what best serves 
the state's constituents' needs. For alcohol distribution issues in 
particular, the FTC staff has stated that ``clearly, other public 
interests are at stake besides the consumer interests in low prices, 
product variety, and convenience, and states must weigh policy choices 
for themselves.'' (FTC Staff Wine Report, July 2003, at 2.)
                                 ______
                                 
   Resonse to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Maureen K. Olhausen
FTC involvement in state alcohol regulation:
    Question 1. Are you aware and do you think it appropriate that the 
FTC and its field offices have coordinated in the past with private 
interests and professional plaintiffs to assist in undermining state 
regulatory systems like the one we have in Mississippi?
    Answer. As part of a broad policy inquiry, in 2002, the FTC staff 
held a workshop to examine possible barriers to e-commerce in ten 
industries, including online contact lenses, real estate brokerage, and 
wine. The Commission staff eventually issued a report on online wine 
sales (2003), a report on online contact lens sales (2004), and a 
report on real estate brokerage (2007). In connection with the workshop 
and the subsequent report on online wine sales, the FTC staff consulted 
with representatives of the wine industry, wholesalers, state attorneys 
general, state alcohol regulators, state tax collectors, and private 
delivery companies. The FTC staff also solicited public comment and 
reviewed materials from the (then) Bureau of Alcohol, Tobacco, 
Firearms, and Explosives.
    The 2003 FTC staff wine report included an economic study of the 
effects on price and availability of a state prohibition on the direct 
shipment of wine, as well as an examination of whether direct shipment 
would allow minors easier access to wine. Recognizing that the states 
play a vital role in alcohol regulation and the prevention of underage 
drinking, the report also included the results of a survey of the 24 
states that permitted the direct shipment of wine about whether they 
had experienced problems with minors accessing alcohol through direct 
wine shipments (most states reported few, if any, problems) and what 
safeguards they employed to prevent such access. The 2003 wine report 
also noted, however, for alcohol distribution issues ``clearly, other 
public interests are at stake besides the consumer interests in low 
prices, product variety, and convenience, and states must weigh policy 
choices for themselves.'' (FTC Staff Wine Report, July 2003, at 2.)
    In 2005, the Supreme Court in Granholm v. Heald, 544 U.S. 460, held 
unconstitutional New York and Michigan laws that prohibited the direct 
shipment of wine from out-of-state producers but permitted it for in-
state producers in a challenge brought by private parties. In its 
decision, the Supreme Court referred to the FTC's 2003 staff wine 
report, which is a publicly available document. The FTC did not 
participate in the case before the Supreme Court, however.
    In connection with its authority under Section 6 the FTC Act to 
conduct studies and issue reports, I think it is appropriate for the 
FTC staff to have consulted with a wide array of interests in the 
workshop and preparation of the 2003 FTC staff wine report. I also 
believe that, consistent with Constitutional requirements, it is up to 
the officials of each state to determine what system of alcohol 
distribution best serves the needs of the state's residents.

    Question 2. Do you see this being a central focus for either of you 
moving forward and can you tell me which statutory provisions, if any, 
authorize the FTC to become involved in issues relating to how a state 
regulates the marketing and sale of alcoholic beverages under its 21st 
Amendment authority.
    Answer. The FTC has authority under the FTC Act and the Clayton Act 
to review mergers and authority under the FTC Act to challenge 
anticompetitive behavior in many industries, including alcohol, and to 
exercise consumer protection oversight over marketing and advertising 
practices by many industries, including alcohol. In addition, Section 6 
of the FTC Act gives the FTC authority to conduct studies and issue 
reports and, pursuant to this authority, upon the request of state 
officials, the FTC staff, with approval by the Commission, provides the 
requesting official advice on the likely impact on consumers and 
competition of a proposed law or regulation identified by the official. 
If confirmed, I would support the FTC continuing to exercise its 
enforcement and study authority in connection with the alcohol industry 
in the same manner as it has done in the past but I do not anticipate 
this issue will be a central focus for me.

    Question 3. Under those statutes, what do you see as FTC's proper 
role in alcoholic beverage marketing and sale issues--particularly as 
it relates to questions of state law?
    Answer. Alcohol usage, particularly underage drinking, poses many 
challenges for states and the Federal Government, and the sale and 
distribution of alcohol can raise issues that fall under the 
Commission's FTC Act and Clayton Act authority over competition and 
consumer protection matters. Thus, the Commission has long engaged in a 
wide variety of activities involving the alcohol industry, including 
antitrust enforcement regarding mergers in the spirits and wine 
industries and consumer protection enforcement, such as the recent 
action against Phusion Projects for deceptive advertising of its Four 
Loko product. The Commission staff has also engaged in policy-oriented 
work in connection with alcohol for many decades, including monitoring 
alcohol advertising for compliance with self-regulatory principles, 
providing views to other Federal agencies on alcohol labeling issues, 
issuing economic studies of the alcohol industry, providing a 
Congressionally requested report on the advertising of certain alcohol 
products, and creating public-private education campaigns to discourage 
serving alcohol to teens. Through these activities carried out over 
many years, the FTC has gained expertise in competition and consumer 
protection issues related to the distribution and sale of alcohol.
    State officials have for several decades contacted the FTC staff to 
request advice on the likely impact on consumers and competition of 
particular proposed state legislation or regulation in a variety of 
areas in which the FTC has expertise, such as healthcare, gasoline, 
privacy, and alcohol. In response to these requests, the FTC staff, 
with the approval of the Commission, routinely issues letters that 
provide such advice to aid the requesting state officials based on the 
Commission's experience and expertise in certain industries. These 
letters only offer advice, however, and the state official must make 
his or her own decision about what best serves the state's 
constituents' needs. For alcohol distribution issues in particular, the 
FTC staff has stated that ``clearly, other public interests are at 
stake besides the consumer interests in low prices, product variety, 
and convenience, and states must weigh policy choices for themselves.'' 
(FTC Staff Wine Report, July 2003, at 2.)

    Question 4. How should the FTC coordinate with other Federal 
agencies--particularly those charged with regulating alcoholic 
beverages--before it adopts a policy position or intervenes in 
litigation or legislation?
    Answer. I believe it is appropriate for the FTC to coordinate and 
consult with other Federal agencies that regulate alcoholic beverages 
to inform itself about relevant issues and to share its expertise with 
those agencies. It is my understanding that the FTC staff has done so 
on a number of occasions.

    Question 5. I understand why the FTC would be concerned about 
unfair methods of competition and unfair or deceptive acts or 
practices. But can you tell me what that has to do with state laws 
affecting alcoholic beverage marketing or sales? Do you believe that a 
state law can be an unfair business practice?
    Answer. As noted in my answer above, state officials have for 
several decades contacted the FTC staff to request advice on the likely 
impact on consumers and competition of particular proposed state 
legislation or regulation related to alcohol, and the FTC staff, with 
the approval of the Commission, has issued letters that provide such 
advice to aid the requesting state officials based on the Commission's 
experience and expertise. These letters only offer advice, however, and 
the state official must make his or her own decision about what best 
serves the state's constituents' needs. I do not believe that a state 
legislature's passage of a law can be challenged as an unfair business 
practice under the Federal antitrust laws pursuant to the state action 
doctrine articulated by the Supreme Court in Parker v. Brown, 317 U.S. 
341 (1943).
PBM's
    Question 6. My constituents have expressed numerous concerns 
regarding the potential anticompetitive effects of PBM mergers. They 
have informed me this could potentially harm patients by reducing their 
choice and access to pharmacy services, resulting in higher drug costs. 
I am concerned about the impact these mergers could have on my 
constituents. Under your leadership, how should the FTC evaluate and 
address these concerns as it reviews ongoing consolidations in this 
market? Can we trust the FTC can and will objectively do its job in 
examining these mergers?
    Answer. Consumers clearly have concerns about healthcare costs and 
availability, including for pharmaceuticals and pharmacy services. The 
FTC engages in extensive oversight of competition and consumer 
protection matters in healthcare, reviewing mergers, challenging 
conduct, issuing guidance, and conducting research. If confirmed, I 
would support the FTC continuing to actively oversee competition and 
consumer protection concerns in healthcare, including pharmaceuticals 
and pharmacy services, to ensure that illegal conduct is detected and 
challenged. I believe the FTC can and will objectively examine PBM 
mergers under the laws it enforces.

    Question 7. In 2007, the FTC allowed the CVS/Caremark merger to 
proceed. Since then, numerous groups have raised concerns about the 
conduct of CVS/Caremark. In 2009, the FTC opened an investigation in 
these alleged abuses, of which there are signs that even today, these 
practices continue. What types of remedies should the FTC consider to 
ensure practices like these do not continue to harm consumers?
    Answer. If confirmed, I will consult with FTC staff and the 
Commissioners to determine whether the investigation has found evidence 
of illegal conduct by CVS/Caremark. If there has been illegal conduct, 
I believe the FTC should consider remedies that are tailored to the 
violations and that seek to restore or safeguard competition in the 
market and to protect consumers' choices and privacy.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                          Maureen K. Olhausen
    Question 1. Do transparency, consumer protection concerns, and 
access to pharmacists--the frontline/only source of primary care in 
parts of rural America--factor into the FTC's investigation of 
continued PBM market consolidation?
    Answer. It is my understanding that the FTC's publicly announced 
investigation of CVS/Caremark will examine the company's practices 
under both the Commission's competition and consumer protection 
missions. The impact on consumers of further PBM market consolidation 
should be part of any antitrust review, including non-price factors, 
such as quality and access concerns.

    Question 2. We've seen numerous groups express concern that PBM 
consolidation has occurred in conjunction with reduced prescription 
drug choices, higher prices, and patient privacy violations. What types 
of remedies should the FTC consider to ensure that further PBM 
consolidation does not harm consumers?
    Answer. If an investigation by the FTC reveals there has been 
illegal conduct by PBMs, I believe the FTC should consider remedies 
that are tailored to the violations and that seek to restore or 
safeguard competition in the market and to protect consumers' choices 
and privacy.

    Question 3. In response to recent PBM disclosure, abuse, and 
transparency legislation passed by various states, the FTC has sent 
numerous letters to local officials reiterating PBM-associated cost-
savings. What is the purpose of this advocacy work? In addition, many 
of these communications seem to rely on industry-data to support PBM 
cost-savings claims. How can one industry's data be used to justify not 
regulating that very industry?
    Answer. The FTC engages in extensive oversight of competition and 
consumer protection matters in healthcare, including PBMs, as well as 
research, such as the FTC's 2005 report about PBMs' ownership of mail 
order pharmacies done pursuant to a Congressional request. Through this 
work, the Commission has gained expertise about the PBM industry. State 
officials have for several decades contacted the FTC staff to request 
advice on the likely impact on consumers and competition of particular 
proposed state legislation or regulation in a variety of areas in which 
the FTC has expertise, such as gasoline, privacy, and healthcare. In 
response to these requests, the FTC staff, with the approval of the 
Commission, routinely issues letters that provide such advice to aid 
the requesting state officials based on the Commission's expertise in 
consumer protection and competition issues in these industries, 
including PBMs. These letters only offer advice, however, and the state 
official must make his or her own decision about what best serves the 
state's constituents' needs. As for the data cited by such letters 
involving PBMs, my review of recent such letters indicate that they 
rely on a wide variety of sources, including the FTC's own PBM study, 
state studies, and other economic research.

                                  <all>

</pre></body></html>
